<html>
<title> - TELECOMMUNICATIONS AND Y2K: COMMUNICATING THE CHALLENGE OF THE YEAR 2000</title>
<body><pre>[Senate Hearing 105-692]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 105-692


 
                      TELECOMMUNICATIONS AND Y2K:
                     COMMUNICATING THE CHALLENGE OF


                             THE YEAR 2000

=======================================================================

                                HEARING

                               before the

                        SPECIAL COMMITTEE ON THE
                      YEAR 2000 TECHNOLOGY PROBLEM
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

           GETTING TELECOMMUNICATIONS READY FOR THE YEAR 2000

                               __________

                             JULY 31, 1998

                               __________

                  Printed for the use of the Committee


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                      U.S. GOVERNMENT PRINTING OFFICE
 50-323 CC                   WASHINGTON : 1998
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing Office
                          Washington, DC 20402


                        SPECIAL COMMITTEE ON THE
                      YEAR 2000 TECHNOLOGY PROBLEM

         [Created by S. Res. 208, 105th Cong., 2d Sess. (1998)]

                   ROBERT F. BENNETT, Utah, Chairman
JON KYL, Arizona                     CHRISTOPHER J. DODD, Connecticut,
GORDON SMITH, Oregon                   Vice Chairman
SUSAN M. COLLINS, Maine              JEFF BINGAMAN, New Mexico
TED STEVENS, Alaska, Ex Officio      DANIEL PATRICK MOYNIHAN, New York
                                     ROBERT C. BYRD, West Virginia, Ex 
                                         Officio
                    Robert Cresanti, Staff Director
            Andrew Lowenthal, Acting Minority Staff Director

                                  (ii)


                            C O N T E N T S

                                 ------                                

                 OPENING STATEMENT BY COMMITTEE MEMBERS

Hon. Robert F. Bennett, a U.S. Senator from Utah, Chairman, 
  Special Committee on the Year 2000 Technology Problem..........     1
Hon. Jeff Bingaman, a U.S. Senator from New Mexico...............     3
Hon. Christopher J. Dodd, a U.S. Senator from Connecticut, Vice 
  Chairman, Special Committee on the Year 2000 Technology Problem    13

                    CHRONOLOGICAL ORDER OF WITNESSES

Judith List, Ph.D., vice president and general manager, 
  Integrated Technology Solutions Business Unit, Bellcore........     4
Michael K. Powell, Defense Commissioner, Federal Communications 
  Commission.....................................................    18
John S. Edwards, Co-Chair, Network Group, the President's 
  National Security Telecommunications Advisory Committee........    21
Diane Fountaine, Deputy Manager, National Communications System..    23
Joseph Castellano, president, Network and Corporate Systems, Bell 
  Atlantic.......................................................    38
A. Gerard Roth, vice president, Technology and Systems, GTE, on 
  behalf of the TELCO Year 2000 Forum............................    41
Ramu Potarazu, vice president and chief information officer, 
  INTELSAT.......................................................    44
Gary Beach, publisher, CIO magazine..............................    46

                                APPENDIX
              Alphabetical Listing and Material Submitted

Beach, Gary:
    Statement....................................................    46
    Prepared statement...........................................    55
    Responses to questions submitted by Chairman Bennett.........    57
Bennett, Hon. Robert F.:
    Opening statement............................................     1
    Prepared statement...........................................    59
Bingaman, Hon. Jeff:
    Opening statement............................................     3
    Prepared statement...........................................    60
Castellano, Joseph:
    Statement....................................................    38
    Prepared statement...........................................    61
    Responses to questions submitted by Chairman Bennett.........    64
Collins, Hon. Susan M.: Prepared statement.......................    65
Dodd, Hon. Christopher J.:
    Opening statement............................................    13
    Prepared statement...........................................    65
Edwards, John S.:
    Statement....................................................    21
    Prepared statement...........................................    66
    Responses to questions submitted by Chairman Bennett.........    84
Fountaine, Diane:
    Statement....................................................    23
    Prepared statement...........................................    85
    Responses to questions submitted by Chairman Bennett.........    88
Kyl, Hon. Jon: Prepared statement................................    90
List, Judith:
    Statement....................................................     4
    Prepared statement...........................................    91
    Responses to questions submitted by Chairman Bennett.........    97
Potarazu, Ramu:
    Statement....................................................    44
    Prepared statement...........................................    99
    Responses to questions submitted by Chairman Bennett.........   102
Powell, Michael K.:
    Statement....................................................    18
    Prepared statement...........................................   104
    Responses to questions submitted by Chairman Bennett.........   114
Roth, A. Gerard:
    Statement....................................................    41
    Prepared statement...........................................   121
    Responses to questions submitted by Chairman Bennett.........   124
Smith, Hon. Gordon: Prepared statement...........................   128

              Additional Material Submitted for the Record

Statement from Hewlett-Packard Medical Products Group............   129
Statement of Sandia National Laboratories........................   132


  TELECOMMUNICATIONS AND Y2K: COMMUNICATING THE CHALLENGE OF THE YEAR 
                                  2000

                              ----------                              


                         FRIDAY, JULY 31, 1998

                               U.S. Senate,
                 Special Committee on the Year 2000
                                        Technology Problem,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
Room 192, Dirksen Senate Office Building, Hon. Robert F. 
Bennett (chairman of the committee), presiding.
    Present: Senators Bennett, Collins, Smith, Dodd, and 
Bingaman.

  OPENING STATEMENT OF HON. ROBERT F. BENNETT, A U.S. SENATOR 
    FROM UTAH, CHAIRMAN, SPECIAL COMMITTEE ON THE YEAR 2000 
                       TECHNOLOGY PROBLEM

    Chairman Bennett. The committee will come to order. We wish 
you good morning, and welcome to the fifth hearing of the Year 
2000 technology problem. To date, we have held hearings on the 
energy utilities, financial services industry, and health care. 
Those who follow the committee's activities know that our 
future hearings will include transportation, general government 
services, and general business issues.
    I am gratified to be able to report that the previous 
hearings have produced some results. For example, last week's 
hearing, which was on health care issues, exposed the fact that 
many manufacturers of health care instruments have been 
derelict in their reports to various government agencies, and 
between last week and this week, there have been a deluge of 
such reports. Apparently, we got some people's attention and 
that is one of the main purposes of the committee and the 
hearings. We hope that some beneficial results will come out of 
today's hearing on the global telecommunications 
infrastructure.
    Let me begin the hearing by noting that this global 
infrastructure is the central nervous system of modern society. 
Daily, 270 million Americans depend upon this complex web of 
voice, data, and video services that enable their telephones, 
radios, fax machines, computer networks, and televisions and 
other information appliances, including the pagers that call 
the Members of the House of Representatives to come vote. We 
had a failure in that system a little bit ago and the House was 
forced to go back to systems of bells and hand signals and 
they, frankly, did not quite know how to react. I am not sure 
the Senate would do any better if our pagers were to go down.
    Major national and international enterprises, such as 
emergency response, national security, finance, transportation, 
health care, government, energy distribution, and others are 
critically dependent on reliable, 24-hour-a-day, 7-day-a-week 
telecommunications. That is why this hearing is so important.
    Without these services, our ability to receive, gather, and 
respond to information would be as limited as it was for our 
forbearers before Alexander Graham Bell invented the telephone. 
Some critical enterprises which depend upon telecommunications 
services include the National Weather Service, the Department 
of Defense, the Federal Reserve System and Wall Street, the 
National Airspace System, the American Red Cross's blood 
service and the United Network for Organ Sharing, as well as 
the national electric power grid. I can go on and on, but I 
think I have made the point.
    I have great concerns that our global telecommunications 
infrastructure can ride out the millennium date change without 
significant disruptions for three reasons. First, it is a 
highly complex system of systems. The opportunity for a 
breakdown in one place to ricochet around through other places 
is very, very high.
    Second is the fact that there is no identifiable U.S. 
public or private body taking the lead on the global aspects of 
Y2K telecommunications problems. Not only is it a complex 
system of systems, it is multifaceted in its regulatory and 
ownership structure.
    And finally, the fact that to have successful 
communications, both parties must be able to send and receive 
information. It is not enough just to be ready yourself. So the 
solution to this problem for those who are working on it 
depends upon cooperation from others.
    Now, with regard to the complexity of global 
telecommunications, the sheer number of players illustrates the 
problem. Today in the United States, there are five long 
distance carriers, not including the growing number of long 
distance resellers, five major national television 
broadcasters, six Regional Bell Operating Companies, more than 
1,000 small telephone companies, 16 communications satellite 
providers, more than 4,500 Internet service providers, hundreds 
of cellular phone companies, thousands of broadcast radio 
stations, and over 11,000 cable service companies. This just 
captures the infrastructure in the United States. It does not 
include the thousands of large and small communications 
equipment manufacturers.
    Finally, it must be pointed out that this infrastructure 
relies on hundreds of millions of lines of computer code. It is 
too great a leap of faith to believe that all the elements of 
an endeavor this complex will be ready at the stroke of 
midnight just 17 months from today, especially in light of the 
limited readiness the industry has shown to this committee so 
far.
    As for coordination and oversight of telecommunications, 
let me note something from a 1995 National Research Council 
report, and I am quoting, ``In 1984, it was clear what the 
telecommunications information infrastructure was and who 
defined it. It was, in essence, the telephone and broadcast 
networks. The defining players were AT&T, the Federal 
Communications Commission, and the broadcasters. You got only 
the connectivity and services that were offered; compared with 
what is available today, it was not much.''
    ``All of this has changed radically. Instead of being 
defined by monopoly suppliers and regulators, the 
telecommunications infrastructure has become more closely 
defined by both market demand and an explosion of supporting 
technologies that have been brought to the market by myriad 
suppliers. There has been much movement away from a supplier-
defined infrastructure to a user-and market-defined 
infrastructure.''
    In this new world of telecommunications which has given 
rise to a revolution of new services, no one party is charged 
with the task of assuring the reliability and interoperability 
of the entire network, and this is what has made the millennium 
bug a much harder beast to squash, as it only has to show up in 
one link in a communications chain to cause mayhem.
    Finally, let me return to the two-way nature of 
telecommunications. Simply put, if the long distance carrier is 
up and running but the regional carrier is down, the long 
distance call does not go through. If the Internet backbones 
are working but the local Internet service provider is off-
line, the World Wide Web is inaccessible to the user. And if a 
financial payment can be received in New York but cannot be 
sent from overseas, the transaction will not occur.
    Like it or not, there is a link-to-link connectivity that 
starts locally, goes regionally, continues on nationally, and 
finally ends internationally in this network upon which 
telecommunications and the enterprises supported by 
telecommunications critically depend. I am expecting today's 
panel to tell us how they are going to take charge and address 
this challenge. Getting telecommunications ready for the Year 
2000 is a massive task that will require tremendous cooperation 
and coordination, but it is a task we must complete.
    I am informed that Senator Dodd is tied up in D.C. traffic. 
I am sure the telecommunications industry controlling traffic 
lights by satellite had nothing whatever to do with his problem 
and that he will be here shortly and we will look forward to 
his opening statement when he arrives.
    We will go ahead with our first witness. We are beginning 
with a staff presentation on the complexity and 
interdependencies of global communication.
    Senator Bingaman, I apologize. I was so wrapped up in my 
own rhetoric, I did not see you come in. [Laughter.]
    Senator Bingaman. I am sure that we all were, Mr. Chairman. 
[Laughter.]
    Chairman Bennett. I am sure that has never happened to any 
other chairman before.
    Senator, we welcome you this morning and would be happy to 
have you make an opening statement.

 OPENING STATEMENT OF HON. JEFF BINGAMAN, A U.S. SENATOR FROM 
                           NEW MEXICO

    Senator Bingaman. Mr. Chairman, you have made a very 
excellent opening statement and I will just briefly say, I 
think this is a very important hearing. I believe there are a 
great many complexities that I do not begin to understand about 
the telecommunications infrastructure that we all depend upon 
for national security needs as well as our economic welfare. I 
hope that this hearing will help to elucidate some of that and 
I hope it will also help us to sort out who is doing what to 
ensure that the system continues to function properly after the 
first of January of the Year 2000. So thank you for scheduling 
the hearing and I look forward to the witnesses.
    Chairman Bennett. Thank you.
    We will begin with a staff presentation on the complexity 
and interdependencies of global telecommunications. Dr. Judith 
List, vice president of Y2K Programs at Bellcore, a leading 
supplier of telecommunications software and engineering 
services, will describe the scope of the Y2K problem in the 
context of the national and global telecommunications 
infrastructure and she will identify specific vulnerabilities 
facing the industry.

  STATEMENT OF JUDITH LIST, PH.D., VICE PRESIDENT AND GENERAL 
    MANAGER, INTEGRATED TECHNOLOGY SOLUTIONS BUSINESS UNIT, 
                            BELLCORE

    Ms. List. Thank you, Senator Bennett, Senator Bingaman, for 
inviting me to testify on how telecommunications networks could 
be affected by the Year 2000 technology problem. I am Judy 
List, vice president and general manager of Integrated 
Technology Solutions for Bellcore.
    Bellcore, an SAIC company headquartered in Morristown, NJ, 
is a leading provider of communications software, engineering, 
consulting, and training services based on world class 
research. Our customers include major telecommunications 
carriers as well as telecom companies of all sizes, both in the 
United States and abroad. The business I head for Bellcore 
provides Year 2000 services primarily in the telecommunications 
industry, carriers and suppliers, financial institutions, and 
power utilities.
    In response to your request, I will focus today on what 
Bellcore is doing for the industry concerning Year 2000 on 
elements of telecommunications networks that could be impacted 
by the Year 2000 problem, on the challenges of testing, on the 
outlook for the problem as I see it, and on what positive steps 
can be taken to help with the problem. I would be happy to 
answer your questions during my briefing.
    To set the stage, let me say that Bellcore has been working 
on the Year 2000 problem since 1993, with concerted effort 
beginning in 1995. Bellcore currently supports approximately 
150 software system products that are installed in the networks 
or operations of its licensed customer users. Those users 
include top tier local exchange carriers, among others. The 
software systems products include operation support systems and 
network system that support provisioning, maintenance, and 
other management functions for local telephone services. All 
Bellcore-supported software system products either are now, or 
will be by the end of 1998, Year 2000 functional.
    We have also been actively providing our licensees and 
other customers with Year 2000 information through information 
kits, our website, and through customer meetings and forums. 
Bellcore also worked with telecommunications carriers and 
equipment suppliers to develop a set of generic requirements 
for Year 2000 functionality. Bellcore's GR-2945 was available 
to the industry on January 1, 1997.
    In both private and public networks, as in software and 
hardware computing systems, Year 2000 impacts are possible at 
every layer of the computing infrastructure. That is, Year 2000 
problems can be found in applications, operating systems, 
databases, file systems, protocols, middleware, and hardware 
platforms, as well as in the interfaces between interconnected 
systems.
    I would like to turn your attention to the chart at the 
side of the room so that I can describe how calls are processed 
through our communications network as a means of illustrating 
where Year 2000 vulnerabilities are and where they are not.
    Networks are large distributed computing environments. The 
point that I would like to leave you with before I go through 
the chart is that where we see Year 2000 vulnerabilities in the 
network is not in the fundamental call processing and data 
routing of information through the network. Rather, the 
vulnerabilities are largely in the operations, administration, 
and maintenance functions that support that fundamental call 
processing, and I hope that by going through this chart and 
following the path of a telephone call through the network that 
you will understand that point.
    Senator Bingaman. Could I ask you to be a little more 
specific? Are you saying that the calls will continue to go 
through but the ability of companies to track what they are 
doing and all is what is in danger? They are not going to be 
able to send accurate bills out and that sort of thing 
afterwards?
    Ms. List. Right. To set up a telephone call, from the time 
somebody picks up a receiver on one end until it is connected 
on the other end through the various switches and other network 
equipment across various telephone carriers, carries very 
little date information that is processed in order to set up 
that call and establish that connection. The date-sensitive 
processing that goes on is largely for billing purposes, to 
provision the service, to maintain services so that you can 
detect faults and alarms in the network.
    Problems in those functions could ultimately impact the 
ability to provide service. So, for example, if there is an 
alarm condition in a switch and it is unable to be detected 
because a technician cannot get into an administrative system 
to look at the error log because passwords have aged, could 
ultimately impact the ability for the switch to function. But 
in terms of the actual setup of a call, from the time somebody 
picks up a telephone until it is connected on the other end, 
there is very little date-sensitive information that is 
processed to set up that call.
    Senator Bingaman. So you are saying that you do not expect 
an interruption in the ability to use the telecommunications 
system on the first of January of the Year 2000. What you do 
think is that some of these embedded problems may cause the 
system to deteriorate over a period after that, is that right?
    Ms. List. That is the more likely scenario.
    Senator Bingaman. Thank you, Mr. Chairman.
    Ms. List. Thank you. Let me just orient you to the chart 
initially. There are two large ovals that represent local 
exchange carrier networks. In between them is an interexchange 
carrier network, and I am primarily addressing a domestic 
telecommunications network, although the points are applicable 
to an international carrier, as well. In addition, we have 
represented a competitive local exchange carrier in yellow that 
we are representing as a wireless carrier.
    On the top, in the light purple shading, are many of the 
administrations and operations functions of a network--service 
activation, the service ordering process, service assurance, 
detecting faults and troubles and sending technicians out to 
them, billing processes, a lot of the network management kinds 
of capabilities.
    On the far right, we have represented a portion of a large 
commercial enterprise. This is not a complete private network. 
What it represents is a call center network, where customer 
service representatives might be taking calls, and in the 
example that I will use, you could imagine this might be a 
large mail order catalog company that is receiving a variety of 
customer calls from customers and they are being routed to 
different service representatives.
    Chairman Bennett. Could we consider the pink portion the 
U.S. Senate with all of its telephone calls?
    Ms. List. Absolutely.
    Chairman Bennett. OK. That will help us understand what 
disaster awaits us.
    Ms. List. There you go. The red boxes inside of the network 
elements and the red lines between network elements indicate 
where there is date-sensitive processing in the 
telecommunications network. Analyses that we have done for our 
customers indicate that 75 percent of voice networking devices 
have date-sensitive processing in them. About 25 to 35 percent 
of data networking devices have date processing in them. And 
almost 100 percent of the network management devices have date-
sensitive processing in them. The question is, what do those 
dates do?
    What I would like to do is walk you through an 800 call 
through the network so that you can see how calls are processed 
through the network and where date-sensitive information comes 
into play. In many ways, an 800 call is like a typical 
telephone call. There is a little bit of added complexity to an 
800 call because of the nature of that call that I will explain 
in just a moment.
    Let us say that the scenario is that a caller wants to 
place a call to a mail order catalog or perhaps they are trying 
to call into the Senate offices. The person picks up the 
telephone. What happens is the switch detects that someone has 
picked up the telephone and sends a dial tone to that 
telephone. It happens in milliseconds. The person dials the 
telephone number. Those tones are received by the switch and 
the switch recognizes that this is an 800 call and that it 
needs to do some special processing on the 800 call.
    At that point, it sends a question or a query up to a 
service control point, or an SCP. The SCP's function is to take 
the 800 number and translate it into an actual destination 
telephone number. Let us say that they are calling into 
Washington and the actual destination is Washington, D.C., or a 
mail order catalog company in Idaho, for example. It sends that 
actual destination telephone number back down to the switch. 
That is the special processing that goes on in an 800 call.
    At that point, the call is treated very much like any other 
telephone call. The switch knows, based on the area code and 
the three-digit exchange, which end office switch to route the 
call to across the network. Let us assume that it is a long 
distance call. It goes through a local tandem to an access 
tandem. The access tandem hands off the call to an 
interexchange carrier. The interexchange carrier then hands off 
to a local exchange carrier on the other end, back through 
again an access tandem, a local tandem, to an end office 
switch, and ultimately terminates at a private branch exchange, 
which is a small private switch at the end user's site, whether 
it is the catalog company or in the Senate offices.
    The information that is used to set up that call is the 
telephone number of the person who is calling, the telephone 
number of the person who is being called, and there is date and 
time information in that call setup message, primarily for 
billing purposes. It is not used to actually establish the 
call.
    Where we see date processing is in the support functions 
for the network, and these support functions may sometimes be 
in the network equipment themselves, in the switches, the boxes 
in the local exchange network where you see red marks, or it 
may be in the support systems, the purple shaded areas as well 
as the other green rectangles at the top, that support those 
functions.
    Let me again use 800 service. Eight-hundred service has a 
service management system where when a large mail order catalog 
orders service, they call into the telephone company and they 
say, ``I want to get an 800 number.'' That order is processed 
through a customer negotiation system service order and then 
that service is entered into the service management system.
    The kinds of things that are entered, an 800 telephone 
number is reserved. It is reserved for a certain period of 
time. Activation of that service may be scheduled for a future 
date. All of that is date-related information that is important 
in the support and providing 800 service, but it is not 
directly involved in the processing of an 800 call itself.
    In another instance, a billing example, for example, 
telephone companies use date and time information to provide 
detailed records to customers of their calling, as well as in 
some instances to time the amount of the call or to use 
different rates for daytime versus evening or weekends, et 
cetera.
    Senator Bingaman. I was just going to ask, taking the 
example you are using, a 1-800 number that is reserved for a 
period of time to a particular customer, if the system reflects 
or does not accurately register the fact that you are now in 
the Year 2000 and you are still within the right period of 
time, would the customer's ability to use that 1-800 number be 
lost?
    Ms. List. That is a possible scenario. It is a 6-month 
window that an 800 number can be reserved or scheduled up to be 
activated within 6 months. If that 6-month period covers the 
boundary over the millennium rollover, it is a possible 
scenario if there is a Year 2000 problem that it could not 
recognize--it may decide that that time period has expired. It 
may not recognize that, in fact, the service should be 
activated after that window.
    I have discussed service activation processes as well as 
billing processes. Another example is service assurance. If 
there is a problem with a network element, it will detect that 
problem and report it into a fault management system. The fault 
management system does root cause analysis to determine the 
cause of the problem and date and time information is passed 
with that reporting of the trouble so that the network can 
establish when the trouble was first detected. It then has a 
trouble ticket issued.
    All of those dates and times are important, for example, in 
addressing service agreements that carriers may have with their 
customers where they have to provide rebates if they do not 
recover service within a particular period of time. So dates 
and times are used in the fault management and network 
management service assurance part of the network for those 
kinds of purposes.
    There also are scheduling dates and times that are used in 
the service assurance part of the support systems. So, for 
example, if a technician is required to go out and fix a 
problem with some lines that are out in the field or at a 
customer's premises, those technicians are scheduled and there 
is date and time information that is involved in scheduling 
technicians for resolution of those problems.
    Finally, let me turn to E-911 service, which I am sure is 
of particular interest. E-911 services are provided, in many 
ways, very much like a regular telephone call. Somebody picks 
up the phone to place an E-911 service. It is routed to the end 
office switch. The switch recognizes that it is an E-911 call, 
sends it out over special dedicated lines to an E-911 tandem, 
and the E-911 tandem, which is a switch, then routes the call 
to the appropriate public safety answering point, or PSAP. 
PSAP's may be in county offices, they may be in police 
departments, they may be in local fire departments.
    Again, date and time information is passed along with the 
E-911 call, primarily for record keeping in the call, not for 
actual setup of that call. However, date and time information 
is very important for the PSAP's because they date and time 
stamp the record of when the call came in and maintain those 
records on tape, primarily for emergency response recovery 
time, as well as for legal reasons to have a record of the date 
and time that an emergency call came in. So the PSAP equipment 
has date and time stamping information that is important in it. 
But the calls will terminate in much the same way that a 
regular telephone call would flow through the network.
    I hope this discussion has helped you to see where the Year 
2000 vulnerabilities are in communications networks. So while I 
indicated that a large proportion of network devices have date-
sensitive processing in them, that processing is primarily in 
the operations, administration, and maintenance functions of 
the equipment, not in the call processing or data routing 
capabilities. However, if Year 2000 problems are not found and 
fixed in these operations, administration, and maintenance 
functions, they could impact service.
    Bellcore has conducted assessments of network equipment in 
a number of major domestic and international carrier networks, 
as well as risk assessments of the networks of a number of 
Fortune 50 companies. These analyses we have conducted on the 
Year 2000 issues in network equipment have covered thousands of 
voice and data products manufactured by hundreds of United 
States and international companies. We have analyzed the data 
gathered from a variety of sources, including manufacturers' 
responses to questionnaires, information available on 
manufacturer websites, and other publicly available sources. We 
have gathered and analyzed this information in support of our 
customers. We have not embarked on a comprehensive survey of 
all carriers, large enterprises, or equipment manufacturers.
    The charts at the side of the room summarize our analyses 
of these data based on our experience, but they have not been 
independently verified. The first chart covers voice network 
products and shows for each quarter the percentage of 
manufacturers who plan to have their equipment Year 2000 
functional in that quarter. Combining the data from the third 
and fourth quarters of 1998, 87 percent of the products we 
surveyed are planned to be Year 2000 functional by the end of 
1998. An additional 5 percent are planned to be Year 2000 
functional by the end of first quarter 1999. Of the remaining 8 
percent, there are 5 percent of those products that will never 
be made Year 2000 functional, largely because they are 
manufacturer discontinued products. The additional 3 percent 
will be made Year 2000 functional sometime during or after the 
second quarter of 1999.
    The second chart refers to information on data network 
products. Again, of the products for which we have collected 
data, if we combine the first 2 bars, 91 percent of the 
products are planned to be Year 2000 functional by the end of 
this year. An additional 5 percent are planned to be Year 2000 
functional by the end of the first quarter of 1999. And of the 
remaining 4 percent, there are 3 percent of the products that 
will not be made Year 2000 functional and 1 percent are planned 
to be Year 2000 functional sometime during or after 1999.
    Senator Bingaman. Could I ask, now, are these charts 
indicating that that percentage of the products being produced 
and sold are Year 2000 functional or that that percentage of 
products in use are Year 2000 functional?
    Ms. List. It is the percent of products of the 
manufacturers that we have surveyed. So they are products that 
are currently in the inventories of a number of domestic and 
international carriers as well as a number of Fortune 50 
companies.
    Senator Bingaman. So you are actually talking about the 
percentage of the equipment that is being used as part of the 
infrastructure right now?
    Ms. List. That is correct, the things that are currently 
being used. But, for example, for equipment that is 
manufacturer discontinued, if, in fact, it has Year 2000 
vulnerabilities, it will need to be replaced in the network or 
retired if the functionality can be provided by another piece 
of equipment.
    Chairman Bennett. Thank you, Dr. List. This has been very 
helpful. Your full statement will be included in the record.
    Just to reinforce a few things, on your first chart, 
everything that has red in it has a date-sensitive problem?
    Ms. List. Yes.
    Chairman Bennett. So the deterioration that you talk about 
over time could occur at any one of those points?
    Ms. List. Potentially, yes.
    Chairman Bennett. Potentially. So we know that problems are 
everywhere.
    Ms. List. Right. The data that we have says that about 75 
percent of voice networking devices have date-sensitive 
information in them.
    Chairman Bennett. Seventy-five percent, if I got it from 
your statement, of voice networking equipment is date-
sensitive, 25 to 35 percent of the data networking equipment, 
and 100 percent of the network management services.
    Ms. List. Close to 100 percent, correct.
    Chairman Bennett. So it could strike anywhere. Now, I 
think, given the size and complexity of the problems, it is 
critical that contingency planning and disaster recovery be 
implemented. You mentioned that in your statement. I understand 
that, statistically, for every 4.5 code corrections that are 
made in the telecommunications software code, one new error 
occurs.
    Ms. List. According to the Software Engineering Institute, 
it is not just the telecommunications industry, it is software 
development in general.
    Chairman Bennett. Software in general?
    Ms. List. Yes.
    Chairman Bennett. That emphasizes the importance of 
testing----
    Ms. List. Absolutely.
    Chairman Bennett [continuing]. To find those errors. Nobody 
deliberately puts an error in every 4.5 lines of code. But 
simply opening it up and fixing the code, you could go 30 lines 
of code and have no errors, and then you could go two lines of 
code and produce two or three errors, and statistically, it 
works out that for every 4.5 lines of code that are fixed, 
there is an error.
    So while your second chart was encouraging, the number of 
people who expect to have things compliant at a relatively 
early date, the question that I have to raise is, do we have 
enough time for testing? Could you address that before you are 
through?
    Ms. List. Certainly. The testing, manufacturers have 
different definitions of what it means to be Year 2000 
functional. I will talk about what Bellcore's approach is for 
Year 2000 functionality just to give you a sense of what that 
means for us.
    We consider a product to be Year 2000 functional when we 
have completed unit testing of the particular part of the 
software code that has been changed, multiunit testing, so 
looking at different modules of the software that need to work 
together. We then do a product test in a clock rollover 
environment, where we actually roll the clock over, the 
millennium date, the leap year, a variety of other dates, and 
then we do a capability test between our systems that interact 
with one another in order to test those interfaces.
    So when we say a system is Year 2000 functional, it has 
gone through an extensive program of testing in order to 
understand whether, in fact, we have addressed the Year 2000 
problem in our software and whether there have been other 
issues that have been introduced as a result of those fixes. So 
testing is very important.
    Ideally, you would like to test everything that you could 
test, but that is not feasible, nor does it necessarily make 
good business sense. It is a risk-benefit issue that needs to 
be addressed. There is not enough time nor resource to test 
everything. Even if we had started many years ago, there is not 
enough time or resource to address everything.
    What most companies are doing is addressing the most 
critical systems first and then working through their inventory 
and doing various kinds of testing, depending on how much risk 
is presented by various pieces of equipment. Things that are 
critical to the network, large network elements that provide 
switching capability, for example, many companies are relying 
on vendor testing, they are doing their own testing once they 
get the equipment, they are doing interoperability testing to 
make sure that the interconnections between that equipment and 
other pieces of equipment are, in fact, functional, whereas 
other types of equipment that may serve a much smaller role in 
the network and may not be as critically involved in the 
provision of services may not go through such an extensive type 
of testing.
    Chairman Bennett. Let me raise one more issue with you and 
then we will turn to Senator Dodd. One of the areas where the 
Year 2000 problem has already hit us is credit cards. In the 
Christmas buying season last year, December 1997, people would 
have credit cards that would have an expiration date of 00 or 
01 and they would be rejected as having been 98 years out of 
date.
    I have talked with American Express, who has an obvious 
interest in seeing that this gets fixed, and they said, we are 
moving rapidly towards fixing the point-of-sale device--you 
swipe the credit card in the point-of-sale device and it 
works--and fixing our receiving device where that information 
comes in and says, no, this really is a current credit card, so 
we get that to work. But we cannot test the system, running a 
credit card here and making sure it works there, until the 
telecommunications system is up to Y2K standards because that 
is the link between A and B, and even though we can certify 
that A is Y2K-compliant and B is Y2K-compliant and the 
telecommunications systems say the link is Y2K-compliant, we 
are still not sure the system is going to work because the 
three fixes might not talk to each other.
    So it becomes imperative from their point of view that the 
telecommunications system not only be Y2K-compliant by December 
of 1999, but that it be compliant much earlier than that so 
they can run their own tests on it to see to it that the whole 
system works. Do you have a comment on that challenge?
    Ms. List. Well, in your particular example, they are really 
passing data over a telecommunications transmission facility 
and they can do that today. If they have a Year 2000-compliant 
device on one end and a Year 2000-compliant device on the other 
end and they want to pass the information about the credit card 
number and the expiration date----
    Chairman Bennett. They can do the passing, but they cannot 
do the hookup test to see to it that the way you, and by you, I 
mean generically telecommunications, not you, Judith List, the 
way you have hooked up your device is, in fact, going to work 
with the way they have hooked up their device, because we go 
back to this chart. There is a red square virtually at every 
step along the way that may or may not hook up correctly with 
their red square.
    Ms. List. Right. But in trying to send this information 
through the telecommunications network, nothing is done with 
the date information that is being sent by the credit card 
company to--from the point-of-sale terminal to the credit card 
company. It is simply a set of bits that are being passed 
through the telecommunications network.
    In terms of the connections through the network, as I have 
mentioned, the call processing part of the network has very 
little date-sensitive processing in it. The carriers do need to 
worry about the operations, administration, and maintenance 
functions, but that is not directly involved in the point-of-
sale terminal sending that data to the credit card company.
    Chairman Bennett. OK, fine. Thank you.
    Senator Dodd?
    Vice Chairman Dodd. Thank you very much, Mr. Chairman. Let 
me first of all, apologize to you and others for being a few 
minutes late coming in, and thanking our witnesses and 
particularly thanking our colleague, Senator Bingaman. He and 
his staff have done a terrific job in putting this part of our 
overall set of hearings together here and focusing it.
    I have a statement I want to make, but let me just ask you 
something quickly, Ms. List. We have had a number of different 
witnesses and trying to get sort of a set of common usages of 
words or common language in this discussion is not an 
insignificant problem. I have heard people talk about being Y2K 
compliant, Y2K ready. You have repeatedly used the word 
``functional'' in lieu of the words ``ready'' and 
``compliant''. Should I read something different in the word. 
Are functional and compliant synonymous?
    Ms. List. People have varying definitions of compliance and 
it has been used so broadly within the industry that there is 
confusion about what compliant means. So Bellcore has chosen to 
be very specific in what it means about being Year 2000 
functional, which is the definition I provided in my testimony, 
in order to make sure that it is clear what we are referring to 
when we say a system and we warrant our systems as being Year 
2000 functional.
    Vice Chairman Dodd. Can something be functional and non-
compliant?
    Ms. List. Well, it depends on what your definition of 
compliant is. I mean, therein lies the problem. [Laughter.]
    I mean, that is the problem. There are various definitions 
and there are no standard definitions of what it means to be--
--
    Vice Chairman Dodd. Could you be compliant and non-
functional?
    Ms. List. It is possible, depending on what your definition 
of compliance is.
    Vice Chairman Dodd. OK. That is very helpful. [Laughter.]
    I appreciate that very much.
    Senator Bingaman. You ought to pursue a career in politics. 
[Laughter.]
    Vice Chairman Dodd. Maybe she already has. [Laughter.]

 OPENING STATEMENT OF HON. CHRISTOPHER J. DODD, A U.S. SENATOR 
FROM CONNECTICUT, VICE CHAIRMAN, SPECIAL COMMITTEE ON THE YEAR 
                    2000 TECHNOLOGY PROBLEM

    Vice Chairman Dodd. Let me just make a couple of 
observations if I could, Mr. Chairman. Again, I thank you 
immensely. These have been so important, these hearings, and I 
think shedding a lot of light on what needs to be done and 
really pointing out the importance of these issues.
    One of the reasons I was a little late getting in here this 
morning was because of some traffic congestion all related to, 
and I know everyone in this room and across the country feels 
as strongly as all of us in this building do about the very sad 
loss a week ago today of Officer Gibson and Officer J.J. 
Chestnut, and this morning, as the chairman knows and Senator 
Bingaman knows, there is a funeral for J.J. Chestnut. Again, 
all of us, while we are having this hearing here and we are 
focusing on this issue, all of us are very mindful, as well, of 
the significant loss that all of us suffered last week with the 
senseless killing of these two officers.
    Second, Mr. Chairman, and I gather you mentioned this, we 
had a pretty good hearing here a week or so ago on the medical 
implications of the Y2K issue. I thought it might be worthwhile 
just to sort of take a minute and bring you up to date on where 
we are with all of that.
    Chairman Bennett. I did mention it, but I think it would be 
helpful if you have some specifics.
    Vice Chairman Dodd. As you know, the chairman, as well as 
myself, expressed our disappointment with the medical device 
manufacturers who had chosen not to comply with either the Food 
and Drug Administration's request for information or the 
request from the Veterans Administration regarding these 
medical devices and medical equipment.
    In particular, Dr. Kaiser of the Veterans Administration 
testified that there were 233 manufacturers who had failed to 
respond to their requests for information about this medical 
equipment. However, we have been informed, the chairman and I 
have, that after he returned to the VA from this very hearing 
room, his phone started ringing off the hook, and as of today, 
the list of 233 has been reduced to a list of 99.
    I also want to tell you, Mr. Chairman, that I met, as well 
as you did, with the senior officials from the Health Industry 
Manufacturers Association earlier this week, and at that 
meeting, HIMA, as it is called, told us that they are going to 
reverse their policy of non-cooperating with the Food and Drug 
Administration's requests for information and they are going to 
issue a letter early next week urging their 800 members to 
cooperate with all requests for information.
    There are a lot of other medical devices, but there are 
2,700 manufacturers that may have Year 2000 complications. HIMA 
represents 800 of that 2,700, so it is not all inclusive, but 
they are urging very strongly their members to cooperate fully 
with the requests from the Food and Drug Adminstration and from 
hospitals and clinics around the country.
    We have, after much unnecessary obstruction, I might point 
out, from the Health and Human Services Agency, obtained from 
the FDA the list of the 2,200 manufacturers of computerized 
medical devices that have not responded to their June 29 
letter. We are going to guard it closely right here for a few 
weeks. I said I would earlier release that this week if people 
did not start complying. They have, and we will wait another 
couple of weeks to see whether or not the progress on that is 
as good as it has been in the first week. If it is not, then my 
intention would be to release the list of companies that are 
not responding to these basic requests for information about 
their equipment.
    Chairman Bennett. They are not compliant or they are not 
functional or they are not ready.
    Vice Chairman Dodd. Well, maybe neither in this case. It is 
hard enough to fix these issues and talk about them, but if the 
companies are not letting the agencies know and the Veterans 
Administration know whether or not their equipment is going to 
work or not, that is just pretty standard stuff, if you cannot 
even communicate with them. So we will see how it progresses 
here over the next couple of weeks.
    On this issue here, just very briefly, when it comes to 
telecommunications, I guess the bottom line in some ways is 
that the telecommunications industry will be collectively 
calling, I guess, sort of 911, and if we do not deal with this 
problem effectively, they could end up with a busy signal there 
come January 1 and that is the reason for getting into all of 
this issue this morning.
    I will reserve, Mr. Chairman, the balance of the statement 
for the record.
    [The prepared statement of Senator Dodd can be found in the 
appendix.]
    Vice Chairman Dodd. I just would raise a couple of 
questions here. One is, this is a unique problem in the sense, 
and the chairman has already addressed it in part, in that 
everyone else we have talked to gets a period for testing. We 
have talked to people who say, well, we are going to do it on 
weekends. There will be holidays when the businesses are down. 
We can bring people in. We can spend a couple of days and 
really run the traps on this. The problem in the sense of 
telecommunications is there are no weekends off. There is no 
holiday in which you can sort of take a break from all of this 
and run systems to see how well they work. I am very interested 
in pursuing the testing element of all of this and the 
contingency ideas.
    Second, I wonder if you might address the global questions 
here, as well. As I understand it, this chart here represents 
domestic systems, and that what you have not included here or 
we have not included is the global communications. We have done 
a lot of work on financial services, but utilizing global 
telecommunications as a way of transmissions of major monetary 
denominations and securities and the like, it seems to me, is 
critical, and obviously, our systems link up--I presume they 
do--with international communications systems.
    If you had to take this chart and add a new egg, or 
whatever you want to call those round pieces here, and put the 
international quotient in there, how many red boxes would we, 
to put it very sort of non-technically here, how many red boxes 
would we see had we had an international communications 
function included in this graph?
    Ms. List. I would be happy to address both of those 
questions. First, the testing one. You are absolutely right. 
One of the challenges with telecommunications networks is you 
cannot take them off-line to do testing and you do not want to 
do testing in a live network. So the challenge is to find 
enough facilities between various laboratories the carriers may 
have, the suppliers may have, that other service providers may 
have in order to do both stand-alone testing as well as 
interoperability testing, because you not only want to test 
individual networks, obviously, this is a complex 
interconnected system and there is a need to do 
interoperability testing between those systems.
    I believe some of my esteemed colleagues on the industry 
panel later on will be addressing some of their efforts with 
regard to doing that kind of interoperability testing, but it 
does pose a particular challenge for the telecommunications 
industry.
    With regard to international issues, the networks of 
international carriers and of telephone companies within 
particular countries do not look vastly different than the 
interexchange carrier picture here or the local exchange 
carrier picture in the sort of aqua shading in terms of the 
ways in which those networks are configured. They have 
switches. They have tandems. They have other network elements 
that provide service. So they do not look terribly different.
    There are different equipment manufacturers who are 
represented largely in the international marketplace versus 
some of the equipment manufacturers that are represented 
domestically, but much of the functionality is the same. And 
the way in which calls are processed also is very much 
paralleled by the domestic picture that I have provided here.
    So, again, in terms of actually setting up a call, there is 
not a lot of date-sensitive processing that goes on in that 
call setup. My concerns have to do with the general lack of 
attention to Year 2000 in some parts of the world. It is not 
just the telecommunications industry, it is the financial 
industry, it is the bank, it is the public utilities, and that 
those may have an impact on the ability of a telecommunications 
carrier in another part of the world to be able to continue to 
be operational, because they may have extended power outages or 
they may not be able to pay their employees or collect revenues 
and that may impact our ability to originate or terminate calls 
in those parts of the world.
    Vice Chairman Dodd. Just last on that, at some point here, 
we joke about it a little bit, but we have got to have some 
clarity here on the definition of terms. I tease a bit about 
it, but I am not terribly comfortable with the notion that the 
word ``functional'' that is being used here and what we mean by 
``compliant'' and ``ready'' and what you mean by ``functional'' 
or what others mean by ``functional'' is disconcerting to this 
one member. Maybe I am the only one, but it is troubling to me 
that you have got a distinction between the words 
``functional'' and ``compliant''.
    Ms. List. It is really just a clarification issue. I mean, 
if you read the definition, the definition says that our 
systems will process dates in the same manner before the Year 
2000 as after the Year 2000 and that they will process dates 
over the leap year rollover. We also are very clear about what 
our testing strategy is and the extent of the testing that we 
do on our products before we will call them Year 2000 
functional.
    Our concern really is that there are very various 
definitions of compliance, many of which we do not believe go 
as far as our definition of functional does.
    Vice Chairman Dodd. Is this the legal department that came 
up with that word?
    Ms. List. Of course. [Laughter.]
    And it is better than Year 2000 hopeful. [Laughter.]
    Chairman Bennett. Thank you. It is, indeed. It is, indeed.
    Ms. List. I am waiting for people to start using that term.
    Chairman Bennett. Senator Collins, we welcome you.
    Senator Collins. Thank you very much, Mr. Chairman. I have 
an opening statement that I would request be submitted for the 
record.
    Chairman Bennett. Without objection.
    [The prepared statement of Senator Collins can be found in 
the appendix.]
    Senator Collins. I apologize for being unable to be here 
earlier. I have reviewed the testimony of Dr. List and I 
appreciate her being with us this morning.
    Dr. List, in your written testimony, you talked about large 
corporations being more attentive to the Y2K problems than are 
small Main Street businesses. Now, obviously, a lot of the 
telecommunications network is controlled by large corporations, 
but certainly small businesses also have their own internal 
systems. Could you comment and expand on your comment on what 
the impact on small businesses will be with regard to the 
telecommunications Y2K problem?
    Ms. List. Yes. It really depends on what their own internal 
network looks like. Many small businesses rely on the public 
switch carriers to provide their telecommunications services 
for them, in which case many of the things that I have 
discussed in terms of the public switch network would address 
the kinds of services that they can expect to receive after the 
turn of the century.
    Some small companies, though, do have some of their own 
private equipment. They may buy or lease a private branch 
exchange, which is simply a kind of switching system that 
allows you to do four-digit dialing inside the office and those 
kinds of things. They may have an automatic call distribution 
system. For example, I would imagine the Senate does. When 
calls come in, they may be routed automatically to different 
Representatives who are service providers, who may be able to 
answer questions or those kinds of things.
    Those pieces of equipment do have some date-sensitive 
information in them. For the private branch exchange, the small 
switch, it is very similar to what a larger switch has. So it 
may do some date and time stamping so that they can keep 
records of when calls came in, how long they lasted, how 
quickly they were answered. It may also do some administration 
and maintenance functions on a scheduled basis that would carry 
date and time information, and they would want to know that the 
manufacturer who produced that equipment, if they bought it, or 
the company who is leasing it to them is addressing the Year 
2000 issues in that equipment so that it will continue to 
perform those functions.
    Automatic call distribution equipment is of particular 
interest because there are automatic call distribution pieces 
of equipment that do schedule changes of routing over time. Let 
me give you an example. This is really for a larger company, 
but I think the example may be applicable to smaller ones.
    Some companies that provide customer service want to do it 
on a 24-by-seven basis, so 7 days a week, 24 hours a day, they 
want to be able to provide services, or they want you to be 
able to order from their catalog anytime you want to. In order 
to do that, they very often have call centers that are in 
different time zones, and this automatic call distribution 
equipment routes the calls depending on the time of day, day of 
the week. That is date-sensitive information and that routing, 
if the Year 2000 issues are not addressed, may not work 
effectively when the rollover of the millennium happens.
    The other places that you see date-sensitive information 
are in voice mail systems. So, again, date and time stamping of 
when messages are left, as well as in some of the routine 
maintenance and operations functions.
    Small businesses really need to be aware that there are 
Year 2000 issues and work with their suppliers, whether it is a 
supplier of public switch service, whether it is a supplier of 
a piece of equipment, either on a purchased or leased basis, in 
order to assess and address any Year 2000 problems they may 
have.
    Senator Collins. Is the telecommunications industry making 
an effort to reach out to smaller businesses? Are suppliers of 
the automatic call distribution equipment, for example, 
contacting their customers to let them know that there may be 
these problems?
    I am fairly confident that large corporations are going to 
be able to solve the Y2K problem, but I am very concerned about 
small businesses that may be linked to larger companies and 
what the impact will be on them. It seems to me there is some 
obligation on larger companies, the suppliers in the 
telecommunications industry, to do affirmative outreach. I do 
not know whether a lot of small companies would even realize 
they were vulnerable in exactly the way that you very 
articulately explained.
    Ms. List. Yes. I cannot really say whether, across the 
board, companies are doing that. I think some of the members of 
one of the later panels might be able to address the activities 
that they have in place in that regard.
    I can tell you that for our company, we are proactively 
contacting our customers to let them know about the state of 
readiness of our systems, our products, as well as to advise 
them of some of the consulting services that we provide for 
them, that they need to address Year 2000 issues in networks 
that they are putting in place and those sorts of things.
    Senator Collins. Thank you, Dr. List.
    Thank you, Mr. Chairman.
    Chairman Bennett. Thank you. We appreciate your 
presentation. We anticipated that it would be a brief scene 
setting and the interest of the members of the committee have 
kept you here longer than you anticipated. We are grateful to 
you.
    Ms. List. Thank you.
    [The prepared statement of Ms. List can be found in the 
appendix.]
    Chairman Bennett. We now welcome the Honorable Michael 
Powell, Defense Commissioner of the FCC; Dr. Jack Edwards, 
speaking for the President's National Security 
Telecommunications Advisory Committee; and Ms. Diane Fountaine, 
Deputy Manager of the National Communications Systems.
    We appreciate your being here. You have heard the testimony 
and the questions, so I think you have got a flavor now overall 
of the main concerns that we have on this committee.
    Commissioner Powell, we will start with you and welcome you 
here to the committee. I will say that Commissioner Powell has 
been to see me privately in advance of this hearing and we have 
had conversations about this and he has made it clear the FCC 
is anxious to work on this issue and he himself is going to be 
available, and we are very grateful to you, sir, for that 
willingness to help.

 STATEMENT OF MICHAEL K. POWELL, DEFENSE COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Powell. Thank you, Mr. Chairman. It is a pleasure to be 
here, and Senator Dodd, it is good to see you. I have also met 
with you prior to the hearing. And Senator Collins, I hope to 
see you at some point at your desire.
    I commend the Senate Special Committee on the Year 2000 
Technology Problem for its active participation on this issue. 
I welcome this opportunity to share with you what the Federal 
Communications Commission has learned about industry efforts to 
address the Year 2000 problem and to discuss the fundamental 
importance of the national telecommunications infrastructure 
and the potential impact of the Year 2000 problem on embedded 
telecommunications networks and systems.
    At the FCC, we are working to promote an effective public-
private, mission-oriented, partnership to ensure that users of 
telecommunications services enjoy as close to the same level of 
quality and reliability on and after January 1, 2000, as they 
do today. We believe that the FCC can play an important role in 
facilitating the development and dissemination of critical 
information among carriers and to their key customers. Timely 
dissemination of information will increase the sharing of 
solutions, avoid duplicative testing, help companies spot 
undetected problems, and reduce customer uncertainty and 
anxiety.
    We have developed and continue to work on strategies for 
outreach and advocacy to all the industries we regulate, 
including wireline and wireless telephony, cable, radio and 
television broadcasting. We also have been looking into ways to 
facilitate the development of effective contingency plans in 
the event that a major disruption to the network should occur 
under our authority and in cooperation with NCS.
    Although we have Y2K programs for all the various 
telecommunications industries, my remarks today will focus 
mainly on wireline telecommunications carriers, and Mr. 
Chairman, I would ask that my full statement be entered in the 
record.
    Chairman Bennett. Without objection.
    Mr. Powell. Thank you. As an initial matter, it is 
important to remember that no single entity owns or controls 
the public switched telephone network, and this is part of the 
challenge. In addition to the major telecommunications 
companies that provide service to the majority of the country, 
there are also 1,400 small to mid-size independent telephone 
companies that serve many rural and insular parts of the 
country, as well as U.S. territories and possessions. And each 
of these companies is only one in a long chain of 
interdependent companies required for the network to operate. 
Without a doubt, the telecommunications network is a 
tremendously complex and interdependent thing, and consists of 
millions of interconnected parts.
    As a result, the ways in which the Year 2000 problem could 
affect telecommunications companies is almost unlimited. 
However, I believe that with time and greater knowledge of the 
scope of the problem and by maximizing the amount of 
information available to all companies facing the Year 2000 
problem, we will be able to better predict where and how the 
problems in the network are likely to occur. In my role as 
Defense Commissioner, I plan to work closely with the industry, 
NCS, and the Network Reliability and Interoperability Council 
to help attack these problems.
    We have sent over 200 letters to major companies and 
organizations in all sections of the telecommunications 
industry, asking them about their efforts to become Year 2000 
ready. In June and July alone, we organized eight informational 
forums with representatives of different sectors of the 
industry to facilitate information sharing and learn how the 
FCC can further assist industry efforts to tackle this issue.
    I also represent the Commission on the President's Council 
on Year 2000 Conversion and co-chair the Telecommunications 
Sector Group of that organization. In an attempt to better 
facilitate communication, I have asked also representatives 
from each of the communications industries to sit on that 
group.
    Our general assessment of the telecommunications industry 
remains positive, much as Dr. List described. Our inquiry 
letters, for example, asked 20 wireline carriers, accounting 
for more than 97 percent of the country's access lines, to 
report on their critical systems. We learned that, generally, 
the carriers have completed their review of the inventory for 
these systems. They have completed assessing the impact of the 
Year 2000 problem on these systems and have set completion 
dates for remediation, testing, and integration by the second 
quarter of 1999.
    The information we have received suggests that the major 
U.S. equipment manufacturers also will be able to meet 
projected demands for equipment. The manufacturers report that 
most of their software and hardware products are already Year 
2000-ready and have been made available to customers. They have 
further targeted the end of this year and the first quarter of 
next for general availability of all their products.
    The major carriers also are cooperating on integration and 
interoperability testing, as you heard. The Telco Year 2000 
Forum has contracted with Bellcore and is already performing 
integration testing on Year 2000-ready equipment. ATIS will 
conduct inter-network interoperability testing in January and 
February of 1999 and is also working with Bellcore.
    The Network Reliability and Interoperability Council, NRIC, 
as it is called, will also play an oversight role with respect 
to testing. I would like to take this opportunity to announce 
that, at our request, Michael Armstrong, the Chairman and CEO 
of AT&T, has agreed to be the chair of NRIC. NRIC will play a 
central role in our Year 2000 effort. We believe that that 
organization will be invaluable in coordinating overall 
testing, collecting and disseminating information, and advising 
the FCC on the status of industry readiness, and assisting in 
the facilitation and development of contingency plans. A 
representative of NRIC will also sit on the Telecommunications 
Sector Group of the President's Council.
    While we have programs in place to work this problem, all 
that we have observed is not comforting. With regard to the 
independent telephone companies, it is important to note there 
are some 1,400 of them that serve the rural and insular parts 
of our country. The Commission is working continuously to find 
ways to reach out to these companies and make sure that they 
are aware of the problems and are taking steps to address it.
    But that pales in comparison to our concern about 
international telecommunications carriers. The United States, 
Canada, and the U.K. are forging ahead, but we have many 
profound concerns about carriers in other nations, especially 
those in developing countries, that have not yet taken 
necessary steps to prevent system failures. We have been 
working independently to address this issue, as well as 
monitoring the work of the International Telecommunication 
Union.
    In my role as Defense Commissioner, I have endeavored to 
make sure that the FCC is ready to continue its own operations 
in the event of national emergency. In this regard, the FCC's 
Compliance and Information Bureau has been revising the 
agency's continuity of operations plan as well as a plan to 
maintain our ability to coordinate and grant special authority 
to help companies continue operating in time of emergency. With 
respect to national emergency plans, CIB is reviewing and are 
updating these now. I will work with NCS and the industry to 
continue to examine the appropriate role of the FCC in the 
event of an emergency.
    Without a doubt, I should say, the legal liability issue 
which has been raised is a serious impediment and continues to 
impede the flow of timely and candid information. We support 
the efforts to pass legislation that would promote the exchange 
of information by limiting the way such information could be 
used against a company. I believe there is a significant role 
to be played by the Congress and the administration with regard 
to the legal liability issue and other barriers to information 
flow.
    As we move closer to the millennium, all of our concerns, 
of course, become more acute. I believe that the FCC has begun 
to establish the kind of inter-company and private-public 
partnership that will facilitate the flow of information and 
get it to those who need it most. It will also permit the 
government to become aware of and respond to the needs of the 
industry as they arise. Our national well-being is dependent 
upon the reliability of the nation's telecommunications 
networks, and government and industry must work together to 
ensure that whatever disruptions occur do not lead to 
widespread outages and failures. To that end, the FCC is 
committed to taking whatever actions it can to facilitate the 
industry compliance efforts.
    Thank you, Mr. Chairman, for the opportunity to be here and 
I am happy to answer any questions may have.
    Chairman Bennett. Thank you very much. We will get to the 
questions at the end of the panel.
    [The prepared statement of Mr. Powell can be found in the 
appendix.]
    Chairman Bennett. Dr. Edwards, you may proceed.

  STATEMENT OF JOHN S. EDWARDS, CO-CHAIR, NETWORK GROUP, THE 
   PRESIDENT'S NATIONAL SECURITY TELECOMMUNICATIONS ADVISORY 
                           COMMITTEE

    Mr. Edwards. Thank you, Mr. Chairman, for the opportunity 
to testify here today on behalf of the President's National 
Security Telecommunications Advisory Committee, NSTAC. I am 
Jack Edwards, an Industry Executive Subcommittee member of the 
committee and chair of its Network Group.
    For the past 16 years, the Committee has worked jointly 
with the National Communications System to advise the President 
on national security and emergency preparedness issues 
pertaining to the reliability and the security of 
telecommunications and information infrastructure, issues 
critical to national security and commercial interests. The Y2K 
changeover is an urgent matter, Mr. Chairman, and it is at the 
forefront of our effort.
    In January 1998, the manager of the National Communications 
System asked the NSTAC to update the President on the 
telecommunications industry's actions to ensure continuity of 
service through the millennium change. In response to this 
request, the NSTAC's Network Group addressed the Y2K problem 
and is developing a report on the efforts to prepare the 
telecommunications infrastructure for Y2K, factors affecting 
these efforts, and possible implications if these efforts are 
not fully effective.
    We broadly reviewed the telecommunications industry status 
by soliciting briefings from interchange carriers, local 
exchange carriers, switching system vendors, large-scale 
systems integrators, and Y2K risk assessment and remediation 
solution providers. We heard from all of these sectors. 
Representatives freely reported to us as NSTAC promised to use 
the information without attribution. Our report includes a 
consideration of the current Y2K readiness of the major 
telecommunications service providers and equipment vendors.
    Efforts to make the telecom infrastructure Y2K ready are 
well underway. In fact, the major service providers and the 
vendors have been working on these issues for several years. 
Those who briefed the Network Group on their Y2K initiatives 
expect the majority of critical products and networking to be 
Y2K ready between late 1998 and early 1999.
    However, in spite of the resources being devoted to this 
complex task, all agree that it is not possible to foresee and 
test for every possible adverse interaction. Since Y2K 
readiness preparation is a massive software augmentation, even 
the most thorough, exhaustive efforts may fail to achieve 100 
percent success.
    No organization in private or government in its brief to 
the NSTAC's Network Group offered a guarantee of total Y2K 
eradication from its network, services, or systems. In 
addition, these organizations could not offer guarantees of the 
adequacy of the Y2K internetwork interoperability testing.
    Compounding the problem, many felt that the millennium 
change was not a January 1, 2000 problem, but could begin 
before and extend well after that date.
    The Network Group's Y2K report is pending final approval by 
the NSTAC, so I apologize for being unable to make specific 
comments on the Group's findings and recommendations at this 
time. However, I can say that our report will recommend actions 
for the President to enhance the Y2K readiness for national 
security and emergency preparedness telecommunications and to 
mitigate any impact of Y2K-induced service disruptions in the 
nation's security and emergency preparedness posture. Further, 
it recommends actions for the NSTAC to help the Government 
respond to Y2K-induced service disruptions. When approved, the 
recommendation will be forwarded to the President and 
subsequently made available to all interested parties.
    We have also been asked to comment this morning on the 
NSTAC's 1997 report to the President addressing the probability 
of a widespread telecommunications outage. While this report 
preceded and is not directly connected to the NSTAC's current 
Y2K assessments, it is highlighted today to convey our 
understanding, contingency planning for, and recovery from a 
severe telecommunications outage, should one occur.
    For the purposes of the report, NSTAC developed a 
definition of a widespread telecommunications outage. 
Specifically, a widespread outage would be a sustained 
interruption of telecommunications service. It would last for 
at least a significant portion of a business day, interrupt 
both local and long distance services in at least one region of 
the country and including at least one major metropolitan area, 
and significantly degrade the ability of other infrastructures 
to function.
    While we determined the likelihood of a widespread 
telecommunications outage was low, the potential impact 
warrants careful consideration. Service availability and 
reliability are hallmarks of the telecom industry. With respect 
to internetwork connectivity, there are agreements in place 
amongst the carriers whereby, in the face of trouble, the local 
exchange carrier can redirect traffic to an alternative 
interexchange carrier. However, in the new regulatory 
environment, business restructuring to accommodate competition, 
the deployment of new technologies and the introduction of new 
services do create unknowns. In this environment, it is 
critically important to do nothing to increase the probability 
of a widespread outage. Continual attention needs to be placed 
to how these unknowns affect security requirements.
    In all this, contingency planning is key. Recognizing there 
can be no ironclad guarantee against a widespread outage, the 
report offered several cost-effective recommendations for the 
President and the NSTAC to further decrease the overall 
probability of a widespread outage and to improve recovery 
plans and procedures. These recommendations centered on the 
coordination amongst the operators, improvements of software 
integrity checking, and information sharing amongst the various 
entities.
    Our critical national infrastructure relies on a growing 
and vital web of communications, computer, and associated 
information technologies. Furthermore, the gamut of threats, 
including those posed by Y2K, could disrupt critical 
infrastructures, for example, electric power, on which the 
infrastructure is highly dependent for sustained operation.
    Understanding and addressing the interdependent nature of 
critical infrastructures are immensely important to protecting 
the Nation from unmanageable crises, such as a Y2K problem, and 
must not be overlooked.
    The NSTAC believes the telecommunications infrastructure is 
robust and reliable, but even the most exhaustive efforts 
cannot guarantee total eradication of problems from the network 
services or systems. The NSTAC will continue to focus on 
national security and emergency preparedness communications 
problems and overall continuity of service in light of the Y2K 
problem.
    We appreciate the opportunity to testify today. The NSTAC 
looks forward to sharing the results of the Y2K analysis with 
you pending final consideration and approval of this report. 
Thank you, Mr. Chairman.
    Chairman Bennett. Thank you, Dr. Edwards.
    [The prepared statement of Mr. Edwards can be found in the 
appendix.]
    Chairman Bennett. Ms. Fountaine, we appreciate your being 
here and look forward to your testimony.

    STATEMENT OF DIANE FOUNTAINE, DEPUTY MANAGER, NATIONAL 
                     COMMUNICATIONS SYSTEM

    Ms. Fountaine. Thank you, Mr. Chairman. Good morning to 
you, Senator Collins, Senator Dodd, and Senator Bingaman. I 
appreciate the opportunity to address you on behalf of the 
National Communication System's Executive Agent, Defense 
Secretary Cohen, and its Manager, Lieutenant General Kelley, on 
the crucial role and initiatives that the National 
Communications System is taking to meet the Year 2000 challenge 
as it applies to national security and emergency preparedness 
telecommunications.
    The National Communications System is a confederation of 23 
agencies across the Federal Government tasked with ensuring the 
availability of a viable national security and emergency 
preparedness telecommunications infrastructure. National 
security emergency preparedness telecommunications are those 
emergency communications required by the Federal Government 
during the conduct of business under all conditions, including 
and ranging from peacetime to national emergencies to 
international crises or war.
    The Manager, National Communications System, is also the 
designated Federal official for the National Security 
Telecommunications Advisory Committee, which was established in 
1982 by President Reagan in anticipation of the divestiture of 
AT&T. The Committee is limited to 30 Presidentially-appointed 
senior executive industry leaders, often chief executive 
officers, who provide the President with a unique source of 
national security and emergency preparedness telecommunications 
policy expertise and advice.
    Mr. Chairman, the Office of the Manager, National 
Communications System, shares in the concerns expressed by this 
committee relating to the Year 2000 compliance issue. In 
addressing the Year 2000 issue, we are focusing on three 
primary areas: First, on the national security emergency 
preparedness capabilities that we contract with the 
interexchange and local exchange carriers to develop and 
maintain in the commercial public networks; second, on the 
overall voice services in the public networks which are the 
primary foundation of national security emergency 
communications; third, on the contingency plans that we follow 
during a national security or emergency event.
    First, let me address the unique capabilities that we have 
implemented in the commercial network for national security 
emergency telecommunications. We have contracted with the 
primary interexchange and local exchange carriers to develop 
and implement a capability in the public network to identify a 
priority national security or emergency call and then give that 
call priority treatment through the network. This Government 
emergency telecommunications service allows national security 
and emergency response users to use a dedicated area code, 710, 
to receive priority switched voice and voice band data service 
in the public switched network.
    In addition, for a Federal user or a federally-sponsored 
user who requires priority restoration or activation of a 
telecommunications service for national security or emergency 
reasons, we have implemented the telecommunications service 
priority system. This system allows us to identify to the 
telecommunications companies the circuits which should be given 
priority during activation or restoration.
    Testing of the telecommunications service priority system 
for Year 2000 compliance can be conducted independent of the 
live public network and has been completed. Minor problems were 
discovered which are being corrected. Because the Government 
emergency telecommunications service capabilities are internal 
to the operational switches in the networks, we will test those 
functions in a test network.
    To achieve this, we are collaborating with the Alliance for 
Telecommunications Industry Solutions, which is establishing a 
Year 2000 test network that will emulate major portions of the 
public switched network. The Government emergency 
telecommunications service testing requirements were outlined 
at the last meeting of the Alliance's network testing 
committee, which was held in June. They accepted the proposed 
scenario for Government emergency telecommunications service 
testing and requested further details to include a draft test 
script and an implementation summary, which we will present at 
their next meeting in August. Bellcore is assisting us in this 
effort and this testing should be completed in March of 1999.
    Specific testing will include the ability to recognize the 
710 area code and successfully complete priority calls end-to-
end over local and interexchange carrier networks. While the 
scope of this government emergency telecommunications service 
testing is limited, it does provide us with a single test bed 
of our major service providers and the benefits gained from 
internetwork testing among several major carriers in the U.S. 
telecommunications infrastructure are substantial.
    To assess the overall voice services required for national 
security telecommunications, the Manager requested that the 
National Security Telecommunications Advisory Committee focus 
on the Year 2000 issue as it relates specifically to national 
security, emergency preparedness, and the national 
telecommunications infrastructure. The committee's Network 
Group has completed the initial assessment of this subject, as 
you have heard from Dr. Edwards, who is the Network Group's 
chair. This report will be reviewed by the National Security 
Telecommunications Advisory Committee principals at their 
upcoming meeting on September 10.
    As I indicated earlier, in implementing special national 
security emergency capabilities in the public network, we chose 
the major interexchange service providers and the primary local 
exchange companies.
    Based on information gathered by the National Security 
Telecommunications Advisory Committee Network Group and 
discussion with individual companies, we believe that there 
will be little or no interruption of service from these major 
service providers due to the Year 2000. While the individual 
companies are conducting extensive network element testing and 
intranetwork interoperability testing, the biggest challenge, 
we believe, for all of these companies will be the testing of 
their networks' external interfaces, both domestic and 
international. Ensuring the interoperability of these various 
solutions is critical, particularly in a system as complex as 
the U.S. telecommunications infrastructure, and this is why the 
Alliance for Telecommunications Industry Solutions internetwork 
testing is so important.
    Even though we do not expect a major telecommunications 
service interruption resulting from Year 2000, we are putting a 
great deal of emphasis on proper planning for a contingency in 
this area. In 1983, we established an operations center, 
staffed by both government and industry personnel, for the 
coordination of telecommunications required during a national 
security or emergency event. The National Coordinating Center 
for Telecommunications is reviewing current operational 
response procedures and the existing national 
telecommunications coordinating network, looking for variations 
to current process or backup connectivity that might be 
peculiar to the Year 2000 problem. For example, we may add 
connections to software experts from the telecommunications 
switch manufacturers which, up until now, we have not done.
    Since 1992, we have had a system for communications with 
key telecommunications locations that is independent from the 
public network and we use primarily high-frequency radio 
capabilities. We are now augmenting that capability with 
additional non-public network and satellite communications 
connectivity among critical national security emergency 
preparedness operational sites, major service providers and 
equipment manufacturers. This additional connectivity will 
allow us to coordinate with the telecommunications industry and 
key Federal operations centers in the event of service 
disruption resulting from Year 2000 complications.
    Additionally, we are adding a state-of-the-art capability 
to cross-connect various communications media that will be 
available in the coordinating center by the end of this Year. 
This capability will extend to our continuity of operations 
site in the event relocation out of this area becomes 
necessary.
    In conclusion, Mr. Chairman, we are working with the 
National Communications System Federal agencies and departments 
and the National Security Telecommunications Advisory Committee 
member companies to provide continuous national security, 
emergency preparedness telecommunications services prior to, 
through, and beyond the millennium change. While we have 
accomplished a lot, there is still much to be done, 
particularly regarding internetwork Year 2000 testing and 
contingency planning. I would urge the committee to support the 
efforts underway in the telecommunications industry and 
continue to stress the importance of internetwork 
interoperability testing as this work progresses.
    Mr. Chairman, this concludes my statement on our efforts 
toward solving the Y2K problem and I would be happy to take any 
questions that you have at this time.
    Chairman Bennett. Thank you very much.
    [The prepared statement of Ms. Fountaine can be found in 
the appendix.]
    Chairman Bennett. We have had so far today a picture that 
is basically reassuring. That is, yes, that this is a serious 
problem. Yes, it is very complicated and very complex, but we 
are pretty much on top of it and we are going along just fine 
and, basically, we are going to be all right.
    I hope that is true, but I have to share with you before I 
get to specific questions some of the reactions of people 
outside looking in on the telecommunications challenge. In an 
earlier hearing by this committee on financial services, one of 
the witnesses, Tanya Bader, who is a principal in the Capital 
Markets Advisors Financial Group, said, and I quote, ``Most 
large financial firms conduct 80 percent of their transactions 
electronically and 25 percent or more of their transactions in 
the inter-bank market. To summarize the remarks that many Y2K 
chiefs have in this area, `We do not have a clue.' This leads 
me to conclude that reliability in telecommunications is a Y2K 
wild card.''
    Now, I have to add that Ms. Bader was one of the more 
thoughtful and well-versed witnesses that we had appear before 
this committee. I hope she is listening to this and I hope she 
will be reassured by this panel that that demonstrates that 
there is at least that aspect outside the telecommunications 
industry that is concerned.
    Now, another one from overseas. This comes from the Year 
2000 task force chairman in the United Kingdom named Ron Balls, 
addressed to our committee staff. He says, ``Further to our 
discussion, please find associated a copy of the ITU 
questionnaire. As you can see, this was sent out on April 17 
with a request for information by May 25. Responses from the 
USA have been poor so far in terms of the number received and 
the reference to the legal position. I would like the FCC to 
take an active role in assuring that we receive quality 
responses from, (A) U.S.-based carriers, (B) U.S.-based 
regional operators, or RBOCs, and to consider how best to deal 
with the USA local operators. The intent is to publicize the 
general position of each operator on the ITU external web site 
within the next 2 weeks and continue to update this as more 
information is received. I hope this assists,'' signed by Ron 
Balls.
    There is a little bit of a disconnect here, of the 
perception outside of the telecommunications industry and the 
rather rosy picture we have received today. So against that 
backdrop, let me say, Commissioner Powell, you mentioned in 
your statement that the FCC had sent out letters of inquiry to 
200 major companies and organizations, asking them about their 
efforts to become Year 2000-compliant. Can you tell us when you 
sent those letters out and how many of those 200 organizations 
that responded?
    Mr. Powell. Senator, it has been a rolling process, but the 
vast majority of the letters went out in May and the beginning 
of the summer. Let me break them down for you, because that 200 
covers all the industries we regulate.
    With respect to wireline carriers, we sent out 20 letters 
to the top carriers that cover more than 97 percent of the 
country's total access lines, and one thing I am pleased to 
report is we have a 100 percent response rate from that 
category, so we have received letters from all 20.
    Other areas are not as responsive, but somewhat 
encouraging. With respect to mass media, which is broadcasting 
properties, television and radio, we have about a 31 percent 
response rate. With respect to wireless telecommunications 
systems, which would include about 53 wireless commercial and 
private entities, and another segment which we worry about 
quite a bit, the public safety community, we sent another 55 
letters. With respect to the commercial and private wireless, 
we received to date only 11 responses. With respect to----
    Chairman Bennett. Eleven out of how many?
    Mr. Powell. Fifty-three. Wireless is one of our areas of 
concern, for obvious reasons.
    Chairman Bennett. So that is about 20 percent.
    Mr. Powell. Yes. Public safety is even of greater concern. 
This is not an entity we specifically regulate, but it is an 
area we are concerned about because they operate a lot of 
privately-held wireless equipment. This is fire departments, 
police departments. We got 1 response out of 55.
    What this helps us do is understand where there needs to be 
a much more dramatic outreach effort. We tend to see that, 
often, lack of responses is a result of lack of awareness and 
lack of understanding of how to respond, so we are going to try 
to do something to ramp up our efforts with regard to that last 
segment.
    Chairman Bennett. Thank you. I will reserve my time and we 
will go to Senator Bingaman, who has made this something of a 
specialty, and we are grateful to him for his expertise on 
this.
    Senator Bingaman. I do not claim any expertise, Mr. 
Chairman. I have an interest.
    Let me ask about the extent of the interoperability 
testing. I think the previous witness testified that this was 
very important and we needed to have more interoperability 
testing. I think that was one of the recommendations that 
Bellcore has made. How extensive is this testing at the present 
time? Who should I ask that to, Dr. Edwards?
    Mr. Edwards. Thank you, Senator Bingaman. In our 
information gathering in the Network Group, we had occasion to 
hear from several interested parties and one of the things that 
comes to mind earlier in remarks, contrasted--taking systems 
off-line and testing them in the telephone industry, you do not 
have that luxury. There are two things that come to my mind.
    One is that the telecommunications business is--the 
programs are complex, but they are very single-minded and the 
main function is to make phone calls happen. Changes come 
rather slowly by comparison to changes in other kinds of 
programs that you might buy commercially.
    We had testimony or a report in our group from a 
corporation which was doing Y2K remediation testing in the non-
telecom market. They indicated a difficulty because when they 
went to test the systems, the systems owners and operators 
really did not know what they had because they had been 
modified over the years. Things had been added, features had 
been changed and modulated.
    In the telecom industry, features are added very carefully 
and tested very carefully. We do a complete regression testing, 
where we have a set of test conditions and if you change 
something in the program, you have to repeat the test over the 
total path of this. Consequently, all of the people that came 
to our committee told us how much resource was devoted to just 
sheer testing, because once the systems are returning to the 
service, you do not have the luxury of turning them off and 
trying it again, so the testing is terribly important, as you 
will hear from the next succeeding panel. They will go into 
that in great detail, I am sure.
    But there is a very good contrast between the telecom 
example and the non-telecom example in that the first step they 
had to do in the non-telecom example is to find out exactly 
what they had, to develop a regression test, because it is one 
thing to fix the Y2K and get that right, but you may change 
something else. The comment about the errors, the errors that 
you introduce are not always in the code you are changing. You 
can introduce an error which shows up over someplace else, and 
unless you test the entire system when you are done, you cannot 
be sure. It may be Y2K-compliant, but it may fail for some 
other reason later on because you introduced a spurious error. 
So testing is terribly complicated and has to be done with the 
entire system under test.
    Senator Bingaman. What I am trying to figure out is how 
much of this interoperability testing ought to occur and how 
much of it has occurred or is occurring? I mean, have we done 
10 percent of what ought to be done? Have we done 90 percent of 
what ought to be done? I guess that is where I trying to----
    Mr. Edwards. As you will hear from the next two panels, the 
Y2K Forum people and the ATIS people both came to our group, 
testing is proceeding this fall up through February.
    Senator Bingaman. Now, ATIS, I was led to believe, only 
involves a very few companies. Am I wrong about that?
    Mr. Edwards. Well, the testing is interoperability testing 
amongst the local exchanges and interexchange carriers.
    Senator Bingaman. I will wait and hear from the 
Commissioner. Mr. Powell, did you want to say something?
    Mr. Powell. Yes, just to help clarify a little bit. There 
really are two testing forums. There is the Telco Year 2000 
Forum, which is a coalition of the major local exchange 
carriers. This would be Bell Atlantic, Ameritech, the sort of 
large local exchange carriers, and they are primarily focusing 
their testing efforts--and they are here on the second panel 
and you can ask them with specificity--they are testing the 
components and the intra-network operations. And then, 
essentially, there is sort of this roll-up to the 
interoperability testing, which is being facilitated by the 
ATIS forum.
    The Telco Year 2000 Forum's testing efforts are presently 
underway and will continue, I think, for the rest of this year, 
and then that will turn to the interoperability testing phase 
with ATIS beginning in January and hopefully concluding in 
February.
    ATIS is an extensive organization. It includes not only 
local exchange carriers to some degree but it also includes the 
majority of the long distance carriers. It includes equipment 
manufacturers. Believe it or not, it also in some respects has 
other kinds of service providers, like cable representatives, 
et cetera. It is a very--a pretty extensive organization, the 
interoperability testing element.
    Senator Bingaman. Let me ask Dr. Edwards one other issue 
here. In the recommendations that NSTAC makes, you have one in 
here, the second one, I believe, to remove the legal and 
regulatory obstacles for widespread outage recovery, and 
underneath that you say it was recommended that the President 
encourage the FCC to guard against premature implementation of 
unseasoned technologies that might contribute to the 
possibility of a widespread outage.
    Does the FCC have the authority and the capability to guard 
against the implementation of unseasoned technologies? That 
seems like a pretty tall order, to me.
    Mr. Edwards. Yes.
    Senator Bingaman. Yes, they have got the authority, or yes, 
it is a tall order?
    Mr. Edwards. Yes, it is a tall order. [Laughter.]
    What we were trying to do there is concerned with how new 
technologies and new entrants come into the business, and I 
think it is more at that level. As competition arises, we are 
concerned that it be expanded in a careful, rational method and 
the possibility for entrants into the marketplace that are not 
careful, that bring in untested technologies, is one that could 
cause some concern to us, and that is the reason for the 
recommendation.
    Senator Bingaman. I can share the concern. I guess I just 
have never thought the FCC was staffed and equipped to perform 
that function. Commissioner Powell?
    Mr. Edwards. I think we hope that the NRIC will help 
provide some rationalization in that area, not the FCC itself, 
necessarily, but the FCC with the help from the NRIC, which is 
looking into security issues and robustness issues.
    Senator Bingaman. Let me just ask Commissioner Powell, is 
there any capability to do this in the FCC or anywhere else 
that you know of? Is there any governmental entity that is 
taking on the job of guarding against premature implementation 
of unseasoned technologies? That is an interesting concept.
    Mr. Powell. Yes, Senator. Candidly, not really, in the 
sense that there is little in our economic regulatory authority 
that allows us to prevent the introduction of new technologies 
by private carriers in a competitive environment, and the 
strain is even greater as we implement the Telecommunications 
Act of 1996, which expressly contemplates, as the will of 
Congress, the sort of greater increased deregulation and lesser 
input on the business decisions about the deployment of 
technologies. So we, as a large measure, have a technology-
neutral policy, and even if we did not, we would have an 
incredibly limited ability to prevent the introduction of new 
goods and services in the market.
    I would also say I am not so sure you would always want to 
do that. A lot of the new and advanced technologies that are 
bringing great benefits to consumers also potentially provide 
new solutions to problems that might be more acute in the 
legacy systems.
    I think the concern is a valid one, though. That is, we 
want to be sensitive to the hastiness that sometimes excitement 
about new competition can bring. But beyond articulating the 
concern, I have a hard time understanding practically how the 
FCC could sort of execute that recommendation.
    Senator Bingaman. Let me ask one other question of you, 
Commissioner Powell. You are the Defense Commissioner, correct?
    Mr. Powell. Yes.
    Senator Bingaman. Could you tell me what authority that 
office carries with it? I mean, what can you do as the Defense 
Commissioner that another FCC commissioner could not do?
    Mr. Powell. It is a fair question. It is evolving, to some 
degree. But, essentially, what it does is that there has been a 
clear recognition that the national security and emergency 
preparedness apparatus of the United States in the execution of 
their operations have a real-time need for a single point of 
contact in the Federal independent regulatory agency simply 
because we are the steward of the legal and regulatory regime 
that can influence or impede the ability to sort of reach 
certain national objectives.
    So in large measure, I serve as that single point of 
contact at the Federal Communications Commission for that 
apparatus. So, in a sense, it is a point of contact role. It is 
a coordination role. But there are some limited circumstances 
under which, in the execution of continuity of operations 
plans, I have some authority to take action on behalf of the 
Commission without needing the vote of the full Commission.
    If the President--you know, I do not want to go through 
them in complete detail in this open forum, but if the 
President were to declare a national emergency and execute his 
authorities under that regard, there would be certain steps 
that I had the authority to take and would not have to call a 
meeting and get the majority vote of three of the five.
    So that is largely what it has been, and it has been 
natural to use that position--that is how I sort of got into 
being the principal representative of the Commission on efforts 
like this, when the White House is looking for someone who 
oversees those sorts of issues.
    Senator Bingaman. Thank you, Mr. Chairman.
    Chairman Bennett. Thank you. Senator Dodd.
    Vice Chairman Dodd. Thank you very much, Mr. Chairman, and 
I thank all of you for being here, and Mr. Powell, thank you, 
as well, for coming by the office a few weeks ago and bringing 
us up to date on your efforts.
    I want to sort of pick up on, I think it was the lead 
question the chairman had, and this is sort of a theme we are 
working through these issues as they come before us. As I said 
earlier, there is a tendency, and I think it is true of any 
institution, obviously, to try and put the best foot forward in 
public hearings like this, and yet I think it is important for 
us to also gather information from outside to determine whether 
or not we are moving as aggressively and as thoroughly as could 
be the case.
    In addition to the comments at an earlier hearing that this 
committee had in New York that the chairman quoted from one of 
the witnesses, and the letter from ITU in London regarding the 
response of companies, and we will get to some of those 
questions, I suppose, when the industry panel appears, but 
Commissioner Powell, I do not know if you are aware or not, but 
the Federal Reserve Board Governor Edward Kelly testified in 
April to the Senate Commerce Committee here regarding the 
telecommunications industry.
    He said in that hearing, and I am quoting him here, ``We 
are particularly sensitive to telecommunications, an essential 
infrastructure element, and our ability to maintain a 
satisfactorily high level of financial and business services. 
We have been working with our financial institutions and our 
telecommunications servicers to find ways to facilitate 
preparations that will ensure Y2K readiness. Nonetheless''--
this is the important part of this--``nonetheless, this is an 
area that many financial institutions regard as needing 
attention.''
    Now, I do not know how many of you are aware of Fedspeak, 
but let me translate that last sentence in Fedspeak. ``Houston, 
we have got a problem,'' is sort of how I would translate that 
line, and that is just adding an element to this here. When the 
Federal Reserve Board begins to raise concerns and questions--
now, this was April, late April. I wonder if you maybe could 
just pick up even further on the comments of the chairman about 
this as to sort of where are we in all of this. That is April 
28.
    Mr. Powell. The first thing I would say is, particularly 
with respect to Senator Bennett's suggestion that our comments 
are rosy, let me assure you, I do not think it is rosy at all. 
What I am confident about is that we have a system and a 
process to work. I do not express any rosiness about whether 
they will get there, only that I think I have some confidence 
that we have the instruments, and some indications of the level 
of effort that give one reason to have some confidence that we 
may, with the little remaining time, be able to successfully 
navigate these waters.
    It is not surprising for me to hear the concerns from the 
outside community seeming to be at odds with our own. I hear 
it, as well. I meet with these groups quite frequently. I have 
met often with the banking community, and, indeed, a few weeks 
ago spent 3 or 4 hours at the Federal Reserve briefing people 
by video on the efforts of the telecommunications industry.
    I would offer this, which I think helps understand this. 
There are sort of in my mind three levels of concern. The first 
kind of concern is concern about telecommunications because you 
ought to be. It is a critical infrastructure and that is a kind 
of concern that we should have all the way through the date and 
long after, because we understand that while the probabilities 
may be low, consequences are dramatic and no one can rest with 
respect to that concern. I would say that energy and other 
critical infrastructures have the same kind of component.
    The second kind of concern is concern because you do not 
know. Now, what I have tended to find is that what we are 
finding with a lot of critical users, like the Federal Reserve 
and others, is that the anxiety is not that they see things 
that suggest failure, but they are not getting information that 
gives them confidence, either. This is the barrier to 
information problem.
    When I took over these responsibilities in May--that is not 
an attempt to hide from what was going on in April--we made it 
a critical component of what we thought we could do, is to help 
facilitate and improve that level of anxiety, and I can say a 
little bit more about that in a minute.
    The third level, I think, is that you see and you do not 
like what you see. That is, you are beginning to get 
information and the information is disturbing.
    I think part of the disconnect is that the three of us, at 
least, have had a lot more opportunity to see, and what I am 
happy to say is that the more I did, while I do find new things 
to be concerned, my confidence improves rather than falls. The 
key is to make sure that we proselytize that, make sure that 
the Fed and other people are getting what they need to have 
their own confidence or make their own decisions about what 
contingencies. That is a cornerstone of our efforts to try to 
fix that problem. We are doing it both through the surveys and 
figuring out how to cull information and then disseminate it to 
key users.
    Our forums have been particularly helpful. When I hold a 
forum with the wireline carriers, I have the carriers at the 
table, I have the equipment manufacturers at the table, I have 
the industry groups that represent them at the table, and I 
have major end user groups. I have the Fed. I have had Sears. I 
have had UPS. I have had any number of people who can speak to 
the problems. And when they are talking right in front of us, 
we try to serve as sort of a tough referee to pry out the 
problems, and I think legal concerns have been a big part of 
why companies have not told their story more fully, and so we 
are just trying to work through that.
    Vice Chairman Dodd. I think that is a very good analysis of 
the three areas of concern. I was pleased to hear you announce 
that the chairman of AT&T will be the chairperson of this NRIC 
group, but speaking to the very set of issues you just raised 
and identified in the three categories: First, because you 
ought to; second, because of what you do not know; and third, 
because of what you do know, we have 17 months left, about 520 
days. This is not a question where we get it done this month, 
next month, there is some give. In Washington, typically, 
things can be delayed. We are on a real clock here, and, 
obviously, things have to happen before January 1, 2000.
    Chairman Kennard promised back in April that there would be 
the NRIC organization up and moving. It is 3 months, and I am 
pleased to hear the announcement today. I do not want to sound 
like I am being a nit-picker here, but every day that goes by 
gets really problematic. When it takes 3 months to get 
something up and going and announce a chairman, it is 
disconcerting and maybe fall under that second category or 
third category here for me.
    I would hope we might get some sense of what the timeframe 
is now for NRIC to respond to these and give us some sense of 
where this is going and a broader sense of the problem that we 
have. Do you have any idea of that at all? Is there a time 
table? Have you insisted, or has the Commissioner insisted on 
the chairman getting back in a very time certain period with 
information?
    Mr. Powell. First of all, to clarify some misunderstanding 
about that, I am disappointed, too. I have the same sense, that 
every day is a day lost and we were probably slower than we 
should have to get that operating. But I will say, it was in 
operation. The key is that it did not have a chairman, which is 
normally a CEO, because the previous chairman had elapsed, but 
the NRIC operation has been in effect all of that time and what 
we have been doing is making sure that the vast majority of its 
mission, which is not exclusively Y2K, it is network 
reliability in general, that the vast majority of its mission 
was redirected to be exclusively about Y2K.
    The other thing that has really been difficult, which has 
been part of my challenge, is sometimes there are too many 
cooks in the kitchen. NRIC will be important, but it is one of 
many, many organizations worrying about telecom. I mean, three 
of them are right here and that does not even hardly scratch 
the surface. So I would say that there have been a number of 
people trying to do monitoring and assessment of the 
telecommunication industry from different venues.
    To me, when you have an urgent situation in terms of time, 
efficiency becomes really important, and what really becomes 
important is getting an effort that is relatively coordinated 
so people do not ask Bell Atlantic ten times the same question, 
that we have some way to bring some efficiency into that 
response.
    The key to the NRIC effort is not that I am going to turn 
the job over to them, and so, in a sense, there is not this, 
they will get back to me on this date sort of thing. They are 
part of my process which I personally intend to try to drive. 
That is, they sit at the table of the Telecommunications Sector 
Group. They report back to us. We talk to them almost daily 
with respect to the kinds of things that we would hope that we 
do. We have already had one significant opening meeting with 
their presence this month, earlier this month, and I intend to 
put that on an almost monthly update basis in that we will 
develop in that group specific taskings with specific times for 
responses to them.
    But what we do not want to do is drive in and try to quash 
really good efforts underway. It would be, in my opinion, not a 
good use of NRIC to tell them to buffalo into the Telco Year 
2000 Forum and start changing the great efforts that they have 
undertaken with respect to testing.
    So I hope that is a satisfactory answer to the question, 
but I assure you, we are taking that urgency seriously.
    Vice Chairman Dodd. At some point, we would like to know 
who the lead chef is.
    If the chairman would yield for just one question, because 
this ties in with this.
    Chairman Bennett. Surely.
    Vice Chairman Dodd. First of all, I am very heartened by 
the good response you have had from a number of companies, and 
I had earlier sort of prepared a question to ask you about the 
911 issue. In fact, I used the 911 analogy and talked about 
what can happen here. For a lot of folks out there, this is a 
very personally critically issue. The other stuff we talk 
about, financial services will impact them, maybe directly, 
maybe indirectly, more likely indirectly. But the 911 issue is 
one that has a very direct impact.
    You mentioned only about 1 out of 55 wireless companies 
that are heavily involved now in this area have responded to 
inquiries. I would----
    Mr. Powell. Public safety. If I could correct, the public 
safety community.
    Vice Chairman Dodd. The public safety community. I think it 
might be helpful if you could provide this committee with a 
list of those companies and we will add that to our group of 
companies that we would make in a very public setting here 
today, saying you have got a couple of weeks. We are going to 
be calling Commissioner Powell back and asking him whether or 
not you have responded to these letters, and if you have not, I 
am going to add you to that public notice about companies that 
are not doing their job in responding to this problem.
    So I will make a formal request of you that we have a list 
of those companies. We will keep it confidential, I hope, Mr. 
Chairman, in the committee----
    Chairman Bennett. Yes. Yes.
    Vice Chairman Dodd [continuing]. And we will call you back 
in a couple of weeks and find out whether or not they have been 
more responsive.
    Mr. Powell. Absolutely.
    Vice Chairman Dodd. And if they have not, I will let you 
know today, be prepared to read your names and hear about them 
in a very public setting.
    I thank the chair.
    Chairman Bennett. Thank you. Senator Smith?
    Senator Smith. Thank you, Mr. Chairman. I apologize for 
being late. I was in the Judiciary Committee giving testimony 
on the issue of assisted suicide, which affects my State a 
great deal. On the way over here, I was wondering if we are not 
in a different context talking about assisted suicide on Y2K.
    [The prepared statement of Senator Smith can be found in 
the appendix.]
    Senator Smith. I apologize if I am plowing old ground, but 
with Senator Dodd, I serve on the Foreign Relations Committee 
and I am very interested in how well prepared the rest of the 
world is. That clearly may affect some political stability 
around the world and certainly has an impact on our country. I 
wonder, is there an international organization that is helping 
on this issue? Are we doing anything to provide that leadership 
internationally? Any of you can speak to that.
    Mr. Powell. Senator, I can offer a little bit on that. 
There are any number of people trying to work on the issue on 
the international front, but let me point out what I think are 
some of the critical forums.
    First of all, there are regional organizations. The 
European Union has its own Y2K operation. There are other 
regional operations. But the one to my mind that is probably 
playing the most critical role and the most umbrella role is 
the International Telecommunication Union, which meets 
frequently and is part of--it historically is part of an effort 
that coordinates international telecommunications generally. 
You know, we share spectrum around the world. People have to 
figure out how to do that, and so they are a very fundamental 
player in that.
    That is chaired by an individual named Ron Ball, who is 
from Britain, who is an extremely gifted individual and I am 
personally very heartened that he is chairing that effort over 
others.
    They have been engaged in an effort to do monitoring and 
assessment much like we do domestically and have sent out a 
significant number of surveys around the world to try to get 
detailed responses and it is pretty dismal. Senator Bennett was 
right in his assessment of how that has gone, and the United 
States is a little vulnerable on this, as well, and we are 
doing stuff to make sure that gets fixed. So that is part of 
their effort.
    They have deputized what they call ``Y2K Ambassadors.'' 
That is, they are individuals or institutions that are 
responsible for particular parts of the world, sort of in an 
effort to delegate some responsibilities across the board.
    The State Department has been engaged in an effort through 
state-to-state contacts to raise the profile of the issue 
through its ambassadors. I know it has dispatched 
communications to the field in that regard.
    Indeed, the President raised this as part of the G-8 
summit, again, another interaction that was not heartening. We 
sat--not me, personally, but the United States sat at that 
table with an extensive amount of materials, I think, prepared 
to begin working on that issue in a much more serious way. The 
vast majority of people had nothing to hand out and barely want 
to talk about the problem. There are others. I mean, there are 
other forums being put together and being worked on.
    One of the things I do is lean heavily on American 
companies who I think have the contacts that matter. State-to-
state contact is useful, but the truth to it is, you have got 
to talk to Deutsche Telecom. You have got to talk to the 
companies. You have got to talk to KDD and NTT and Singapore 
Telecommunications. The AT&Ts of the world do that frequently, 
and if they are taking the problem seriously, everyone they 
interact with should be taking the problem seriously.
    As I understand it, for example, a company like British 
Telecom begins to now have important contract provisions and an 
insistence that we are going to look for new relationships if 
you cannot give me some assurances you are working on the 
problem.
    So that is some of the effort that is underway, but you 
point out rightfully what concerns me. Thankfully, in the 
United States, for the most part, there are not a ton of things 
competing for national attention with regard to this issue. But 
when I talked, for example, to the president of Deutsche 
Telecom, I said, what about the Year 2000 problem? He said, ``I 
have two of them, the euro and this.'' There are an 
extraordinary amount of world events that are competing for 
attention. One gets concerned about how those priorities are 
assessed.
    Japan has a ``right now'' problem, and the notion that 
they, sort of as a national priority, have this at the top of 
this, it worries me that they do not.
    Indonesia, significant parts of the world who are critical 
to the international payment system, very critical to other 
things that we rely on, are sort of in woeful straits in that 
regard.
    So the bottom line, to tie your comment together with 
Senator Dodd's, is that there cannot be an interaction in which 
this issue is not raised. I think if any government official or 
any private sector individual who has an interaction with a 
foreign carrier, foreign government, does not raise Y2K every 
time they run into someone, they have made a substantial error.
    Senator Smith. Is the United Nations doing anything on 
this?
    Mr. Powell. I am not personally aware of the extent of the 
United Nations' involvement. I thought that I understood, and I 
would have to verify that there were some resolutions that 
either were passed or were pending, but I am not specifically 
aware of it. I do not think the ITU is an element of the United 
Nations, or has a component of the United Nations, but I stand 
to be corrected on that.
    Senator Smith. Does this have any implications for--it 
seems apparent to me that it does--for the Aura, that 
transition? This is occurring simultaneously with it. I would 
think that would greatly complicate their financial system.
    Mr. Powell. It is huge. Put simply, it is huge. Next to Y2K 
remediation, I cannot imagine a more complex transition than 
changing your currency. I have had some discussions with 
presidents of foreign carriers and the kinds of things they 
have to work through are astonishing, where the commas go in 
terms of the bills, what systems have to be reprogrammed, the 
training of employees.
    I am not one to tell Europe what to do, and in a sense in 
this regard, they are way too far down the road, but I think 
what everyone needs to do throughout the world is understand 
what things are not essential to happen now. This one has to 
happen now. You do not have a choice. Other things do not. I 
think nations, including this one, need to make some national 
priorities about what things can be put on the back burner as 
we hit the red zone to make sure that we do not blow this 
deadline.
    Senator Smith. Thank you, Mr. Chairman.
    Chairman Bennett. Thank you, Senator.
    I would point out, I have met with Ambassador Kamal, who is 
head of the Informatics Committee at the United Nations. He and 
I have appeared on common speakers' platforms and we are in 
touch with this committee. He has described his relationship to 
the United Nations as much the same as my relationship to the 
Congress, somebody who is trying to get everybody interested 
when they have other things on their minds.
    Thank you all. One last comment, Commissioner Powell. With 
respect to the announcement you made today of the appointment 
of a chairman of this group, I would hope that the group would 
formalize some kind of link to the staff of this committee so 
that there could be an exchange of information.
    This committee is performing, I think, a serious function 
in that we are becoming the repository of information. There 
does not seem to be any other place where information on Y2K 
across the spectrum of industries, States, government agencies, 
and so on is accumulating other than this committee, and I 
think your group would benefit from that context, and, frankly, 
so would we if, in performing this role as the repository of 
that information, we had a conduit of connection. So I would 
appreciate if it you would take the charge to see to it that 
that conduit is created and the opening is made.
    Mr. Powell. Senator, I will, and I would also issue a 
standing invitation to anyone on the Hill, your staff, in 
particular, to ever attend any of these telecommunications 
working groups. I would be more than happy to have them there. 
We will make sure that they know about them, when they are 
occurring.
    Chairman Bennett. Thank you. That is very much appreciated 
and I am sure someone will attend.
    Thank you all. We appreciate your being here.
    Chairman Bennett. We will move now to the final panel. We 
appreciate this final panel. I have to make an editorial 
comment. Those that are worried about the lateness of the hour, 
it is unusual on a Friday morning after a recess has started 
with no votes on the Senate floor for as many Senators to 
attend a committee meeting as have come to this one and as have 
stayed. Senator Stevens has told me he is still coming. He has 
a number of other pressures on him as chairman of the 
Appropriations Committee.
    So it is a testimony to the importance of the issue that we 
are going as late as we are and that you do not usually get 
left solely to the tender mercies of the chairman, that other 
members of the committee have shown up and demonstrated an 
interest and continued to question. That is why we have gone on 
as long as we have.
    Our first witness will be Joseph Castellano, president of 
Network and Corporate Systems at Bell Atlantic. He is 
representing the efforts underway and difficulties facing the 
local and long distance common carriers.
    He will be followed by Gerry Roth, vice president for 
Technology and Systems at GTE, who is representing the TELCO 
2000 Forum, an organization of telecommunications companies 
established explicitly to focus on testing common carrier 
interoperability.
    He will be followed by Ramu Potarazu, vice president and 
chief information officer of INTELSAT, a leading provider of 
commercial communications satellite services.
    Our final speaker will be Gary Beach, publisher of CIO 
Magazine, a bimonthly publication reaching over 125,000 IT and 
business executives.
    We will have other telecommunications experts who are 
providing statements for the record.
    [The prepared statements can be found in the appendix.]
    Chairman Bennett. Gentlemen, we appreciate your being here. 
I make one comment, highlighting what Commissioner Powell said. 
If we are going to get the international problem under some 
degree of control, it is going to be more company-to-company 
conversations than it is government-to-government 
conversations. We are sorry to have to put that big a burden on 
you, but the nature of this particular problem simply requires 
it. So that is why we are delighted to have you here and 
delighted to have the level of interest that your presence here 
represents.
    Vice Chairman Dodd. Mr. Chairman, just before they start, I 
want to thank all of them, as well. I have a flight problem 
that is going to cause me to leave, but I wanted to apologize 
in advance to the witnesses. It is my fault. We went on with 
some of these other panelists a little longer than the chairman 
probably anticipated. But I appreciate immensely your presence 
here today.
    I just would like to pick up on the comment we made 
earlier, and this is a group that can really be of help to us 
and I suspect, based on Commissioner Powell's response, that we 
are not talking about anyone here at this table, in terms of 
just keeping communication lines and responding to these 
inquiries that come from the FCC.
    But if you would use your good offices, particularly you, 
Mr. Beach, in having the advantage of reaching a lot of people 
out here. how important it is that that information that is 
being requested be provided. I have no desire to get into the 
business of releasing the lists of companies who are not 
responding, but I do not know of any way to get attention. What 
I try to do is announce that we are going to do it, give plenty 
of time for people to know that I am not doing it today or 
tomorrow or next week, but at some point, you are going to 
provoke me into saying, look, I will use the bully pulpit of 
the U.S. Senate to do so. So I would hope that we might get 
that message out to people. It is in their interest. It is in 
all of our interest that they respond.
    I apologize, Mr. Chairman, but I may not have a chance to 
raise that with you by the time you complete your testimony, so 
I just wanted to raise it here before we started.
    Chairman Bennett. Thank you. We all understand about 
airplane problems.
    Mr. Castellano.

    STATEMENT OF JOSEPH CASTELLANO, PRESIDENT, NETWORK AND 
                CORPORATE SYSTEMS, BELL ATLANTIC

    Mr. Castellano. Good morning, Chairman Bennett and members 
of the committee. I appreciate being invited to address you on 
the Year 2000 issue. My name is Joseph Castellano and I am the 
president of Network and Corporate Systems for the Bell 
Atlantic Corp. I am also the officer responsible for leading 
the company's Year 2000 program. In that capacity, I chair Bell 
Atlantic's Year 2000 steering committee.
    Bell Atlantic is a communications and information company 
with more than 41 million telephone access lines and 6.7 
million wireless customers worldwide. I have been asked to 
offer testimony today about the Year 2000 vulnerabilities 
facing telecommunications carriers and the legal complexities 
of information sharing.
    As you are aware, the Year 2000 challenge is to ensure that 
information technology accurately processes data into the Year 
2000. For the telecommunications industry, this is a 
significant challenge and one we must meet in order for our 
communications networks and services to continue to perform as 
our customers expect. Communications networks are comprised of 
a number of computer-controlled network elements which operate 
together to allow voice and data to be transported and 
switched. Bringing all of these network elements into Year 2000 
compliance is the goal of the telecommunications industry.
    To understand the vulnerabilities facing our industry, it 
is helpful to consider the scope of the effort that is required 
in order to insure that carriers' communications networks are 
Year 2000-compliant.
    In addition to the industry-wide activities discussed by 
others here today, each telecommunications carrier must 
undertake its own effort to identify Year 2000 concerns in its 
operations and to devise a plan to address each concern. The 
first step in this effort is to inventory all of the network 
elements, information systems, and computers that could 
possibly be affected by the century change.
    To give the committee an idea of the size of this effort, 
Bell Atlantic's inventory includes the following: Over 350 
types of network elements which Bell Atlantic has deployed tens 
of thousands of times in its network; more than 1,200 software 
applications with over 250 million lines of computer code, 
which support Bell Atlantic's business processes; approximately 
88,000 personal computers, 800 mid-range computers, 40 
mainframe computers, and hundreds of supporting software 
products; hundreds of unique security access, air conditioning, 
elevator control, and similar systems servicing thousands of 
buildings, garages, and other facilities.
    Once inventoried, each type of network element and computer 
in each information system must be assessed to determine if it 
is Year 2000-compliant, and if not, when and how it would most 
likely fail. Knowing when a component may fail is important 
because this will influence the sequence and prioritization for 
correcting that component. Because telecommunications carriers 
purchase the vast majority of their network elements, 
information systems, and computers from others, an extensive 
program of equipment vendor communication at this stage and 
throughout the process is necessary. The carriers must know 
what steps an equipment vendor is taking to make its products 
Year 2000-compliant.
    Detailed planning follows assessment. In this phase, plans 
are developed for the remediation or replacement of each type 
of network element and computer and for each information 
system. Even components found to be compliant during assessment 
will require testing or verification to validate manufacturer-
provided information. For those components evaluated as non-
compliant, we must determine if they should be fixed or 
replaced. Detailed plans must include all activities required 
to insure that the particular components within a carrier's 
network will operate correctly.
    The next stage of a Year 2000 plan consists of testing 
compliant components, remediating and testing non-compliant 
components that will be retained, and replacing those 
components that will be retired. This is the stage most 
carriers are at currently, and it is by far the most complex. 
During this phase, new and remediated network elements, 
computers, and information systems are comprehensively tested. 
Once network elements, computers, and information systems are 
fully tested, they can be deployed. Deployment for most 
companies has begun and will continue through early 1999, with 
some additional deployment occurring after that.
    It is also important for carriers to develop comprehensive 
contingency plans. These plans should address actions required 
in the event that scheduled activities, such as the replacement 
of a particular software application, do not occur on time, as 
well as planning for possible failures. A contingency plan 
should also include the establishment of internal, industry, 
and customer command structures to effectively manage critical 
situations.
    In general, the performance and integrity of the worldwide 
telecommunications network is primarily dependent upon three 
factors: First, the performance of the various network 
components and software manufactured by numerous equipment 
vendors; second, the integration of these network components by 
telecommunications carriers within their networks; and third, 
the interoperability of the separate networks owned and managed 
by numerous telecommunication carriers throughout the world and 
their customers.
    If an equipment vendor is not able to provide functional 
Year 2000-compliant replacements or upgrades, that failure will 
likely have a material adverse impact on the carrier's Year 
2000 efforts. Likewise, if the carrier fails to properly 
address its Year 2000 issues and a service disruption occurs, 
not only will that carrier's customers be affected, any 
interconnecting network operated by another carrier might also 
feel consequences.
    Given this interdependency, it is critical that each 
equipment vendor and each carrier properly address its own Year 
2000 issues and that equipment vendors and carriers work 
cooperatively to ensure a seamless, uninterrupted operation of 
the global network. Information sharing among carriers and 
between carriers and their equipment vendors is, therefore, 
essential in the successful implementation of any Year 2000 
plan. Likewise, information sharing between carriers and their 
customers is equally critical to enable customers to understand 
and address their Year 2000 requirements.
    This is an area in which government can help private 
industry. Our experience has been that liability concerns have 
had an adverse impact on the free exchanges of Year 2000-
related information among businesses. These concerns affect not 
only the level or content of disclosure, but also the timing of 
the information exchange.
    Given the compelling need to share Year 2000 information 
within the telecommunications industry, legislative action is 
needed to reduce liability concerns among companies. That is 
why we support legislation such as the proposed Year 2000 
Information Disclosure Act to facilitate a more open and timely 
disclosure of Year 2000 information, and we urge the members of 
this committee to support its passage, as well.
    In addition, Federal and State regulatory agencies are in 
the process of gathering as much information as possible from 
the entities within their jurisdiction in an effort to 
understand the issues, problems, and progress on Year 2000 
matters. While we applaud and encourage these efforts, we 
believe that consideration should be given to the development 
of a more uniform approach to information gathering from the 
telecommunications industry. Such a uniform approach to 
information gathering would improve the usefulness of the 
information provided and minimize the impact of these requests 
on personnel working to address the Year 2000 problem.
    I thank the committee for allowing me to address the Year 
2000 issues facing the telecommunications industry and I stand 
prepared to answer any questions the members of the committee 
may have.
    Chairman Bennett. Thank you very much.
    [The prepared statement of Mr. Castellano can be found in 
the appendix.]
    Chairman Bennett. Mr. Roth, we thank you and appreciate 
your being here.

  STATEMENT OF A. GERARD ROTH, VICE PRESIDENT, TECHNOLOGY AND 
      SYSTEMS, GTE, ON BEHALF OF THE TELCO YEAR 2000 FORUM

    Mr. Roth. Thank you, Senator. Chairman Bennett, members of 
the committee, my name is Gerry Roth. I am responsible for 
GTE's Year 2000 program, but today, I am here to represent the 
Year 2000 TELCO Forum. We have submitted a written testimony, 
but with your permission and in the interest of time, I would 
like to summarize those remarks, sir.
    Chairman Bennett. By all means.
    Mr. Roth. The TELCO Forum is a voluntary, self-funded group 
formally established in 1997 to address Year 2000 issues 
potentially impacting the telephone industry. Its membership 
consists of Ameritech, Bell Atlantic, Bell South, Cincinnati 
Bell, GTE, SBC, Southern New England Telephone, and U.S. West. 
Additionally, AT&T, Worldcom/MCI, Sprint, and USTA have been 
invited to participate as full or supporting members.
    The Year 2000 Forum is chartered by the Council of 
Telephone Company CIO's to address the potential impact of the 
Year 2000 on the telecommunications industry. Major priorities 
for 1998 and 1999 include information and best practices 
sharing in all areas of Y2K, network interoperability testing 
for Y2K compliance, and contingency planning, to include 
command structure planning for network coordination efforts 
across our industry.
    The TELCO Year 2000 Forum initiated a concept for 
interoperability testing with three important goals: First, to 
minimize the risk of network failures; second, to minimize the 
risk of service failures; and third, to ensure functionality of 
date-and time-sensitive operations is not adversely affected by 
Year 2000. This intranetwork interoperability component testing 
includes tests of robust interactions between network elements, 
data transport systems, operational support systems, and the 
network elements that they support.
    Our service cluster approach includes testing essential 
features of the public switch network, such as the public 
safety and emergency services systems, such as E-911, basic 
enhanced and intelligent network services, network management 
systems, and data network services.
    Some of the characteristics of our testing include 16 
separate configurations for network element and data testing 
and 40 separate network management configurations which span 
all service clusters. Testing is being conducted in five 
separate laboratories established across the United States in 
members' facilities, using 82 common communications products 
from 21 suppliers. This equipment comprises the major 
components of the standard North American suite of equipment 
and systems in use in the public switch network. In addition, 
four members have compiled and assessed product information on 
93 other vendors with 470 separate products.
    Information sharing is certainly an extremely important 
issue for the Forum and for the public, as we have heard here 
today. It has always been the intention of the TELCO Forum to 
make available the scope, the plans, and the outcome of our 
Year 2000 testing. As the committee is aware, several issues 
remain unanswered about either the advisability or the 
appropriateness of some aspects of this general information 
sharing. Nevertheless the Forum will continue to make this 
information available to the maximum extent possible in light 
of those issues.
    Our network interoperability testing began on July 6 with 
operational support systems and network element management 
testing. This was followed on July 13 with the start of testing 
for data transport systems. Network element testing is planned 
to begin the first week of August. All testing to date has been 
successfully executed and testing is proceeding according to 
schedule. Test completion is planned in December 1998, with a 
final report being submitted on the first week of January 1999.
    In an affiliated activity, the Forum is actively working to 
establish a plan for interoperability testing with a similar 
Canadian Year 2000 Forum, and we have begun discussions with 
the ITU concerning international interoperability test support.
    I would like to spend a minute to discuss the relationship 
of these network testing activities that you have heard about. 
In previous testimony, you heard discussions of at least two 
major related Y2K interoperability test activities, the TELCO 
Year 2000 Forum and the Alliance for Telecommunications 
Industry Solutions, or ATIS. Although these groups operate 
independently, all members of the TELCO Year 2000 Forum are 
members of ATIS. The co-chair of the ATIS network test 
committee is also in the Year 2000 Forum. And the Forum will be 
represented in the ATIS network test committee as a separate 
entity. Year 2000 test planning for both the TELCO Forum and 
ATIS are intentionally complimentary.
    After each company and/or supplier has completed Year 2000 
remediation and tested at that level, the next step is to test 
component interoperability between companies and products. The 
last leg of that testing, then, is network interoperability 
testing, which stresses network features and services in an 
operational test environment.
    The TELCO Year 2000 Forum testing, the intranetwork 
testing, is being conducted in late 1998. This is the first leg 
of testing which assesses network component interoperability, 
basically answering the question, ``Do the major network 
support and management elements continue to operate 
appropriately among and between carriers in a Year 2000 
environment?'' An example of this is the 800 number data base 
support services.
    This is then followed by the ATIS testing, or the 
internetwork testing, in early 1999. Internetwork testing will 
assess network interoperability with respect to service and 
operations once component interoperability has been 
demonstrated. This testing deals with such issues as potential 
network congestion on December, 31 1999, or January 1, 2000, 
time zone transition issues, Year 2000 impacts on local number 
portability enhancements, voice and data transmission between 
local and interexchange carriers, and real-time network 
management and control.
    We have often been asked about our concerns about 
interoperability, which is a expressed concern of this 
committee. We have every reason to believe that the U.S. public 
switch network will continue to operate with no major service 
disruptions due to the Year 2000. However, full international 
interoperability is of concern due to many late starts and the 
uncertain program status in many countries.
    The Year 2000 brings a unique and unprecedented potential 
for network stresses for several reasons. The anticipated 
increases in call volume crossing multiple time zones, 
increased international telecommunications interactions to 
usher in the new millennium, and then, due to the high profile 
of the Year 2000 as both a technology challenge and a new 
millennium, network security concerns will also be at peak 
because everyone out there is not just ``calling to say they 
love you.''
    Any Year 2000 glitch which may appear at this otherwise 
teeming confluence of unique events would certainly exacerbate 
any performance issues.
    We have been asked by Congress and others, what could 
others do to help our efforts, and some suggestions would 
include support of good Samaritan legislation, such as the Year 
2000 Information Disclosure Act; work to remove the specter of 
antitrust claims against companies which cooperate in good 
faith on Year 2000 remediation; continued awareness campaigns 
through hearings like this; work to support efforts to enhance 
international interoperability; and finally, work with other 
government agencies to consolidate queries and streamline 
information sharing to prevent unessential duplication of 
effort.
    In conclusion, the members of the TELCO 2000 Forum believe 
that this cooperative, voluntary testing effort will go a long 
way toward removing public anxiety over the Year 2000 status of 
the public switch network in the United States. Despite the 
fact that the live network cannot be 100 percent tested in 
advance of the Year 2000, we believe our individual and 
collective actions in Year 2000 remediation and subsequent 
tests and validation provide a basis for sustaining public 
confidence that the telephone and data networks will continue 
to operate in the Year 2000 and will continue to provide the 
outstanding services we have come to expect.
    Mr. Chairman, I thank you for this opportunity to testify 
on behalf of the Year 2000 Forum.
    Chairman Bennett. Thank you very much.
    [The prepared statement of Mr. Roth can be found in the 
appendix.]
    Chairman Bennett. Mr. Potarazu.

     STATEMENT OF RAMU POTARAZU, VICE PRESIDENT AND CHIEF 
                 INFORMATION OFFICER, INTELSAT

    Mr. Potarazu. Good morning, Mr. Chairman, members of the 
committee. My name is Ramu Potarazu. I am the Vice President 
and Chief Information Officer of INTELSAT, the international 
telecommunications satellite organization.
    I appreciate the opportunity to testify before you today on 
the important issues raised by Year 2000. I also wish to thank 
Chairman Bennett and the committee for your leadership in 
addressing such a complex and global problem.
    This morning, I will concentrate on what INTELSAT is doing 
to address the Year 2000 issues. In fact, we calculate that we 
have 370 business days left before the Year 2000 is upon us.
    Let me begin with a brief history of INTELSAT. INTELSAT was 
established in 1964 as a global commercial cooperative on the 
initiative of the United States. INTELSAT's main mission is to 
provide the space segment for public satellite communications 
services throughout the world on a non-discriminatory basis. 
Today, INTELSAT has 143 member countries and connects virtually 
every country and territory in the world. INTELSAT provides 
international, domestic, and regional satellite communications, 
services such as telephone, television, Internet, and data.
    INTELSAT began its official Year 2000 program several years 
ago to make sure that we are ready for this challenge. In 
preparation for today's hearing I was asked to address several 
specific questions. The first question asked was, how does the 
Year 2000 problem affect satellite communications? I would like 
to spend a few moments to explain the four basic elements of 
the INTELSAT global system.
    The first part is the satellites. Behind Senator Bingaman 
is a picture of a satellite located 23,000 miles above the 
equator in geosynchronous orbit. INTELSAT maintains a fleet of 
satellites in geosynchronous orbit which together provide 
global coverage, meaning we reach every person in the world.
    The second part is the INTELSAT control system which is 
pictured to the chairman's right. The satellite control 
facility allows us to control and monitor our satellites, parts 
of which are located throughout the world.
    The third part is the customers' earth stations, consisting 
of satellite dishes and other equipment.
    The fourth part is essentially our entire user community--
the local phone companies, broadcasters, business networks, 
Internet service providers, and other end users.
    I will first explain what INTELSAT is doing with the 
satellites. Our satellite manufacturers have advised us that 
there are no known Year 2000 problems on our satellites. 
typically, a communications satellite does not use a time and a 
date. It uses a satellite reference, what we commonly refer to 
as satellite local time. This is a reference to the sun, and 
when there is a reference to the sun, there is usually no 
reference to a specific year.
    INTELSAT's own analysis and testing will seek to confirm 
this information. At this time, however, we believe that our 
INTELSAT satellites have no Year 2000 issues, but satellites 
are only one piece of the INTELSAT system.
    For the INTELSAT control system, which are the systems that 
allow us to control and monitor our satellites, we have adopted 
a five-step approach to resolving our Year 2000 issues.
    The first step is the preliminary assessment phase, where 
inventory for software and hardware is done.
    The second step is the analysis and plan phase where the 
inventory is analyzed and a remediation plan is established.
    The third step is the remediation phase, where the actual 
hardware and software is fixed.
    The fourth phase is the test phase. As stated earlier by 
Senator Dodd, this phase is the most difficult. At INTELSAT, we 
are not a 9-to-5 business. We are a global business that must 
serve the world 24 hours per day, 365 days per year. We simply 
cannot shut down our daily operations to test hardware and 
software. Therefore, new test facilities have to be set up in 
temporary locations. We are currently preparing to conduct such 
tests as soon as the software remediation is complete.
    The fifth and final phase is the deployment phase, where 
systems are put into production and operation. INTELSAT's Year 
2000 program has primarily focused on our ground systems that 
fly, command, control, and monitor our satellites.
    Now let me turn to your next question. What are INTELSAT's 
concerns about international communications? This, quite 
frankly, is INTELSAT's biggest concern and is the one that is 
mostly out of our control. The customer satellite dishes and 
the local phone companies, broadcasters, business networks, and 
other end users are the biggest challenge in addressing the 
Year 2000 issue. Because these entities are out of our control, 
our emphasis has been on education. Many of the customer 
stations throughout the world have several hundred pieces of 
computer equipment from various manufacturers that control 
their ability to send and receive telecommunications 
information.
    For example, if the antenna control unit fails at the 
customer location, this failure could cause complete loss of 
pointing to the INTELSAT satellites by the antenna, and no 
information could be sent or received, even though INTELSAT's 
portion of the communications link is compliant.
    Perhaps I can use an illustration to demonstrate INTELSAT's 
concern and those raised earlier by the chairman about Year 
2000 issues affecting international satellite communications. A 
significant percentage of INTELSAT's international traffic is 
two-way communication links that use an INTELSAT satellite 
between country A and country B. Suppose country A's ground 
network is Year 2000-compliant. INTELSAT, being the supply 
chain in the middle, is also compliant. And suppose further 
that country B's ground network is not Year 2000-compliant. The 
result is that you have a failure of the complete chain. This 
is why INTELSAT has some concerns about the Year 2000 
compliance of all international communications.
    To this end, INTELSAT has been proactive in working with 
our customers and our owners and other international 
organizations to exchange and gather information relevant to 
Year 2000 issues. INTELSAT has also teamed up with the World 
Bank and the International Telecommunication Union on several 
initiatives to promote the awareness of the Year 2000 problem 
throughout the world via seminars and the use of INTELSAT 
capacity on a no-charge basis for promotion of the Year 2000 
issues.
    In closing, INTELSAT has a plan in place to address the 
INTELSAT satellites and the INTELSAT control systems. We are 
confident that we will be ready in the new millennium. Our main 
concern is with our customers' satellite dishes and all of the 
business entities at both ends of the supply chain. It is 
important that we all continue our education efforts in this 
area throughout the world.
    We need the ability to share information relating to the 
Year 2000 issue. We urge the administration and Congress to 
work together to allow us to share information more freely so 
that the Year 2000 problem can be resolved in an expeditious 
manner. Thank you very much.
    Chairman Bennett. Thank you.
    [The prepared statement of Mr. Potarazu can be found in the 
appendix.]
    Chairman Bennett. Mr. Beach, you get to be the clean-up 
hitter here.
    Mr. Beach. I hope I can hit a home run.
    Chairman Bennett. Please do.
    Mr. Beach. No pressure here. [Laughter.]

        STATEMENT OF GARY BEACH, PUBLISHER, CIO MAGAZINE

    Mr. Beach. Mr. Chairman, Senator Bingaman, my name is Gary 
Beach. I am publisher of CIO magazine, a magazine written for 
chief information officers who are responsible for building the 
largest information technology infrastructures here in America. 
These are the people, Mr. Chairman, that you were mentioning 
who are responsible for the company-to-company communication 
that is going on.
    I feel a special akin to the Year 2000 problem, having been 
publisher of Computer World in September 1993, when Peter 
Deyager wrote the famous article that brought this problem to 
many people's attention. While I was not as smart as Peter to 
become a consultant back at that time on Year 2000, my 
conversations with users and chief executive officers of 
several large telecommunications companies this spring led me 
on June 15 to the write the following in the pages of CIO.
    ``The Year 2000 safety net for the telecommunications 
industry, our nation's backbone for voice, data, and Internet 
transmission, is nonexistent, will never be built, and as such, 
presents the global economy with its most significant Year 2000 
problem.''
    I would paraphrase Senator Dodd's comments of a moment ago, 
``Houston, no, you do not have a problem. Planet Earth, we have 
a problem.''
    Here is why I feel this way. It has been an incredible 3 
years for users in large, medium, and small companies. At once, 
the most diligent of them have addressed the Year 2000 problem, 
but as we said earlier this morning, some of that testing will 
be done erroneously.
    On top of that, an issue that we have not talked about 
today at all that is compounding not only the time problem is 
the labor problem. Here in America and around the world, we 
have a critical shortage of information technology workers, men 
and women who could address this issue.
    At the same time in the last 3 years, another technology 
phenomena, the World Wide Web, has expanded the dependence of 
companies on telecommunications, linking customers, partners, 
and suppliers in global networks.
    Mr. Chairman, have you ever played dominoes? No? Well, one 
of my favorite games of dominoes, not particularly the game but 
setting them all up and hitting that first domino and watching 
them all fall down, the single effect theory.
    As you were mentioning aptly this morning, we live in a 
system of systems, an interdependent world, and we have seen 
examples of how a single event can impact us all. Just in the 
last year, the UPS strike crippled many in the industry. In the 
spring, the PanAm satellite interrupted pager transmission. And 
just this week, we saw the conclusion of the General Motors 
strike, in which a single event in Flint brought that company 
to its knees.
    The major fear of CIO's is this. While they may be 
compliant with Year 2000, their partners, their suppliers, 
their customers, all linked in this food chain, may not be and 
their non-compliance could in that domino effect impact their 
company.
    Some companies have extraordinarily large food chains. 
General Motors, the company I just mentioned, has 35,000 
partners. Again, as Senator Dodd was talking about this morning 
with Judith List, it is my opinion some of those 35,000 
partners will be Year 2000 functional, some will be Year 2000-
compliant, and many will be Year 2000 dysfunctional.
    As Commissioner Powell talked about in terms of the 
legality issues, this is an incredible challenge, preventing 
many companies from fully declaring their Year 2000 
operability. As several members of this panel and before have 
aired, I strongly support the administration and the 
Congressional efforts to get the Year 2000 Information 
Disclosure Act passed and passed fast.
    CIO's express a particular concern, and we have heard this 
morning Senator Collins and others, about small companies. 
There are 23 million small companies in America. Wells Fargo 
Bank just this week released a report where they interviewed 
500 small companies, those who have 100 or fewer employees, and 
found 50 percent are planning to ignore the Year 2000 entirely.
    We have talked about the global issues. The World Bank in 
March of 1998 released the results of a survey it did among 128 
borrowing nations. Seventy-one percent did not even know what 
the Year 2000 problem was.
    The telecommunications industry in America, while many are 
familiar with the names on this panel, is really made up of 
many, many small companies. The United States Telephone 
Association has 1,100 members. There are 4,500 members, as you 
mentioned earlier, Mr. Chairman, who are Internet service 
providers. I am concerned about the readiness of this sector of 
the telecommunications industry.
    While the United States Telephone Association does a fine 
job managing its members, last evening, I went on their website 
and I challenge anybody to go on that website and find right up 
front information about the Year 2000.
    ISP's, Internet service providers, who is even monitoring 
them?
    So, in essence, the telecommunications industry faces what 
I call a great paradox. If the system works as advertised, as 
we have heard here this morning, then the global infrastructure 
will act as a massive conduit, spreading Year 2000 problems, 
not theirs, but from partners and suppliers in their 
information food chains. If it does not work, we all know where 
that is going to lead.
    I have several recommendations. First, I would encourage 
this committee to raise the awareness of the Year 2000 
challenge with small independent telephone companies and small 
internet service providers while abating the potential for 
panic.
    Second, I would encourage all sectors of the 
telecommunications industry to follow the example of the TELCO 
Year 2000 Forum and expand their efforts as they have in an 
invitation to long distance carriers, competitive LEC's, et 
cetera. This is critical.
    Third, I would encourage Commissioner Powell and the FCC to 
put enforceable Year 2000 compliance policies in place 
immediately for all groups it monitors, plus hold the chief 
executive officers and board directors of those companies 
personally responsible for Year 2000 compliance statements they 
share and file with the FCC. We need an independent 
verification process.
    Fourth, I would recommend that the FCC impose immediate 
moratorium on telecommunications mergers and acquisitions. Why? 
The FCC needs to focus its finite resources on issues of 
national, not corporate, interest.
    Fifth, I would consider the formation of a Year 2000 
information center across America to inform consumers not only 
of the likely impacts on communications but the services they 
will purchase from banks and utilities. CIO magazine surveyed 
in May 400 households. Four out of ten Americans are totally 
unaware of the Year 2000 problem.
    Sixth, I would mobilize millions of Americans to join a 
grassroots volunteer effort to help solve the problem. That 
same survey found 45 percent of Americans willing to serve if 
asked. I applaud the President for his efforts on July 14 to 
encourage retired Federal workers to come back, but more could 
be done. Possibly, we could follow the example of President 
Roosevelt and create a digital Civilian Conservation Corps.
    I would challenge the telecommunications industry to report 
back to this committee with in-depth contingency plans on what 
happens if the network goes down, particularly in rural parts 
of America.
    I would encourage you, Mr. Chairman, to talk to Ambassador 
Kamal, who headed the Informatics Committee, and possibly have 
a summit at the United Nations this fall.
    So my basic report is this. I am concerned. I am close to 
this issue. When someone asked me the other day, what am I 
going to do with my money, I do not know, but we all have to 
work on this together. We should prepare for the worst, pray 
for the best, and hope between now and the Year 2000, 
everything we do can bolster those dominoes so when one of them 
falls, and one of them is going to fall, all the rest do not 
fall. Thank you.
    Chairman Bennett. Thank you very much.
    [The prepared statement of Mr. Beach can be found in the 
appendix.]
    Chairman Bennett. I gather from your presentation, Mr. 
Beach, that you agree with my concern that things as presented 
earlier were a little too rosy. Is that an understatement of 
where you are?
    Mr. Beach. No, that is an affirmative.
    Chairman Bennett. Thank you. Given the hour, I have a whole 
series of things I want to get into, but let me focus on just a 
few.
    You have all talked about the need for legislation. Senator 
Dodd and I have introduced by request the administration's bill 
as it was presented to us. For those of you who are not 
following the committee's activities, I will tell you that I 
have given the assignment to work on this legislation to 
Senator Kyl. Senator Kyl is chairman of the Subcommittee on 
Technology in the Judiciary Committee, so there is a nice fit 
here. Since this committee has no legislative authority, the 
committee with legislative jurisdiction probably would be the 
Judiciary Committee and Senator Kyl is going to work with his 
staff, the Judiciary Committee staff, and our committee staff 
through August to try to have something for us to consider in 
September.
    I am convinced that it must be passed in this session of 
Congress, that we cannot wait until next Year on this one. We 
are trying to draft a careful bill. We will use the 
administration draft as a beginning point, but we have had a 
number of people say that the administration draft is 
inadequate in a variety of ways and we will do our best to try 
to see to it that it gets improved.
    I would like you briefly to comment what you would see life 
like a Year from now, in, say, summer of the Year 1999, if this 
legislation is passed. What do you see the impact of this 
producing in the next 12 months? Mr. Beach?
    Mr. Beach. I would just like to comment that while I 
support the legislation and the goals of it, it can be 
difficult to have companies share best practices, particularly 
in a very competitive environment. So I would only caution. I 
applaud the goals and the spirit of the law. In reality, 
companies may not share as much as they should.
    Chairman Bennett. Does anyone else have a comment, 
specifically on the President's legislation, because you have 
not seen the draft that we will inevitably come up with?
    Mr. Castellano. Chairman Bennett, I think that as a result 
of the legislation, we will see a better flow of information 
between suppliers and customers at all levels. I think that is 
very important to address some of the comments that were made 
earlier about the concerns people have about not knowing what 
the status of things are and I think the legislation would 
improve that tremendously. Also in the working relationships 
between the various firms, it would facilitate coming to 
conclusions on how to fix the problem.
    Chairman Bennett. Senator Bingaman, you have a strong 
interest in this. We will go to you now and I will reserve the 
balance of my time.
    Senator Bingaman. Thank you, Mr. Chairman. It seems to me 
we have got sort of two schools of thought presented today. Mr. 
Beach may represent one of those.
    I noticed in the testimony that Ms. Fountaine gave us from 
the National Communications System, she says here, ``In 
implementing special national security emergency preparedness 
capabilities in the public network, we chose the major 
interexchange service providers, as well as the primary local 
exchange companies.'' It says, ``We believe, based on the 
information they gave us, we believe that there will be little 
or no interruption of service from these major service 
providers due to the Year 2000.'' I would be interested in Mr. 
Castellano's view as to whether he agrees with that.
    Mr. Castellano. I actually do, because we have been working 
very diligently, all of us, for several Years now and doing all 
of the steps that you need to do in order to be prepared, and I 
think we have reached the point where we are starting to feel 
confident that our own networks within individual companies 
will be ready and ready, willing, to begin the testing process 
between the networks to make sure they will be ready.
    We feel for the most part that most of the problem will 
take place, if it takes place at all, towards the later half of 
next Year. We are aiming to be ready in the second quarter and 
we think we have some contingency time to do additional testing 
before the actual date. So I think our level of confidence with 
the major carriers is pretty high.
    Senator Bingaman. Now, when you say the major carriers, one 
of the statistics we heard earlier was that 98 percent of the 
communication traffic is carried by the major carriers, 
something over 98 percent. Is that what you are talking about? 
You are saying that 98 percent of the communications traffic 
that we have, at least in this country, should not be 
interrupted, based on your assessment?
    Mr. Castellano. I think that is a pretty good assessment. 
It may be more than 98 percent, but I think there is less 
certainty about the rest at this point in time, based on the 
conversation we have had today.
    Senator Bingaman. Does anybody on the panel want to dispute 
that?
    Mr. Beach. I will not dispute it, Senator, but I will 
comment that I support broad-based interoperability testing. I 
would only comment that the logistics of creating a broad-based 
test that replicate exactly what happened in our lives day in 
and day out in America is extraordinarily difficult, and just 
leave with the thought that we really have until this time next 
Year to control possible public panic about this issue. We 
asked those same people in the survey questions, and this time, 
in the summer of 1999, if it becomes apparent that this problem 
is not solved, there is a possibility for public concern, and 
``panic'' is not too strong a word.
    Senator Bingaman. Let me also just ask, Mr. Potarazu, your 
testimony says, ``At this time, we do not believe that the 
INTELSAT satellites have any Year 2000 issues.'' So if we do 
not have any problem with the telecommunications 
infrastructure, at least 98 percent of it, and we do not have 
any problem with INTELSAT satellites, are there communication 
satellites that are not INTELSAT satellites that you believe 
will be affected by this, or are you speaking generally of 
communications-related satellites?
    Mr. Potarazu. My comments specifically addressed INTELSAT 
satellites. We have three manufacturers that build our 
satellites, Hughes Space and Communications Co., Space Systems/
Loral, and Lockheed Martin. Other international satellite 
companies may have different vendors, but with the three 
vendors which manufacture INTELSAT's satellites, we have 
assurances that our satellites are compliant.
    Senator Bingaman. But there is no reason to believe that 
they would be making Y2K-compliant satellites or satellites 
that are not affected by this problem for you and making 
satellites that are effective on this problem for others, is 
there? Just those three?
    Mr. Potarazu. With those three, that is correct. We do not 
believe so. The satellite manufacturer's have advised INTELSAT 
that they know of no Year 2000 problems with our satellites.
    Senator Bingaman. And those are the three major U.S. 
manufacturers?
    Mr. Potarazu. In the United States, correct.
    Senator Bingaman. Are we down to trying to figure out the 
extent to which the small telecos are going to create a problem 
for the rest of the system here, the less than 2 percent of 
traffic that goes over these 1,200 or so small companies? Is 
that where the effort ought to be concentrated, Mr. Castellano, 
and if so, what is being done to bring them up to speed?
    Mr. Castellano. At the present time, I agree with that, and 
I also think the international carriers should also be included 
in that statement. I think the next step is for those of us who 
have been in ATIS or part of the TELCO Forum. We are going to 
try to reach out to those companies and have them be involved 
in our activities. I think that would be the next step.
    Frankly, we have not paid them a great deal of attention. 
We have been very involved with our own issues, trying to get 
to the point where we can say, yes, you were competent about 
our own efforts, but I think it is now time for us to try to 
help the others to get ready, as well.
    Senator Bingaman. Is there a plan to do that in place? I 
mean, as you move into the fall and the rest of this summer, is 
there a plan to get information out to these folks and bring 
them in and share what you have learned with them?
    Mr. Castellano. Well, we are at the beginning of that. Last 
week, we had a meeting and we discussed the possibility of 
describing how we would work with others and writing a white 
paper on that issue as part of the next step in our activities, 
at the TELCO Forum meeting.
    Senator Bingaman. That is very useful. Thank you very much, 
Mr. Chairman. I appreciate it.
    Chairman Bennett. Thank you.
    Mr. Beach, you have raised an interesting question that, 
frankly, had not occurred to me before, but it is obvious once 
it is laid out. You call it the great paradox in your prepared 
statement. You say, let us say the telecom industry's Y2K 
remedial efforts are 100 percent compliant, not a likely 
outcome, and the system works as advertised. The 
telecommunications infrastructure then becomes a powerful 
conduit for spreading Y2K problems.
    Mr. Beach. Yes.
    Chairman Bennett. That is an interesting paradox.
    Let me go back to the statistic we had at the beginning of 
the hearing, which says, statistically, every time you fix 4.5 
lines of code, you introduce an error into the system. Mr. 
Beach, as you look at that, do you have any sense of how big a 
problem that is going to be, to find those errors, or in the 
spirit of what you said here, a powerful conduit for spreading 
problems. Are those part of the errors that will be spread?
    Mr. Beach. Yes and yes. I mean, one of the problems, Mr. 
Chairman, is that information technology workers, once they 
have felt they have scrubbed a line of code, there is a 
perception that that has been done correctly and they have 
moved on to others. Some companies have 800 million lines of 
code to create.
    What I would also like to comment on is I believe Judith 
List talked about this morning rather well, and it is the 
latency factor of the ability of a telecommunications network 
to spread these problems, whether they are billing problems or 
what have you. We are all preparing for January 1, 2000, which 
might even be before that, but there is a possibility that 
latent Year 2000 problems could be much like digital microbes 
that are invisible.
    Deputy Secretary Hamre from the Department of Defense 
recently said, on the Year 2000, if the computers go down, it 
is not fine, but at least he knows where the problem is. A 
bigger problem for him, and, I argue, a bigger problem for 
users is if the system continues to work. I mean, if Ramu sends 
a satellite off and it is only one degree off, over time, that 
one degree becomes a huge gap.
    Chairman Bennett. You are going in the direction that I was 
going. I am beginning to realize that the life of this 
committee may extend far beyond January of 2000, not because I 
want to empire-build but because the problems are going to be 
there. We have seen that in testing, and I am going to end the 
hearing with this comment about testing and our experience and 
what we have seen in the committee and, hopefully, through this 
group, send a message to the telecommunications industry.
    The military has done some testing. They found several 
things. The most disquieting one is that a majority of things 
that have been certified as Y2K-compliant on subsequent testing 
have been found not to be, and they have had to go back again.
    The second is that the problems, as indicated in this last 
exchange, are cumulative. Something is compliant on January 1. 
It is functional on January 2. The degradation in its function 
begins to accumulate and it fails in February or March, and you 
find in the meantime that it may very well have been putting 
bad data into the database during the time it appeared to be 
functional.
    We are not going to really know whether the 
telecommunications system has gotten by the millennium bug if 
all the phones have dial tones and everything is going through 
on the second of January. We may very well have problems that 
come along and bite us and bite us badly in the middle of 
January or February or later on, and finding the source of 
those is going to be much more difficult than finding the 
original problems when you do the first remediation.
    I am seeing some nods. Is that a fair characterization of 
the problem that we have?
    Mr. Roth. Absolutely.
    Chairman Bennett. Finally, we have the experience of last 
week's hearing. Last week, I had to do what Senator Dodd has 
had to do. I had to leave. I left him the gavel. At the end of 
the hearing, someone was called out of the audience who was not 
scheduled to be one of the witnesses but was connected with one 
of the witnesses who described the experience of standing there 
in a hospital holding in his hand the letter of certification 
from a manufacturer that a piece of equipment was Y2K-
functional and watching it fail as the clock was set ahead to 
the Year 2000. If the hospital had depended upon the 
manufacturer's certification that everything was fine, someone 
would have died.
    The witness, as I understand it, described several such 
circumstances, and one of the most frustrating ones, a piece of 
equipment where, when the clock was turned forward to the Year 
2000, failed, would not recover when the clock was back off. By 
merely testing the piece of equipment, they ruined it, which 
raises another specter that I have heard about and we will hear 
about in subsequent hearings of the company that tried to set 
its clock forward to test and discovered that the failure that 
occurred in that instance was wiping out all the passwords. As 
a consequence, their database was rendered inoperable by virtue 
of the test because they could not get in it, and the passwords 
had all been deleted by the Year 2000 problem.
    So my conclusion here, which I am leaving everyone who may 
be watching, either in the overflow room or on television or 
the journalists taking things down or those of you representing 
various industries, we cannot depend on the first test or the 
first certification or the first comfort letter that we get 
from a manufacturer or somebody looking at this. The testing 
has got to be extensive, it has got to be continuous, and it 
has got to extend beyond the Year 2000 because we absolutely 
cannot allow the telecommunications systems to fail, or 
everything else goes under.
    I appreciate the reassurances that we have gotten, but I 
also appreciate the warnings that we have had that those 
reassurances need to be checked and rechecked and then checked 
again before we can take them at face value.
    My thanks to all of the members of the committee. To all of 
the witnesses, thank you for your patience. The hearing is 
adjourned.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]
                            A P P E N D I X

                                ------                                


              ALPHABETICAL LISTING AND MATERIAL SUBMITTED

                                ------                                


                    Prepared Statement of Gary Beach

    My name is Gary Beach. I am publisher of CIO, a magazine written 
for chief information of officers--men and women who build and manage 
our nation's information technology infrastructure. These executives 
work in major corporations and in many government agencies nationwide. 
The subject of my testimony is ``Industry Concerns about the 
Preparedness of the Telecommunications Industry As It Faces the Year 
2000 Challenge.'' My perspective comes from 17 years in the information 
technology publishing business and from private discussions about the 
Year 2000 with CIO's and other technology and business executives.
    No one today can dispute that we live in a globally interconnected, 
interdependent information society--an information society increasingly 
built on fragile supply chains. To give you a sense of the intricacy of 
this interconnectedness, consider these examples. Last year the United 
Parcel Service strike crippled many segments of the U.S. economy. This 
spring a single satellite malfunction caused millions of pagers to go 
down. A strike at a plant in Michigan disrupted the entire North 
American operations of General Motors.
    Despite the calamity described in the above examples, our societal 
web of supply chains has shown the ability to take a hit in one place 
and maneuver resources from another locale to recover. But never has 
society in general or the telecommunications industry specifically 
faced the daunting, hard-stop challenge posed by the Year 2000 problem. 
In the past two months many witnesses have come before this committee 
professing their industry or their company will be Year 2000 compliant. 
My conversations with chief information officers and key executives of 
long distance and regional telephone companies have convinced me those 
claims of compliance may be based more on hope than on actual fact. 
This should not come as a surprise as we've never faced such a daunting 
challenge. True, the telecommunications industry has been working on 
Y2K compliance. Many have devoted efforts to the problem since the mid-
1990's. At the same time, however, use of another technology, the World 
Wide Web, skyrocketed and millions of corporations have extended their 
internal information technology networks to external partners, 
suppliers, customers, yes, even competitors. Sears, for example, has 
5,000 suppliers linked to its information infrastructure. Chief 
information officers are concerned that regardless of what they've done 
to make their own systems compliant, they may still fall victim to 
their connected partners' problems. And partner failures could have 
devastating economic results for a company no matter what it has done 
to become Y2K compliant.
    This scenario presents the telecommunications industry with what I 
call the ``The Great Paradox.'' Let's say the telecom industry's Y2K 
remedial efforts are 100 percent compliant--not a likely outcome--and 
the system works as advertised. The telecommunications infrastructure 
then becomes a powerful conduit for spreading Y2K problems. Technical 
problems will be passed down the information technology (IT) food chain 
as quickly as telephone connections occur. On the other hand, if the 
telecommunications system experiences significant Y2K problems, not 
only businesses but lives could be lost. Think about how much we depend 
on 9-1-1 for example. What if it doesn't work when we punch in those 
numbers?
    Of particular concern is the Y2K readiness of the 23 million small 
businesses in America. And why should we all care? Because small 
businesses may not have the fiscal or human resources or the know-how 
to address Y2K. In a survey of 500 American businesses that employ 100 
or fewer people, Wells Fargo Bank reported earlier this month that an 
incredible 50 percent of respondents plan to ignore Y2K issues 
entirely. The 23 million small businesses in America employ more 
Americans than any other sector by far. If the Wells Fargo Bank survey 
is accurate, many of America's small businesses will not be Y2K 
compliant, many will suffer Y2K disruptions, and some may go out of 
business causing our nation's unemployment rate to rise.
    Why my concern about small businesses and the food chain analogy? 
Because the United States telecommunications industry reflects in many 
ways the percentage composition of the general American economy. While 
most Americans are aware of names like AT&T, Bell Atlantic and GTE, the 
United States telecommunications industry is in reality an intricate 
web of over 1,100 small independent telephone companies and 
approximately 4,000 small Internet service providers. Day in and day 
out these companies rely on each other to complete the voice and data 
calls that make up the fabric of life in America today. What are those 
small telephone and Internet service providers doing to become Y2K 
compliant? Are they following the example of small businesses sampled 
in the Wells Fargo survey? And our concern should cover not only small 
businesses but also our global business partners. Many multinational 
corporations do business with countries around the world. In March 
1998, the World Bank reported that of the 128 borrowing countries it 
monitors, only 37 even knew what the year 2000 problem was.
    Earlier this week I visited the Web site for the United States 
Telephone Association, the group that represents these 1,100 
independent telephone companies. I am disappointed to say that if what 
I found represents the USTA's interest in the Y2K issue for its 
members, many of those small telephone companies will not be Y2K 
compliant by the end of next year. I started my testimony talking about 
the intricate information chains that bind our society and economy. In 
Boston when I call the West Coast, my call has to proceed from a Bell 
Atlantic switch to the long distance carrier of my choice to the local 
telephone company servicing my end destination on the West Coast. The 
players large and small in the extremely competitive telecommunications 
industry need each other to complete those voice and data calls. What 
are they doing to join arms and fight the Y2K battle? While I applaud 
the efforts of the Telco Year 2000 Forum, it is largely an effort of 
the major local exchange carriers. I urge AT&T, MCI, and others to 
accept Telco Year 2000 Forum's invitation to join. As the days to 1/1/
00 dwindle, the telecommunications industry must put aside its partisan 
nature for an all-hands-on-deck run at this problem. When American 
citizens are unable to make phone calls on January 1, 2000, they will 
not have the patience for finger pointing that may ensue among local, 
long distance and Internet services. The telecommunications industry is 
increasingly a global business as seen by this week's announcement of 
the AT&T/British Telecom joint venture. Chief information officers are 
increasingly concerned about data such as earlier reported from the 
World Bank: What kind of impact could a Y2K failure in a foreign PTT 
(Post, Telegraph, Telephone) have on their global information 
technology infrastructure. Alan Greenspan recently testified before the 
Senate Banking Committee that a small problem beginning somewhere in 
the international banking community could snowball into a Gargantuan 
problem. Could his point of view be transferred to our nation's 
telecommunications industry as it prepares for the Year 2000? Could a 
small Y2K problem beginning in some small European, Pacific Rim or 
Latin American country snowball into a large Y2K problem here in 
America? As the International Telecommunications Union recently 
reported, could Y2K unpreparedness cut off the developed countries that 
have worked on the Y2K problem from the developing countries, creating 
in essence a digitally disconnected Fourth World of nations? On July 23 
Senator Dodd said in these hearings, ``We are no longer talking about 
whether there will be any Y2K disruptions--only how serious those 
disruptions will be.'' On June 4 in Omaha, Nebraska, CIO magazine and 
the International Data Corporation released the industry's first 
predictive tool that helps companies gauge their Y2K vulnerability. We 
call it the Beach/Oleson Pain Index and it can be found at www.cio.com/
y2k.html The index is based on the interconnectedness of corporations 
sharing applications with external partners. We quantify the problem 
into four states: catastrophic, meaning the problem experienced could 
cause socioeconomic harm; business critical, which refers to a Y2K 
problem that brings down an entire business for more than 24 hours; 
disruptive, including problems causing outages that are fixed within 24 
hours; and annoyances, nonessential Y2K problems such as your e-mail 
password claiming it has expired. For example, a corporation or 
telecommunications company sharing 55 applications with external 
partners has a 57 percent probability that its Y2K problem will be an 
annoyance, a 34 percent probability the problem will be disruptive, a 
11 percent probability the problem will be business critical and a 0.6 
percent probability the problem will be catastrophic. While most 
companies will not experience catastrophic problems, the 
telecommunications industry certainly falls within the group that will 
suffer deeply if partners' appropriate preparedness action steps are 
not taken. These are our recommendations to this committee moving 
forward:

    1. Raise awareness of the Y2K challenge with small independent 
telephone companies and small Internet service providers while abating 
the potential for panic.
    2. Encourage all sectors of the telecommunications industry to 
follow the example of the Telco Year 2000 Forum and expand their 
efforts to long distance carders, competitive LEC's, etc.
    3. Encourage the FCC to put enforceable Y2K compliance policies in 
place immediately for all groups it monitors and hold the chief 
executive officers and board directors personally responsible for Y2K 
compliance statements shared with the FCC.
    4. Recommend that the FCC impose an immediate moratorium on 
telecommunications mergers and acquisitions. The FCC needs to focus its 
finite resources on issues of national not corporate interest.
    5. Consider the formation of Y2K Information Centers across America 
to inform consumers about not only likely impacts on communications but 
also the services they purchase from utilities, banks and the like. A 
recent survey by CIO magazine found nearly 4 in 10 Americans are 
totally unaware of Y2K. Of those that were aware, one in four plans to 
put his or her money under their mattress if it becomes apparent the 
Y2K challenge will not be solved by this time next year.
    6. Mobilize millions of Americans to join a grass-roots volunteer 
effort to help solve the problem. The same CIO survey reported 45 
percent of Americans said they would serve if asked. Earlier this month 
the president challenged retired federal workers to come back and help. 
This effort needs to be expanded to all. In the CIO survey the under 25 
age group responded with most enthusiasm to volunteer. President 
Roosevelt mobilized this nation early in the century with his visionary 
civilian conservation corps. People can similarly join to attack the 
Y2K problem.
    7. Create a telephonic version of the Federal Emergency Management 
Agency that small telephone companies and small Internet service 
providers could tap into for funds to hire workers to help meet the Y2K 
challenge.
    8. Challenge the telecommunications industry to report back to this 
committee with an in-depth contingency plan on what will happen if the 
network goes down. Have the group particularly focus on the contingency 
plans for rural America, an area largely served by small telephone and 
Internet service providers. Moreover, task the industry with explaining 
how it plans to handle the extraordinary volume of calls from consumers 
demanding Y2K information from their banks, health care providers etc., 
anticipated in November and December 1999.
    9. Work with Ambassador Kamal, head of the Informatics Committee at 
the United Nations, and encourage the ambassador to hold a major global 
summit at the United Nations on Y2K this fall.

    American lives and the American economy live on the bandwidth 
provided by our nation's telecommunications infrastructure. Whatever 
threatens the delivery of that bandwidth threatens lives and the 
economy in America. The Y2K problem is threatening our nation's ability 
to deliver noninterrupted bandwidth. No one can come before this 
committee and say for certain how our national and global 
telecommunications infrastructure will fare during the digital tsunami 
known as Y2K. Several things are certain. We are all in this together. 
We should all prepare for the worst. And we should all pray for the 
best. Thank you for the opportunity to share this testimony with this 
distinguished committee.
                                 ______
                                 

   Responses of Gary Beach to Questions Submitted by Chairman Bennett

    Question 1. You recommend the establishment of a special telephonic 
version of the Federal Emergency Management Agency (FEMA) to provide 
financial assistance to small telephone and Internet providers. How 
would you propose this be organized and funded?
    Answer. Using the same FEMA infrastructure and processes, have 
Congress or the administration increase and/or create a special Y2K 
fund that could be used by companies with 50 or fewer employees.
    Question 2. Could you please elaborate on assessment of United 
States Telephone Association members lack of Y2K preparedness?
    Answer. What I have come to learn about publishing information on 
the World Wide Web is that if a topic is important to Web site editors 
and their audience, it is prominently displayed on the home page.
    In preparation for testimony on July 31, 1998, CIO visited the 
USTA.org site. Then as now the USTA home page--or other areas on the 
site--lacks information that would lead CIO to believe the USTA is 
concerned about the Y2K situation.
    Many USTA members are small, independent telephone companies. It is 
our belief that they employ old telephone switching technology and that 
many of those USTA members are in rural areas of the United States.
    All USTA members are linked to our nation's long distance telephone 
networks. It follows that Y2K problems in these small telephone 
companies could be passed along to larger companies.
    Question 3. What evidence can you cite to support your assertion 
that claims of Y2K compliance by the industry are based on hope rather 
than fact?
    Answer. The best evidence of this is the actual testimony of 
industry representatives at the July 31, 1998, hearing. They conveyed 
the hope that the industry would be 98 percent Y2K compliant by January 
1, 2000, or sooner but confessed that the networks have significant Y2K 
latency problems.
    When a deadly infection enters a body, that body is 99 percent 
infection free. However, the body can succumb to infection as it 
spreads. Nothing I heard at the hearing convinced me that the 
telecommunications industry knows just how compliant it will be on Jan. 
1, 2000.
    Question 4. What do you predict the state of Y2K readiness will be 
in the telecom industry on January 1, 2000 based upon your contacts 
with CIO's nationwide?
    Answer. Based on my conversations with CIO's, I predict there will 
be widespread telecommunication outages across America, particularly in 
rural parts of our country served largely by small, independent 
telephone companies without the resources to identify and fix the Y2K 
problem. Moreover, I predict latent Y2K bugs will continue to plague 
the nations telecommunications network well into the year 2000.
    Question 5. You refer in your testimony to ``the great paradox'' 
whereby Y2K compliant telecommunications infrastructures will become 
``powerful conduits for spreading Y2K problems.'' Would you elaborate 
on this and cite specific examples?
    Answer. The Great Paradox concept espouses this point of view: Even 
if the nation's telecommunications infrastructure is 100 percent Y2K-
compliant, it may act as a superconductor that will pass Y2K erroneous 
data through companies connected via that infrastructure in large 
supply chains.
    If the telecommunications infrastructure fails the nation, the 
consequences will be dire.
    For example, many small companies in America--either because they 
do not have the IT manpower to correct Y2K code beforehand or because 
they didn't try to fix the code--will incubate errant information. They 
will pass this information to other companies they are linked to in 
information food chains.
    That errant data could take the form of inaccurate invoices, 
payments or patient information. Or there could be significant 
disruptions in our nation's distribution of food, supplies and so on.
    CIO recommends that the Senate pay particular attention to the 
northern areas of the United States from Alaska to Maine because Y2K 
hits these areas in the dead of winter and major disruptions in 
telephone, electricity, and heat could prove disastrous.
    Question 6. We have heard this morning about the non-participation 
of the long distance carriers in the Telco 2000 Forum. In you 
testimony, you recommended that this situation be corrected. Why do you 
think broader participation is important? What might occur if this 
situation is not remedied?
    Answer. As I stated in my testimony, the Telco 2000 Forum is a 
positive step. Its major limitation is that it does not include the 
long distance carriers, though I understand they have invited this 
group to participate.
    This cuts to my major critique of this industry as it faces Y2K. 
If, for instance, I want to call San Francisco from my offices outside 
Boston, my voice and/or data call emanates from a local telco (Bell 
Atlantic), then moves to the long distance carrier of choice (AT&T) to 
another local telco (GTE) in San Francisco. Unless all of these 
entities are entirely Y2K functional on January 1, 2000, the 
probability that my voice/data call will go through decreases.
    The nation's telecommunications infrastructure is only as strong as 
its weakest noncompliant Y2K company.
    Question 7. You talk in your testimony about the growing reliance 
of large and small businesses on their information infrastructures, 
i.e., electronic data interchange with suppliers and customers. Would 
you describe examples of the impact of failed telecommunications 
infrastructure on these businesses?
    Answer. Here's an example: Large companies are starting to perform 
Y2K IT triage with their partners connected in massive EDI or other 
telecommunication networks where they are abandoning entirely those 
companies not essential to their critical business processes that may 
not be Y2K-compliant. Sears Roebuck, Inc. has 5,000 vendors linked in 
its network. It has identified 900 of those companies--or 18 percent--
as critical to making sure Sears does business on Jan. 1, 2000. The 
``other'' 82 percent of its current partners--or 4,100 companies, most 
small--did not make the cut. It is my opinion that as they perform Y2K 
triage larger firms will never go back to doing business with a portion 
of those smaller suppliers deemed noncritical.
    The loss of a Sears type contract could devastate a small business.
                               __________

            Prepared Statement of Chairman Robert F. Bennett

    Good morning, and welcome to the fourth hearing on the Year 2000 
Technology Problem. To date, we have held hearings on energy utilities, 
financial services industries, and health care. Future hearings will 
include transportation, general government services, and general 
business issues.
    Let me begin today's hearing by noting that the global 
telecommunications infrastructure is the central nervous system of 
modern society. Daily, 270 million Americans depend on this complex web 
of voice, data, and video services that enable their telephones, 
radios, fax machines, computer networks, televisions and other 
information appliances. Major national and international enterprises, 
such as emergency response, national security, finance, transportation, 
health care, government, energy distribution, and others, are 
critically dependent on reliable, 24 hours a day, 7 days a week 
telecommunications.
    Without these services, our ability to receive, gather, and respond 
to information would be as limited as it was for our ancestors before 
Alexander Graham Bell invented the telephone. Some critical enterprises 
which depend upon telecommunications services include: The National 
Weather Service; the Department of Defense; the Federal Reserve Board & 
Wall Street; the National Airspace System; the American Red Cross's 
Blood Service and the United Network for Organ Sharing; the national 
electric power grid; and on and on.
    However, I have great concerns that our global telecommunications 
infrastructure can ride out the millennium date change without 
significant disruptions for three reasons. First, it is a highly 
complex system of systems. Second is the fact that there is no 
identifiable U.S. public or private body taking the lead on the global 
aspects of the Y2K telecommunications problems. Lastly, is the fact 
that to have successful communications, both parties must be able to 
send and receive information. It is not enough to be ready just 
yourself.
    With regard to the complexity of global telecommunications, the 
sheer number of players illustrates the problem. Today in the United 
States, there are five long distance carriers (not including the 
growing number of long distance resellers), five major national 
television broadcasters, six Regional Bell Operating Companies, more 
than 1,000 small phone companies, 16 communications satellite 
providers, more than 4,500 Internet Service Providers, hundreds of 
cellular phone companies, thousands of broadcast radio stations, and 
over 11,000 cable services companies. And this just captures the 
infrastructure of the United States and does not include the thousands 
of large and small communications equipment manufacturers.
    Finally, it must be pointed out that this infrastructure relies on 
hundreds of millions of lines of computer code. It is too great a leap 
of faith to believe that all the elements of an endeavor this complex 
will be ready at the stroke of midnight just 17 months from today, 
especially in the light of the limited readiness the industry has shown 
to this committee.
    As for coordination and oversight of telecommunications, let me 
note something from a 1995 National Research Council report.\1\
---------------------------------------------------------------------------
    \1\ The Changing Nature of Telecommunications/Information 
Infrastructure, The National Academy Press, 1995.

          In 1984 it was quite clear what the telecommunications/
        information infrastructure was and who defined it. It was, in 
        essence, the telephone and broadcast networks. The defining 
        players were AT&T, the Federal Communications Commission (FCC), 
        and the broadcasters. You got only the connectivity and 
        services that were offered; compared with what is available 
        today, it was not much.
          All of this has changed radically. Instead of being defined 
        by monopoly suppliers and regulators, the telecommunications 
        infrastructure has become more closely defined by both market 
        demand and the explosion of supporting technologies that have 
        been brought to market by myriad suppliers. There has been much 
        movement away from a supplier-defined infrastructure to a user-
        and market defined infrastructure.

    In this new world of telecommunications which has given rise to a 
revolution in new services, no one party is charged with the task of 
assuring the reliability and interoperability of the entire network. 
This has made the millennium bug a much harder beast to squash as it 
only has to show up in one link in a communications chain to cause 
mayhem.
    Finally, let me return to the two-way nature of telecommunications. 
Simply put, if the long distance carrier is up and running, but the 
regional carrier is down, the long distance call doesn't go through. If 
the Internet backbones are working, but the local Internet Service 
Provider is off-line, the World Wide Web is inaccessible to the user. 
And if a financial payment can be received in New York, but it cannot 
be sent from overseas, the transaction will not occur.
    Like it or not, there is a link-to-link connectivity that starts 
locally, goes regionally, continues on nationally, and finally, ends 
internationally in this network upon which telecommunications and the 
enterprises supported by telecommunications critically depend. I am 
expecting today's panels to tell us how they are going to take charge 
and address this challenge. Getting telecommunications ready for the 
Year 2000 is a massive task that will require tremendous cooperation 
and coordination, but it is a task we must complete.
                               __________

              Prepared Statement of Senator Jeff Bingaman

    Mr. Chairman, today's hearing is very timely. We have only 518 days 
to make sure that our nation's telecommunications networks are prepared 
for the Year 2000 (Y2K).

        The telecommunications infrastructure has been revolutionized 
        by advances in information technology in the past two decades 
        to form an information and communications infrastructure. * * * 
        Taking advantage of the speed, efficiency and effectiveness of 
        computers and digital communications, all the critical 
        infrastructures are increasingly connected to networks. * * * 
        Networking enables the electronic transfer of funds, the 
        distribution of electrical power, and the control of gas and 
        oil pipeline systems. Networking is essential to a service 
        economy as well as to competitive manufacturing and efficient 
        delivery of raw materials and finished goods. The information 
        and communications infrastructure is basic to responsive 
        emergency services. It is the backbone of our military command 
        and control system.\1\
---------------------------------------------------------------------------
    \1\ Critical Foundations: Protecting America's Critical 
Infrastructures. The President's Commission on Critical Infrastructure 
Protection; October 1997.

    We look forward to another century of exciting advances in 
communications. Yet, we face an unprecedented assault on the 
reliability and the resiliency of our telecommunications infrastructure 
because of Y2K problems. While there are many positive indications that 
the industry is working very hard to solve the Y2K problem, it is 
critical that we as the Congress, the Federal Government and the nation 
understand the awesome task facing the telecommunications industry. 
Telecommunications provide the flow of information on which we depend 
for national and economic security. Significant failures or unforseen 
Y2K telecommunications outages could have dramatic impacts on our 
ability to do maneuver military forces, respond to emergencies or 
simply do business.
    We currently lack the assessments necessary to model potential Y2K 
failures. Experience, however, does tell us that hardware and software 
can fail unexpectedly. Private industry and government are both adept 
at surviving systems failures. But our ability to coordinate and 
continue operations in the event of a simultaneous wide spread failure 
is uncertain.

        The susceptibility of the current generation of switching 
        equipment to software based disruption was demonstrated in the 
        collapse of AT&T's long distance service in January 1990. A 
        line of incorrect code caused a cascading failure of 114 
        electronic switching systems.* * * [Again] the potential for 
        software-based disruption of common channel signaling was 
        demonstrated in June 1991, when phone service in several 
        cities, including 6.7 million lines in Washington, DC, was 
        disrupted for several hours due to a problem with the network's 
        Signaling System 7 protocol. The problem was ultimately traced 
        to a single mix-typed character in the protocol code.\2\
---------------------------------------------------------------------------
    \2\ Critical Foundations: Protecting America's Critical 
Infrastructures. The President's Commission on Critical Infrastructure 
Protection; October 1997.

    In software engineering, it is common to find that very process of 
correcting code introduces new errors. The amount of telecommunications 
software that must be examined and then corrected is enormous, and it 
is inevitable that new errors will creep in. While a wide area outage 
is not necessarily going to result from errors caused through fixing 
the Y2K bugs, we must be ready for such, and contingency planning must 
be done.
    I am increasingly concerned that the impact of Y2K on the 
telecommunications industry is not being fully addressed as a national 
security issue. Could a Y2K related failure cause such a problem in 
telecommunications? Could an error entered during the millions of lines 
of code correction cause a serious disruption? If so, would our current 
emergency response mechanisms be enough? What specific types of 
contingency planning do we need to consider?
    Throughout today's hearing we will endeavor to understand the 
serious Y2K vulnerabilities facing the telecommunications industry. As 
we begin this hearing, I think that it's particularly important to 
remember that the United States has by far the most resilient and 
reliable telecommunications infrastructure of any nation in the world. 
In fact, despite the news of network outages and the Galaxy IV 
satellite failure, the telecommunications industry maintains a 99.9 
percent success rate.\3\
---------------------------------------------------------------------------
    \3\ Network Reliability--The Path Forward, The Network Reliability 
Council; February 1996.
---------------------------------------------------------------------------
    As Americans, we look to the future in anticipation. We continually 
strive to improve the quality of life by improving communications and 
advancing technology. It is my hope that prompt action and technical 
communication about Y2K readiness will prevent significant problems. I 
am confident that the telecommunications industry is determined to meet 
the communications challenges of the next century. But, I also believe, 
to assume that the Y2K problem will not affect U.S. telecommunications 
``* * * is a dangerous complacency.'' \4\
---------------------------------------------------------------------------
    \4\ Steve Prentice, Director of Research for the Gartner Group in 
Europe Year 2000 Telecommunications Conference, sponsored by GSA, MITRE 
Corporation, McLean, VA, April 29, 1998.
---------------------------------------------------------------------------
                               __________

                Prepared Statement of Joseph Castellano

                            i. introduction
    Good morning Chairman Bennett and other members of the Senate 
Special Committee on the Year 2000 Technology Problem. I appreciate 
being given the opportunity to address the Committee on the Year 2000 
issue.
    My name is Joseph Castellano and I am the President--Network and 
Corporate Systems for the Bell Atlantic Corporation. I am also the 
officer responsible for leading the Company's Year 2000 program. In 
that capacity, I chair Bell Atlantic's Year 2000 Steering Committee.
    Bell Atlantic is a communications and information company. With 
more than 41 million telephone access lines and 6.7 million wireless 
customers worldwide, Bell Atlantic companies are premier providers of 
advanced wireline voice and data services, market leaders in wireless 
services, and the world's largest publishers of directory information. 
Bell Atlantic companies are also among the world's largest investors in 
high-growth global communications markets, with operations and 
investments in more than 20 countries.
    I have been asked to offer testimony today about the Year 2000 
vulnerabilities facing telecommunications carriers and the legal 
complexities of information sharing.
                       ii. the year 2000 problem
    As you are aware, the Year 2000 challenge is to ensure that 
information technology accurately processes date/time data from, into 
and between the years 1999 and 2000. For the telecommunications 
industry, like other industries that are so technology dependent, this 
is a significant challenge, and one we must meet in order to ensure 
that our communications networks and services continue to perform as 
our customers expect.
    A telecommunications carrier depends to a great extent on computers 
and their related software to deliver telecommunications services. 
Communications networks are comprised of a number of network elements, 
which together allow voice and data to be transported and switched. 
Many of these network elements contain computers and related software, 
and they interoperate with other network elements that are also 
controlled by computers and associated software. Bringing all of these 
network elements into Year 2000 compliance is the primary Year 2000 
goal of the telecommunications industry.
    The Year 2000 problem also affects other aspects of the 
telecommunications business in addition to the network itself. Like 
other businesses, our key business processes--ordering, provisioning, 
billing, payroll, etc.--are driven by information systems which rely on 
computers and related software that must be tested and confirmed as 
being Year 2000 compliant. Similarly, we face Year 2000 issues in 
connection with the continued operation of our general business 
infrastructure--elevator controls, air conditioning systems, security 
systems and even office equipment are all dependent to some degree on 
computers and related software.
    So, like any other business, a telecommunications carrier must also 
deal with Year 2000 issues outside of its traditional ``core 
business.'' However, today I will focus my comments on Year 2000 issues 
uniquely affecting the telecommunications industry, and in particular 
its network services.
             iii. how the industry is addressing the issue
A. Industry group efforts
    The telecommunications industry has at least three industry groups 
which are involved in the Year 2000 effort--the Telco Year 2000 Forum, 
the Alliance for Telecommunications Industry Solutions (ATIS), and the 
International Telecommunications Union (ITU). Although each group 
operates as an independent entity, they are all addressing Year 2000 
compliance testing of network components, interoperability of the 
network components, and in some cases, testing between different 
networks. Other speakers will be addressing industry group efforts in 
greater detail in testimony today.
B. Individual carrier's year 2000 compliance efforts
    In addition to the industry level activities, each 
telecommunications carrier must undertake an effort to identify Year 
2000 concerns in its operations and to devise a plan to address each 
concern. The first step in this effort is to inventory all of the 
network elements, information systems and computers that could possibly 
be affected by the century change. As an example of the size of this 
effort, Bell Atlantic's inventory includes the following:

  --Over 350 different types of network elements which Bell Atlantic 
        has deployed tens of thousands of times in its network;
  --More than 1,200 software applications, with over 250 million lines 
        of computer code, which support Bell Atlantic's business 
        processes;
  --Approximately 88,000 personal computers, 800 mid-range computers, 
        40 mainframe processors and hundreds of supporting software 
        products;
  --Hundreds of unique security access, air conditioning, elevator 
        control, and similar systems servicing thousands of buildings, 
        garages, and other facilities.

    Once inventoried, each type of network element and computer and 
each information system must be assessed to determine if it is Year 
2000 compliant and, if not, when and how it will most likely fail. 
Knowing when a component may fail is important because this will 
influence the sequence and prioritization for correcting that 
component. Because telecommunications carriers purchase the vast 
majority of their network elements, information systems and computers 
from others, an extensive program of equipment vendor communication is 
necessary. Carriers must know what steps an equipment vendor is taking 
to make its products Year 2000 compliant.
    Also, as part of this inventory and assessment activity, it is 
necessary to assign some level of priority for the remediation or 
replacement of network components. For example, network elements and 
related software that would have an immediate and severe impact on 
customer service in the event of failure should be assigned a higher 
priority than that given to a non-critical system.
    Detailed planning follows assessment. In this phase, plans are 
developed for the remediation or replacement of each type of network 
element and computer and for each information system. Even components 
found to be compliant during assessment will require testing or 
verification to validate manufacturer-provided information. For those 
components evaluated as non-compliant, we must determine if they should 
be fixed or replaced. Detailed plans must include all activities 
required to insure that the particular components will operate 
correctly. Thousands of such plans must be developed by a carrier and 
its vendors. By the third quarter of this year, detailed planning 
should be completed or nearly complete.
    As part of this planning phase, special attention must be paid to 
telecommunications systems and network components supporting emergency 
services, such as 911 services. Together with cities, towns and 
municipalities who operate such emergency service systems, and the 
manufacturers of the equipment used in these systems, 
telecommunications carriers share a common goal--to ensure that these 
and similar essential services remain unaffected by Year 2000 problems. 
Emergency services should remain a top priority in any 
telecommunications carrier's overall Year 2000 plan.
    The next stage of a Year 2000 plan consists of testing compliant 
components; remediating and testing non-compliant components that will 
be retained; and replacing those components that will be retired. This 
is the stage most carriers are at currently and it is by far the most 
complex. Carriers on track to meet Year 2000 targets would have begun 
this phase in 1997; however, the majority of the work will be completed 
in 1998 with some to be completed in 1999. During this phase, new and 
remediated network elements, computers and information systems are 
comprehensively tested. These tests include testing for date handling, 
interface testing and regression testing. Regression testing assures 
that no other function of the component has been adversely affected by 
the remediation.
    Once network elements, computers and information systems are fully 
tested, they can be deployed. For network elements, this requires the 
development of extensive deployment schedules, which must be 
coordinated with other network changes and supported by equipment 
vendors. Where a new information system is being installed to replace a 
non-compliant system, deployment will require that employees receive 
training in the new system. In addition, personal computers have to be 
replaced or upgraded, requiring extensive fieldwork by maintenance 
personnel. Deployment for most companies has begun and will continue 
through early 1999, with some additional deployment occurring after 
that.
    Finally, it is important for a carrier to develop comprehensive 
contingency plans. These plans should address action required in the 
event that scheduled activities, such as replacement of a particular 
software application, do not occur on time, as well as planning for the 
possible failures of suppliers and internal operations. A contingency 
plan should also include the establishment of internal, industry and 
customer command structures to effectively manage critical situations. 
Initial contingency plans should be developed by the end of 1998, but 
these plans will necessarily evolve as circumstances require.
    A comprehensive and effective Year 2000 program should also include 
a company-wide management structure and process--a senior officer 
responsible for overall leadership; an officer level steering committee 
(or similar group) representing all critical operations of the business 
with responsibility for establishing policy, resolving issues and 
monitoring the progress of the Year 2000 program; and a Program Office 
which provides a dedicated staff for central management and support of 
all Year 2000 activities.
C. Interrelated nature of telecommunications industry--a year 2000 
        concern
    The performance and integrity of the worldwide communications 
network is primarily dependent upon: (i) The performance of the various 
network components and software manufactured by numerous equipment 
vendors; (ii) the integration of these network components by 
telecommunications carriers within their networks; and (iii) the 
interoperability of the separate networks owned and managed by numerous 
telecommunications carriers throughout the world.
    Given this interdependency, it is critical that each equipment 
vendor and each carrier properly address its own Year 2000 issues, and 
that equipment vendors and carriers work cooperatively to ensure a 
seamless, uninterrupted operation of this global network. Information 
sharing among carriers and between carriers and their equipment vendors 
is essential. Likewise, information sharing between carriers and their 
customers is equally critical to enable customers to understand and 
address their Year 2000 requirements.
    If an equipment vendor is not able to provide and support 
functional, Year 2000 compliant replacements or upgrades, that failure 
will likely have a material adverse impact on a carrier's Year 2000 
efforts. Likewise, if a carrier fails to properly address its Year 2000 
issues and a service disruption occurs, that carrier's customers will 
be affected, as will interconnecting carriers. The telecommunications 
industry is also dependent upon other suppliers of essential services, 
such as electric utilities, to successfully address their Year 2000 
issues. For example, a serious disruption in electric power supply that 
results from a Year 2000-related failure will certainly interfere with 
a telecommunications carrier's ability to provide uninterrupted network 
services.
    Although contingency planning will help mitigate the impact of 
supplier and carrier Year 2000 failures, contingency planning cannot be 
the solution. Each supplier and carrier must address its Year 2000 
issues, and must share with others the status of its Year 2000 efforts 
and other relevant Year 2000 information.
            iv. legal concerns impeding information sharing
    In recent times, ``Year 2000'' has become a topic of considerable 
interest within the legal community. One has only to attend a few of 
the numerous seminars on the subject given by law firms, legal 
education organizations and others, with titles such as ``[t]he Next 
Wave of Year 2000 Litigation'' or ``Year 2000 Liability'' to understand 
why these issues are steadily driving businesses and their attorneys to 
distraction.
    Year 2000-related liability is often mentioned in connection.with a 
variety of possible claims, including: actions under the federal 
securities laws; breach of contract or warranty; negligence (including 
negligent misrepresentation); product liability; antitrust; and 
defamation or product disparagement.
    As discussed above, information sharing plays a critical role in 
the successful implementation of Year 2000 plans. Our experience has 
shown that liability concerns have an adverse impact on the free 
exchange of Year 2000-related information among businesses. These 
concerns affect not only the level or content of the disclosure but 
also the timing of the information exchange.
    Given the compelling need to share Year 2000 information, we favor 
legislative action to reduce liability concerns in this area. In 
particular, we support legislation such as the proposed Year 2000 
Information Disclosure Act to encourage the disclosure of Year 2000 
information and urge your Committee to support its passage as well.
         v. specific government actions to support remediation
    Government can play a key role in supporting the telecommunications 
industry in our Year 2000 efforts.
    First, passage of legislation such as the Year 2000 Information 
Disclosure Act to facilitate a more open and timely disclosure of 
information would be quite helpful.
    Also, both federal and state agencies are properly attempting to 
gather as much information as possible from the entities within their 
jurisdiction in an effort to understand the issues confronting 
businesses and progress on Year 2000 matters. We believe that 
consideration should be given to the development of a more uniform 
approach to information gathering from the telecommunications industry. 
A uniform approach to information gathering would improve the 
usefulness of the information provided and minimize the impact on 
personnel working to address Year 2000 problems.
                             vi. conclusion
    I would like to thank the committee for allowing me to address the 
issues facing the telecommunications industry with respect to the Year 
2000.
                                 ______
                                 

        Responses of Joseph Castellano to Questions Submitted by

                            Chairman Bennett

    Question 1. In your discussion on the steps to remediate systems 
with Y2K problems, you said regarding testing that ``carriers on track 
to meet Year 2000 targets would have begun this work in 1997.'' What 
does this imply for companies that are just starting or haven't started 
testing yet?
    Answer. This question, as stated, does not fully capture my 
testimony. In my statement, I testified that: ``The next stage of a 
Year 2000 plan consists of testing compliant components; remediating 
and testing non-compliant components that will be retained; and 
replacing those components that will be retired. This is the stage most 
carriers are at currently and it is by far the most complex. Carriers 
on track to meet Year 2000 targets would have begun this phase in 1997; 
however, the majority of the work will be completed in 1998 with some 
to be completed in 1999.'' This phase of an overall Year 2000 plan 
includes much more than just testing. In addition, work in this phase 
of the plan will continue through 1999.
    Thus, in our view, carriers who are ``on track'' would have at 
least started this phase in 1997. Viewed from a different perspective, 
if by the end of 1997 a major carrier has not at least started these 
activities--testing compliant equipment, remediating and/or testing of 
remediated components--meeting 2000 objectives would be more of a 
challenge. Of course, each company's situation is unique to the size 
and nature of its operations network. Therefore, no generalization 
should be made based on my testimony without looking at the nature and 
magnitude of a particular company's network facilities.
    Question 2. Would you please elaborate for the Members of the 
Committee on the anticipated effect of the legislation proposed by the 
White House if it passes Congress this year? Will it change the picture 
of the telecommunications information landscape?
    Answer. The Year 2000 Information Disclosure Act provides some 
protection against liability to the maker of a statement regarding Year 
2000 processing in actions based on an allegedly false, inaccurate or 
misleading Year 2000 statement, and defamation or product disparagement 
actions. By addressing these concerns, the Act will clear the way for 
timely, meaningful and necessary disclosures. Obviously, the more 
information that is exchanged efficiently between and among 
manufacturers, suppliers and customers, the more effective each company 
can become in addressing its Y2K issues.
    Bell Atlantic's experience has been that companies are reluctant to 
make statements about Year 2000 readiness. If such statements are made, 
the maker most likely will require the recipient to sign either a non-
disclosure or a limitation of liability agreement, or both. These non-
disclosure agreements often impede the further dissemination of the 
relevant information, which reduces the effectiveness of a company and 
the industry in addressing the Y2K issues. In addition, negotiation of 
these agreements occupies precious time and can delay the remediation 
and testing process. Bell Atlantic believes that the proposed 
legislation will lower the concerns of companies making Y2K statements, 
expedite the exchange of information and allow companies to fully focus 
on evaluating and fixing any Y2K problems.
    Question 3. What are the potential impacts of the proposed merger 
between Bell Atlantic and GTE on their individual and combined Y2K 
readiness? Won't the merger disrupt Y2K programs as the combined 
company strives to integrate systems and services?
    Answer. We believe that our proposed merger with GTE will have no 
discernable impact onY2K readiness of Bell Atlantic or GTE. At least 
for the foreseeable future, each company will continue to manage its 
Year 2000 Programs independently through completion. Also, we believe 
that most merger integration activities are likely to occur shortly 
before or even after January 1, 2000, and will, therefore, have little 
impact on each company's individual Y2K readiness.
                               __________

             Prepared Statement of Senator Susan M. Collins

    Let me first thank you Mr. Chairman for holding today's hearing on 
this important topic. As you have mentioned before, a breakdown in the 
telecommunications sector could lead to a modern day version of the 
Tower of Babel. However, rather than not being able to speak to each 
other because of a language difference, this time it would be because 
our communication systems malfunctioned.
    We have a couple of recent examples of the consequences of a 
failure in our communications systems. On April 13, AT&T's high-speed 
data network failed, leaving banks, retailers, and even the Red Cross 
scrambling to adjust to a telecommunications breakdown. And as I think 
most of us learned, on May 19, a communications satellite went into an 
uncontrolled spin, dizzying credit card authorization services and 
disrupting paging services for almost all of the pagers in the United 
States.
    Obviously, a safe and viable telecommunications system is 
absolutely critical to our daily lives. I look forward to our 
witnesses' testimony.
                               __________

        Prepared Statement of Vice Chairman Christopher J. Dodd

    Thank you Mr. Chairman. I also want to express my appreciation to 
our colleague Senator Bingaman, who has taken on the difficult task of 
acting as the committee's point person on the telecommunications issue.
    Before we turn to this very important topic, let me provide the 
members of the committee with a brief follow-up on our hearing last 
week.
    As you may recall, both Chairman Bennett and I expressed our 
disappointment with those medical device manufacturers who had chosen 
not to comply with either the FDA's requests for information, nor with 
four separate requests for information from the Veterans 
Administration.
    In particular, Dr. Kizer of the VA testified that 233 manufacturers 
had failed to respond, to their requests for information. However, I 
have been informed that after he returned to the VA from the hearing, 
his phone started ringing off the hook. As of today, that list of 233 
has been reduced to a list of 99.
    I also want to report that the chairman and I met with senior 
officials from the Health Industry Manufacturers Association earlier 
this week.
    At that meeting, HIMA told us that they are going to reverse their 
policy of not cooperating with the FDA's requests for information, and 
will issue a letter early next week urging their 800 members to 
cooperate more fully with requests from both FDA and from the hospitals 
and clinics that use their medical devices.
    We have, after much unnecessary obstruction from HHS, obtained from 
FDA the list of 2,200 manufactures of computerized medical devices that 
have not responded to their June 29 letter; we will watch closely over 
the next week or so to see how many of them begin to comply with FDA's 
information request.
    We also have the list of the 99 manufacturers who still have not 
complied with VA's request for information and will also watch closely 
to see if that list continues to shrink.
    We will also be watching to see that both HHS and FDA follow the 
injunction given to them by OMB way back on May 15 to become more 
aggressive in pursuing this information.
    In order to mare sure that everyone has incentives to work 
cooperatively and voluntarily on this matter, Senator Bennett and I 
will be introducing legislation that mandates the cooperation of 
medical device manufacturers with FDA's request for information.
    While I hope that it will not be necessary to pass such 
legislation, our forebearance will depend on FDA and the device 
manufacturers honoring their commitments to improve their performance 
to date.
    I don't want to delay the hearing much longer with extended 
remarks, so let me just say that while I believe that the 
telecommunications industry has made good progress to date, I am 
somewhat disappointed that there has been no single entity designated 
to act as a clearinghouse for all the participants in the 
telecommunications industry.
    While key individual companies have done assessing their Y2K 
problem, the real proof will come in the testing.
    Unlike the securities and banking industries, it isn't possible for 
the telecommunications industry to take their system off-line to run a 
test. There are no weekends or holidays for phone service.
    As a result, creating a sound testing environment, and in 
particular, trying to mare sure that the tests involve as many segments 
of the industry as possible, are critical hurdles that the telecom 
industry has yet to face.
    I also hope that the panel of experts will focus on the readiness 
of foreign telecom companies and will assess for us the possibility of 
international disruptions impacting both U.S. domestic telecom service 
and, perhaps more importantly, whether there is a real possibility that 
we will not be able to communicate with people and businesses operating 
abroad.
    As the committee has noted in each of its previous three hearings, 
contingency planning that starts today is a necessary part of any 
meaningful effort to confront the year 2000 problem.
    Given the necessity of telecom service to continued economic growth 
and given the importance of simple phone service to every household in 
America, serious and significant plans must be in place soon to deal 
with any possible disruptions.
    Thank you Mr. Chairman and Senator Bingaman for all of your work on 
this important topic and I look forward to the today's testimony.
                               __________

                 Prepared Statement of John S. Edwards

                            i. introduction
    Thank you, Mr. Chairman, for the opportunity to testify here today 
on behalf of the President's National Security Telecommunications 
Advisory Committee (NSTAC). My name is Dr. John S. Edwards, and I am a 
member of the NSTAC's Industry Executive Subcommittee (IES) and Chair 
of its Network Group. For 16 years, the NSTAC has advised the President 
on issues pertaining to the reliability and security of 
telecommunications and the information infrastructure--issues critical 
to national security and commercial interests. The year 2000 (Y2K) 
issue is at the forefront of current NSTAC work and we, particularly 
the Network Group, have been aggressively addressing Y2K issues for 
some time. If approved by the NSTAC at its twenty-first meeting on 
September 10 of this year, the NSTAC will forward its Y2K 
recommendations to President Clinton.
Disclaimer
    The NSTAC, a presidential advisory committee, provides industry-
based telecommunications policy advice directly to the President, and 
its activities are governed by the Federal Advisory Committee Act 
(FACA). The NSTAC principals must approve any findings/recommendations 
of the subordinate working groups before they are officially declared 
NSTAC positions. Therefore, any information on the findings/
recommendations of NSTAC's subgroups cannot be disseminated or 
discussed until approved by the NSTAC principals. All approved NSTAC 
reports and recommendations are posted on the NSTAC homepage at http://
www.ncs.gov.
                               ii. nstac
    Established by President Ronald Reagan in 1982 in anticipation of 
the divestiture of AT&T, the NSTAC, a high-level industry advisory 
group, provides the President with a unique source of national security 
and emergency preparedness (NS/EP) telecommunications policy expertise 
and advice. Membership in NSTAC is limited to 30 presidentially 
appointed industry leaders who are senior executives (often chief 
executive officers) representing major telecommunications carriers, 
information system providers, manufacturers, electronics and aerospace 
firms, system integrators, and the financial services industry. 
(NSTAC's membership list is attached as Appendix A.) The IES, the 
principal NSTAC working body, consists of representatives appointed by 
each NSTAC principal. In accordance with FACA, the Manager, National 
Communications System (NCS), serves as the Designated Federal Official 
for the NSTAC. Through the NCS, the NSTAC coordinates its activities 
with the Federal Government. An interagency group created in 1963 
initially to address communications failures during the Cuban Missile 
Crisis, the NCS was re-chartered in 1984 to plan and coordinate NS/EP 
telecommunications during times of crisis or disaster.
    The NSTAC and NCS are long-standing and successful industry-
Government and intergovernmental partnerships on NS/EP 
telecommunications, respectively. In December 1982, the NSTAC formed a 
task force to facilitate industry-Government response to the 
Government's growing NS/EP telecommunications service requirements in 
the post-divestiture environment. The task force was charged to 
identify and establish the most cost-effective mechanism to coordinate 
industry-wide response to NS/EP telecommunications requests. To that 
end, the task force report, submitted to the NSTAC in 1984, led to 
formation of the NCS's National Coordinating Center for 
Telecommunications (NCC). The NCC emergency response coordination 
center supports the Government's NS/EP telecommunications requirements 
and assists with the provision and restoration of telecommunications 
services during emergencies. Entities such as the NCC and the separate 
NSTAC and Government Network Security Information Exchanges are 
examples of existing coordinating partnerships developed by the NCS and 
NSTAC. They have established levels of industry-Government trust, 
cooperation, and information exchange critical to protecting the 
Nation's telecommunications infrastructure. To further enhance the 
trusted environment for information exchange, participation in NSTAC 
and in NSTAC-related activities is done on a non-attribution basis.
    During its 16-year history, the NSTAC has evolved to mirror the 
dynamic changes in the telecommunications industry. As information 
systems have become more critical to the day-to-day operations of 
telecommunications and computing networks, the NSTAC has broadened its 
focus to consider potential NS/EP implications. In addition, and in 
keeping with the national security strategies articulated by Presidents 
Bush and Clinton, the NSTAC has considered the economic security 
dimensions of telecommunications and information system issues.
    Today, the NSTAC is recognized as a model for industry-Government 
collaboration. Its substantive recommendations to the President have 
led to enhancements of the Nation's NS/EP telecommunications and 
information systems posture. Enhancements in the form of operational 
programs and policy solutions benefit both industry and Government as 
the Nation's security requirements and telecommunications 
infrastructure continue to evolve.
                        iii. nstac y2k analysis
    In January 1998, the Manager, NCS, asked the NSTAC to update the 
President on the telecommunications industry's actions to ensure 
continuity of service through the millennium change. In response to 
this request, the NSTAC directed its Network Group to address the Y2K 
problem. The group's review of Y2K readiness covered the national 
telecommunications infrastructure and related NS/EP issues.
    The Network Group broadly reviewed the telecommunications industry 
Y2K status by soliciting briefings from interexchange carriers, local 
exchange carriers, switching system vendors, large-scale system 
integrators, and Y2K risk assessment and remediation solution 
providers. Several NSTAC member companies described their companies' 
Y2K initiatives and provided their perspectives on the Y2K problem. In 
addition, the Network Group heard briefings from the Telco Year 2000 
Forum and the Alliance for Telecommunications Industry Solutions (ATIS) 
on their respective, cross-industry Y2K initiatives. By providing a 
unique forum for open discussion, the NSTAC's Network Group was able to 
generate valuable insight into the state of the industry. Based on the 
information gathered, the group's report to the IES included a 
consideration of the current Y2K readiness of the major 
telecommunications service providers and equipment vendors. I would 
like to share some of our observations.
    In a briefing to the Network Group, the following information was 
offered to provide perspective on the magnitude of the Y2K problem for 
the telecommunications industry:

  --A telecommunications company is generally a ``large enterprise.'' 
        For example, there may be 1,400 to 1,600 switches, 30 to 50 
        signal transfer points, 5 to 60 service control points, 
        thousands of transport component systems, and many element 
        management systems and operations systems, any one of which 
        could have multiple date-sensitive functions.

  --75 percent of voice networking devices are date-sensitive.
  --25 percent of data networking devices are date-sensitive (25-35 
        percent for intelligent devices).
  --100 percent of network management devices are Y2K impacted.

Clearly, the telecommunications industry needs to be aggressive in its 
Y2K approach--and it is. Efforts to make the telecommunications 
infrastructure Y2K-ready are well underway. In fact, the major service 
providers and their vendors have been working on these issues for 
several years. The Telco Year 2000 Forum and others (e.g., the General 
Services Administration and ATIS) are planning interoperability testing 
for critical products, networks, services, and systems. Those who 
briefed the Network Group on their Y2K initiatives expect the majority 
of critical products and networking to be Y2K-ready between late 1998 
and early 1999.
    According to the Telco Year 2000 Forum's briefing to the Network 
Group, the objective of the forum's network interoperability testing is 
to minimize the risk of network and service failures and ensure that 
functionality of date/time sensitive operations is not adversely 
affected. The forum also serves to provide a common view to 
telecommunications hardware/software suppliers regarding Y2K solutions, 
and encourages hardware/software providers to adhere to product and 
service implementation schedules. The forum's test of Y2K compliant 
products and services, scheduled for 3rd-4th quarter 1998, is designed 
to address the interoperability of components within discrete networks, 
rather than between networks. This intra-network interoperability 
testing will include the major North American suite of equipment and 
will cover emergency services (E911/911); basic, enhanced, and 
intelligent services; network management and operations, 
administration, maintenance, and provisioning operations support 
systems; data networks; and customer premises equipment. The 
interexchange carriers are not participating in the Telco Year 2000 
Forum's intra-network interoperability test but are conducting their 
own intra-network tests of their products and services.
    In a briefing by ATIS, the Network Group learned that ATIS is 
planning to conduct internetwork interoperability Y2K readiness testing 
to verify that there are no adverse effects on interconnected networks. 
The pretest and set-up work to support the testing is currently 
underway, with an anticipated completion date in 4th quarter 1998. This 
testing will be conducted during January and February 1999. The items 
identified for testing include mass calling events on December 31, 
1999; potential congestion; cross-network services; rollover to Y2K in 
the local number portability (LNP) environment; impact of time zones; 
and key dates in an LNP environment (December 31, 1999, February 29, 
2000, and December 31, 2000). Although ATIS plans to test the effects 
of mass calling events on the switching networks, it does not plan to 
test network management controls within network management operations 
support systems. ATIS's internetwork interoperability testing 
initiatives will include inter-exchange carrier participation.
    Service providers and vendors know their companies' futures depend 
on how effectively they address their Y2K problems. Consequently, they 
are devoting substantial resources to achieving Y2K readiness. Their 
initiatives include taking comprehensive inventories of their systems, 
prioritizing them, assessing the extent to which they are date-
sensitive, and then implementing and testing solutions. The 
telecommunications industry has been able to sustain its high level of 
reliability, in part, because it has traditionally conducted extensive 
regression testing. This should minimize the adverse effects to the 
reliability of the public network (PN) caused by efforts to correct Y2K 
problems. However, as with any software implementation, it is not 
possible to foresee, and test for, every possible adverse interaction. 
Since Y2K readiness preparation is a massive, diverse, pervasive, and 
complex software augmentation, even the most thorough, exhaustive 
efforts may fail to achieve 100 percent success.
    No organization, either private or Government, in their brief to 
the NSTAC's Network Group offered a guarantee on total eradication of 
the Y2K problem from their networks, services, or systems. In addition, 
these organizations could not offer guarantees of the adequacy of Y2K 
internetwork interoperability testing. Many felt the millennium change 
was not a January 1, 2000, problem, but a problem that would begin 
before, and extend well beyond, that date.
    Though not yet approved by the NSTAC, the Network Group's report 
focuses on the current status of efforts to prepare the 
telecommunications infrastructure for Y2K, factors affecting these 
efforts, and problems possibly resulting if these efforts are not fully 
effective. Because the telecommunications infrastructure is essential 
to maintaining the national security posture and responding to man-made 
and natural disasters, the Y2K report gives particular attention to NS/
EP telecommunications. The report recommends actions to the President 
to enhance the Y2K readiness of NS/EP telecommunications and to 
mitigate the impact of Y2K-induced service disruptions on the Nation's 
NS/EP posture. Further, the Network Group's report recommends actions 
for the NSTAC to help the Government respond to Y2K-induced service 
disruptions.
    Because the the Network Group's Y2K report is pending final 
approval by the NSTAC, specific comments on the group's findings and 
recommendations are not available for public disclosure at this time. 
If the report is approved as anticipated at the September NSTAC 
meeting, the recommendations will be forwarded to the President and 
subsequently made available to interested parties. It would be our 
pleasure to forward copies to you, Mr. Chairman, and to other members 
of this committee at that time.
            iv. nstac 1997 widespread outage subgroup report
    In addition to reporting on our important Y2K work, we also have 
been asked to comment this morning on the NSTAC's 1997 report to the 
President addressing the probability of a widespread telecommunications 
outage. (The report is attached as Appendix B.) While this report 
preceded and is not connected to NSTAC's current assessment of Y2K 
issues, it is highlighted today to convey our understanding of 
contingency planning for, and recovery from, a severe 
telecommunications outage, should one occur.
    In April 1997, Dr. John Gibbons, Assistant to the President for 
Science and Technology, asked the NSTAC to provide its views on the 
possibility of a widespread service outage in the public telephone 
network. The NSTAC's Widespread Outage Subgroup (WOS) was established 
in July 1997 to address Dr. Gibbons' inquiry. The NSTAC approved and 
forwarded to the President on December 10, 1997, the group's final 
report.
    The WOS began its task by developing a definition of a widespread 
telecommunications outage. It was defined as--

        A sustained interruption of telecommunications service that 
        will have a strategic significance to Government, industry, and 
        the general public. Such an outage would likely affect the 
        telecommunications service in at least one region of the 
        country including at least one major metropolitan area. It 
        would involve multiple carriers, affecting both long distance 
        and local service, and significantly degrade the ability of 
        other essential infrastructures to function. Such an outage 
        would have an impact on the availability and integrity of 
        telecommunications service for at least a significant portion 
        of a business day.\1\
---------------------------------------------------------------------------
    \1\ ``Report on the Likelihood of a Widespread Telecommunications 
Outage,'' The President's National Security Telecommunications Advisory 
Committee, December 1997. (See Appendix B.)

The WOS report recognized threats to, and vulnerabilities of, the 
public telecommunications network, such as equipment malfunctions, 
natural hazards, sabotage, and physical design. It also assessed 
potential concerns posed by the changing network environment (e.g., new 
technologies and regulatory mandates), as well as concerns that the 
growing threat from information intrusions could trigger systemic 
network failures.
Findings of the widespread outage report
    The U.S. telecommunications service providers have historically 
offered unparalleled robustness, availability, and quality. Although 
the track record of the PN is superlative, natural and technological 
threats could adversely affect telecommunications services. These same 
threats could also disrupt other critical infrastructures, such as 
electric power, on which the PN is highly dependent for sustained 
operation. While the PN's supporting technologies provide an expanding 
array of services and features, and facilitate robustness, these same 
supporting technologies can introduce exploitable vulnerabilities with 
adverse effects on service availability and reliability.
    The WOS report addressed several key issues. Perhaps most 
important, it examined the extent to which a widespread, sustained 
interruption of public telephone service--caused by common equipment or 
software failures, sabotage, or any other factor--was a realistic 
concern. The WOS determined the probability of such an outage to be 
low. Nevertheless, because of the potential impact of a widespread 
outage, industry's response to such an event must be given 
consideration.
    To that end, the report looked at industry's plan for intercarrier 
coordination to facilitate recovery of the network from a widespread 
outage. The WOS found that existing carriers had disaster recovery 
plans in place for quickly recovering from outages. Many of these 
recovery plans include bilateral and multilateral mutual aid 
agreements, designed to address multicarrier network problems. These 
agreements focus on resource sharing, such as supplies, portable 
equipment, motor vehicles, personnel, and may also dictate arrangements 
for temporary routing of traffic and services over another carrier's 
spare facilities. In addition to formal agreements, informal 
arrangements were found to exist throughout the industry for 
intercarrier and carrier-vendor communication and cooperation during 
emergencies. The vast majority of telecommunications disruptions 
requiring a multicarrier/vendor response effort are addressed through 
industry cooperation. Instead of precisely defining the scope of 
network sharing or resource lending arrangements, the industry 
approaches each incident with a customer-focused ``can do'' approach 
with a long history of success. Informal arrangements offer additional 
flexibility in dealing with emergencies because each telecommunication 
outage situation is unique. These informal arrangements leverage 
relationships between network managers already established within the 
industry through day-to-day interaction and operations.
    The industry has had limited experience with a systemic, widespread 
network outage. Therefore, the WOS found there was no industrywide plan 
to facilitate intercarrier coordination for recovering from a 
widespread outage of this nature. While an industrywide plan had not 
yet been developed, companies had prepared internal plans and processes 
for maintaining the integrity of their own networks. These plans and 
processes included specifics for diagnosing problems, identifying 
solutions, and ensuring service could be restored as rapidly and 
orderly as possible.
    Looking further at contingency planning and recovery from a 
widespread outage, the NSTAC's subgroup also questioned whether 
existing communication and coordination mechanisms among service 
providers were adequate for the efficient diagnosis of the problem, 
identification of technical solutions, and restoration of service. 
Although some agreements, communications systems, and coordinating 
mechanisms were found to exist between and among carriers, it was 
questionable whether they would be sufficient response to a severe 
widespread service outage. To assist in service restoration, most of 
the larger telecommunications companies have alternate communications 
capabilities between critical centers in their networks. Reconnection 
with other networks would be initiated only after individual carriers 
were confident of the health of their own network and those to which 
they were connecting. During this phase, a means of communication and 
coordination between and among critical centers would be indispensable. 
Several communication capabilities exist outside the PN for 
intercarrier coordination of service, including, for example, the NCC's 
network, the National Telecommunications Coordinating Network (NTCN).
    The WOS report also identified legal and regulatory obstacles to a 
rapid recovery from a widespread outage. The NSTAC's Legislative and 
Regulatory Group (LRG) further analyzed these legal and regulatory 
obstacles and found the most significant barrier to be uncertainty 
regarding which authority could expeditiously address carriers' 
concerns regarding their compliance with relevant laws or regulations 
during emergency situations. The LRG is investigating the seriousness 
of that concern and will present its findings and recommendations at 
the September 10 NSTAC meeting.
    Finally, the WOS report found the NCC to be the appropriate 
interface between the telecommunications service providers and the 
Government. This interface will assure the President that restoration 
priorities meet the national interest. For many years, the 
telecommunications industry has voluntarily provided the NCC with 
relevant information pertaining to major outages. In addition to having 
notable experience, the Office of the Manager, NCS, has a direct 
communications capability with the Executive Office of the President to 
keep the President apprised of the progress of restoration efforts in 
the event of an outage affecting multiple companies.
Recommendations of the widespread outage report
    Contingency planning is key. Recognizing that there can be no 
ironclad guarantee against a widespread outage, the report offered 
several cost-effective recommendations for the President and the NSTAC 
to further decrease the overall probability of a widespread outage and 
to improve recovery plans and procedures. The following recommendations 
are quoted from the report:

  --Improve Intercarrier Coordination for Widespread Outage Recovery. 
        Because industry plans and coordination procedures for 
        responding to a widespread telecommunications outage were found 
        to be company-oriented, the Network Group recommended that the 
        President direct the appropriate Federal departments and/or 
        agencies to work with industry to improve intercarrier 
        coordination plans and procedures.
  --Remove Legal and Regulatory Obstacles to Widespread Outage 
        Recovery. The WOS recommended that the President encourage the 
        Federal Communications Commission (FCC) to maintain a Defense 
        Commissioner at all times to help industry and Government 
        overcome legal and regulatory impediments to widespread outage 
        recovery. In addition, it was recommended that the President 
        encourage the FCC to guard against premature implementation of 
        ``unseasoned'' technologies that might contribute to the 
        possibility of a widespread outage.
  --Advance the State-of-the-Art for Software Integrity and 
        Interoperability to Reduce the Probability of a Widespread 
        Outage. All U.S. infrastructures, including the PN, continue to 
        be increasingly reliant on software-controlled information 
        systems. Security analysis of software products is not 
        universally practiced by major equipment manufacturers. It is 
        possible, because of the complexity of the large systems 
        involved, that hidden, malicious code, or unintentional code 
        interactions could allow unauthorized access to network systems 
        or lead to protracted denial of service. The WOS recommended 
        that the President task the appropriate Federal departments and 
        agencies to work with industry to advance the state-of-the-art 
        for software integrity. In addition, the WOS recommended that 
        the NSTAC work to increase awareness within the 
        telecommunications industry of the importance of software 
        security and the use of best business practices for managing 
        complex automated systems.
  --Expand Research and Development (R&D) Efforts to Address 
        Telecommunications Technology Vulnerabilities. The WOS advised 
        the President to direct the expansion of government R&D efforts 
        to address the most significant vulnerabilities of new and 
        evolving telecommunications technologies and services. As a 
        specific case, the WOS recommended that the President encourage 
        the FCC to examine and assist with the implementation of the 
        Network Reliability and Interoperability Council (NRIC) 
        recommendations related to potential widespread outage 
        vulnerabilities attributed to physical network design and new 
        supporting technologies.
  --Foster Education and Awareness. The WOS recommended that NSTAC, as 
        part of its outreach efforts, offer the NSIE model to the 
        Network Interconnection/Interoperability Forum (NIIF) for 
        consideration and potential use by network operations managers. 
        The NSTAC was also encouraged the use the NSIE model to help 
        foster effective plans, procedures, and intercarrier 
        relationships in the increasingly competitive 
        telecommunications environment.

    The NSTAC is continuing to monitor issues related to the 
reliability and security of the PN and will provide future 
recommendations in that area should they be necessary.
                               v. closing
    In light of the potential threat posed by Y2K, we are experiencing 
a heightened emphasis on protecting our Nation's critical 
infrastructures. Simultaneously, ``worse case scenario'' contingency 
planning has gained broader public interest in the face of what is a 
widely publicized technology and management problem. Our national 
infrastructures--including telecommunications, financial services, 
electric power, and transportation--represent the cornerstone of our 
Nation's economic, political, and military strength. These 
interdependent infrastructures rely on a growing and vital web of 
communications, computer, and associated information technologies. 
Similarly, natural and technological threats--including those posed by 
Y2K--could disrupt other critical infrastructures, specifically 
electric power, on which the information infrastructure is highly 
dependent for sustained operation. Understanding and addressing the 
interdependent nature of critical infrastructures is immensely 
important to protecting the Nation from an unmanageable Y2K crisis and 
must not be overlooked.
    The NSTAC believes the telecommunications infrastructure is robust 
and reliable, but even the most exhaustive efforts can not guarantee 
total Y2K eradication from networks, services, or systems. Further, we 
must understand that the millennium change is not a January 1, 2000 
problem; it is a long-term problem beginning before, and extending well 
beyond the ringing in of the new century. The NSTAC will continue to 
focus on NS/EP communications and overall continuity of service in 
light of the Y2K problem. Of course, information sharing is crucial to 
our efforts, and for that, we will rely on our long-standing success as 
a unique and trusted environment for high-level industry exchange of 
critical NS/EP telecommunications information.
    We appreciate the opportunity to testify today. The NSTAC looks 
forward to sharing the results of its Y2K analysis with you pending 
final consideration and approval of the report.

                       Appendix A.--NSTAC Members

The President's National Security Telecommunications Advisory Committee 
                                (NSTAC)

                    membership (as of july 21, 1998)
Mr. Lester M. Alberthal, Jr., Chairman and CEO, Electronic Data Systems 
(EDS)
*Mr. John H. Mattingly, President, COMSAT Satellite Services, COMSAT 
Corporation
*Mr. C. Michael Armstrong, Chairman and CEO, AT&T
*Mr. Michael T. Smith, Chairman and CEO, Hughes Electronics Corporation
*Mr. James W. Evatt, President, Information Services and Communications 
Systems, The Boeing Company
Dr. J. Robert Beyster, Chairman and CEO, Science Applications 
International Corporation (SAIC)
Ms. Margo H. Briggs, President and CEO, Executive Security and 
Engineering, Technologies, Inc. (ESET)
Dr. Vance D. Coffman, CEO and Vice Chairman, Lockheed Martin 
Corporation
*Mr. J. D. Cosgrove, President, Avionics and Communications Rockwell 
Collins, Inc. Rockwell International Corporation
Mr. D. Travis Engen, Chairman, President and CEO, ITT Industries, Inc.
Mr. William T. Esrey, Chairman and CEO, Sprint Corporation
Mr. Joseph T. Gorman, Chairman and CEO, TRW, Inc.
Mr. William J. Hilsman, Chairman, Advanced Digital Technologies Company 
(ADTC)
Mr. Van B. Honeycutt (NSTAC Vice Chair), President and CEO, Computer 
Sciences Corporation (CSC)
Mr. Charles R. Lee (NSTAC Chair), Chairman and CEO, GTE Corporation
Mr. Craig O. McCaw, Chairman, Teledesic Corporation
Mr. Solomon D. Trujillo, President and CEO, US WEST, Inc.
Mr. Robert W. Orent, First Vice Chairman, U.S. Telephone Association 
(USTA)
*Mr. Dennis J. Picard, Chairman and CEO, Raytheon Company
Mr. Bert C. Roberts, Jr., Chairman and CEO, MCI Communications 
Corporation
Mr. Charles E. Robinson, Chairman, President and CEO, Pacific Telecom, 
Inc. (PTI)
Mr. Donald J. Schuenke, Chairman, Northern Telecom, Inc. (Nortel)
Mr. Larry Schumann, President and CEO, National Telecommunications 
Alliance, Inc.
*Mr. John W. Sidgmore, Vice Chairman and CEO, WorldCom, Inc.
Mr. Martin A. Stein, Vice Chairman, Automation and Support Services, 
BankAmerica Corporation
*Mr. Gary L. Tooker, Chairman, Motorola, Inc.
*Mr. Lawrence A. Weinbach, Chairman and CEO, Unisys Corporation

    * Approval pending at The White House.

           Appendix B.--Network Group 1997 Widespread Outage

                            Subgroup Report

                           executive summary
    In April 1997, Dr. John Gibbons, Assistant to the President for 
Science and Technology, requested that Mr. Charles Lee, Chairman of the 
President's National Security Telecommunications Advisory Committee 
(NSTAC), provide NSTAC's forward-looking views on the possibility of a 
widespread service outage in the public telephone network. The 
Widespread Outage Subgroup was established in July 1997 to address Dr. 
Gibbons' letter.
    A widespread outage is defined as a sustained interruption of 
telecommunications service that will have strategic significance to 
government, industry, and the general public. Such an outage would 
likely affect the telecommunications service in at least one region of 
the country including at least one major metropolitan area. It would 
involve multiple carriers, affecting both long distance and local 
service, and significantly degrade the ability of other essential 
infrastructures to function. Such an outage would impact the 
availability and integrity of telecommunications service for at least a 
significant portion of a business day.
    U.S. telecommunications service providers have historically offered 
robustness, availability and quality unparalleled by other public 
services. Although the public network (PN) track record is superlative, 
natural and technological threats could adversely affect 
telecommunications service. These threats could also disrupt other 
critical infrastructures, such as electric power, on which the PN is 
highly dependent for sustained operation. While the PN's supporting 
technologies provide an expanding array of services and features, and 
facilitate robustness, these same supporting technologies can introduce 
exploitable vulnerabilities with adverse effects on service 
availability and reliability. Considering these threats and 
vulnerabilities, the potential concern for a widespread network outage 
is reasonable. Given the limited precedent for telecommunications 
outages of this magnitude, NSTAC members' prior experiences with 
smaller-scale outages lead them to believe there is a low probability 
of a widespread, sustained outage of public telephone service. The 
potential societal impacts of such an outage are high enough to warrant 
consideration.
    The Widespread Outage Subgroup offers the following cost-effective 
recommendations for the NSTAC and the President to decrease the overall 
probability of a widespread outage. These measures will further 
facilitate the readiness of the PN for a more open, interconnected, and 
uncertain global information infrastructure.

  --Improve Inter-Carrier Coordination for Widespread Outage 
        Recovery.--Current industry plans and coordination procedures 
        for responding to a widespread telecommunications outage are 
        company oriented. The President should direct the appropriate 
        Federal departments and/or agencies to work with industry to 
        improve inter-carrier coordination plans and procedures. To 
        support this mechanism, communications capabilities are 
        required between Government and the telecommunications industry 
        to respond to and recover from a possible widespread outage 
        affecting National Security Emergency Preparedness (NSEP) 
        services.
  --Remove Legal and Regulatory Obstacles to Widespread Outage 
        Recovery.--It is not clear who has the authority to resolve 
        legal and regulatory impediments to the rapid and orderly 
        restoration of service during a widespread outage. The 
        President should encourage the Federal Communications 
        Commission (FCC) to maintain a Defense Commissioner at all 
        times to help industry and Government overcome these 
        impediments and to clarify the Defense Commissioner's authority 
        to address NSEP telecommunications regulatory concerns. The 
        President should also encourage the FCC to ensure Local Number 
        Portability (LNP) national standards and requirements, 
        including NSEP, are agreed on and adhered to before 
        implementing LNP on a widespread basis. Sufficient time to 
        complete reliability, interoperability, and security testing of 
        new services and products should be allowed prior to 
        implementing regulatory mandates.
  --Advance the State-of-the-Art for Software Integrity and 
        Interoperability to Reduce the Probability of a Widespread 
        Outage.--All U.S. infrastructures, including the PN, continue 
        to be increasingly reliant on software-controlled information 
        systems. Security analysis of software products is not 
        universally practiced by major equipment manufacturers. It is 
        possible, because of the complexity of the large systems 
        involved, that hidden, malicious code or unintentional code 
        interactions could allow unauthorized access to network systems 
        or lead to protracted denial of service. The President should 
        task the appropriate Federal departments and agencies to work 
        with industry to advance the state-of-the-art for software 
        integrity. The NSTAC should work to increase awareness within 
        the telecommunications industry of the importance of software 
        security and the use of best business practices for managing 
        complex automated systems.
  --Expand Research and Development (R&D) Efforts to Address 
        Telecommunications Technology Vulnerabilities.--The President 
        should direct the expansion of government R&D efforts to 
        address the most significant vulnerabilities of new and 
        evolving telecommunications technologies and services. As a 
        first step, existing R&D efforts should be examined and 
        coordinated to determine any necessary increases. Industry 
        should be urged to participate in these efforts. As a specific 
        case, the President should encourage the FCC to examine and 
        assist with the implementation of the Network Reliability and 
        Interoperability Council (NRIC) recommendations as they relate 
        to potential widespread outage vulnerabilities attributed to 
        physical network design and new supporting technologies.
  --Foster Education and Awareness.--The NSTAC, as part of its outreach 
        efforts, should offer the NSIE model to the Network 
        Interconnection/Interoperability Forum (NIIF) for consideration 
        and potential use by network operations managers. The NSTAC 
        should encourage the use of this model to help foster effective 
        plans, procedures, and inter-carrier relationships in the 
        increasingly competitive telecommunications environment.
                           1.0  introduction
1.1  Background
    In April 1997, Dr. John Gibbons, Assistant to the President for 
Science and Technology, wrote to Mr. Charles Lee, Chairman of the 
President's National Security Telecommunications Advisory Committee 
(NSTAC), seeking the NSTAC's forward-looking views on the possibility 
of a widespread, sustained interruption of the public telephone 
network. In response, the NSTAC's Network Group and Operations Support 
Group established the Widespread Outage Subgroup (WOS) to answer Dr. 
Gibbons' inquiry. This report provides NSTAC's views on the validity of 
this concern, considering the rapid changes foreseen in the industry 
structure, regulation, and technologies of the public 
telecommunications network and other critical infrastructures.
1.2  Scope
    This report focuses on the current public telecommunications 
network and recognizes traditional threats and vulnerabilities, such as 
equipment malfunctions, natural hazards, sabotage, and physical design. 
It also addresses potential concerns as the network evolves through new 
technologies and regulatory mandates, as well as the growing threat 
from information system intrusions which could trigger systemic network 
failures.
    The specific issues addressed are drawn directly from Dr. Gibbons' 
letter, including: (1) the likelihood of a widespread outage; (2) 
possible causes of outages; (3) coordination mechanisms required for 
recovery of network operations; and (4) the ability of service 
providers to keep the President apprised of recovery activities and 
status.
1.3  Widespread Outage Definition
    A widespread outage is defined as a sustained interruption of 
telecommunications service that will have strategic significance to 
government, industry, and the general public. Such an outage would 
likely affect the telecommunications service in at least one region of 
the country including at least one major metropolitan area. It would 
involve multiple carriers, affecting both long distance and local 
service, and significantly degrade the ability of other essential 
infrastructures to function. Such an outage would have an impact on the 
availability and integrity of telecommunications service for at least a 
significant portion of a business day.
                             2.0  objective
    This report answers the following questions:

  --To what extent is a widespread, sustained interruption of public 
        telephone service--because of common equipment, software, 
        single point of failure, sabotage, or any other factor--a 
        realistic concern?
  --What plan does the industry have for inter-carrier coordination to 
        facilitate recovery of the network from a widespread outage?
  --Are existing communication and coordination mechanisms among 
        service providers sufficient for the efficient diagnosis of the 
        problem, identification of technical solutions, and restoration 
        of service from an outage of this type?
  --Are there legal or regulatory obstacles that would hinder recovery 
        from such an outage?
  --What interface between the telecommunications service providers and 
        the Government would allow the President to be sure that 
        restoration priorities meet the national interest? How would 
        the service providers keep the President apprised of the 
        progress of restoration efforts in the event of an outage 
        affecting multiple companies?

    In responding to Dr. Gibbons' questions, this report acknowledges 
both the current and future states of the public network (PN).\2\ It 
further discusses the potential impact of new technologies and 
regulatory mandates on robustness and reliability.
---------------------------------------------------------------------------
    \2\ ``The PN includes any switching system or voice, data or video 
transmission system used to provide communications services to the 
public (e.g., public switched networks, public data networks, private 
line services, wireless systems, and signaling networks)'' ANSIE Risk 
Assessment, December 1995.
---------------------------------------------------------------------------
                             3.0  findings
    United States (U.S.) telecommunications service providers have 
historically offered unparalleled service robustness, availability, and 
quality. The June 1997 Network Reliability Steering Committee report 
acknowledged that the PN has maintained a 99.9 percent operational 
availability while the network has experienced significant growth and 
technological change. Although the PN's track record is superlative, 
known threats do adversely affect telecommunications service. Natural 
disasters such as earthquakes and hurricanes have disrupted elements of 
the PN, but overall the industry has been successful in mitigating the 
service impact. Outages in other critical infrastructures, such as 
electric power,\3\ also stress the PN's reliability. While the PN's 
evolving technologies provide an expanding array of services and 
features and facilitate robustness, these same technologies can 
introduce vulnerabilities which, if exploited, could adversely affect 
service availability and reliability. The rapid implementation of 
changes to the network fostered by the Telecommunications Act of 1996 
(e.g., Local Number Portability, interconnection, unbundling, 
infrastructure sharing, and collocation) have the potential to 
introduce further vulnerabilities into the PN. Considering these 
factors, it is prudent to consider the possibility of an unprecedented 
and widespread telecommunications outage.
---------------------------------------------------------------------------
    \3\ On July 2, 1996, a massive power blackout swept across the 
western United States. One telecommunications carrier reported that 87 
of its 1,475 switches used backup generators or batteries to remain in 
service. Technicians were sent to switches where batteries were being 
used and in some cases secondary generators were sent to central 
offices where heat-caused battery exhaustion threatened to shut down 
the system. Switches on backup power served about 70,000 customers, yet 
the network remained ``fully operational'' throughout the power 
interruption.
---------------------------------------------------------------------------
3.1 To what extent is a widespread, sustained interruption of public 
        telephone service--because of common equipment, software, 
        single point of failure, sabotage, or any other factor--a 
        realistic concern?
    Given the limited precedent for telecommunications outages of this 
magnitude, NSTAC members' prior experiences with smaller-scale outages 
lead them to believe that there is a low probability of a widespread, 
sustained outage of service. However, the potential impact on society 
of such an outage is high enough to warrant consideration. As an 
example, the Common Channel Signaling (CCS) disruptions experienced in 
1991 \4\ by some of the NSTAC member companies provided a strong 
impetus for subsequent improvements to network standards, software, and 
hardware.
---------------------------------------------------------------------------
    \4\ In June and July 1991, network outages occurred in several 
parts of the United States that were attributed to software errors in 
the control elements of the SS7 network. Network switching outages and 
call processing delays were experienced in Los Angeles, CA, San 
Francisco, CA, Pittsburgh, PA, and parts of Maryland, Virginia, West 
Virginia and the District of Columbia.
---------------------------------------------------------------------------
    Several additional examples of contributing factors are described 
in the following subsections.
3.1.1  Software
    Within the modern PN, all of the nodes within each network, as well 
as those within interconnecting networks, are controlled by software 
furnished by the node equipment manufacturers or their vendors. This 
software, as with all computer software, is vulnerable to design flaws, 
implementation errors, and other problems that could cause it to fail 
or not function as desired, despite its designers' best efforts. 
Software patches are frequently released to add minor feature 
enhancements, as well as to correct previous errors. While testing is 
performed to ensure the software operates as designed and intended, it 
is not feasible to test for and against every conceivable network 
condition. Finding and mitigating software mistakes is often a 
difficult and imperfect process. Detecting subtle but intentional and 
destructive software alterations could be much more problematic. 
Destructive code, if propagated through large portions of the PN (for 
example, in a commonly-used equipment node, database, or protocol), 
could cause widespread turmoil when activated.
    Security analysis of software products, including patches, minor 
version updates, and full new releases, is not universally practiced by 
many manufacturers. Adequate tools to verify the anti-tampering 
integrity of the product are not widely used or, in some cases, may not 
be available. Most software testing is performed to ensure the program 
features interact and operate as intended. It is possible, because of 
the complexity of the large systems often involved, that hidden, 
malicious code or unintentional code interactions could allow 
unauthorized access to network systems or lead to a protracted denial 
of service. For example, the urgent need to update software-dependent 
systems, nodes, and databases to accommodate Year 2000 or Local Number 
Portability (LNP) functionality could create an environment where 
software introduced into the network fabric may result in 
unintentionally anomalous network behavior.
3.1.2  SONET operations control
    The incorporation of Synchronous Optical Network (SONET) as the 
transport medium of choice for trunks, data communications lines, 
asynchronous transfer mode (ATM) and common channel signaling (CCS) 
links (also known as Signaling System 7) makes it among the most 
crucial of PN components. Despite its importance to the health of 
SONETbased networks, SONET's address resolution functions support 
almost no security measures that could prevent an intruder from 
subverting it. An attack on the control protocols within portions of a 
SONET network could degrade operations, with a resulting loss of 
control of the SONET network elements and transport capabilities.
3.1.3  CCS (SS7) gateway screening
    Public networks are dependent on CCS, a packet-switched data 
network employing Signaling System 7 (SS7) protocols, to set up and 
terminate calls as well as transmit advanced feature data such as 
Caller ID. A second application of SS7 is its use as a rapid transport 
network for fraud protection and billing authorization within wireless 
and wireline networks. Because of publicly-available detailed 
information about SS7 protocols, an adversary could potentially exploit 
the CCS packet data network by independently generating SS7 messages 
and injecting them into the PN signaling links.
    SS7 is one of many network capabilities subject to unbundling and 
widespread interconnection as part of the regulatory scheme 
implementing the Telecommunications Act of 1996. In addition, a number 
of commercially-available devices and tools have SS7 message generation 
capabilities. The pro-competitive impetus to open SS7 networks up to 
traffic other than that generated by the service provider operating 
those networks, coupled with the proliferation of third parties who 
desire to access it, reflects the SS7 network's importance. Loss of, or 
damage to, the SS7 network almost inevitably precipitates a 
corresponding degradation or interruption of service to the PN. SS7 
network and software security is therefore a requirement of substantial 
significance to reliability.
    Gateway screening is one of a very limited set of SS7 security 
tools currently available to all network service providers and is 
implemented at the interface between service providers' networks. 
Presently, there is no industry-wide understanding of how gateway 
screening should be extended into the new competitive network 
environment. Without ``standardized'' screening, large quantities of 
malicious or erroneous messages could lead to a widespread degradation.
    Many network subsystems, such as operations support systems (OSS), 
which are used by incumbent carriers for operations, maintenance and 
billing, were not designed for third-party access. This may be 
particularly problematic considering the number of potential new 
service providers that will need access to incumbent networks and 
subsystems, including the CCS network and OSSs. Many of these new 
providers are not familiar with security considerations and practices 
and could present risks to overall network reliability. There is 
currently no overall unified scrutiny of the interconnected CCS 
networks for real-time management and control to guard against 
intrusions and unauthorized users.
3.1.4  Physical design
    The U.S. public networks have been designed to preclude single 
points of failure above the local switching level. This has been 
accomplished through substantial investments in both physical and 
logical diversity. As examples, signal transfer points (STP) of SS7 
systems are commonly deployed in mated pairs that are physically and 
electronically redundant as well as geographically diverse. Long-haul 
transmission links between switches are increasingly designed to be 
resilient and self-healing (e.g., SONET rings). Networks are utilizing 
dynamically-controlled routing, with non-hierarchical network 
architectures capable of routing traffic around damaged or congested 
portions of the network in real time. These factors, coupled with the 
diversity of carriers that exist in the United States, contribute to a 
high level of PN reliability and robustness. It is therefore highly 
unlikely that a single point network failure would result in a 
widespread outage of service. This conclusion is supported by the 
continuing success of carriers providing reliable service even while 
experiencing the impact of traditional threats such as natural 
disasters, cable cuts, and power failures.
    Economic tradeoffs, enabled by technological advances, continue to 
cause some carriers to consolidate and collocate both facilities and 
network operations functions. While somewhat decreasing the physical 
diversity of the PN, it has enabled the rapid introduction of advanced 
network management technologies into consolidated control centers. It 
will be important for carriers, service providers and vendors to 
continue to employ ``best practices'' for reliability and security as 
new technologies are deployed, networks continue to expand, and new 
providers connect to the network.
3.1.5  Sabotage
    The act of sabotage can take many different forms. Two primary 
forms of sabotage are damage (physical or electronic) or interference 
with normal operation. Both of these acts result in disruption of 
service. To cause a widespread outage, these disruptions would have to 
occur at a number of facilities, affect multiple carriers, and be 
successfully coordinated to have a significant and measurable impact. 
Sabotage can be instigated by either insiders (e.g., employees, 
contractors), outsiders (e.g., hackers, criminals, nation-states), or--
more likely--both. Multiple acts of sabotage may use different attack 
methods and have different goals, which would increase the confusion 
and diminish service providers' ability to effectively restore network 
services. The massive coordination and long-range planning required to 
execute such an attack, while eluding law enforcement and intelligence 
agencies, coupled with the physical and logical diversity of the PN, 
implies a low probability of success.
    In summary, the likelihood of a widespread, sustained outage of 
service resulting from sabotage is remote.
3.1.6  Introduction of new technologies or services
    New technologies, by their nature, are often more complex and 
sometimes create unintended consequences and unexpected interactions 
among subsystems. Because new technologies cannot be tested for and 
against every conceivable set of events or network conditions, 
unforeseen vulnerabilities may be introduced into the network.
    Rapid introduction of changes mandated by the Telecommunications 
Act of 1996 (e.g., Local Number Portability, seamless interconnection, 
unbundling, infrastructure sharing, and collocation) could potentially 
introduce unforeseen vulnerabilities into the PN. The 
Telecommunications Act requires existing carriers to allow new carriers 
to interconnect with existing networks ``at any technically feasible 
point.'' \5\ The lack of standards and interfaces to support multiple 
carrier use of OSS's increases the likelihood of potential conflicts 
and mistakes. Additionally, security and privacy concerns must be 
addressed as these standards and interfaces are developed. Conflicts 
and mistakes, or overt malicious actions, increase the probability of a 
significant outage. The Network Reliability and Interoperability 
Council's (NRIC) report to the FCC, published in July 1997, provides 
additional guidance and recommendations to be considered in developing 
such standards.
---------------------------------------------------------------------------
    \5\ Telecommunications Act of 1996 (47 U.S.C. Section 251c(2)(B)).
---------------------------------------------------------------------------
    Increasing connectivity of OSS and PN control mechanisms to the 
Internet remains an item of NSTAC concern. As described in ``An 
Assessment of the Risk to the Security of Public Networks'' in December 
1995:
        Connections to the Internet are increasing, and while many 
        service providers have exercised due care in isolating critical 
        network systems and components from more open-enterprise data 
        networks and the Internet, there may still be potentially 
        exploitable connectivity, such as through a restrictive router 
        or firewall. An error in the design, configuration, or 
        implementation of such a protective barrier could lead to 
        compromise of critical systems from anywhere in the world.'' 
        \6\
---------------------------------------------------------------------------
    \6\ ``An Assessment of the Risk to the Security of Public 
Networks,'' Network Security Information Exchange (NSIE), December 
1995.

Conversely, the Internet is highly dependent on PN-based switching and 
transport networks for long-haul transmission of traffic. A disruption 
or outage in the PN will likewise interfere with Internet traffic.
3.2  What plan does the industry have for inter-carrier coordination to 
        facilitate recovery of the network from a widespread outage?
    There are two categories of widespread outages. The first type is 
caused by the impact of traditional hazards, threats, and 
vulnerabilities. The other is characterized by a systemic and 
widespread network failure.
3.2.1  Traditional hazards, threats, and vulnerabilities
    Existing carriers have disaster recovery plans and a proven track 
record of quickly recovering from traditional outages. Included in many 
of these recovery plans are bilateral and multilateral mutual aid 
agreements, designed to address multicarrier network problems. These 
agreements focus on resource sharing, such as supplies, portable 
equipment, motor vehicles, personnel, and may also dictate arrangements 
for temporary routing of traffic and services over another carrier's 
spare facilities. In addition to formal agreements, informal 
arrangements exist throughout the industry for inter-carrier and 
carrier-vendor communication and cooperation during emergencies. The 
vast majority of telecommunications disruptions that require a multi-
carrier/vendor response effort are addressed through industry 
cooperation. Instead of precisely defining the scope of network sharing 
or resource lending arrangements, the industry approaches each incident 
with a customer-focused ``can do'' approach that has a long history of 
success. Informal arrangements offer additional flexibility in dealing 
with emergencies because each telecommunication outage situation is 
unique. These informal arrangements leverage relationships between 
network managers already established within the industry through day-
to-day interaction and operations.
3.2.2  Systemic and widespread network failure
    The industry has had limited experience with a systemic, widespread 
network outage. Currently, there is no industry-wide plan to facilitate 
inter-carrier coordination for recovering from a widespread outage of 
this nature. While an industry-wide plan has not yet been developed, 
companies have prepared internal plans and processes for maintaining 
the integrity of their own networks. These plans and processes include 
specifics for diagnosing problems, identifying solutions, and ensuring 
service can be restored as rapidly and orderly as possible.
3.3  Are existing communication and coordination mechanisms among 
        service providers sufficient for the efficient diagnosis of the 
        problem, identification of technical solutions, and restoration 
        of service from an outage of this type?
    Although some agreements, communication systems, and coordinating 
mechanisms do exist between and among carriers, it is questionable 
whether they would be a sufficient response to a severe widespread 
service outage. In the event of an outage affecting multiple carriers, 
individual carriers will first concentrate on restoring service in 
their own systems before reestablishing connections with other 
carriers. To assist in service restoration, most of the larger 
telecommunications companies have alternate communications capabilities 
between critical centers in their networks. These alternatives include 
private line networks, high frequency (HF) radio, and satellite 
telephone systems.
    Reconnection with other networks would only be initiated after 
individual carriers are confident of the health of their own network 
and those to which they are connecting. It is during this phase that a 
means of communication and coordination between and among critical 
centers is indispensable. Several communications capabilities exist 
outside the PN for inter-carrier coordination of service restoration. 
The Backup Emergency Alerting Management System (BEAMS) is a switched 
private line network operated by the National Telecommunications 
Alliance (NTA) connecting selected telecommunications carriers, 
equipment and switch vendors, and the National Communications System 
(NCS). The National Telecommunications Coordinating Network (NTCN), a 
multimedia network administered by the NCS's National Coordinating 
Center for Telecommunications (NCC), provides emergency communications 
among critical Federal Government and industry operations centers. 
Although some of the major U.S. carriers are connected via BEAMS and/or 
NTCN, both networks would require expansion to meet an emerging need 
for inter-carrier coordination of restoration from a widespread 
telecommunications outage.
    Several industry fora have taken strides to alleviate potential 
coordination problems in the event of a catastrophic outage. For 
example, the Network Interconnection/Interoperability Forum (NIIF) of 
the Alliance for Telecommunications Industry Solutions (ATIS) developed 
emergency traffic management guidelines for network management 
personnel at local and interexchange carriers. The guidelines provide 
alternatives for dealing with network emergencies, including network 
congestion, switch or network failures, and SS7 failures. In addition, 
the NIIF maintains contact directories for use in emergencies. These 
directories are targeted toward incident type and include contact and 
reporting numbers for network management centers, for use in the event 
of catastrophic SS7 failures, media simulated mass calling events, and 
other service troubles. The NIIF and other committees within ATIS 
address industry-wide issues concerning telecommunications 
interconnection and interoperability, network reliability analyses, and 
implementation and deployment of new technologies, including 
Synchronous Optical Network (SONET) and Advanced Intelligent Network 
(AIN) services.
    A successful coordinating mechanism requires a high level of mutual 
trust and information sharing. An example of such a mechanism is the 
Network Security Information Exchange (NSIE),\7\ whose goal is to share 
information and experiences among telecommunications network security 
managers. The NSIE has established trusted relationships among and 
between the government and industry members. Trust among industry and 
government participants facilitates responses to routine and emergency 
security incidents.
---------------------------------------------------------------------------
    \7\ The Network Security Information Exchange (NSIE) is a forum for 
industry and Government members to share and coordinate information 
security knowledge that will assist in preventing, detecting, and/or 
investigating public network penetrations. The NSIE identifies issues 
involving penetration or manipulation of software and databases 
affecting NSEP telecommunications, and exchanges views on threats, 
incidents, and vulnerabilities affecting the PN. The current NSIE 
membership includes 9 Government organizations from the law 
enforcement, national defense, and intelligence communities, and 19 
NSTAC member companies representing the telecommunications, information 
systems, and financial industries.
---------------------------------------------------------------------------
    Much of the telecommunications industry's success in recovering 
from outages is attributed to long-standing inter-carrier relationships 
existing among incumbent network managers that arise from day-to-day 
interaction and operations. In the increasingly competitive 
telecommunications market, this level of cooperation and trust may be 
difficult to sustain. Although not a perfect model, the NSIE example 
could be offered to industry network operations managers. Through the 
auspices of the NIIF, industry might benefit from an NSIE-like body to 
share their inter-carrier operations concerns in the increasingly 
diverse and competitive environment.
3.4 Are there legal or regulatory obstacles that would hinder recovery 
        from such an outage?
    NSTAC members have identified several legal and regulatory barriers 
to the rapid and orderly restoration of service during a widespread 
outage. For example, the ability of a local exchange carrier to provide 
emergency inter-Local Access Transport Area (LATA) communications to 
state or Federal agencies may prove to be critical to their ability to 
protect the interests of public safety and national security.\8\ In 
addition, it may also be necessary for a carrier to utilize the 
resources of its affiliates to make necessary physical repairs to the 
network that could be perceived to involve manufacturing of 
telecommunications hardware.\9\ Finally, domestic carriers may often 
need to call on the assistance of international carriers to recover 
from a significant outage. While many companies are not prohibited from 
providing in-region inter-LATA and manufacturing services, Sections 271 
and 273 of the Telecommunications Act require that Regional Bell 
Operating Companies (RBOC) satisfy a number of requirements and receive 
Federal Communications Commission (FCC) approval to offer these 
services. No RBOC currently has approval to perform these services, and 
until such approval is requested and obtained, this obstacle remains 
and could potentially hinder recovery from a future widespread outage. 
Additionally, other regulatory safeguards imposed on other companies 
and RBOCs alike could likewise affect the ability of carriers to fully 
use their corporate resources to respond effectively to a widespread 
outage (e.g., restrictions imposed on the financial, marketing, and 
operational interactions of dominant and non-dominant carriers, and FCC 
requirements for carriers to keep their regulated and unregulated 
businesses completely separated).
---------------------------------------------------------------------------
    \8\ In 1991, BellSouth experienced a 1-year delay in receiving a 
Modification of Final Judgment (MFJ) exception. Hurricane Hugo caused 
disruption to the State of South Carolinas private line network. As a 
result, the BellSouth Corporation asked the Department of Justice (DOJ) 
to support a petition seeking an exemption from part of the MFJ in 
order to provide emergency inter-LATA communications for the State of 
South Carolina. After a year delay, and following an extensive public 
comment and review period, the DOJ endorsed the petition.
    For reference, a copy of the request, dated 18 March, 1991, from 
Mr. Ted Lightle, Director, Division of Information Resource Management, 
State of South Carolina, to Ms. Constance K. Robinson, Esq., Acting 
Chief, Communications and Finance Section, Antitrust Division, U.S. 
DOJ, is attached in Appendix C.
    \9\ In 1991, Bell Atlantic Corporation requested Bellcore's 
assistance to restore part of the PSN serving the mid-Atlantic region, 
including Washington D.C. and the Federal Aviation Administration's air 
traffic control system at Newark International Airport. As a Regional 
Bell Operating Company (RBOC) affiliate, however, Bellcore was 
concerned that physical repairs made to the network might be viewed as 
``manufacturing'' and thus violate the then existing MFJ provisions 
prohibiting the manufacturing of telecommunications equipment by the 
RBOC's or their affiliates.
---------------------------------------------------------------------------
    The Telecommunications Act of 1996 transfers many 
telecommunications policy enforcement responsibilities from a single 
Federal judicial official to the FCC and, to a lesser extent, the 
Department of Justice (DOJ). This transfer of authority raises 
questions about the appropriate official(s) or organization(s) 
telecommunications companies should approach for swift and consistent 
guidance in an emergency. It also is unclear whether the FCC has the 
authority to grant temporary waivers of applicable sections of the 
Telecommunications Act during a widespread outage recovery effort, even 
when the waiver is in the public interest. Currently, existing 
regulations regarding the National Security and Emergency Preparedness 
(NS/EP) responsibilities of various Federal officials and 
organizations, as described below, do not place a single Federal 
official in charge of deciding whether to enforce or waive compliance 
with applicable laws or regulations.
3.4.1  Federal Communications Commission
    Executive Order (E.O.) 12472 requires the FCC to perform functions 
during national non-wartime emergencies, including the investigation of 
violations of pertinent law and regulations and the initiation of 
appropriate enforcement actions.\10\ The FCC's rules accordingly assign 
the FCC Defense Commissioner the specific duties of assuring continuity 
of the Commission's NS/EP functions and of approving NS/EP plans and 
programs (including the provision of service by common carriers and the 
investigation and enforcement of violations of Federal law).\11\ These 
regulations task the Defense Commissioner to uphold carriers' 
compliance with applicable law. The rules are unclear, however, as to 
whether they extend to the Defense Commissioner or the entire 
Commission (with or without consultation with the DOJ) the power to 
forbear from enforcing relevant provisions of the Telecommunications 
Act during a crisis. Even if the rules did place one official in 
charge, that one Commissioner may not have the authority to override 
the Telecommunications Act (i.e., permit something that is specifically 
prohibited or precluded by the Act) in an emergency such as a 
widespread outage.
---------------------------------------------------------------------------
    \10\ Executive Order 12472, ``Assignment of National Security and 
Emergency Preparedness Telecommunications Functions,'' April 3, 1984.
    \11\ Federal Communications Commission rules, ``Defense and 
Emergency Preparedness Functions,'' 47 C.F.R. 0.181-0.186.
---------------------------------------------------------------------------
3.4.2  The President
    Section 706(e) of the Communications Act of 1934, as amended, 
empowers the President to suspend or amend, during a national 
emergency, FCC rules applicable to any wire communications facilities. 
Section 706(g), however, prohibits the President from making any 
amendment to the FCC's rules that the agency would not itself be 
authorized by law to make.\12\ Because it is questionable whether the 
FCC Defense Commissioner or the entire Commission by itself could grant 
to service providers waivers from complying with relevant portions of 
the Telecommunications Act, it follows that the President's power to do 
so is also questionable.
---------------------------------------------------------------------------
    \12\ Section 706 of the Communications Act of 1934 (47 U.S.C. 606), 
``War Emergency--Powers of President.''
---------------------------------------------------------------------------
3.4.3  The National Security Council (NSC) and Office of Science and 
        Technology Policy (OSTP)
    Section 2(c)(1)(a) of E.O. 12472 instructs the NSC to coordinate 
the development of policy, plans, programs, and standards within the 
Federal Government for the use of the Nation's telecommunications 
resources during non-wartime conditions. Section 2(b)(2) charges the 
Director, OSTP, to provide appropriate guidance and assistance to the 
President and other Federal organizations responsible for the 
provision, management, or allocation of telecommunications resources 
during such conditions. Section 2(b)(3) further assigns the Director, 
OSTP, with establishing and chairing a Joint Telecommunications 
Resources Board (JTRB) to assist the Director in exercising non-wartime 
telecommunications functions.\13\ Although the NSC and the JTRB might 
help craft future policy initiatives to address the industry's legal 
concerns prior to the occurrence of a widespread outage, it is unclear 
whether either group would play a significant role during an actual 
recovery effort.
---------------------------------------------------------------------------
    \13\ Executive Order 12472, ``Assignment of National Security and 
Emergency Preparedness Telecommunications Functions,'' April 3, 1984. 
The JTRB's membership consists of the Assistant Secretary of Defense, 
Command, Control, Communications, and Intelligence; the Assistant 
Secretary, Communications and Information, of the Department of 
Commerce; the Commissioner, Federal Telecommunications Service, of the 
General Services Administration; the Associate Director, Operations 
Support, of the Federal Emergency Management Agency; the Defense 
Commissioner of the FCC; and the Manager, NCS.
---------------------------------------------------------------------------
3.5  What interface between the telecommunications service providers 
        and the Government would allow the President to be sure that 
        restoration priorities meet the national interest? How would 
        the service providers keep the President apprised of the 
        progress of restoration efforts in the event of an outage 
        affecting multiple companies?
    For many years, the telecommunications industry has provided the 
NCC with relevant information pertaining to major outages. More 
recently it has also provided the FCC with reports of outages that 
conform to the FCC's specific requirements. Because the NCC's mission 
is to monitor NSEP telecommunications, and experience has shown that 
industry willingly provides relevant outage information to the NCC, 
then the NCC is positioned to collect widespread outage information for 
the President. To support this function, the Office of the Manager, 
National Communications System (OMNCS), has a video teleconferencing 
system that is used to communicate directly with the Executive Office 
of the President. The NCC Vision Subgroup is addressing the issue of 
sharing intrusion and network outage information among industry and 
government.
                    4.0  conclusions/recommendations
    While the PN is robust and highly reliable, it is also built on a 
complex, interconnected set of heterogeneous technology platforms. The 
PN can be disrupted by natural calamities, electric power outages, or 
assaulted by hostile forces. In addition, rapid legislative, regulatory 
and market changes could potentially introduce unforeseen vulnerability 
into the PN. Although the probability of a widespread sustained outage 
is low, the high potential societal cost of such an outage requires 
that the concern be addressed. Industry and government can take cost-
effective measures to reduce the overall risk of a widespread outage 
and enable an orderly restoration of service if such an outage occurs.
    Other Industry Executive Subcommittee groups, including the 
Intrusion Detection Subgroup, Information Infrastructure Group, 
Legislative and Regulatory Group, and the NCC Vision Subgroup, are 
examining several of the issues addressed in this report that would 
improve the overall ability of the United States to respond to a 
widespread telecommunications outage. We recommend that their 
conclusions be examined in light of our findings.
    Pursuant to the concerns expressed in Dr. Gibbons' letter, the 
Widespread Outage Subgroup offers the following recommendations:
4.1  Recommendations
4.1.1  Improve inter-carrier coordination for widespread outage 
        recovery
    Current industry plans and coordination procedures for responding 
to a widespread telecommunications outage are company-oriented. Inter-
carrier coordination plans and procedures for responding to a 
widespread telecommunications outage require upgrading to meet new and 
emerging threats.
    The President should direct the appropriate Federal departments 
and/or agencies to:
  --Cooperate with industry to build a mechanism to upgrade current 
        industry:
                --Recovery plans
                --Coordinating mechanisms, and
                --Emergency communications capabilities.
  --Ensure adequate communications capabilities are available between 
        Government and the telecommunications industry, as well as with 
        other critical infrastructures, to respond to and recover from 
        a possible widespread outage affecting NS/EP services.
4.1.2  Remove legal and regulatory obstacles to widespread outage 
        recovery
    There are potential legal and regulatory impediments to the rapid 
and orderly restoration of service during a widespread outage. It is 
not clear who has the authority to resolve these impediments. The 
relative specificity of the rules governing the FCC Defense 
Commissioner's responsibilities suggests that this individual could 
help industry and Government overcome these impediments.
    The President should encourage the FCC to:
  --Appoint and maintain a Defense Commissioner
  --Clarify the Defense Commissioner's authority to:
                --Address NSEP telecommunications regulatory concerns 
                in Commission activities, rulemaking, and particularly 
                during emergency situations.
                --Establish a process for the expeditious resolution of 
                NSEP issues and other impediments affecting industry 
                recovery from a widespread telecommunications service 
                outage.
    Competitive market and legislative mandates often create a rush to 
introduce new products and services before they are fully evaluated in 
the laboratory and under live network conditions (e.g., Local Number 
Portability [LNP]). Before schedules are mandated through FCC 
regulations, reliability, interoperability, and security concerns need 
to be carefully considered to guard against premature implementation of 
``unseasoned'' technologies that may contribute to the possibility of a 
widespread outage. An additional concern is the impact of industry 
restructuring on NSEP communications, especially considering the entry 
of new carriers under the Telecommunications Act.
    The President should also encourage the FCC to:
  --Minimize the possibility of a widespread outage by ensuring LNP 
        national standards and requirements, including NSEP, are agreed 
        on and adhered to before implementing LNP on a widespread basis
  --Allow sufficient time to complete reliability, interoperability, 
        and security testing of new services and products prior to 
        implementing regulatory mandates.
4.1.3  Advance the state-of-the-art for software integrity and 
        interoperability to reduce the probability of a widespread 
        outage
    All U.S. infrastructures, including the PN, continue to be 
increasingly reliant on software-controlled information systems. 
Security analysis of software products is not universally practiced by 
major equipment manufacturers. It is possible, because of the 
complexity of the large systems involved, that hidden, malicious code 
or unintentional code interactions could allow unauthorized access to 
network systems or lead to protracted denial of service.
    The President should:
  --Task the appropriate Federal departments and agencies to work with 
        industry to lead the advance of the state-of-the-art for 
        software integrity through intense research, development, and 
        operational investigations.
    The NSTAC should:
  --Increase awareness within the telecommunications industry of the 
        importance of software security and the use of best business 
        practices for managing complex automated systems.
4.1.4  Expand research and development (R&D) efforts to address 
        telecommunications technology vulnerabilities
    New technologies, by their nature, often are more complex, 
sometimes resulting in unintended consequences and unexpected 
interactions among subsystems. Because new technologies cannot be 
tested for and against every conceivable set of events or network 
conditions, unforeseen vulnerabilities may be introduced into the 
network.
    The President should:
  --Direct the expansion of government R&D efforts to address the 
        resolution of the most significant vulnerabilities of new and 
        evolving telecommunications technologies and services. As a 
        first step, identify or coordinate more closely existing R&D 
        efforts in order to determine any necessary increases.
  --Encourage industry to assist in these efforts.
  --Encourage the FCC to examine and assist with the implementation of 
        the Network Reliability and Interoperability Council (NRIC) 
        recommendations as they relate to potential widespread outage 
        vulnerabilities attributed to physical network design, and new 
        supporting technologies.
4.1.5  Foster education and awareness
    Trust among telecommunications network managers facilitates the 
effective response to routine and emergency network incidents. Much of 
the telecommunications industry's success in recovering from outages is 
attributed to long-standing inter-carrier relationships among network 
managers arising from day-to-day interaction and operations. Achieving 
and maintaining this level of trust becomes more difficult in an 
increasingly competitive environment.
    The NSTAC should, as part of its outreach efforts:
  --Offer the NSIE model to the Network Interconnection/
        Interoperability Forum (NIIF) for consideration and potential 
        use by network operations managers.
  --Encourage the use of this model to help foster effective plans, 
        procedures and inter-carrier relationships in the increasingly 
        competitive telecommunications environment.

                          Annex A.--References

--``Potential Legal and Regulatory Obstacles to Widespread Outage 
    Recovery,'' Draft Report of the Legislative and Regulatory Group 
    (LRG) of The President's National Security Telecommunications 
    Advisory Committee (NSTAC), September 30, 1997.
--``Network Interoperability: The Key to Competition,'' Network 
    Reliability and Interoperability Council (NRIC) of the Federal 
    Communications Commission (FCC), July 1997.
--``Electric Power Information Assurance Risk Assessment Report,'' 
    Information Assurance Task Force (IATF) of The President's NSTAC, 
    March 1997.
--``Analysis of Power Related Network Outages,'' Alliance for 
    Telecommunications Industry Solutions, Network Reliability Steering 
    Committee, August 29, 1996.
--``An Assessment of the Risk to the Security of Public Networks,'' 
    Network Security Information Exchange (NSIE), December 1995.
--``Final Report of the Common Channel Signaling Task Force,'' The 
    President's NSTAC, January 1994.
--``Network Reliability: A Report to the Nation,'' Network Reliability 
    Council of the FCC, June 1993.
--FCC Common Carrier Bureau Report on Network Outages, July 1991.
--``Growing Vulnerability of the Public Switched Networks,'' National 
    Research Council, 1989.

                           Annex B.--Acronyms

AIN                         = Advanced Intelligent Network
ATIS                        = Alliance for Telecommunications Industry
                             Solutions
BEAMS                       = Backup Emergency Alerting Management
                             System
CCS                         = Common Channel Signaling
DOJ                         = Department of Justice
EO                          = Executive Order
HF                          = High Frequency
JTRB                        = Joint Telecommunications Resources Board
LATA                        = Local Access Transport Area
LNP                         = Local Number Portability
NCC                         = National Coordinating Center for
                             Telecommunications
NCS                         = National Communications System
NIIF                        = National Interconnection/Interoperability
                             Forum
NRIC                        = Network Reliability and Interoperability
                             Council
NSEP                        = National Security Emergency Preparedness
NSIE                        = Network Security Information Exchange
NSTAC                       = President's National Security
                             Telecommunications Advisory Committee
NTA                         = National Telecommunications Alliance
NTCN                        = National Telecommunications Coordinating
                             Network
OMNCS                       = Office of the Manager, National
                             Communications System
OSS                         = Operations Support System
OSTP                        = Office of Science and Technology Policy
PN                          = Public Network
R&D                         = Research and Development
SONET                       = Synchronous Optical Network
SS7                         = Signaling System 7
STP                         = Signal Transfer Point
U.S.                        = United States
WOS                         = Widespread Outage Subgroup

              Annex C.--Widespread Outage Subgroup Members

NTA--Mr. Bob burns, Chair
AT&T-- Mr. Dave Bush
Bellcore--Mr. Carl Ripa
GTE--Ms. Ernie Gormsen
MCI--Mr. Mike McPadden
OMNCS--Mr. Bernie Farrell
SAIC--Mr. Hank Kluepfel
USTA--Dr. Vern Junkmann
US West--Mr. Jon Lofstedt

                           Annex D.--Letters

    (1) April 24, 1997, letter from Dr. John H. Gibbons, Assistant to 
the President for Science and Technology, to Mr. Charles R. Lee, 
Chairman, National Security Telecommunications Advisory Committee 
(NSTAC), Chairman and Chief Executive Officer, GTE Corporation.
    (2) March 18, 1991, letter from Mr. Ted L. Lightle, Director, 
Division of Information Resource Management, State of South Carolina, 
to Ms. Constance K. Robinson, Esq., Chief, Communications and Finance 
Section, Antitrust Division, U.S. Department of Justice.
    (3) August 24, 1992, letter from Mr. Richard L. Rosen, Esq., Acting 
Chief, Communications and Finance Section, Antitrust Division, U.S. 
Department of Justice, to Mr. Michael J. Schwartz, Esq., General 
Attorney, BellSouth Corporation.
                                 ______
                                 

  Responses of Jack Edwards to Questions Submitted by Chairman Bennett

    Question 1. One of the recommendations of the NSTAC report was that 
the legal and regulatory obstacles to widespread outage recovery be 
removed. For example, in an emergency could a regional Bell Operating 
Company be permitted to provide temporary long distance service? Has 
the NSTAC seen any actions taken on these recommendations?
    Answer. Since the President's National Security Telecommunications 
Advisory Committee (NSTAC) issued its Widespread Outage Subgroup (WOS) 
Report in December 1997 at NSTAC XX, two of its recommendations have 
been acted upon. The recommendations are as follows:
       improve inter-carrier coordination for widespread recovery
  --The National Coordinating Center for Telecommunications (NCC) has 
        initiated an effort to expand the National Telecommunications 
        Coordinating Network (NTCN) to improve communications 
        capabilities with critical entities, for both Government and 
        industry, during network outage conditions.
  remove legal and regulatory obstacles to widespread outage recovery
  --The Federal Communications Commission (FCC) appointed a FCC Defense 
        Commissioner.
  --The NSTAC Legislative and Regulatory Group (LRG) and the FCC have 
        worked together to establish a procedure to resolve regulatory 
        issues with the FCC, on an expedited basis, which will minimize 
        delays in the provision and restoration of emergency 
        telecommunications services during major service disruptions. 
        This procedure is intended for use during and outside of normal 
        business hours. NSTAC and the FCC approved the new procedure in 
        August 1998.
    Question 2. Will NSTAC continue to examine the national security 
implications of Y2K on telecommunications?
    Answer. The Network Group will continue to monitor the Year 2000 
(Y2K) readiness of the telecommunications infrastructure as test 
results become available and provide its insight on the matter, through 
the NSTAC, to the President.
    Question 3. Could you please describe the role of the National 
Telecommunications Alliance in emergency preparedness?
    Answer. The National Telecommunications Alliance (NTA), 
incorporated by the Regional Bell Operating Companies (RBOCs) in 
December 1995, serves as an industry consortium supporting the 
reliability and security of its clients' networks, and the 
interoperability and interconnectivity of their networks with other 
networks. In support of this critical mission, NTA's CEO serves on the 
President's NSTAC.
    In 1997, NTA became the NS/EP single point of contact between the 
federal government and its clients. NTA operates the National Emergency 
Control Center (NECC) from its Washington, D.C. headquarters, as well 
as a National Emergency Relocation Center (NERC) outside of Washington, 
D.C., which has the same capabilities as the NECC.
    During any crisis affecting an NTA client, all information is 
channeled through the NECC, which keep the Government, NTA clients' 
operation centers and staffs, and other affected parties informed. In 
addition, NTA operates the Alerting and Coordination Network (ACN), a 
dedicated telecommunications system separate from the public switched 
telephone system that is operated from the NECC and NERC. All NTA 
clients have links from their own Emergency Control Centers and 
Emergency Relocation Centers directly into the ACN. Also, the ACN 
provides direct connectivity to Government agencies, other telephone 
companies, and telecommunications equipment manufacturers.
    The source for the information on NTA can be found at http://
www.nta-inc.org.
                               __________

                 Prepared Statement of Diane Fountaine

    Good morning, Mr. Chairman, and distinguished members of the 
Special Committee on the Year 2000 Technology Problem. I appreciate the 
opportunity to address you on behalf of the National Communications 
System's Executive Agent, Defense Secretary William S. Cohen, and its 
Manager, Lieutenant General David J. Kelley, on the crucial role and 
initiatives that the National Communications System is taking toward 
tackling the Year 2000 as it applies to national security and emergency 
preparedness telecommunications.
    The National Communications System is a confederation of 23 
agencies across the Federal Government (listed in attachment 1) tasked 
with ensuring the availability of a viable national security and 
emergency preparedness telecommunications infrastructure. The President 
designates member organizations that own or lease telecommunications 
facilities and services of significant value to national security and 
emergency response or that have important telecommunications policy, 
regulatory, or enforcement responsibilities. The assets of these 23 
organizations comprise the bulk of the Federal Government's 
telecommunications resources. National security/emergency preparedness 
telecommunications, in general, are considered to be the necessary 
communications for the Federal Government under all conditions, ranging 
from peacetime to national emergencies to international crises or war.
    The Manager, National Communications System, is also the designated 
Federal Official for the National Security Telecommunications Advisory 
Committee. Established in 1982 by President Ronald Reagan in 
anticipation of the divestiture of AT&T, the National Security 
Telecommunications Advisory Committee is a high-level industry advisory 
group that provides the President with a unique source of national 
security and emergency preparedness telecommunications policy expertise 
and advice. Membership in the National Security Telecommunications 
Advisory Committee is limited to 30 Presidentially appointed industry 
leaders who are senior executives (often chief executive officers) 
representing major telecommunications carriers, information system 
providers, manufacturers, electronics and aerospace firms, system 
integrators, and the financial services industry. (The National 
Security Telecommunications Advisory Committee's membership is listed 
in attachment 2.)
    I will specifically address implications of the Year 2000 problem 
on national security/emergency preparedness telecommunications issues 
and the role of the National Communications System in ensuring these 
telecommunications remain fully operational. I will also address the 
Office of the Manager, National Communications System views of the 
nation's telecommunications industry preparedness for Year 2000 as it 
relates to national security/emergency preparedness.
    Mr. Chairman, the Office of the Manager, National Communications 
System, shares in the concerns expressed by this committee relating to 
Year 2000 compliance. in addressing the Year 2000 issue, we are 
focusing on three primary areas: First, on the national security/
emergency preparedness capabilities that we contract with the 
interexchange and local exchange carriers to develop and maintain in 
the commercial public networks (e.g., priority call recognition and 
handling); second, on the overall voice services in the public network 
which are the primary foundation for our national security/emergency 
preparedness communications; last, on the contingency plans that we 
follow during a national security or emergency event. We have taken the 
following actions in each of these areas.
  unique national security/emergency preparedness network features & 
                              capabilities
    In conjunction with our primary contracting offices within the 
Defense Information Systems Agency and the Defense Information 
Technical Contracting Organization, my office is requesting from its 
contractors verification that services or systems being provided to the 
National Communications System are year 2000 compliant.
    National security/emergency preparedness telecommunications 
services provided by the Government Emergency Telecommunications 
Service, the Telecommunications Service Priority Program, and the 
Emergency Response Link are required to be Year 2000 compliant as a 
result of modifications to the associated contracts. (more detailed 
descriptions of these programs are contained in attachment 3.)
    Additionally, all new or replacement contracts for National 
Communications System-provided national security and emergency 
preparedness telecommunications services contain Year 2000 compliance 
requirements consistent with Department of Defense policy.
    Where possible, we will test the national security/emergency 
preparedness features for Year 2000 compliance, to include practical 
demonstrations, in addition to written certification by our 
telecommunications service providers. We plan to complete these tests 
before January 1, 1999.
    Testing for the Telecommunications Service Priority has been 
completed with minor problems discovered which are being corrected. 
Testing for the Emergency Response Link is slated for completion in 
September.
    In order to achieve Government Emergency Telecommunications Service 
internetwork interoperability testing, we are collaborating with the 
Alliance for Telecommunications Industry Solutions. The Alliance for 
Telecommunications Industry Solutions is establishing a test network 
that will emulate major portions of the public switched network. The 
Government Emergency Telecommunications Service testing requirements 
were outlined at the last meeting of the Alliance for 
Telecommunications Industry Solutions Network Testing Committee held 
from June 29 and 30, 1998. The network testing committee accepted the 
potential scenario for Government Emergency Telecommunications Service 
testing and requested further details, to include a draft test script 
and an implementation summary, that will be presented at the next 
meeting from August 24-25, 1998. Bellcore is assisting the Office of 
the Manager, National Communications System in this effort, and this 
testing will be completed in March 1999.
    Specific testing will include the ability to recognize the 
Government Emergency Telecommunications Service 710 area code and 
successfully complete Government Emergency Telecommunications Service 
calls end-to-end over local and interexchange carrier networks. While 
the scope of this Government Emergency Telecommunications Service 
testing is limited, the benefits of the Alliance for Telecommunications 
Industry Solutions internetwork testing among several major carriers in 
the U.S. Telecommunications Network are substantial.
                  assessment of basic network service
    The Manager, National Communications System, requested that the 
National Security Telecommunications Advisory Committee focus on the 
Year 2000 issue as it relates specifically to national security/
emergency preparedness and the national telecommunications 
infrastructure. The National Security Telecommunications Advisory 
Committee's network group has completed its initial assessment of this 
subject, and you will hear from Dr. Jack Edwards of Nortel, the network 
group's chair. This report will be reviewed by the National Security 
Telecommunications Advisory Committee principals at their upcoming 
meeting on September 10.
    In implementing special national security/emergency preparedness 
capabilities in the public network we chose the major interexchange 
service providers, i.e., AT&T, MCI, Sprint, and the primary local 
exchange companies (e.g., Bell Atlantic, Cincinnati Bell, etc).
    Based on information gathered by the National Security 
Telecommunications Advisory Committee working group and discussions 
with individual companies, we believe that there will be little or no 
interruption of service from these major service providers due to Year 
2000. While they will have conducted extensive network element testing 
and intranetwork interoperability testing, the biggest challenge for 
all of these companies will be the testing of their network's external 
interfaces, both domestic and international. Ensuring the 
interoperability of these various solutions is critical, particularly 
in a system as complex as the U.S. telecommunications infrastructure, 
and this is why the Alliance for Telecommunications Industry Solutions 
internetwork testing is so important.
    The Office of the Manager, National Communications System is also 
coordinating on the Year 2000 Telecommunications Compliance Program of 
the General Services Administration. This program was established to 
provide a focal point for Year 2000 telecommunications compliance 
information across the Federal Government and to facilitate government/
industry partnership in addressing Year 2000 compliance challenges. We 
are participating in periodic forums being held by the Program 
Management Office and facilitate their interaction with the National 
Security Telecommunications Advisory Committee.
    While I have only focused on those large telecommunications 
providers on which we depend, I believe that Commissioner Powell will 
address the state of preparedness of the industry in the broader 
context of all companies and services.
                           contingency plans
    Even though we do not expect a major telecommunications service 
interruption resulting from Year 2000, we are putting a great deal of 
emphasis on proper planning for a contingency in this area. The 
National Coordinating Center for Telecommunications is reviewing 
current operational response procedures and the existing national 
telecommunications coordinating network, looking for additions to 
current process or backup connectivity peculiar to Year 2000 (for 
example, connections to software experts from the telecommunications 
switch manufacturers.)
    In addition to its current HF radio capabilities, the National 
Telecommunications Coordinating Network is being augmented with non-
public network and satellite communications connectivity among critical 
national security/emergency preparedness operational sites, major 
service providers, and equipment manufacturers. This additional 
connectivity will allow the national coordinating center for 
telecommunications to coordinate with the telecommunications industry 
and key Federal operations centers in the event of service disruption 
resulting from Year 2000 complications.
    HF radio connectivity is currently available to AT&T, Sprint, The 
National Telecommunications Alliance, The Federal Communications 
Commission, Bell Atlantic, The National Aeronautics and Space 
Administration, GTE, Bell South, AmeriTech, Southwestern Bell, The 
Federal Emergency Management Agency, AT&T Wireless, and Pacific Bell. 
Through the shared resources high frequency radio program these sites 
have HF message relaying support from over 1,000 government and 
telecommunications company HF locations worldwide.
    Currently, the National Coordinating Center for Telecommunications 
has private line national telecommunications coordinating network 
connectivity to the FCC; all of the regional Bell operating companies; 
GTE; Sprint; and switch manufacturers, DSC, Ericsson, Lucent, Nortel, 
and Siemens. The National Coordinating Center for Telecommunications is 
exploring extending connectivity to the general service 
administration's FTS-2000 Consolidated Operations Center, The Office of 
Science and Technology Policy, The National Infrastructure protection 
center, and The Bellcore Year 2000 Test Bed Site. The National 
Coordinating Center for Telecommunications Industry members are also 
compiling point of contact lists that will be utilized for Year 2000 
problem referral and escalation within their companies.
    An additional, state of the art capability to cross-connect various 
communications media will be available in the National Coordinating 
Center for Telecommunications by the end of December 1998. This 
capability will extend to our continuity of operations site in the 
event relocation out of the immediate area becomes necessary.
    In conclusion, Mr. Chairman, we are working with The National 
Communications System departments and agencies, and The National 
Security Telecommunications Advisory Committee member companies, to 
provide continuous national security/emergency preparedness 
telecommunications services prior to, through, and beyond the 
millennium change. While much has been accomplished, there is still 
much to be done, particularly regarding internetwork Year 2000 testing 
and contingency planning. As the National Security Telecommunications 
Advisory Committee Year 2000 report points out, efforts to make the 
public network Year 2000 ready will go a long way toward making 
national security/emergency preparedness telecommunications services 
year 2000 ready. I would urge the committee to support the efforts 
underway in the telecommunications industry and continue to stress the 
importance of internetwork interoperability testing as this work 
progresses.
    Mr. Chairman, this concludes my statement on our efforts toward 
solving the Year 2000 problem, and I am prepared to take your questions 
on this issue.

   Attachment 1.--National Communications System Member Agencies and 
                              Departments

Department of State
Department of Treasury
Department of Defense
Department of Justice
Department of Interior
U.S. Department of Agriculture
Department of Commerce
Health and Human Services
Department of Transportation
Department of Energy
Veterans Affairs
Central Intelligence Agency
Federal Emergency Management Agency
U.S. Information Agency
Joint Staff
General Services Administration
National Aeronautics and Space Administration
Nuclear Regulatory Commission
National Telecommunications and Information Agency
National Security Agency
U.S. Postal Service
Federal Reserve Board
Federal Communications Commission

Attachment 2.--National Security Telecommunications Advisory Committee 
                                Members

Advanced Digital Technologies Company (ADTC)
AT&T
BankAmerica
Boeing
Comsat
Computer Sciences Corporation
Electronic Data Systems
Executive Security & Engineering Technologies
GTE
Hughes
ITT
Lockheed Martin
MCI
Motorola
Nortel
National Telecommunications Alliance
Pacific Telecom, Inc.
Raytheon
Rockwell
Science Applications International Corporation
Sprint
Teledesic
TRW
Unisys
United States Telephone Association
U.S. West
Worldcom

                  Attachment 3.--Program Descriptions

    Government Emergency Telecommunications Service supports national 
security/emergency preparedness telecommunications users with priority 
switched voice and voice band data service in the public switched 
network. it provides authenticated access, enhanced routing, and 
priority treatment in local and long-distance telephone networks. users 
acquire access through a simple dialing plan featuring a dedicated area 
code (710) and personal identification number.
    Telecommunications Service Priority System enables priority 
provisioning and restoration of national security/emergency 
preparedness telecommunications services obtained from the 
telecommunications industry companies.
    Telecommunications Electric Service Priority Program promotes 
modification of the existing electric utility emergency priority 
restoration systems to include telecommunications facilities considered 
critical to national security/emergency preparedness. it utilizes the 
existing processes in place for restoring electric service to specific 
customers in the event of threatened or actual electric power supply 
emergencies.
    Emergency Response Link provides a controlled access web site 
designed to assist the emergency response community in sharing disaster 
response planning and operations information. the response community 
includes the signatory agencies to the federal response plan and state 
and local agencies and organizations.
    Shared Resources High Frequency Radio Program provides emergency 
communications in support of special operations and all-hazards 
situations, incorporating the resources of 1098 HF radio stations, 
contributed by 63 Federal, State, and industry organizations, into a 
nationwide emergency message handling network.
                                 ______
                                 

       Responses of Ms. Diane Fountaine to Questions Submitted by

                            Chairman Bennett

    Question 1. Bellcore suggested that because of the size and 
complexity Y2K problems in the telecommunications industry, it is 
absolutely critical that contingency planning and disaster recovery 
planning and training be implemented. They also stated that multiple 
carrier failures should be entertained. How is the NCS working with 
industry on these issues?
    Answer. In collaboration with its industry representatives the 
National Coordinating Center (NCC) for Telecommunications is working to 
insure that national security and emergency preparedness 
telecommunications contingency planning fully addresses year 2000 
problems, to include:

  --Formulation of a joint government/industry Y2K-specific Contingency 
        Plan to be completed by April 1999.
  --Verification of non-public switched network (PSN) connectivity to 
        major operations centers from the NCC.
  --Identification of those operation centers (industry & government) 
        which have connectivity via non-PSN voice and/or data 
        connectivity to vendors, suppliers, subject matter experts, 
        etc. that might play a key restoral role in any Y2K-related 
        telecommunications outage.
  --Identification of key Y2K-related facilities, elements, vendors, 
        suppliers, subject matter experts with which the NCC does not 
        currently have non-PSN connectivity that should be provided 
        connectivity to the NCC.

    The NCC is also currently fielding an upgraded National 
Telecommunications Coordinating Network (NTCN) which will allow the NCC 
to bridge any type of communications terminating on the NTCN to any 
other subscriber regardless of communications vehicle. This includes 
connecting any combination of HF, UHF, and VHF radios, private lines, 
ring downs, satellite, and wireless to any of the other media. The 
bridge is Y2K compliant, and will have a backup with redundant 
capabilities located at the NCS Continuity of Operations site.
    Question 2. Could you please describe how the National Coordinating 
Center for Telecommunications works in a time of crisis?
    Answer. The National Coordinating Center for Telecommunications 
(NCC) has three Emergency Operations Teams (EOT) manned with experts in 
various emergency response disciplines from the Office of the Manager, 
NCS staff, and industry representatives of the NCC. The Manager, NCC 
activates the on-call team to support a declaration of the Federal 
Response Plan or if required by other emergency. The three teams allow 
for ramping up to 7 days a week, 24-hour a day operation, if the 
situation warrants that level of support. A team will be activated 
prior to each critical year 2000 switch over date.
    Question 3. How would the NCS and the FCC interact in the event a 
Y2K telecommunications crisis?
    Answer. The FCC has a representative assigned as a member of the 
NCC. Operational issues would be coordinated with that representative. 
The NCC or the FCC representative can also contact the FCC Duty Officer 
at the FCC's Communications and Crises Management Center, which 
operates on a 24-hour, 7 days a week basis. The Duty Officer is 
responsible for locating senior FCC staff to apprise them of status of 
ongoing events, or to get an action officer to assist the NCC in 
addressing FCC-related issues. The FCC Center is connected to the NCC 
through the National Telecommunications Coordinating Network (NTCN) and 
the NTCN has connectivity to the FCC regional representatives through 
connections to each of the Federal Emergency Management Agency regional 
offices.
    Question 4. When does a network outage advance from an economic 
concern to a national security concern?
    Answer. Determination that a telecommunications public network 
failure impacting the economy has reached a national security concern 
would ultimately be made with Cabinet and/or National Security Council 
level deliberations.
    Question 5. Besides, helping the industry to exchange the 
information it needs to solve its Y2K problems, do you think the 
proposed safe harbor legislation would also make it easier for the NCS 
to obtain the information needs to ensure national security and 
emergency preparedness telecommunications?
    Answer. Although NCS has not experienced any reluctance on the part 
of the telecommunications industry to provide information on Year 2000 
readiness, the legislation should help the NCS to continue to obtain 
the information it needs to ensure national security and emergency 
preparedness telecommunications.
    Question 6. I noticed that the NCS is not represented on the 
telecommunications working group or the emergency services of the 
President's Y2K Conversion Council, Chaired by John Koskinen. Is there 
any particular reason why the NCS was not asked to participate in these 
groups?
    Answer. The NCS has been an active participant in the 
Telecommunications Working Group since its first meeting and will 
attend the next meeting of the Emergency Services Working Group. NCS 
membership and attendance on these working groups has been considered 
part of the Department of Defense representation.
    Question 7. Has the NCS done any studies looking into how failures 
in foreign networks could impact U.S. Communications? If not are you 
aware of any such studies?
    Answer. The NCS has not done any independent studies regarding 
failures in foreign networks impacting U.S. communications. We are, 
however, aware of the special Year 2000 Task Force established (Mar 
1998) by the International Telecommunication Union to ``provide 
information on and promote Year 2000 compliance standards amongst ITU 
members to create greater global consistency and a common 
understanding.'' One of their first actions was to issue a Year 2000 
questionnaire regarding ``Millennium Compliance'' and promoting ISO 
Standard 8601 ``Data elements and interchange formats--Information 
interchange--Representation of dates and times.'' A Generic Year 2000 
Testing Checklist was adopted to define the minimal set of tests which 
will be required to demonstrate that a network system or component is 
Year 2000 compliant. Additionally promoted is a British Standards 
Institute publication from January 1997, Definition of Year 2000 
Conformity Requirements.
    Question 8. Is the NCS relying upon vendor certification or is it 
also conducting independent tests as Bellcore recommends to ensure 
equipment is Y2K functional?
    Answer. The NCS is relying on vendor certification as well as the 
performance of independent tests. We are working with Bellcore in this 
area to help ensure that independent testing being performed by the 
Alliance for Telecommunications Industry Solutions (ATIS), Network 
Testing Committee, includes scenarios developed by the NCS. These 
scenarios focus on maintaining reliable communications in the public 
networks for national security and emergency preparedness purposes. 
This independent testing is planned to be completed in the spring of 
1999.
                               __________

                 Prepared Statement of Senator Jon Kyl

    Mr. Chairman, I would like to thank you and Senator Bingaman for 
your efforts in putting this hearing together.
    Y2K will cross the globe in a 24 hour period. It has the potential 
to wreak havoc with our communications networks and consequently with 
all of our critical infrastructures. Our first concern must be with the 
readiness of the nation's telecommunications system to smoothly 
transition into the next century. But we must also recognize the 
potential for disruptions that may pose serious public safety as well 
as national security concerns, and to plan accordingly. We have a 
distinguished panel of witness today who will help us to understand the 
Y2K problems facing the telecommunications industry. We will also hear 
testimony from the National Communications System, a little known but 
very important entity.
    The NCS was created by President Kennedy, in response to 
communications problems that arose during the Cuban Missile Crisis. It 
has the responsibility to ensure enduring communications in times of 
crisis, ranging from national disasters to acts of war. And it has 
enjoyed a unique and close working relationship with the 
telecommunications industry, in designing and implementing preparedness 
plans programs. I look forward to learning the status of contingency 
planning for national security and emergency preparedness in 
anticipation of potential Y2K disruptions. The Defense Authorization 
Act of 1996 directed the President to report to Congress on the future 
of the NCS. We recognized that the telecommunications infrastructure 
was facing new threats, especially from information warfare tools and 
techniques; and that the NCS has unique experience and resources to 
contribute to an overall strategy to protect the nation against such 
threats. While Y2K is not an information warfare threat per se, its 
overall effects could be very similar to a deliberate attack on the 
nation's information systems. I am sorry to report that, 3 years later, 
the President still has not filed this report. My most recent letter 
from Sandy Berger on this subject, dated February of this year, 
promised that the report would be forthcoming promptly. We are still 
waiting.
    In March, I wrote to FCC Chairman Kennard, to recommend that the 
Network Reliability and Interoperability Council (NRIC) be directed to 
examine Y2K concerns. I was pleased to receive his response in May, 
informing me that the NRIC would be tasked to undertake this effort. I 
am concerned, however, that this work is not yet underway, and that the 
hour is late. I look forward to learning about the NRIC's plans for 
addressing Y2K in the limited time they have.
    A key element in solving the Y2K equation is information. We have 
heard reports that corporate concerns over liability are restricting 
the flow of technical information and statements of Y2K readiness which 
telecommunications carriers need for remediation and preparedness 
efforts. It is vital that industry, as well as consumers, have access 
to the information needed to fix Y2K problems, and for contingency 
planning. To the extent liability concerns are chilling this necessary 
exchange of information, we will need to find ways to alleviate those 
concerns.
    Time is very short. The Y2K Committee and the Judiciary Committee 
will be working with industry associations, consumer groups, and other 
interested parties during the August recess to evaluate legislative 
options to help meet those needs. I would like to invite our witnesses 
to offer their thoughts and recommendations on such legislative relief.
                               __________

                   Prepared Statement of Judith List

                              introduction
    Thank you Chairman Bennett, Vice Chairman Dodd, and members of the 
Special Committee for inviting me to testify on how telecommunications 
networks could be affected by the Year 2000 technology problem. I am 
Judy List, Vice President and General Manager of Integrated Technology 
Solutions for Bellcore.
    Bellcore, an SAIC company headquartered in Morristown, New Jersey, 
is a leading provider of communications software, engineering, 
consulting, and training services based on world-class research. Our 
customers include major telecommunications carriers as well as telecom 
companies of all sizes both in the United States and abroad. The 
business I head for Bellcore provides Y2K services--primarily to 
telecommunications carriers and suppliers, financial institutions, and 
power utilities.
    In response to your request, I will focus today on what Bellcore is 
doing for the industry concerning Y2K, on elements of 
telecommunications networks that could be impacted by the Y2K problem, 
on the challenges of testing, on the outlook for the problem as I see 
it, and on what positive steps can be taken to help with the situation.
              background/bellcore's role in y2k readiness
    To set the stage, let me say that Bellcore has been working on Y2K 
solutions for our own software products since 1993, with a concerted 
effort begun in 1995. Bellcore currently supports approximately 150 
software system products that are installed and deployed in the 
networks or operations of its licensed customer users. Those users 
include the top tier local exchange carriers, among others. The 
software system products include operations support systems and network 
systems that support provisioning, maintenance and other management 
functions for local telephone services. All Bellcore-supported software 
system products either are now or will be, by year-end 1998, Year 2000 
Functional.\1\
---------------------------------------------------------------------------
    \1\ As used here, the term ``Year 2000 Functional'' is the ability 
of software to record, store, process, recognize, display and calculate 
calendar dates falling on or after January 1, 2000, in the same manner, 
and with the same functionality as such software records, stores, 
proceesses, recognizes, displays and calculates calendar dates falling 
on or before December 31, 1999.
---------------------------------------------------------------------------
    In addition, Bellcore has taken a proactive role in providing our 
licensees and other customers with Year 2000 information. We have been 
sharing information about Year 2000 functionality in the following 
ways, to name just a few:
  --by issuing information kits that include Bellcore's Y2K Test 
        Strategies, methodologies and results of our Year 2000 
        functionality testing;
  --by placing information on Bellcore's website, which includes Y2K 
        Frequently Asked Questions and Bellcore software product 
        information; and
  --by hosting and participating in customer meetings and forums.
    All of this information will continue to be provided and updated 
regularly by our Year 2000 Program Office.
                      telecommunications networks
    Like many companies, Bellcore assists clients by providing 
comprehensive services that cover the entire lifecycle for fixing the 
Year 2000 problem for information technology, or IT, systems. However, 
in addition to the considerable industry attention on IT systems, 
Bellcore has supported increased attention on networks. Networks are 
large, distributed computing environments. While the major 
telecommunications carriers have recognized the Year 2000 challenges 
that confront their core business, many commercial companies have been 
relatively late in recognizing that the Year 2000 problem affects not 
only their IT systems, but their private networks as well.
    In both private and public telecommunications networks, as in 
software and hardware computing systems, Y2K impacts are possible at 
every layer of the infrastructure. That is, Y2K problems can be found 
in applications, operating systems, file systems, databases, protocols, 
middleware, and hardware platforms, as well as in the interfaces 
between interconnected systems.
    To aid in the remediation and testing process for network 
equipment, Bellcore worked with telecommunications carriers and 
equipment suppliers to develop a set of generic requirements for Y2K 
functionality (Bellcore's GR-2945, ``Year 2000 Generic Requirements: 
Systems and Interfaces''). In general, this document contains 
requirements for both telecommunications network elements and 
operations systems and covers a variety of date-sensitive functions. 
Let me give you just one example. There is a ``common platform'' 
section that specifies the minimum date range for all systems as 1/1/
1980 through 12/31/2036. The former limit was chosen because it is the 
date when PC-based management systems began counting time. The latter 
limit was chosen because this is the date just before many UNIX 
<SUP>'</SUP> -based system clocks will fail. GR-2945 simply sets this 
range as the minimum requirement every system should meet. However, 
some vendors may choose to design their systems to operate well outside 
of this range, which is completely acceptable. Bellcore's GR-2945 was 
available to the industry on January 31, 1997.
---------------------------------------------------------------------------
    \'\ UNIX is a registered trademark of NOVELL, Inc.
---------------------------------------------------------------------------
    In addition to using GR-2945, we recommend that companies follow a 
structured approach in addressing Y2K issues. This approach starts with 
establishing a corporate program office that manages the scope of the 
program, including schedules, resource allocation and budgets, 
awareness of Y2K issues throughout the company, and quality assurance. 
The subsequent activities are: assessment, remediation, testing, and 
deployment. It has been our experience in working with major US 
telecommunications carriers and several Fortune 50 clients that a 
structured approach is being taken with respect to Y2K.
                           network assessment
    Bellcore has conducted risk assessments of major domestic and 
international carrier networks as well as risk assessments of the 
networks of a number of Fortune 50 companies. Risk assessments begin 
with a comprehensive inventory of all network equipment in the carrier 
or private network. Then, detailed questionnaires are sent to the 
suppliers of this network equipment inquiring about the Y2K readiness 
of the equipment. This information, along with information from the 
carrier or company about the extent of equipment deployment in their 
network, network architecture and topology, services, and other 
information, is used to assess the risk of Y2K vulnerabilities in 
providing services.
    In our work, we have found that approximately 75 percent of voice 
networking equipment has date sensitive processing in it, 25-35 percent 
of data networking devices have date-sensitive processing, and almost 
100 percent of network management devices have date-sensitive 
processing in them. The kinds of functions that are date sensitive 
include: service routing and scheduling, message reporting, network 
administration and management, system clock maintenance and 
restoration, event/alarm time-stamping, history sorting and reporting, 
security (e.g., logins and passwords), user interface displays and user 
input, trend analyses, logging of information, reports, and data 
processing functions.
    The data we have gathered and the analyses we have performed 
through these risk assessments, as well as high-level, preliminary 
experiments we have conducted in our labs, support the conclusion that 
there is little date sensitive information in the fundamental call 
processing or data routing capabilities of networks. Where we do see 
date sensitive information is in the operations, administration, and 
maintenance functions of networks. Examples of the latter type of 
functions include: billing, provisioning of services, network 
surveillance and maintenance, and other network management and 
administration functions. Let me refer to the chart in the front of the 
room for a quick look at the complexity of communications networks and 
to explain where Y2K vulnerabilities are in these networks. (See 
attached diagram.)
    These functions are provided by network equipment that carriers and 
large corporations license from equipment suppliers as well as in 
systems that many companies develop themselves. Thus, fixing the 
software code sometimes means that the company's own organizations are 
responsible for the fixes, and sometimes means that the equipment 
manufacturer or software provider is responsible for the fixes. In some 
instances, a carrier or commercial enterprise may decide not to solve a 
Y2K issue by having the code fixed. Instead, they may replace the 
system with a new one or retire the system altogether because the 
functionality can be provided somewhere else in the network. It is 
equally important to manage and track progress for the replacement or 
retirement of systems, because if they are not replaced or retired on 
schedule, there could be Y2K impacts.
[GRAPHIC] [TIFF OMITTED] T1JL98G.001


ACD                        = Automatic Call Distributor
BS                         = Base Station
BSC                        = Base Station Controller
CAD                        = Call Access Device
CDR                        = Call Detail Recording
CLEC                       = Competitive Local Exchange Carrier
CMS                        = Call Management System
Collector                  = Billing Collector
CO                         = Central Office, End Office Switch
CRD                        = Corporate Record Database
CSM                        = Customer Service Management
CTI                        = Computer Telephony Integration
DLC                        = Digital Loop Carrier
DPS                        = Dispatch System
EBI                        = Electronic Bonding Interface
FMS                        = Fault Management System
HLR                        = Home Location Register
IP                         = Intelligent Peripheral
LAN                        = Local Area Network
LEC                        = Local Exchange Carrier
LSMS                       = LNP Local SMS
MDR                        = Message Detail Recording
MSO/VLR                    = Mobile Switching Office/Visitor Location
                            Register
NPAC                       = Number Portability Administration Center
                            System
OSS                        = 0perator Services System
PBX                        = Private Branch Exchange
PSTN                       = Public Switch Telephone Network
PSAP                       = Public Safety Answering Point
RAOS                       = Revenue Accounting Office System
SMDI                       = Simplified Message Desk Interface
SMDR                       = Station Message Detail Recording
SMS                        = Service Management System
SCP                        = Service Control Point
SNS/DOE                    = Service Negotiation System/Data Order Entry
SOP                        = Service Order Processor
SSP                        = Service Switching Point
STP                        = Signal Transfer Point
TAN                        = Technician Access Network
TAS                        = Trouble Administration System
TPU                        = Technician Portable Unit
UCD                        = Uniform Call Distributor
VLR                        = Visitor Location Register
VMS                        = Voice Messaging System
VRU                        = Voice Response Unit
WOP                        = Work Order Processor

    The analyses we have conducted on the Y2K issues in network 
equipment have covered thousands of voice and data products, 
manufactured by hundreds of US and international companies. We have 
analyzed the data gathered from a variety of sources, including 
manufacturer's responses to questionnaires, information available on 
manufacturer websites, and other publicly available sources. We have 
gathered and analyzed this information in support of our customers; we 
have not embarked on a comprehensive survey of all carriers, large 
enterprises, or equipment manufacturers. The charts at the front of the 
room summarize our analyses of these data, based on our experience, but 
they have not been independently validated.

      Figure 1. Percentage of Voice Network Products Reported by 
            Manufacturers to be Y2K Functional by Quarter. 
[GRAPHIC] [TIFF OMITTED] T1JL98G.002

    Note: 3Q 98 date includes products that have no date sensitivity 
and products that will be Y2K functional by the end of 3Q 98, according 
to vendor-supplied information. 2Q 99 and beyond includes products that 
will not be Y2K functional by 2Q 99 and those products that the vendor 
will not make Y2K functional (e.g., manufacturer discontinued 
products), according to vendor-supplied information.

Figure 2. Percentage of Data Network Products Reported by Manufacturers 
                   to be Y2K Functional by Quarter. 
[GRAPHIC] [TIFF OMITTED] T1JL98G.003

    Note: 3Q 98 date includes products that have no date sensitivity 
and products that will be Y2K functional by the end of 3Q 98, according 
to vendor-supplied information. 2Q 99 and beyond includes products that 
will not be Y2K functional by 2Q 99 and those products that the vendor 
will not make Y2K functional (e.g., manufacturer discontinued 
products), according to vendor-supplied information.

    The first chart presents data on voice network products. According 
to various sources, for the products on which we have collected data, 
83 percent of the products are planned to be Y2K functional by the 
third quarter of 1998, while another 4 percent are planned to be Y2K 
functional by the end of 1998. An additional 5 percent are planned to 
be Y2K functional by the end of the first quarter of 1999, and the 
remaining 8 percent will either not be made Y2K functional (because, 
for example, they are discontinued products) or are planned to be Y2K 
functional sometime during or after the second quarter of 1999.
    The second chart presents information on data network products. 
Again, of the products for which we have collected data, 89 percent of 
the products are planned to be Y2K functional by the third quarter of 
1998, while another 2 percent of the products are planned to be Y2K 
functional by the end of 1998. An additional 5 percent are planned to 
be Y2K functional by the end of the first quarter of 1999, and the 
remaining 4 percent will either not be made Y2K functional or are 
planned to be Y2K functional sometime during or after the second 
quarter of 1999.
    These results indicate that over 85 percent of the 
telecommunications network products we have surveyed for our major 
carrier and large commercial enterprise customers are planned to be Y2K 
functional by the end of 1998, according to their manufacturers. 
Further analysis of the detailed information we have gathered indicates 
that the majority of critical network components in carrier networks 
will be Y2K functional by year-end 1998. It is largely the peripheral 
devices that will not be Y2K functional until first quarter 1999 and 
beyond. For example, according to manufacturers, most of the major 
central office switches used in the US are planned to be Y2K functional 
by year-end 1998.
    Within a commercial enterprise, there are a small number of Private 
Branch Exchanges (PBXs), voice mail systems, and automatic call 
distribution systems (ACDs) that will not be Y2K functional by year-end 
1998. This market is very diverse and the consequence of non-compliance 
of any one vendor's device is significantly less. In addition, the non-
compliant devices tend to be older and smaller, which again lessens the 
impact because fewer users are affected. While many of the devices that 
will not be Y2K functional by the end of this year are peripheral, many 
of them interact with more critical devices. It is important to test 
how non-compliant devices (e.g., a network management system) might 
interact with a Y2K functional device (e.g., a PBX).
    Finally, the upgrades to this equipment may still need to be tested 
by the carrier or commercial enterprise in whose network it is used and 
then installed in the network. It is important to schedule and track 
delivery of equipment upgrades and the subsequent testing and 
installation.
                                testing
    Once the software is fixed (either by a supplier, the carrier, or 
the carrier's agent), the software should be tested. For a software 
application, this includes unit testing of the code changes, as well as 
integration testing of various modules of the application together. In 
addition, system tests are conducted to incorporate the operating 
system environment, the hardware platform the application runs on, as 
well as any third party software that may work with the application 
software. Finally, the interfaces between systems should be tested, 
particularly for high risk systems, to assess the impact of Y2K 
remediation on interoperability between systems.
    Year 2000 poses significant testing challenges. First, there are a 
variety of dates that need to be tested; this increases the number of 
tests that need to be conducted. Second, tests should be repeated--for 
example, as problems are found and fixed or as additional changes or 
enhancements are made to the system between the time the code is Y2K 
functional and the rollover of the millennium. Third, there are 
difficult test environment issues due to the general need to test 
applications in a ``clock rollover'' environment. It is not feasible 
for carriers to roll the clocks forward in a live network; therefore, 
doing system clock rollovers requires either extensive laboratory 
environments or significant investment in parallel systems to test for 
year 2000 functionality. Testing requires specialized expertise and 
tools. Finally, industry analysts have estimated that testing is at 
least 50 percent of the effort in Year 2000. The most significant 
challenge is that there is too much to test in too little time.
    Not only must testing of individual network elements be completed, 
but interoperability testing is needed as well. We recommend that 
interoperability testing be conducted for several reasons. There are 
some interfaces in networks over which date information is passed, and 
processing on the date information occurs on one side or the other of 
the interface or on both sides of the interface. In these instances, 
interoperability testing is needed to assess the extent to which dates 
are passed and processed correctly on both sides of the interface. 
However, there are many more instances in networks where date 
information is not passed or processed across an interface between two 
systems. While the need for Y2K interoperability testing is less 
obvious in these instances, it may be possible that while fixing code 
to address Y2K in one of the systems, some non-date related 
functionality may be inadvertently ``broken'' in the interface between 
the systems.
    Finally, because both private and public networks in the US are 
quite heterogeneous in the types of equipment and the number of 
equipment vendors who supply equipment, it is often the case that the 
equipment on either side of the interface is manufactured by different 
vendors, who may use different date standards. Interoperability testing 
helps to address these issues.
                                outlook
    Mr. Chairman, you asked for my personal outlook on the situation in 
the ttelecommunications industry, and so I will make four points in 
that regard.
    First, as is the case in most other industries, it has been my 
experience that larger corporations have been more attentive to and 
more active in resolving the Y2K issue than have smaller companies. All 
of the major carriers have corporate-level Y2K programs, they 
understand and are actively working the problem, and they have the 
ability to work with their major equipment vendors to address the 
issue. In addition, the US is ahead of most of the rest of the world. 
Europe lags behind the US in their attention to this issue, and 
generally, with some exceptions, so does the rest of the world. South 
America, much of Asia/Pacific (with the exception of Australia), and 
Africa are quite far behind. I do have a concern that the general lack 
of attention to Y2K in some parts of the world could adversely impact 
our ability to communicate with them, largely because of failures in 
critical infrastructures like power that may impact their 
telecommunications providers.
    Second, as I've mentioned, the Y2K vulnerabilities in the 
telecommunications network do not appear to be in the fundamental call 
set-up and processing or data routing capabilities of the network. 
Rather, they appear to be in the operations, administration, and 
maintenance functions that support these fundamental capabilities. 
While this suggests that getting basic dialtone at midnight on January 
1, 2000 is less likely to be a problem, it is possible, in my opinion, 
that there may be disruptions in billing, processing service orders, 
and so on. In addition, continued difficulties with operations, 
administration, and maintenance functions could eventually impact 
service.
    Third, telecommunications manufacturers indicate that the majority 
of them will be Year 2000 functional by the third quarter of this year. 
Furthermore, our analysis of vendor responses indicates that the 
majority of critical network components will be Y2K functional by the 
end of 1998. However, testing and deployment/installation are still 
required, as is ongoing attention to timely delivery of upgrades.
    Finally, there will be problems, and there is a level of 
uncertainty in this area that makes it difficult to predict where the 
problems will be. In the software industry today, the best in class 
companies find 95 percent of code anomalies before the software ever 
gets to the field. That means that 5 percent of software anomalies are 
found after the code is operational Furthermore, according to the 
Software Engineering Institute, a new defect is introduced with every 
approximately 4\1/2\ fixes of software code. Both of these statistics 
suggest that, given the pevasiveness and extent of Year 2000 elements, 
there will be problems. It is critical that contingency and disaster 
recovery planning and training be implemented. Furthermore, Y2K 
contingency planning and disaster recovery needs to address plans 
differently than traditional business continuity plans because backup 
systems are likely to have the same Year 2000 problems, issues may be 
more widespread across a number of industries, and problems may last 
for a longer period of time.
                            recommendations
    In closing, let me make the following brief recommendations on 
positive steps that could be taken to help with the Y2K issue in 
telecommunications. First, the entire industry should be doing whatever 
it can to promote interoperability testing.
    Second, the industry should work on a plan for cooperation in the 
event that emergency business recovery should become necessary. This 
should include scenarios where only one company is affected as well as 
scenarios where multiple carriers are affected.
    Third, the government could help by continuing to promote awareness 
of the Y2K problem, as this Committee and others are doing. Raising 
awareness is particularly important among small and medium-sized 
businesses.
    Finally, there might--at some point--be a need for safe harbor 
legislation. Such legislation would be designed to protect responsible 
companies from some of the torrent of litigation we know is headed our 
way--much of which could be frivolous and could distract attention and 
divert resources from the most critical work: fixing the problem. This 
should remain the industry's primary concern, and anything you can do 
to allow us to focus our efforts on that would be most appreciated.
    Again, thank you for the opportunity to testify before you today. I 
will be happy to take your questions.
                                 ______
                                 

  Responses of Judith List to Questions Submitted by Chairman Bennett

    Question 1. It strikes me that there is no comprehensive industry 
wide test planned. SIA just began end-to-end (street-wide) testing of 
all partners in the securities industry. When will the 
telecommunications industry begin such testing, and who should 
coordinate such a test?
    Answer. In my written testimony before the Committee, I emphasized 
the challenge of Y2K testing for telecommunications networks and wish 
to restate that point here. Year 2000 testing for networks is critical 
but complex because of the variety of dates that need to be tested, and 
tested repeatedly, the difficult test environment issues, and the need 
for specialized expertise and tools to conduct tests of networks. 
However, I do believe that Y2K testing of telecommunications networks 
is an integral phase in a Year 2000 program. Specifically, it is 
essential that testing encompass both the interfaces between systems to 
assess Y2K impacts and interoperability across networks, in addition to 
stand-alone product testing. As others testified before the Committee, 
both types of testing are in process through several industry efforts, 
namely through the Y2K Telco Forum for testing of network interfaces 
and through the Alliance for Telecommunications Industry Solutions 
(ATIS) for interoperability testing.
    Question 2. You mentioned that according to the Software 
Engineering Institute that an error is introduced for every 4.5 lines 
of software fixed. Can you estimate the amount of errors which have 
been introduced into the system? Could such software errors result in 
an expected systems failure?
    First, a point of clarification. The statistic, as it was presented 
to me, was that for every approximately 4\1/2\ (it actually was 4.4) 
fixes of software, a new error is introduced. There can be multiple 
fixes per line of code; conversely, some programs have many lines of 
code that require no Y2K fixes. Thus, without knowing about a 
particular application, it is impossible to estimate how many fixes are 
required to make the program Y2K functional and therefore, to estimate 
how many new errors might have been introduced. In this context, I 
would again emphasize the importance of testing, including testing of 
the remediated portions of code, product test, as well as interface and 
interoperability testing. Regression testing is the process by which 
modified software code is tested against a baselined version of the 
code to assess the extent to which planned, and only planned, changes 
to the code have been correctly implemented. Regression testing should 
be conducted and repeated so that, as additional fixes are made to the 
code, or new features are added, these can be tested to assess the 
extent to which new errors may have been inadvertently inserted into 
the code. With respect to systems failures attributable to newly 
introduced errors, the potential impact could be different than 
existing Y2K errors. Our work thus far has indicated there is little 
date sensitive information in the fundamental call processing or data 
routing capabilities of networks and that there are relatively few 
interfaces between network equipment that involve date processing.. 
However, it is possible that while fixing Y2K problems in some parts of 
software, errors could be inserted inadvertently that affect non-date 
related functionality. This possibility, again, emphasizes the need for 
extensive and repeated testing of the types described above.
    Question 3. I understand that much of the code correction for U.S. 
carriers has been done in foreign countries. What kind of a security 
risk does this present?
    Answer. The issue of security for both the public switched 
telephone network (PSTN) and private networks as it relates to year 
2000 remediation is of paramount importance. As a critical 
infrastructure supporting the provision of local emergency response, 
national security preparedness, and commerce and economic transactions 
throughout the nation and the world, telecommunications networks must 
be protected from threats, both domestic and international, to their 
functioning and reliability. Such assurances are fundamental to a 
robust and reliable telecommunication infrastructure.
    There is the possibility that security risks can be introduced into 
any code that is being remediated, not just code that is corrected in 
foreign countries. Programmers can, for example, introduce trap doors 
or back doors for non-malicious reasons, for example, to make it easier 
for them to maintain the code. These trap doors or back doors can then 
be used for other purposes to obtain unauthorized access to the 
software program. In other instances, security problems can be 
introduced for directly malicious purposes during the code remediation 
process. To date, I know of no easy way to assess code to ascertain the 
existence of these types of security risks. It requires labor intensive 
examination of the code, line by line. Companies can work to protect 
themselves from such risks by conducting adequate due diligence of 
employees, contractors, and service providers that they may hire to 
remediate Y2K problems. In addition, implementing various policies 
(such as code inspections) to monitor the code remediation process also 
can help reduce risk.
    Question 4. Your recommend that the industry should be preparing 
contingency plans for scenarios with multiple carrier failures. In what 
forum should this occur? In your opinion should this be coordinated 
through the FCC, National Telecommunications Alliance or though the 
National Communications System? Or would you suggest another entity?
    Answer. The telecommunications industry has been successful in the 
past in providing quick response to problems impacting service both at 
the individual company level and in working collaboratively to respond 
to common service-related issues. With the advance knowledge that 
service could be impacted due to the year 2000 problem, the industry 
has a unique opportunity to undertake advance contingency planning for 
potential service degradation or loss. My recommendation on emergency 
business recovery is for an industry-based effort to be undertaken in 
advance that would address scenarios in which one company as well as 
multiple carriers might be affected by Y2K problems.
    Such a coordinated effort could be managed by one of a number of 
entities including those identified above. Rather than recommend a 
preferred forum for business recovery planning, I would suggest that 
such a forum be as inclusive as possible with representation from all 
segments of the telecommunications industry--local and long distance 
carriers, wireless companies, and equipment manufacturers, for example.
    Question 5. Do you suggest interoperability testing between foreign 
carriers and domestic carriers?
    Answer. The challenges of interoperability testing discussed above 
and in my written testimony apply as well to testing between domestic 
and foreign carriers. However, such challenges may be heightened by 
virtue of the geographic and political divisions of the world's 
countries, the sophistication of their telecommunications 
infrastructure and their level of awareness and remediation of Y2K-
related problems. U.S. companies, I believe, can serve as leaders in 
the international arena through their international operations and 
through partnerships with foreign carriers to increase awareness, to 
exchange information and knowledge, and to engage in testing where 
feasible. International organizations, such as the International 
Telecommunications Union (ITU), can also play an instrumental role in 
supporting these activities for telecommunications carriers around the 
globe. Clearly, the importance of interoperability testing both 
domestically and internationally cannot be overstated and to the extent 
that it can be facilitated with the support and encouragement from 
Congress, international organizations, and the carriers, the more 
likely testing will be conducted.
    Question 6. Are the Year 2000 telecommunications test beds 
available for application testing (such as business applications)? When 
could such testing begin and who would coordinate them?
    Answer. Bellcore has some central-office laboratories that have 
been used extensively by telecommunications carriers and suppliers for 
both stand-alone product testing as well as interoperability testing. 
For example, we recently conducted extensive interoperability tests for 
local number portability under the oversight of the Alliance for 
Telecommunications Industry Solutions (ATIS). These laboratory 
facilities include several of the major switching systems in use in the 
United States, as well as a hub capability that allows for 
interconnection with remote laboratories located at carrier or supplier 
sites. Bellcore also has a separate testing platform in its Quality 
Assurance testing labs to enable product and interoperability testing 
of Bellcore's licensed software products in a clock-reset environment. 
This is a key component of our Y2K testing strategy.
    Question 7. You mention that in your assessment of fortune 50 
companies you discovered that 25-35 percent of data networking devices 
have date problems. Isn't that number as high as 50 to 65 percent with 
(Automated) Intelligent Networks (AIN)? What is the implications of 
these failure rates?
    Answer. The risk assessments we have conducted for carriers have 
included network equipment that provides Advanced Intelligent Network 
(AIN) services. The Y2K vulnerabilities of this equipment are similar 
to the vulnerabilities identified in voice networks. That is, 
approximately 75 percent of these devices have date-sensitive 
processing in them, and this date processing is largely in the 
administrative, maintenance, and operations functions. AIN services 
can, at times, involve some additional capabilities in call processing 
(e.g., time-of-day, day-of-week flexible scheduling or routing logic) 
that may increase exposure to Y2K risks. In addition, AIN is a 
distributed network environment, so interoperability testing between 
distributed network elements is critical.
    With regard to data networking devices in large commercial 
enterprises, we've found that 25-35 percent of those devices have date-
sensitive processing in them. The higher number (i.e., 35 percent) 
reflect intelligent data networking devices. That is, data devices that 
have network management capabilities included as part of the network 
device itself (as opposed to a separate system) are somewhat more 
likely to have date processing than data devices that do not include 
network management intelligence. This is consistent with our overall 
conclusion that it is the operations, administration, and management 
capabilities that are most at risk.
                               __________

                  Prepared Statement of Ramu Potarazu

    Good morning Mr. Chairman, members of the Special Committee. My 
name is Ramu Potarazu, and I am the Vice President and Chief 
Information Officer of INTELSAT, the International Telecommunications 
Satellite Organization. I appreciate the opportunity to testify before 
you today on the important issues raised by Year 2000.
    This morning, my testimony will concentrate on what INTELSAT is 
doing to address the Year 2000 issues. In fact, we calculate that we 
have 370 business days left before Year 2000 is upon us.
    Let me begin with a very brief history of INTELSAT. INTELSAT was 
established in 1964 as a global commercial cooperative on the 
initiative of the United States. At that time, President Kennedy said 
``I invite all nations to participate in a communications satellite 
system, in the interest of world peace and closer brotherhood among 
peoples of the world.'' President Kennedy's bold and prescient 
statement led to passage by the United States Congress of the 
Communications Satellite Act of 1962, which, in turn, resulted in the 
formation of INTELSAT in 1964, the initiation of commercial satellite 
service in 1965, and the establishment of full global coverage by 
INTELSAT in 1969.
    INTELSAT's main mission is to provide the space segment for public 
satellite communications services throughout the world on a non-
discriminatory basis. ``Non discriminatory'' means that INTELSAT 
provides services to all countries of the world at the same prices. 
Today, INTELSAT has 143 member countries and interconnects virtually 
every country and territory in the world. INTELSAT provides 
international, domestic and regional satellite communications services 
such as telephone, television, Internet and data.
    INTELSAT began its official Year 2000 program several years ago. We 
recognize that INTELSAT potentially could be affected by the Year 2000 
in several areas--from our desktop computing, to our regular daily 
business transactions, to our ground systems which control our 
satellites, ground stations operated by our Signatories and direct 
access users and even the power, air conditioning and security of our 
headquarters building here in Washington.
    INTELSAT adopted a standard, five-step approach to resolving our 
Year 2000 issues. In the first phase, the Preliminary Assessment Phase, 
INTELSAT produced an inventory of all equipment that included computer 
software or hardware (or embedded systems) that could be affected by 
dates. INTELSAT's second phase is the Analysis and Plan Phase. After we 
created an inventory in the first phase, we analyzed the inventory and 
developed plans to remediate any Year 2000 issues. In the Analysis and 
Plan Phase, we first sub-divided INTELSAT's inventory into three 
categories: critical, essential and non-essential. INTELSAT's plans, at 
this time, are to remediate the Year 2000 issues in the critical and 
essential systems by the end of the first quarter of 1999. INTELSAT's 
focus would then shift to the remediation of the less urgent, non-
essential systems.
    The third phase, which we are currently in, is called the 
Remediation Phase. In this phase, INTELSAT is remediating the critical 
and essential systems for Year 2000 compliance. INTELSAT is making 
progress and is on schedule for completion in the first quarter of 
1999, as planned at this time.
    After remediation of its Year 2000 issues, INTELSAT will engage in 
the fourth phase: the Testing Phase. The Testing Phase is very complex 
because, at INTELSAT, we cannot simply shut down our daily operations 
and easily test software and hardware. Therefore, new facilities have 
to be set up in temporary locations. We are currently preparing to 
conduct such tests as soon as the software remediation is complete.
    INTELSAT's fifth and final phase is the Deployment Phase. In this 
phase, INTELSAT will put the systems into production and operation. 
When this phase is complete, INTELSAT will be ready to operate into the 
new millennium.
    Out of the five phases, the two phases that are the most 
complicated and manpower-intensive are the Remediation and Testing 
Phases. As I stated earlier, testing is very difficult but we have very 
thorough test plans to implement and complete this phase.
    In the invitation letter from Chairman Bennett to testify today, I 
was asked to address four questions. The first question asked was, 
``How does the Year 2000 problem affect satellite communications?''
    INTELSAT has received information from our satellite manufacturers 
that indicates that the INTELSAT satellites do not have Year 2000 
problems. INTELSAT has three satellite vendors, all from the United 
States, that comprise our current and planned fleet. These vendors are 
Space Systems/Loral, Lockheed Martin and Hughes Spacecraft. All of our 
vendors have advised us that there are no known problems on the 
spacecraft. Typically, a communications satellite does not reference a 
time and a date; rather, a satellite references what we commonly refer 
to as ``satellite local time,'' that is a reference to the sun. When 
there is a technological reference to the sun, there usually is no 
reference to a specific year. INTELSAT's own analysis and testing will 
seek to confirm this information. Thus, at this time, we do not believe 
that our INTELSAT satellites have any Year 2000 issues.
    As a result, INTELSAT's Year 2000 emphasis primarily has focused on 
our ground systems that fly, command and control, and monitor our 
satellites.
    The second question asked was what are ``INTELSAT's concerns about 
international communications?'' This, quite frankly, is INTELSAT's 
biggest concern and is one that is mostly out of our control.
    To respond to this question, I will describe the Year 2000 issue as 
it affects three major groups of INTELSAT users, each of whom operates 
its own incountry ground network to access the INTELSAT satellite 
network. The first group is the high tech user group that has a 
familiarity with computers, is aware of the Year 2000 issue, knows what 
to do, and is remediating any Year 2000 issues.
    The second group is composed of users who have computer systems 
that may not have been replaced over the last 10 or 15 years. These 
users have a more limited knowledge of computers because they only 
repair the computer system when it breaks. They may or may not be fully 
aware of the Year 2000 issue, and they may or may not be remediating 
any Year 2000 issues.
    The third group is composed of users throughout the world who have 
``antiquated'' technological systems. They generally do not use 
computer systems at all to run their systems, and use a lot of manual-
intensive labor to perform operations.
    Categories 1 and 3 present the smallest problems from INTELSAT's 
perspective. Our focus is on the users in the middle category--the 
users that have outdated systems, do not have money to remediate any 
Year 2000 issues, and sometimes, don't even have the money to recognize 
that they have a Year 2000 problem.
    Many of the earth stations throughout the world have several 
hundred pieces of computer equipment from various manufactures that 
control their ability to receive telecommunications information. For 
example, if antenna control units fail, this failure could cause 
complete loss of pointing to the satellite by the antenna and no 
information could be sent or received.
    Perhaps I can use an illustration to demonstrate INTELSAT's 
concerns about Year 2000 issues affecting international communications 
in satellite communications. A significant part of INTELSAT's 
international communications is a two-way communication that uses an 
INTELSAT satellite between country A and country B. If country A's 
ground network is Year 2000 compliant; and INTELSAT, being the supply 
chain in the middle, is also compliant; and country B's ground network 
is not Year 2000 compliant, then you will have a failure of the 
complete chain. To summarize, INTELSAT has some concerns about the Year 
2000 compliance of all international communications.
    The third question asked was, what is ``The general preparedness of 
the satellite industry?'' I cannot answer on behalf of any other 
satellite competitors or satellite industry leaders. However, INTELSAT 
has a thorough remediation plan and we are working very diligently to 
make ourselves Year 2000 compliant. The most appropriate way for me to 
answer at this time is to say that, yes, we at INTELSAT have a plan in 
place to be prepared for our global satellite system.
    In addition, INTELSAT has been proactive in working with our 
customers, our Signatories and other international organizations in 
regard to the Year 2000 issues to exchange and gather information. Here 
is a brief overview:
    With the World Bank: INTELSAT's CEO, Irving Goldstein, recently met 
with the World Bank President, James Wolfenson to discuss cooperation 
on Year 2000 technical awareness issues. INTELSAT has offered free 
usage of the INTELSAT space segment to the World Bank for promulgation 
of Year 2000 issues on a more global basis. INTELSAT understands that 
the World Bank and other intergovernmental financial institutions have 
made funding available to governments and the private sector for the 
Year 2000 program. Last month, INTELSAT participated in the World 
Bank's Multilateral Development Bank Conference in Washington, D.C. 
INTELSAT also will be providing technical awareness assistance at the 
World Bank-sponsored Year 2000 seminars for developing nations. Over 10 
seminars in different countries are scheduled between July-October 
1998, and the first seminar was held earlier this month, in Brazil.
    With the International Telecommunication Union: INTELSAT provided 
Year 2000 speakers at the ITU Africa Telecom conference in South Africa 
earlier this year and INTELSAT has been assisting the ITU with other 
Year 2000 initiatives.
    With the Caribbean Telecommunications Union: INTELSAT spoke about 
the Year 2000 issue at the CTU Annual Policy Seminar earlier this 
month.
    With the INTELSAT Advantage Program: INTELSAT has developed a Year 
2000 seminar for its customers and users, and will be offering this 
information throughout the world over the next 12 months.
    With the INTELSAT Corporate Intranet/Seminars: INTELSAT has 
developed an extensive corporate Intranet on Year 2000 issues as a 
technical resource for our staff and our customers. Because this 
Intranet includes proprietary business information, its use is 
restricted. However, INTELSAT would be pleased to meet separately in a 
seminar format with those interested in learning more about INTELSAT's 
Year 2000 Program.
    The fourth question asked was, what ``Specific actions that you 
believe the Congress or others should take to facilitate the Year 2000 
remediation efforts?'' From a conceptual point of view, INTELSAT's 
policy is to encourage the implementation, in every country throughout 
the world, of some type of legislation which allows INTELSAT and others 
to share information more readily. Right now, many entities are 
reluctant to share information because of legal ramifications. As a 
result, testing and remediation is often duplicated at great expense. 
In a perfect world, any effective legislation to limit legal liability 
should have been implemented a year or two ago. Nevertheless, INTELSAT 
encourages implementation of any legislation that can help alleviate 
some of the potential legal liabilities that have created a ``chilling 
effect'' on the remediation of Year 2000 issues among organizations and 
businesses around the world.
    INTELSAT also encourages continued congressional support for 
efforts throughout the world, and particularly in the developing 
countries, to educate and promote awareness about the Year 2000 issues 
in order to facilitate technical remediation efforts.
    In conclusion, we at INTELSAT have made the Year 2000 issue a top 
priority and hope that the rest of the industry takes this issue as 
seriously as we do. And, we believe today's hearing is a very useful 
way to promote awareness of this very important issue. Once again, I am 
honored to be here today and will be happy to answer any questions 
regarding the Year 2000 issues in regard to INTELSAT.
                                 ______
                                 

 Responses of Ramu Potarazu to Questions Submitted by Chairman Bennett

    Question 1. Could you tell the committee how long your satellites 
would be recoverable without control from the ground. What is the 
longest time in the recent past that you have lost contact with a 
satellite due to failure in ground station software and still have 
managed to regain satellite control and operations?
    Answer 1. Answering the second half of the question first, the 
longest time in the recent past that INTELSAT has lost contact with a 
satellite due to a ground station failure is approximately two minutes. 
This is due to the fact that the INTELSAT system has backup redundancy 
whereby a failure at one ground station is immediately backed up by a 
second ground station. The second ground station is fully capable of 
providing the necessary requirements to operate the satellite, 
including: telemetry processing, tracking, commanding and ranging.
    The basic operation of a satellite, however, is autonomous from its 
ground control station. Therefore, should INTELSAT lose both the 
primary and backup ground stations for a satellite, then under normal 
atmospheric conditions, INTELSAT would expect to be able to recover the 
satellite up to one week after the commencement of the double outage at 
the ground stations. The only known exception to INTELSAT's estimated 
``one week'' window of recovery is during the two eclipse periods that 
occur every year. The eclipse periods are two 45-day windows that begin 
22 days before and end 22 days after the 15th of March and the 15th of 
September. During these periods, INTELSAT conducts critical commands 
and monitoring controls on an hourly basis, 7 days a week, 24 hour a 
day. If INTELSAT loses its ability to communicate with a satellite 
during either of these annual eclipse periods, then INTELSAT's failure 
recovery window of one week could potentially be reduced to half a day.
    The time frame of most concern for the Year 2000 issue is a period 
of 2 days, 31 December 1999 through 1 January 2000. Therefore, even 
under the extreme and unlikely circumstances of a double outage at the 
ground stations, as described above, the critical 2-day Year 2000 time 
period is well within INTELSAT's anticipated ``one week'' window of 
recoverable failure time. Moreover, the transition to the new 
millennium is not during an eclipse period.
    Question 2. Can you say how many developing nations are 
significantly threatened by major communications disruptions due to Y2K 
problems impacting their ground station or wireline telecommunications?
    Answer 2. Although INTELSAT has not conducted its own study with 
regard to the Year 2000 ``readiness'' of developing nations, INTELSAT 
is a member of the ITU Year 2000 Task Force. This ITU group has issued 
a questionnaire and is conducting a study on this issue. The ITU has 
indicated that, as of 13 August 1998 over 200 operators from around the 
globe have responded to its questionnaire. The ITU's questionnaire 
asked several Year 2000 management questions, and asked the respondents 
to provide a number rating (1 = high level of confidence, to 4 = low 
level of confidence) for such areas as:

          (a) Systems and Applications,
          (b) Networks (domestic, interconnect, international and 
        telex),
          (c) Products and Services,
          (d) Communications to Customers,
          (e) Communications to Suppliers,
          (f) Supplier Relationships,
          (g) Integration and Testing, and
          (h) Business Continuity Planning.

    The ITU's questionnaire also asked for the respondents to indicate 
an expected system compliance date and a final testing-completion date. 
The summarized results can be found on the ITU's web site at http://
www.itu.int/y2k/.
    Additionally, as stated in the 31 July 1998 U.S. Senate testimony 
of Mr. Ramu Potarazu, INTELSAT's Vice President and Chief Information 
Officer, INTELSAT is participating as a technical telecommunications 
representative in the World Bank's InfoDev Program, which focus is on 
Year 2000 issues in developing nations. To date, INTELSAT has 
participated in the World Bank's regional seminar in Jamaica and the 
national seminar in Brazil. INTELSAT is scheduled to participate in 
several additional World Bank seminars by the middle of October 1998.
    Question 3. Are you aware of and satisfied with the changes being 
made to the voice networks you will have to connect to?
    Answer 3. By way of background, INTELSAT only provides the space 
segment portion of a global commercial telecommunications satellite 
system. Therefore, all connectivity to INTELSAT's network must be made 
through antennas owned by other entities. These antennas primarily 
exist at earth stations. Most earth stations have multiple antennas. 
INTELSAT has no ownership interest in any of the earth stations (or 
antennas) connecting to its satellite communications network. There are 
two types of earth stations that connect to INTELSAT. First, Telemetry, 
Tracking and Commanding (TT&C) earth stations connect to INTELSAT's 
network. Second, a large number of traffic earth stations that carry 
commercial services are connected to INTELSAT's network. Each of these 
types of earth stations are discussed in greater detail below.
    TT&C Earth Stations.--All of the TT&C earth stations that connect 
to INTELSAT's network are independently owned. The TT&C earth stations 
provide the services necessary for INTELSAT to fly its satellites, and 
these stations provide for the safety of INTELSAT's satellite fleet as 
required. INTELSAT has a contractual relationship with specific TT&C 
earth station sites to provide services. In addition, as part of 
INTELSAT's Year 2000 Program, INTELSAT has agreements with these TT&C 
earth station sites to conduct end-to-end testing of the telemetry, 
tracking and commanding services that they provide to INTELSAT. 
INTELSAT expects to conduct this end-to-end testing during the fourth 
quarter of 1998.
    Traffic Earth Stations.--The traffic earth stations that connect to 
the INTELSAT system for commercial voice networks, video, data, 
Internet, etc. consist of hundreds of earth stations and thousands of 
antennas. These earth stations and antennas are owned and operated by 
INTELSAT's customers. INTELSAT recognizes that it is impossible to 
conduct end-to-end testing with all of these earth stations and 
antennas prior to the year 2000. Therefore, INTELSAT has embarked on an 
awareness campaign to inform these traffic earth station operators 
about INTELSAT's Year 2000 remediation program, and the critical need 
for these operators to develop their own Year 2000 program. As part of 
INTELSAT's Year 2000 Program, it has: written letters to all of the 
Operation Representatives (technical operators of earth stations 
connected to the INTELSAT network) and written letters directly to each 
traffic earth station terminal about INTELSAT's Year 2000 efforts. In 
addition, INTELSAT has made several Year 2000 presentations at various 
INTELSAT fora including: the INELSAT Global Operation Representatives 
Conference (GORC), the INTELSAT Global Traffic Meeting (GTM), the 
INTELSAT Meeting of Signatories, and the INTELSAT Board of Governors 
meetings and its many committee meetings. As a result of INTELSAT's 
dissemination of Year 2000 information, INTELSAT has an acceptable 
level of confidence that the traffic earth station operators are aware 
of their individual Year 2000 responsibilities.
    Finally, the thousands of domestic terrestrial telecommunications 
operators throughout the world connect to the traffic earth stations 
described above. Therefore, these terrestrial operators are at least 
one step beyond the earth stations in the distribution chain of 
INTELSAT telecommunications services, and INTELSAT does not see the 
need to directly participate in further end-to-end testing with these 
operators at this time.
    Question 4.--Can you say anything about the readiness or 
preparations for Year 2000 in these (Far East) countries at this time? 
Should we be extra concerned given the other problems some of these 
economies and political systems are already having at this time?
    Answer 4. INTELSAT has participated in a number of forums in which 
it has discussed its Year 2000 Program, including: INTELSAT's 
involvement in the ITU and World Bank programs (discussed in the answer 
to Question 2, above), INTELSAT's Advantage Program (which provides 
technical seminars and training for developing countries who are 
members of INTELSAT) and INTELSAT's meetings with its Signatories who 
represent INTELSAT's 143 nation membership. Both the World Bank's 
InfoDev Program and INTELSAT's Advantage Program have scheduled 
regional seminars in the Far East during September and October of 1998. 
Countries on the World Bank's InfoDev current schedule include: India, 
Pakistan, China, Vietnam, Indonesia, and tentatively Thailand.
    While INTELSAT is concerned with the Year 2000 readiness of the Far 
East, especially in light of the recent economic and political 
situation, we are somewhat encouraged by the published results of the 
ITU Year 2000 Task Force questionnaire, previously cited above. The ITU 
has indicated that, of the 50 questionnaires returned by operators in 
Asia and ``Australasia,'' only seven operators have given any 
indication that Year 2000 work has not yet been initiated. According to 
the ITU's study, the remaining 43 operators have Year 2000 programs in 
place and the vast majority of these were willing to offer a completion 
date.
                               __________

                Prepared Statement of Michael K. Powell

                              introduction
    Good morning, Mr. Chairman, Senator Dodd and distinguished members 
of the Committee. I commend the Senate Special Committee on the Year 
2000 Technology Problem for its active participation on this issue. I 
welcome this opportunity to share with you what the Federal 
Communications Commission (FCC) has learned about industry efforts to 
address the Year 2000 Problem, as well as to discuss the fundamental 
importance of the national telecommunications infrastructure and the 
potential impact of the Year 2000 Problem on embedded 
telecommunications networks and systems.
    My comments today will focus primarily on wireline 
telecommunications services. However, it is important to note that the 
FCC is engaged in outreach and assessment initiatives in each of the 
different subsectors of the communications industry, including 
terrestrial wireless, radio and television broadcast, cable television, 
international telecommunications and satellites. Appended to my 
testimony, as Appendix A, is a summary of how each of these different 
industries may be affected by the Year 2000 Problem and what industry 
and the FCC are doing to address these problems.
                               background
    As you are aware, there are many automated and intelligent systems 
that were not designed to account for the millennial date change of 
January 1, 2000, and if not addressed, the Year 2000 Problem or so-
called ``Millennium Bug'' could consequently affect every 
telecommunications subsector. At the FCC, we have developed and 
continue to develop outreach and advocacy strategies to raise industry 
awareness of the issue, as well as methods for assessing and monitoring 
the industries' efforts to address the problem. Finally, we have been 
looking into ways to facilitate the development of effective 
contingency plans in the event that a major disruption to the network 
should occur.
    As an initial matter, it is important to remember that no single 
entity owns or controls the public switched telephone network. There 
are the major telecommunications carriers, like the Bell Operating 
Companies, GTE, AT&T, MCI and Sprint, that provide service to the 
majority of the country. But there are also 1,400 small to mid-size 
independent telephone companies that serve many rural and insular parts 
of the country as well as the U.S. territories and possessions. And 
these companies are only one in a long chain of interdependent 
companies required for the network to operate domestically.
    For example, in order to fix the Year 2000 Problem, the carriers 
rely on manufacturers of central office switches and other network 
equipment. And then there are the end users which must make sure their 
equipment such as their telephones, voice mail systems, Private Branch 
Exchanges (PBX's), and local area computer networks are all Year 2000-
ready otherwise they will not be able to send or receive voice and data 
traffic. These groups are, in turn, dependent upon other manufacturers 
for their equipment, who are, in turn, dependent yet again on other 
providers for parts and services like power. And on it goes.
    Without a doubt, the telecommunications network is a tremendously 
complex and interdependent thing, and consists of millions of 
interconnected parts. The public switched telephone network processes 
millions of calls per minute. To transit each and every call, automated 
and intelligent machines and systems (in the possession of the 
thousands of telecommunications carriers and users described above) 
make calculations for the most efficient multi-path, real-time 
interaction of all points along the established circuit between the 
call's origination and destination.
    For example, in milli-seconds, a phone call from Washington, D.C. 
to New York travels from your telephone, to the Private Branch Exchange 
(i.e., switchboard) in your building, to the local exchange carrier's 
central office switch, through the carrier's network components and 
systems that route your call to an inter-exchange carrier (or 
carriers), through long-distance trunk lines (or other 
telecommunications facilities like microwave, satellite, fiber optic), 
to another local exchange carrier's central switch, and ultimately to 
the telephone on the other end. Make the same call two minutes later 
and the call may be routed in a completely different manner as 
calculated by the network.
    The foregoing description points to the mathematical impossibility 
(i.e., the infinite number of permutations and combinations of routing 
possibilities and service events to transit a voice or data call) of 
testing the entire public telephone network for Year 2000-readiness or 
of expressing a high degree of confidence about the readiness of the 
network. If any one of those components/systems (e.g., central office 
switch), network elements (e.g., advance intelligent network, Signaling 
System 7), or network interconnectors (e.g., local exchange carrier, 
interexchange carrier, Internet Service Provider, private 
telecommunications network user) is affected by the Year 2000 Problem, 
a call might be disrupted.
    However, I believe that with time and greater knowledge of the 
scope of the problem, and by maximizing the amount of information 
available to all companies faced with this problem, we will be able to 
better predict where and how problems in the network are likely to 
occur. In my role as Defense Commissioner, I plan to work closely with 
the industry and the Network Reliability and Interoperability Council 
to help them address these problems.
                              fcc efforts
    In mid-March, the Commission created its Year 2000 Task Force. In 
mid-April, at the request of FCC Chairman William Kennard, I agreed to 
oversee the FCC's Year 2000 efforts and represent the agency on the 
President's Council on Year 2000 Conversion, which was established on 
February 4, 1998. I also co-chair with Dennis Fischer of the General 
Services Administration (GSA) the Council's Telecommunications Sector 
Group.
    At the FCC, we are working to promote an effective public-private, 
``mission-oriented'' partnership to ensure that users of 
telecommunications services enjoy as close to the same level of quality 
and reliability on and after January 1, 2000, as they do today. We 
believe that the FCC can play an important role by encouraging 
companies to share information with each other and with their 
customers. This will increase the sharing of solutions, avoid 
duplicative testing, help companies spot undetected problems, and 
reduce customer uncertainty and anxiety.
    In Appendix A, attached to my testimony, you will find summaries of 
actions that the FCC has taken to promote its outreach and assessment 
efforts. As a result, I will only highlight those efforts here.
    In an attempt to encourage private sector compliance efforts and to 
foster information sharing we have set up a special Internet site 
(www.fcc.gov/year2000/) which has received over 24,000 hits to date. 
Chairman Kennard, myself, the other commissioners, and FCC staff are 
all highlighting this problem in speeches and in meetings with leaders 
in the telecommunications industry.
    We have sent over 200 letters to major companies and organizations 
in all sectors of the telecommunications industry asking them about 
their efforts to become Year 2000-ready. In June and July alone, we 
organized eight informational forums with representatives of different 
sectors of the telecommunications industry to facilitate information 
sharing and see how the FCC can assist industry efforts to tackle the 
Year 2000 Problem. In addition, I have asked representatives of each of 
the communications subsectors to participate on the Telecommunications 
Sector Group of the President's Council. We had our first meeting with 
the industry participants on July 17, 1998. I believe that their 
participation in the sector group will better facilitate communication 
and information sharing between government and private industry.
    We have elected this engagement approach, rather than an 
adversarial, regulatory one for a number of reasons. First and foremost 
among them is that there is very little time to get this job done. Only 
private firms can fix these problems and we must have their full 
cooperation and must obtain timely and candid disclosure of 
information. We are of the opinion that a heavy regulatory approach 
will lead to guarded communications, the involvement of lawyers rather 
than technologists and managers, and a huge loss of time while we 
haggle over requests and regulatory demands. Furthermore, most formal 
regulatory actions require compliance with standard procedures which 
often take months, time we do not have. Moreover, significant time 
would be lost to developing, issuing, evaluating and compiling lengthy 
data requests. Such efforts would divert both the FCC's limited 
resources and those of the companies from actually working the problem, 
which after all is what matters most.
    Only the industry can fix this problem. It is important to remember 
that telecommunications carriers and users rely upon a complex, 
technical network that is engineered for near unfailing reliability. 
The Bellcore standard is 99.9999 percent up time. (For example, the 
Bellcore standard for switch reliability requires that any given switch 
not be inoperable for more than 3 minutes per year. That is 3 minutes 
of 525,650 minutes in a year.) Thus, these companies have a strong 
stable of trained experts in network reliability issues. They have 
experience with identifying threats to network reliability, planning 
corrections and executing those corrections. They also have experience 
doing similarly Herculean tasks, having pulled the public switched 
telephone network apart during the AT&T divestiture and the re-
engineering that took place when the country instituted the three-digit 
area code convention.
                               assessment
    Our general assessment of the telecommunications industry remains 
positive. Our inquiry letters dispatched in late April, for example, 
asked 20 telecommunications carriers, accounting for roughly 98.1 
percent of the country's access lines, to report on their critical 
systems. We learned that generally, the carriers have completed their 
review of the inventory for these systems, have completed assessing the 
impact of the Year 2000 Problem on these systems, and they have set 
completion dates for remediation, testing and integration by the 
second-quarter of 1999.
    We are led to believe that most major U.S. equipment manufacturers 
will be able to meet projected demands for equipment. The major 
manufacturers have had extensive Year 2000 programs in place for some 
time, and have been working closely with both local and long distance 
carriers to develop strategies for Year 2000-readiness. Manufacturers 
report that most of their software and hardware products are already 
Year 2000-ready and have been made available to customers. They have 
targeted end-of-year 1998 or first-quarter 1999 for general 
availability for all Year 2000-ready products. Our continuing dialogue 
with the industry should allow us to assess any change due to 
unexpected increases in the demand for products.
    The carriers are also cooperating on interoperability and end-to-
end testing. Testing is (and will continue to be) the hardest, yet most 
important, part. Most telecommunications companies estimate that 
testing comprises 50-70 percent or more of their Year 2000 efforts. And 
we have learned that testing often uncovers more problems that need to 
be fixed.
    The Telco Year 2000 Forum, which is comprised of eight large 
regional local exchange carriers, has contracted with Bellcore and is 
already performing integration testing on Year 2000-ready equipment. 
ATIS, which is an industry-funded organization whose mission is to 
advance new telecommunications technologies, will conduct inter-network 
interoperability testing in January and February 1999, and is also 
working with Bellcore. According to ATIS, the interoperability tests 
should encompass network configurations that serve over 90 percent of 
the country. This type of cooperative industry testing is very 
important because it is nearly impossible to conduct interoperability 
and end-to-end tests on the actual public switched telephone network. 
Unlike the Securities Industry Association's interoperability tests 
where the securities exchange network can be shut down from daily 
traffic, the nation's phone network has to be up and running 24 hours a 
day, 7 days a week and it involves millions of different elements. The 
telephone companies cannot disconnect their network and turn the clock 
ahead to the year 2000 to do a test.
    I would also like to announce that C. Michael Armstrong, Chairman 
and Chief Executive Officer of AT&T, has agreed to chair the Network 
Reliability and Interoperability Council (NRIC) which will play a 
central role in our Year 2000 efforts. The new Council will have a 
staff group dedicated to the Year 2000 effort, headed up by A. John 
Pasqua, Vice President-Corporate Year 2000 Program, also from AT&T, and 
we hope a representative from a major equipment manufacturer. We 
believe that NRIC will be invaluable in coordinating overall testing, 
advising the FCC on the status of the industries' readiness, and 
assisting the Commission in facilitating the development of contingency 
plans. A representative of NRIC will also sit on the Telecommunications 
Sector Group of the President's Council, which will facilitate 
constructive dialogue between the industry and those government 
entities that rely most heavily upon the telecommunications 
infrastructure.
    While we have programs in place to address this problem, all that 
we have observed is not comforting. At this juncture, with respect to 
the telecommunications industry, the FCC continues to be concerned 
about the effect of Year 2000 problems on small to mid-size independent 
carriers as well as on international telecommunications carriers. These 
two areas of concern arise from the numerous informational meetings the 
FCC's Bureaus have conducted and the reports received that many of the 
companies: (1) may not realize (or may be slow to realize) the 
seriousness of the problem; and (2) will not have the financial 
resources, available personnel, or management structure to begin 
implementing appropriate Year 2000 compliance measures.
    With regard to the independent telephone companies, as I stated, 
there are some 1,400 small to mid-size companies that serve many rural 
and insular parts of the country. The Commission is working 
continuously with various trade associations, to which many small and 
mid-size carriers belong, in an effort to alert their members that they 
need to begin Year 2000 remediation efforts now. Moreover, the FCC has 
commenced a dialogue with the National Association of Regulatory 
Utility Commissioners (NARUC), and specifically the association's 
Communications Committee for the purpose of promoting State-level 
awareness of the Year 2000 Problem because of the close regulatory 
relationship between telecommunications carriers and their State 
regulators. In fact, just two days ago I attended NARUC's annual Summer 
meeting where they convened a Communications Committee panel on State-
level Year 2000 initiatives. Finally, the FCC intends to transmit 
letters to each and every one of the 1,400 small and independent 
carriers in the coming weeks.
    We are even more concerned about international telecommunications 
carriers. The United States, Canada and the U.K. are forging ahead, but 
we have many concerns about carriers in other nations, especially those 
in developing countries, that have not yet taken the necessary steps to 
prevent system failures. We are further concerned that international 
economic challenges may prevent foreign carriers and users from 
addressing the Year 2000 problem. For example, in Europe, we have 
concerns as to whether carriers and users will be ready for the onset 
of the Euro and still be able to implement Year 2000 compliance 
efforts. Moreover, in Asia, we are concerned that the current recession 
and economic difficulties could prevent carriers and users from 
satisfactorily meeting the Year 2000 challenge.
    In concert with the other Bureaus and offices of the Commission, 
the FCC's International Bureau hosted a series of roundtable 
discussions with the U.S. communications sector to raise awareness, 
seek solutions, and informally survey progress of industry efforts. In 
tandem with these roundtables, we have raised the issue with foreign 
delegates in the context of the FCC Visitor's Program and Foreign 
Regulator Workshops. The Year 2000 problem has also been addressed in 
speeches presented in bilateral discussions and international forums. 
We have also circulated letters to the U.S. international 
telecommunications companies informing them of our efforts and 
encouraging them to take prompt and effective action, including with 
their foreign correspondents.
    In addition, the International Telecommunications Union (ITU) has 
been addressing this issue. The ITU has established a Year 2000 Task 
Force with five subgroups (including a contingency planning subgroup) 
spearheaded by British Telecom's Ronald Balls to increase international 
awareness and provide direction on the global Year 2000 Problem. The 
ITU also has circulated ``The Year 2000 Millennium Compliance 
Questionnaire'' to its 5,000 members governments, telecommunications 
carriers, and operators however, the response has been poor. The ITU is 
redoubling its efforts to mobilize governments to put pressure on 
operators to respond to the questionnaire. The questionnaire will serve 
to uncover where efforts are needed and what resources should be 
directed to those countries.
    Other activities of the ITU include hosting workshops, making 
presentations, and participating in discussions and roundtables. It has 
established a ``Y2K Ambassadors'' program to serve as regional 
coordinators for assistance on Year 2000 Problems and activities around 
the world. The FCC has agreed to be such an Ambassador for the region 
of the Americas. The ITU is supporting and involved with Year 2000 
testing in Europe and Africa, and dispersing information on various 
Year 2000 standards such as those of the British Standards Institute 
(BSI) to telecom and satellite operators, which are its members.
                          impact of year 2000
    As I stated earlier, the telephone network is a very complicated 
and interdependent thing and consequently it is difficult to predict 
with any level of certainty all the ways that the failure of one piece 
of the network could trigger failures elsewhere in the system. For 
example, if calls to a particular country fail to be completed, there 
will likely be many redial attempts, which will place increased burden 
on one central office switch. Securities trading may target a specific 
country at a particular time of day. Calls that do not go through will 
result in increased and unexpected traffic at that switch. In addition, 
a carrier may be unable to bill correctly for calls. As a result, the 
carrier receives no revenue or delayed revenue from its customers. As a 
consequence, the carrier is unable to pay its suppliers in a timely 
manner.
    There are also secondary effects to consider. For example, although 
no date-sensitive information crosses the interface between two 
carriers, the Year 2000 issue poses problems when carriers try to 
conduct maintenance on systems. Performance data is collected on either 
side of the interface. Some reports are generated on a date/time basis. 
The problem arises when a failure occurs. If one carrier sees a problem 
and the other does not, it is difficult to determine which carrier is 
right, and therefore difficult to identify the root of the problem. 
There could also be testing and coordination delays. Most carriers are 
planning to conduct Year 2000 tests with each other.
    These are only examples of the types of problems the industry must 
confront in addressing the impact of the Year 2000 Problem. I believe 
our role is to facilitate the sharing of information that both raises 
concerns like these and facilitates the search for solutions.
                the role of the fcc defense commissioner
    In addition to my role as FCC Commissioner and member of the 
President's Council, I have additional responsibilities in connection 
with my role as the designated Defense Commissioner. Section 0.181, 
Title 47 of the Code of Federal Regulations sets out the duties of the 
Defense Commissioner at the FCC. In Appendix B, appended to this 
statement, you will find a copy of this section of the code.
    In my role as Defense Commissioner, I have endeavored to make sure 
that the FCC is ready to continue operations in the event of a national 
emergency. In this regard, our Compliance and Information Bureau (CIB) 
has been revising the agency's continuity of operation plan to ensure 
that the agency will continue its work in the event of an emergency 
that affects FCC headquarters. The revised plan was developed with the 
help of an expert from National Communications System (NCS) who was 
detailed to the Commission to help with this project.
    In addition, CIB has recently reviewed and evaluated its plan to 
handle emergency authorizations and other industry-related needs if an 
emergency were to occur after business hours. In general, this 
procedure grants CIB the authority to authorize special temporary 
authority for services requested that it believes are necessary to 
ensure safety and the continued operation of the network.
    With respect to national emergency plans, I inherited some plans 
when I took on the role of the Defense Commissioner. CIB is reviewing 
and updating these plans. Any plans will be coordinated with NCS. As I 
stated earlier, it is premature to make even educated guesses on where 
our efforts in contingency planing will best be served, but I will work 
with NCS and the industry in this regard.
    actions that the congress and the administration should take to 
                facilitate year 2000 compliance efforts
    Without a doubt, the legal liability issue is one of the most 
serious impediments that continues to impede the flow of timely and 
candid information. Concerns with respect to releasing information 
related to Year 2000 compliance have been raised at every one of our 
informational forums. The concerns proffered by industry are associated 
in part with issues of product disparagement, antitrust violations, 
third-party liability, carrier-vendor contractual relations, and so on. 
Consequently, some companies have been reluctant to divulge information 
due to concerns about liability.
    We support the efforts to pass legislation that would promote the 
exchange of information by limiting the way such information could be 
used against the company. Respondents to FCC requests for information 
have requested confidential treatment, invoking 47 CFR Sec. 0.459. 
Several others have labeled their submissions to the letters 
``proprietary information.'' Others have expressed reluctance at our 
sharing this information, despite having not made an explicit 
confidentiality request. Another factor that interplays is the Trade 
Secrets Act, 18 U.S.C. Sec. 1905, which provides criminal penalties for 
unauthorized disclosure of information. Thus, I believe there is a 
significant role to be played by the Congress and the Administration 
with regard to the legal liability issue and other barriers to the 
information flow.
                               conclusion
    As we move closer to the Millennium, all of our concerns become 
more acute. Our efforts so far have begun to establish the kind of 
inter-company and private/public partnerships that will facilitate the 
flow of information and get it to those most in need. It will also 
permit the government to become aware of and respond to needs of the 
industry as they arise. Our national well-being is dependent upon the 
reliability of all the nation's telecommunications networks, and 
government and industry must work together to ensure that whatever 
disruptions occur do not lead to widespread outages and failures. To 
that end, the FCC is committed to taking whatever actions it can to 
facilitate information sharing and industry compliance efforts.
    I would be happy now to answer your questions.

 Appendix A.--Overview of the Year 2000 Problem in the Communications 
                      Sector: Concerns and Actions

                         common carrier bureau
Biggest concerns
  --Upgrading network switches (although manufacturers are on schedule 
        to provide fixes).
  --Upgrading Customer Premises Equipment (CPE), voice mail systems, 
        Private Branch Exchanges (PBX's), ensuring interoperability 
        with the network.
  --Ensuring telephone companies (telcos) cooperate fully with major 
        customers and each other to facilitate Year 2000 
        interoperability testing.
  --Ensuring small telcos have the resources and expertise needed to 
        fix the problem.
  --Dealing with billing and other internal systems.
What the FCC is doing
  --Held roundtable forum, entitled Wireline Telecommunications 
        Networks and the Year 2000 Problem on June 29, 1998. In 
        attendance were representatives of users and user groups, large 
        local exchange carriers, and smaller independent carriers, as 
        well as long distance carriers, trade associations, the Telco 
        2000 Forum, ATIS and equipment manufacturers. The purpose of 
        the forum was to facilitate the sharing of solution to Year 
        2000 problems and to identify barriers to solving Year 2000 
        problems.
  --Held meeting at the FCC of the Telecommunications Subcommittee of 
        President's Conversion Council on Year 2000, on July 17, 1998, 
        in which representatives from the telecommunications industry 
        including trade associations and industry groups, such as the 
        Telco 2000 Forum were deputized to ensure efficient and 
        responsive industry input to Conversion Council on Year 2000 
        issues.
  --Met with large and small telcos, telephone trade associations, 
        switch manufacturers, financial interests (banks and clearing 
        houses) and other major users.
  --Met with Year 2000 project managers from manufacturers and telcos 
        to impart the Commission's concern and to obtain additional 
        information about their Year 2000 programs.
  --Requesting information from telcos, equipment manufacturers, trade 
        associations and Bellcore; and encouraging the sharing of Year 
        2000 information among industry participants.
  --Assessing possible regulatory actions to facilitate Year 2000 
        readiness, including requiring detailed information on Year 
        2000 compliance, if necessary.
  --Sharing information with other Federal agencies, and improving the 
        FCC Year 2000 website with updated information and links to 
        other Year 2000 websites.
  --Analyzing responses to detailed information requests sent to all 
        local exchange carriers and interexchange carriers, as well as 
        to some smaller carriers, and to the major telephone equipment 
        manufacturers on their Year 2000 efforts. Responses have begun 
        arriving. As of June 11, 1998, nineteen companies had filed 
        responses. These efforts will help develop a clearer picture of 
        the Year 2000-readiness of the telecom sector.
  --Encouraging companies and industry trade associations to make more 
        information about their Year 2000 efforts available to the 
        public through their websites.
  --Continuing outreach efforts to ensure that all companies understand 
        the seriousness of the problem, as well as monitoring to obtain 
        as much information as possible.
What industry is doing
  --Participated in FCC roundtable discussion on year 2000.
  --Deputized representatives from telecommunications industry on 
        Telecommunications Subcommittee of President's Conversion 
        Council on Year 2000, in meeting held at FCC on July 17, 1998.
  --Major telephone companies have been devoting significant resources 
        to ensuring that primary telecommunications networks continue 
        to function on and after January 1, 2000.
  --Eight regional telcos have formed the Telco Year 2000 Forum to 
        share information and facilitate intranetwork testing of 
        remediated systems.
  --The Alliance for Telecommunications Industry Solutions (ATIS), 
        funded by exchange and interexchange carriers, is undertaking 
        the development of laboratory tests (now scheduled for January-
        February 1999) of inter-network interoperability of remediated 
        systems.
  --Bellcore is providing expertise, leadership, testing facilities and 
        technical standards for Year 2000 compliance.
  --U.S. Telephone Association sent out an advisory to its members in 
        mid-1997.
                         cable services bureau
Biggest concerns
  --Power system failures could disrupt cable service, including the 
        cable system's emergency alerting system messages.
  --Timed controllers used for pay-per-view and other video 
        programming, commercial insertion, local origination equipment 
        and converter boxes are examples of equipment which may 
        malfunction.
  --Billing systems could generate faulty data.
  --Satellite telecommunications links could be disabled.
What the FCC is doing
  --Sent inquiries to major cable television companies, cable equipment 
        manufacturers and cable trade associations regarding Y2K.
  --Posted questions on the internet regarding Year 2000 problems in 
        cable systems to more than 1,500 cable engineers and 
        technicians.
  --Conferred with CableLabs, the research arm of a consortium of cable 
        companies, which has established an industry task force to 
        address Y2K issues. Will continue this dialogue.
  --Trained Cable Services Bureau telephone contact representatives to 
        answer questions from the public and operators regarding Y2K 
        problems and compliance.
  --Conducted six workshops on Y2K issues at the annual Cable Tec Expo 
        in Denver this June, which was attended by approximately 9,000 
        technicians, engineers and information technology specialists. 
        Also, discussed Y2K concerns, possible disruptions and 
        potential remedies with 37 equipment manufacturers and vendors, 
        programmers, a city official and large and small cable 
        operators on the exposition floor.
  --Held a closed forum for the cable industry and will hold an open 
        forum for the public and the cable industry.
  --Developing a cable Y2K fact sheet to be placed on the FCC Year 2000 
        website and distributed to the public and the cable industry 
        upon request.
  --Continuing dialogue with cable operators and equipment 
        manufacturers, including informal sessions with multiple system 
        operators (MSO's).
What industry is doing
  --CableLabs has formed a Year 2000 working group that consists of the 
        major cable multiple system operators. These MSO's encompass a 
        significant number of cable subscribers and a large majority of 
        the nation's cable systems. Cable operators who are not members 
        of the Year 2000 Working Group will still benefit from the 
        group's efforts because CableLabs is conducting a nationwide 
        assessment and will share information with all cable operators.
  --To our knowledge, the CableLabs group intends to meet every two 
        months to monitor the progress of the industry and to provide 
        the industry with CableLabs' research. In addition, CableLabs 
        will monitor the equipment of cable suppliers to determine Y2K 
        compliance. In September, 1998 in Denver, CableLabs plans to 
        hold a cable vendors conference at which cable equipment 
        suppliers, cable billing systems vendors, and vendors of 
        television commercial insertion equipment are invited to attend 
        and confer on their progress in achieving Y2K compliance.
  --Many cable associations, including NCTA, the Cable 
        Telecommunications Association (CATA), and the Small Cable 
        Business Association (SCBA) are actively involved in collecting 
        and disseminating Y2K information and solutions to its members.
  --Many cable operators, independent of their activities at CableLabs, 
        are also actively working with equipment vendors to resolve Y2K 
        concerns for their systems equipment.
                           mass media bureau
Biggest concerns
  --Emergency Alert System may fail just when it is needed most.
  --Lack of broadcast news may result in misinformation and mass panic.
  --Old transmitters with embedded microprocessor chips and stations 
        with customized transmitter control systems may be hard to test 
        or fix.
  --Power system failures could disrupt broadcast service.
What the FCC is doing
  --Speaking out on Year 2000 issues at National Association of 
        Broadcasters (NAB) convention and other fora.
  --Writing to broadcasters networks and trade associations. Responses 
        received indicate dedicated staff and high priority to 
        minimizing disruption of on-air operations.
  --Writing to largest radio and television station group owners, which 
        account for the majority of broadcast stations.
  --Meeting with broadcasters and equipment manufacturers.
  --Held Y2K forum with representatives of radio and television 
        broadcast associations, networks and large and small broadcast 
        station owners to discuss Y2K challenges to the broadcast 
        industry.
What industry is doing
  --NAB has created a website on Year 2000 issues and assigned a Senior 
        Vice President to work on the issue.
  --NAB is covering the issue in publications, addressing state 
        broadcast association conventions and planning seminars for its 
        own future conventions.
  --Equipment and software vendors are contacting customers with 
        information on which equipment or systems are Y2K compliant, 
        which need hardware upgrades or software updates and which 
        equipment or software is so old or obsolete it is no longer 
        being supported and must be replaced.
                   wireless telecommunications bureau
Biggest concerns
  --The public safety wireless community has only recently become aware 
        of the Year 2000 problem; and while most modern radio systems 
        in use by police, fire and other emergency services are not 
        expected to experience problems, the pervasive use of computers 
        in support roles such as computer-aided dispatch and the use of 
        older radio equipment raise questions of the vulnerability of 
        these important emergency services.
  --FCC requires illumination of certain antenna structures or towers 
        where there is a reasonable possibility that a tower may cause 
        a hazard to air navigation. Potential failure of the power grid 
        in addition to the impact of possible Year 2000 problems in the 
        equipment that monitors, alarms and controls tower lighting 
        raises the possibility of a threat to air safety from unlit 
        towers.
What the FCC is doing
  --Writing the major wireless companies, radio equipment 
        manufacturers, frequency coordinators and wireless community 
        associations.
  --Convening roundtable discussions with the public safety community, 
        the commercial wireless community and the private wireless 
        community.
  --Encouraging wireless industry and trade association publication of 
        articles on Year 2000 problems and experiences.
  --Reviewing options to alert and educate the tower lighting 
        community, which includes registered tower owners, equipment 
        manufactures and also licensees; and to assure responsive 
        action assessing the potential for failure and preparing for 
        remedial action.
What industry is doing
  --Radio manufacturer have surveyed their equipment, indicated that 
        most of the current equipment is compliant and made information 
        available to licensees for fixes, where necessary.
  --The larger commercial wireless communications carriers have 
        surveyed their own equipment and the equipment and services of 
        suppliers and contractors for compliance; they are in the 
        process of taking remedial action. Future testing is planned.
                          international bureau
Biggest concerns
  --Whether foreign telecommunications companies, especially large 
        segments of the developing world, will be able to provide 
        service on January 1, 2000. This could have a huge impact on 
        international trade, foreign investment, the global economy, 
        and even national security.
  --Whether the operability of the global telecommunications network, 
        which is critical to public safety, emergency preparedness and 
        personal communications will be jeopardized.
  --In many foreign countries, particularly in Asia and Africa, 
        telecommunications companies are only now becoming aware of the 
        Year 2000 problem and they lack the resources to fully address 
        it.
  --We are concerned that some telecommunications carriers have not yet 
        taken the necessary steps to prevent system failures.
  --We are concerned that international economic challenges may prevent 
        foreign carriers and users from addressing the Year 2000 
        problem, (e.g., in Europe, whether carriers and users will be 
        ready for the conversion of the Euro and still be able to 
        implement Y2K compliance efforts and in Asia, whether the 
        current recession and economic difficulties could prevent 
        carriers and users from addressing the Y2K challenge).
  --We are concerned that terminating calls overseas, which relies on 
        the networks of foreign Public Telecom Operators (PTO's) could 
        be a problem.
  --We are concerned about the Y2K readiness of satellite systems. The 
        primary concern regarding satellite systems appears to relate 
        to the earth stations, which control the satellites from the 
        ground, rather than the satellites, themselves, which generally 
        are not date-dependent.
  --We are concerned whether revenue streams will be curtailed by 
        operations/support systems (billing) problems associated with 
        telecom networks and earth to space degradation and/or complete 
        failure.
What the FCC is doing
  --Writing to international telecommunications companies and satellite 
        and HF service providers.
  --Publishing letters in industry publications and ITU publications.
  --Increasing international awareness through the International 
        Telecommunications Union's Year 2000 Task Force and providing 
        direction on Year 2000 readiness. Working with the ITU to 
        educate and motivate foreign telephone companies.
  --Actively working with the ITU's Year 2000 Task Force to increase 
        international awareness and provide direction to member 
        governments and companies on Year 2000.
  --Planning roundtable discussions to raise awareness seek solutions, 
        and informally survey progress of industry's efforts to ensure 
        that industry is doing all it can to avoid any disruptions in 
        service. A roundtable with international telecommunications 
        carriers was held on June 29. One for the satellite industry 
        was held on July 14.
  --Raising issues with foreign delegates, in tandem with these 
        roundtables, in the context of the FCC's Visitor's Program and 
        Foreign Regulator Workshop.
  --Speaking out about the Year 2000 problem at international 
        telecommunications meetings in bilateral talks and 
        international fora.
  --Writing a letter to foreign regulators from Chairman Kennard and 
        Commissioner Powell discussing the Y2K problem, providing 
        information and asking about their needs.
We are considering
  --Encourage companies, service providers and manufacturers to 
        complete the ITU questionnaire.
  --Play a more active role in the ITU's contingency planning subgroup 
        of the year 2000.
  --Work with our regulatory and governmental counterparts to get them 
        to press their PTO's to act more effectively and quickly.
  --Play a coordinating role in the Year 2000 testing for U.S. 
        international carriers.
What industry is doing
  --Telecommunications companies are working hard to fix Year 2000 
        problems.
  --Most, if not all, U.S. telecommunications companies have 
        established Y2K czars and offices for Year 2000 compliance, and 
        are dedicating considerable resources to the issue.
  --Satellite companies have set up ``war rooms'' to deal with the Year 
        2000 problems.
  --A number of U.S. international companies have ambitious programs 
        underway to work with suppliers, customers and vendors to 
        address the problem in conjunction with well-designed 
        contingency programs. They have dedicated considerable revenues 
        to such initiatives. Some are scheduled to do Year 2000 testing 
        in 1999 before the Year 2000.
  --A few U.S. international carriers plan to complete inventory 
        assessment and remediation by 1999 and dedicate 1999 to sample 
        testing with customers..
  --Several countries, including the United Kingdom, Canada, and 
        Australia have high-profile efforts under way to tackle the 
        Year 2000 bug, and their telecommunications companies (e.g., 
        British Telecom) are working with foreign partners on the 
        problem.
  --U.S. and foreign carriers are working actively in the ITU Task 
        Force on Y2K and participating in subgroups pertaining to the 
        Task Force. Responding to the ITU Questionnaire on Y2K 
        compliance.
  --A couple of foreign carriers (e.g. DT) have established testing 
        through the assistance of the ITU.
                   compliance and information bureau
Biggest concerns
  --Ensuring that internal database systems and equipment used by the 
        Bureau for enforcement purposes is Year 2000-compliant.
  --Preparing the National Call Center to collect data and respond to 
        inquiries relating to Year 2000.
What the FCC is doing
  --Checking CIB database software and computers used in the 
        enforcement program, such as mobile and fixed direction finding 
        systems, Global Positioning System (GPS) receivers and the 
        software used to operate these systems.
  --Preparing to collect data regarding calls received by the National 
        Call Center and to provide information to the Call Center 
        personnel from other Bureaus and Offices to use in responding 
        to incoming Year 2000 calls.
  --Developing plans for continuity of operations, emergency 
        authorizations, and national emergency preparedness.
                  office of engineering and technology
Biggest concerns
  --Telecommunications share best practices; appropriate 
        telecommunications network testing be conducted; appropriate 
        real-time telecommunications network monitoring take place.
  --Telecommunications equipment testing labs not close down or 
        generate faulty data due to Year 2000 problems.
What the FCC is doing
  --Working with member companies of NRIC to define NRIC role that adds 
        value to existing activities.
  --Letters sent to more than 300 testing labs.Office of the General 
        Counsel
What the FCC is doing
  --Reaching out to the Communications Bar to increase their awareness 
        of Year 2000 issues and urge them to press telcos to increase 
        their efforts to address the problem.
                       office of plans and policy
What the FCC is doing
  --Examining whether the Internet will be affected by Year 2000 
        problems.
  --Contacting Internet organizations and Internet equipment vendors.
                      office of inspector general
Biggest Concern
  --The possibility that the Commission's mission-critical systems will 
        not be Year 2000 compliant.
What the FCC is doing
  --Participating on a Year 2000 task force addressing the Commission's 
        mission-critical information systems and Information Technology 
        infrastructure.
  --Participating on a Year 2000 task force monitoring the 
        telecommunications industry.
  --Monitoring the activities of other Inspectors General, the Office 
        of Management and Budget, and the General Accounting Office.

                               Appendix B

Sec. 0.181 The Defense Commissioner.

    A Defense Commissioner and two Alternate Defense Commissioners are 
designated by the Commission. The Defense Commissioner directs the 
defense activities of the Commission and has the following duties and 
responsibilities:
          (a) To keep the Commission informed as to significant 
        developments in the field of emergency preparedness, defense 
        mobilization, and any defense activities that involve 
        formulation or revision of Commission policy in any area of 
        responsibility of the Commission.
          (b) To represent the Commission in national defense matters 
        requiring conferences or communications with other governmental 
        officers, departments, or agencies.
          (c) To act as the Defense Coordinator in representations with 
        other agencies with respect to planning for the continuity of 
        the essential functions of the Commission under national 
        emergency conditions, and to serve as the principal 
        representative of the Commission to the Interagency Emergency 
        Planning Committee of the Federal Preparedness Agency/General 
        Services Administration.
          (d) To serve as the principal representative of the 
        Commission to the Interagency Civil Defense Committee of the 
        Defense Civil Preparedness Agency of the Department of Defense.
          (e) To serve as the principal point of contact for the 
        Commission on all matters pertaining to the National 
        Communications System.
          (f) To take such measures as will assure continuity of the 
        Commission's functions under any foreseeable circumstances with 
        a minimum of interruption.
          (g) In the event of enemy attack, or the imminent threat 
        thereto, or other disaster resulting in the inability of the 
        Commission to function at its offices in Washington, D.C., to 
        assume all of the duties and responsibilities of the Commission 
        and the Chairman, until relieved or augmented by other 
        Commissioners or members of the staff, as set forth in 
        Sec. Sec. 0.186 and 0.383.
          (h) To approve national emergency plans and develop 
        preparedness programs covering: provision of service by common 
        carriers; broadcasting facilities, and the safety and special 
        radio services; radio frequency assignment; electromagnetic 
        radiation; investigation and enforcement.
          (i) To perform such other duties and assume such other 
        responsibilities related to the Commission's defense activities 
        as may be necessary for the continuity of functions and the 
        protection of Commission personnel and property.

[29 FR 14664, Oct. 28, 1964, as amended at 41 FR 31209, July 27, 1976]
                                 ______
                                 

 Responses of Commissioner Michael K. Powell to Questions Submitted by 
                            Chairman Bennett

    Question 1. I know that the telecommunications industry like other 
industry sectors this Committee has reviewed suffers from a lack of 
status information. Having said that, What is your assessment of the 
preparedness of the telecommunications industry? Will there be outages? 
What are the biggest Year 2000 vulnerabilities in the public-switched 
networks?
    Answer. The Federal Communications Commission's (``FCC'') overall 
assessment of the wireline telecommunications industry continues to be 
positive. Based on our current assessment of personnel resources 
dedicated, financial resources allocated, time spent combating the 
problem (on average, 2-3 years), and the sophistication of assessment 
and execution plans devised, we currently believe that major U.S. 
carriers (who, on average, have spent $300 to $400 million) and 
equipment manufacturers are aggressively attacking the Year 2000 
Problem. We are also relatively confident of the carriers' 
representations that they are engaged in remediation efforts that will 
provide users of telecommunications services with as close to the same 
level of quality and reliability on and after January 1, 2000, as they 
do today.
    As I stated to the Committee on July 31, 1998, the Commission sent 
inquiry letters in late April 1998 to the top 20 domestic 
telecommunications carriers, accounting for more than 97 percent of the 
country's total access lines, asking them to report on their critical 
systems. We learned that, generally, those carriers have completed 
their review of the Year 2000 Problem on these systems, and have set 
dates for remediation, testing and integration that are scheduled to be 
completed by the end of the second-quarter of 1999.
    The information we have received suggests that the major U.S. 
equipment manufacturers also will be able to meet projected demands for 
upgraded equipment. The major manufacturers have had extensive Year 
2000 programs in place for some time, and have been working closely 
with both local and long distance carriers to develop strategies for 
Year 2000-readiness. Manufacturers report that most of their software 
and hardware products are already Year 2000-ready and have been made 
available to customers. They have targeted end-of-year 1998 or first-
quarter 1999 for general availability for all Year 2000-ready products.
    Domestic wireline carriers are also cooperating on interoperability 
and end-to-end testing. The Telco Year 2000 Forum (which includes 
Ameritech, Bell Atlantic, BellSouth, GTE, SBC Communications, Southern 
New England Telephone Company, and U.S. West) has contracted with 
Bellcore and has already begun to perform integration testing on some 
equipment. The Alliance for Telecommunications Industry Solutions 
(``ATIS''), a domestic wireline telecommunications industry funded 
organization whose mission is to advance new telecommunications 
technologies, will conduct inter-network interoperability testing in 
January and February 1999, and is also working with Bellcore. According 
to ATIS, the interoperability tests should encompass network 
configurations that serve over 90 percent of the country.
    It is important to note that there are more than 1,300 small to 
mid-size companies that serve many rural and insular parts of the 
country. We have a lesser degree of confidence about their Year 2000 
readiness efforts. But that pales in comparison to our concern about 
international telecommunications carriers, especially those in 
developing countries, that have not yet taken the necessary steps to 
prevent system failures. Because global telecommunications rely upon 
the seamless interconnection of many different networks, the 
international dimensions of the Year 2000 Problem are especially 
significant. We note, however, that U.S. international carriers are 
active participants in the ITU Y2K task force, its working groups, and 
its correspondence groups, where their contributions are substantial. 
Also, we are considering playing a more active role in the ITU's 
contingency planning subgroup of the ITU's Year 2000 task force.
    The Commission is also concerned about Year 2000 effects on 
Customer Premises Equipment (``CPE'') that permit customers to access 
the public switched telephone network. It is also important to note 
that CPE is not part of the public switched networks that are operated 
by telephone companies, but instead is owned by public and private 
entities that must assume the responsibility for insuring that their 
CPE will be Year 2000-ready. This concern extends more generally to all 
internal communications networks, and especially to those 
communications networks and systems that connect with public switched 
networks. Private Branch Exchange (``PBXs''), CPE, internal networks 
and connections, telephone systems and all other privately maintained 
telephone equipment must be Year 2000-ready and able to access properly 
the telephone network. Equipment manufacturers have stated that they 
are ready to work with their customers on these systems, but have 
expressed concern that not all customers are taking steps to insure 
that their equipment and systems will be Year 2000-ready.
    Finally, the Commission is concerned about the proper functioning 
of the national power grid which supplies, in the first instance, 
electricity for all telecommunications carriers. Telecommunication 
carriers are, however, developing contingency plans in the event power 
supply failures occur.
    Question 2. It seems to me that the FCC has been very slow to 
respond to Y2K and its impact on communications. Furthermore, the 
Network Reliability and Interoperability Council's (NRIC) report on the 
implementation of the Telecommunications Act of 1996 which was 
completed on July 15, 1997, devoted only 3 sentences out of 266 pages 
to Y2K. I commend you on the excellent choice of Michael Armstrong, CEO 
of AT&T, to head NRIC. It is imperative at this late date that they get 
to work. What is the status of the NRIC tasking? Why was NRIC not 
tasked earlier? Would you please say more about NRIC's plans to assess 
the impact of Y2K on all aspects of the communications industry (voice, 
data, wire, broadcast, radio, wireless cable and satellite)?
    Answer. I share the disappointment of some members of the Committee 
that prior to 1998 the Network Reliability and Interoperability Council 
(``NRIC'') devoted relatively little attention to the Year 2000 
Problem. As originally chartered to implement the Telecommunications 
Act of 1996, the NRIC was directed to provide recommendations both for 
the Commission and to the telecommunications industry to assure optimal 
reliability and interoperability of, and accessibility and 
interconnectivity to, public telecommunications networks in an 
increasingly competitive environment. The focus of the NRIC's 
recommendations was to ensure the ability of users and information 
providers to seamlessly and transparently transmit and receive 
information between and across telecommunications networks. As a 
consequence, the NRIC focused on its overall mission of network 
reliability, interoperability and interconnectivity, rather than 
focusing exclusively on the Year 2000 Problem.
    We have been working to direct the focus of a newly constituted 
NRIC to address more aggressively the Year 2000 Problem. Part of that 
effort was the selection of C. Michael Armstrong, Chairman and Chief 
Executive Officer of AT&T, as the NRIC Chairman. Another significant 
component of that effort was the creation of a staff group dedicated to 
the Year 2000 effort, headed up by A. John Pasqua, Vice President-
Corporate Year 2000 Program, also from AT&T.
    The newly constituted NRIC--which will include representatives from 
all the communications industries, including broadcast and cable, as 
well as equipment manufacturers and Internet Service Providers 
(``ISPs'')--will play an important oversight role with respect to 
interoperability and end-to-end testing. We believe that this 
organization will be invaluable in coordinating the overall testing, 
collection and dissemination of information, in addition to advising 
the Commission on the status of industry readiness, and facilitating 
the development of contingency plans.
    We have been working with the NRIC to develop a plan for addressing 
the Year 2000 issue. The Council will be broken down into a series of 
focus groups, each with a prominent leader/coordinator, that will look 
at specific Year 2000 issues (i.e., assessment, network 
interoperability, and end-user specific problems). Announcements 
regarding this organizational approach, as well as the date of the re-
chartered NRIC's first meeting will be made shortly. Work on these 
interoperability, interconnectivity and reliability issues, however, is 
proceeding daily.
    It is important to note, however, that the NRIC is only one of the 
many tools the Commission is using to assist it in its effort to 
address the Year 2000 Problem. There are also several prominent 
telecommunications organizations that are actively engaged in 
addressing the issue of testing and contingency planning. The Telco 
Year 2000 Forum, ATIS and other industry groups are providing valuable 
assistance in facilitating information sharing, building private 
partnerships, and coordinating testing and contingency planning. The 
Commission will continue to work with and rely upon these industry 
organizations.
    Question 3. We understand that FCC will eventually ask NRIC to 
assess the impact of the Year 2000 Problem on our nation's network, to 
encourage sharing of information on solutions, and to facilitate end-
to-end testing of networks. We understand that NRIC is not yet engaged, 
but does FCC have any preliminary results in these areas?
    Answer. Yes. The Commission is engaged in its own assessment of the 
various communications industries. As stated in response to Question 1, 
our current assessment of the wireline telecommunications industry is 
relatively positive. That assessment is based on the responses--of 
major U.S. telecommunications carriers and manufacturers--to our 
written inquiries and is also based upon the numerous informational 
meetings and forums that have been conducted by the FCC's Common 
Carrier and International Bureaus.
    It should be emphasized that the Commission has taken its 
responsibility to monitor the pace and extent of the telecommunications 
industry's Year 2000 compliance efforts seriously since first becoming 
aware of the problem several years ago, and has been working to ensure 
that the Year 2000 challenge is properly addressed. For example, the 
Commission started to examine and fix its internal computer systems in 
1995. In early 1997, the FCC's Bureaus and offices made a coordinated 
effort to find out what the telecommunications industry was doing about 
the problem, and continuing efforts have been underway to update and 
improve our understanding of the nature, and extent, of all of the 
issues that need to be addressed.
    Question 4. Could you tell us, as the Chairman of the President's 
Year 2000 Conversion Council Telecommunications Working Group, has the 
Group developed a strategy and an action plan for assessing the Year 
2000 readiness of the telecommunications sector?
    Anwer. In late April 1998, at the request of FCC Chairman William 
E. Kennard, I agreed to oversee the Commission's Year 2000 efforts and 
represent the agency on the President's Council on Year 2000 
Conversion, which was established on February 4, 1998. Immediately 
following my selection to the Council, I was asked to co-chair with 
Dennis Fischer of the General Services Administration (``GSA'') the 
Council's Telecommunications Sector Group.
    One of my first priorities upon assuming leadership was to devise a 
sector outreach plan for the Commission and to use that document as the 
model for the entire Telecommunications Sector Group. In brief, that 
plan has contained three distinct, but interrelated operational 
concepts: (1) outreach and advocacy, (2) monitoring and assessment, and 
(3) contingency planning.
    One of the primary objectives of the Commission's effort has been 
to encourage private-sector Year 2000 compliance and to foster 
information sharing. As part of its outreach and advocacy initiative, 
the Commission has set up a special Internet site (www.fcc.gov/
year2000/) and sent over 200 letters to major companies and 
organizations in all sectors of the communications industry--including 
wireline telephony, terrestrial wireless, radio and television 
broadcast, cable television, satellites, and international 
telecommunications. Chairman Kennard, myself, the other commissioners, 
and Commission staff are all emphasizing the importance of this problem 
in speeches and in meetings with leaders in the telecommunications 
industry.
    Another critical obligation of the Commission is to monitor 
industry Year 2000-readiness efforts and to assess the pace and extent 
of the implementation of remedial actions. In June and July alone, the 
Commission organized eight roundtables with representatives of 
different sectors of the communications industry to facilitate 
information sharing and see how the Commission can assist industry 
efforts in addressing the Year 2000 Problem. The Network Reliability 
and Interoperability Council is gearing up to advise the Commission on 
technical issues and to take steps to foster industry cooperation on 
Year 2000 compliance testing and other related problems.
    Finally, the FCC is engaged in an effort to make sure that the 
Commission is ready to continue operations in the event of a Year 2000 
event, and is committed to working with the National Communications 
System (``NCS'') and the communications industry to facilitate the 
development and, if necessary, execution of contingency plans in the 
event that a major service disruption should occur.
    Question 5. I understand that, FCC has requested detailed 
information from over 200 telecommunications companies, equipment 
manufacturers, trade associations and contractors, but has only 
received 19 responses. How do you account for this less than 10 percent 
response rate? What are you doing to improve responsiveness?
    Answer. The Commission has received 82 responses to the 200 inquiry 
letters that were sent. While the letters to the wireline carriers, 
manufacturers and related organizations mandated a response, the 
letters to the other industries requested responses on a voluntary 
basis, thus accounting for, to some degree, the difference between the 
wireline and non-wireline response rates.
    The comparatively low response rates that we have received from the 
non-wireline sectors of the telecommunications industry has helped us 
to understand that there needs to be a much more dramatic outreach 
effort. In this regard, we are in the process of redoubling the efforts 
of each Bureau to increase outreach efforts, especially in the wireless 
area, and we have been working to improve the usefulness of the 
information that is available on the Commission's Year 2000 Internet 
site (www.fcc.gov/year2000/). The Commission also intends to send 
additional letters to U.S. international telecommunications carriers 
and organizations, and to all wireline telecommunications carriers, by 
the end of September 1998, and to initiate a second round of 
assessments across all industries.
    Question 6. You note in your testimony that FCC's power to force 
carriers, manufacturers and telecommunications users to address the Y2K 
problem is limited. What specifically are the FCC's regulatory powers? 
What can the FCC do to ensure that the telecommunication industry will 
be ready in time? Will this be enough or does the FCC need more 
authority?
    Answer. The Federal Communications Commission has broad regulatory 
jurisdiction over interstate and foreign (international) 
telecommunications carriers (i.e., common carriers), whether such 
service is provided by radio or wire. This includes, for example, the 
authority to adopt rules and impose conditions in the public interest, 
see, e.g., 47 U.S.C. Sec. Sec.  154(i), 201(b), 303(r); the authority 
to issue radio licenses and common carrier certificates in the public 
interest, 47 U.S.C. Sec. Sec.  214, 309; the authority to revoke radio 
licenses, 47 U.S.C. Sec.  312(a); the authority to issue cease and 
desist orders, 47 U.S.C. Sec.  312(b); the authority to impose 
forfeitures, 47 U.S.C. Sec.  503(b); and the authority to collect 
information, see, e.g., 47 U.S.C. Sec. Sec.  218, 308(b), 403, 409(e).
    We do have some concerns, however, that an overly regulatory 
approach could undercut more productive cooperative efforts by the 
carriers involved. Consequently, the Commission has initially 
implemented a Year 2000 effort designed to work cooperatively with the 
carriers to help accomplish Year 2000 compliance. In this regard, we 
have been working with each sector of the telecommunications industry 
to promote a collaborative, ``mission-oriented'' partnership to ensure 
that users of telecommunications services enjoy as close to the same 
level of quality and reliability before and after January 1, 2000, as 
they do today. We are taking a similar approach with other industries 
regulated by the Commission (e.g., radio and television broadcast, 
cable television).
    Nevertheless, we continue to evaluate various regulatory options 
and will not hesitate to use those that appear productive. While we 
believe our existing jurisdiction over interstate telecommunications 
carriers should be sufficient for any regulatory steps ultimately 
deemed appropriate for such carriers, to the extent Congress wishes the 
FCC to have unambiguous authority in this area with respect to 
intrastate common carrier service as well, legislation would be 
advisable. In addition, while the FCC does have ancillary jurisdiction 
to take certain regulatory steps with respect to telecommunications 
manufacturers and users, see generally 47 U.S.C. Sec.  151; United 
States v. Southwestern Cable Co., 392 U.S. 157 (1968), to the extent 
Congress wishes to ensure that the Commission has unambiguous 
jurisdiction to take any regulatory steps that may subsequently be 
deemed necessary in this area with respect to manufacturers and users, 
legislation would be advisable.
    Question 7. Testing has been described as a critical component of 
Year 2000 risk management strategies, and some have said that one 
should plan on testing everything that you possibly can. Yet 
telecommunications service providers have previously stated that, due 
to its very nature, it is simply impossible to recreate an ``off-line'' 
public switched network and therefore complex Year 2000 
interoperability must be tested in pieces by various companies 
separately. How will this critical testing be performed, who will do 
it, and when will it begin? By breaking network testing into different 
service components and chunks, what are the limitations on the results 
of these test activities? How, if at all, can one ensure that the full 
range of activities? How, if at all, can one ensure that the full range 
of risks posed by Year 2000 to the public switched network have been 
effectively and appropriately addressed? How involved is the FCC in 
monitoring the testing of end-to-end connectivity?
    Answer. Telecommunications service providers oppose ``live'' 
testing of operating telecommunications networks because of the risks 
that such testing poses to the continued provision of service to their 
telecommunications users and users of interconnected telecommunications 
networks. As a consequence, efforts have been underway for some time 
among manufacturers, testing labs such as Bellcore, carriers through 
the Telco Year 2000 Forum, and industry organizations such as ATIS 
which anticipate that arrangements for interoperability testing for its 
members will be completed before the end of this year.
    Because wireline carriers are on different schedules for Year 2000 
remediation of equipment and systems, schedules necessarily vary with 
respect to when they will be able to engage in interoperability 
testing. AT&T, for example, states that it expects to complete its 
remediation efforts by the end of this year, so that it will have all 
of 1999 available for testing.
    In addition to efforts by the Telco Year 2000 Forum and ATIS, one 
of the functions of the newly rechartered NRIC will be to coordinate 
the efforts of the various groups currently testing and facilitate the 
sharing of that information so that carriers, and other interested 
parties, will be able to use the results of those tests to further 
their remediation efforts and to develop contingency plans--especially 
by those carriers that will not be as far along in their remediation 
efforts. We anticipate that the most critical interoperability testing 
will occur first, with less critical systems being tested later. With 
respect to the issue of comprehensive testing to insure that no service 
disruptions will occur, it should be recognized that it is not possible 
to ensure that all conceivable tests of all potentially interactive 
combinations of equipment and software will be performed. For example, 
one large carrier estimated that the number of tests that would be 
required to test all combinations of its equipment and operating 
systems would be exceptionally high--1029. Attempting to perform that 
number of tests in the time remaining is simply impossible, even if 
adequate test beds and other facilities were available to facilitate 
such testing.
    The FCC's monitoring efforts have been directed to regular 
discussions with testing organizations and carriers.
    Question 8. Your testimony describes contingency planning as a key 
component of FCC's approach to the Year 2000 Problem. What is the 
current status of contingency planning in the telecommunications 
sector?
    Answer. Effective contingency planning requires in-depth knowledge 
of the different types of Year 2000 disruptions that can occur from 
each piece of equipment, and each software system, operating 
individually and interactively in the unique environment of each 
carrier, as well as knowledge of the likely nature of Year 2000 
disruptions that may arise from interconnected carriers. As a 
consequence, detailed contingency planning depends, to some extent, on 
the completion of Year 2000 assessment and remediation efforts by each 
carrier.
    Most of the carriers with whom we have discussed contingency 
planning have stated that their efforts at this point are necessarily 
focused on Year 2000 remediation efforts. Many companies have existing 
contingency plans that will be used as inter-company procedures in the 
event of a Year 2000 incident. Such plans include: (1) recognition of 
the need for company-wide plans to handle Year 2000 incidents; (2) the 
need for staff supplementation for troubleshooting Year 2000-related 
incidents; (3) the acquisition of alternate suppliers and the 
development of alternative deployment plans in case of third party 
failure to meet commitment schedules; (4) the need to expand network 
capacity to address network overloads or peaks that may result from 
Year 2000 disturbances; and (5) reserves for additional resources of 
electrical power (i.e., diesel generators).
    We will coordinate through many groups, including the NRIC, to 
assess regularly the progress of contingency planning and to help build 
private partnerships needed for effective national responses.
    Question 9. Executive Order (E.O.) 12472 requires the FCC to 
perform functions during non-wartime emergencies. The FCC's rules 
accordingly assign the FCC Defense Commissioner the specific duties of 
assuring continuity of the Commission's national security/emergency 
preparedness (NS/EP) plans and programs. Has the FCC developed the 
plans and programs to the potential situations associated with the Year 
2000 Problem? If not, why not? Isn't this also contingency planning?
    Answer. As the FCC's Defense Commissioner, I have endeavored to 
make sure that the Commission is ready to continue operations in the 
event of a Year 2000 incident. In this regard, our Compliance and 
Information Bureau (``CIB'') has been revising the agency's continuity 
of operation plan to ensure that the agency will continue its work in 
the event of an emergency that affects our Washington, D.C. 
headquarters. The revised plan was developed with the help of an expert 
from National Communications System (``NCS'') who was detailed to the 
Commission to help with this project.
    Moreover, CIB has recently reviewed and evaluated its plan to 
handle emergency authorizations and other industry-related needs if an 
emergency were to occur after business hours. In general, this 
procedure grants CIB the authority to authorize special temporary 
authority for services requested that it believes are necessary to 
ensure safety and the continued operation of the network.
    With respect to national emergency plans, CIB is reviewing and 
updating these plans, and the Commission will coordinate with NCS.
    Question 10. An issue which has prevented organizations to openly 
share information relating to Year 2000 is the legal liability. What is 
your opinion/recommendation on this issue? Will the President's 
proposed ``safe harbor'' legislation be sufficient to stimulate 
information exchange?
    Answer. Without a doubt, the legal liability issue is a significant 
barrier to the flow of information. The concerns proffered by 
industry--some that appear to be overstated and some that appear to be 
legitimate--are associated in part with issues of product 
disparagement, antitrust violations, third-party liability, carrier-
vendor contractual relations, just to name a few. As a consequence, 
some companies have been reluctant to divulge information pertaining to 
their Year 2000 vulnerabilities and, additionally, have been largely 
unwilling to guarantee or certify Year 2000-readiness due to concerns 
about liability.
    The Commission constantly deals with the anxiety that various 
portions of the telecommunications industry, and its suppliers, have 
about legal liability. In its collection of information from carriers 
and equipment manufacturers, some respondents have requested 
confidential treatment, citing Title 47, Section 0.459 of the Code of 
Federal Regulations. Others have labeled their responses as 
``proprietary information,'' and still others have expressed general 
reluctance at sharing this information.
    We believe there is a significant role to be played by the Congress 
and the Administration with regard to the legal liability issue and 
other barriers to the information flow. We thus support efforts to pass 
legislation that will promote the exchange of information by limiting 
the way such information could be used against entities that provide 
such information.
    I do not know whether the Administration's ``Good Samaritan'' 
legislation or Congressman Dreier's legislation will eliminate all the 
barriers to information exchange, but am sufficiently confident that 
the proposed bills will advance the effort. Additional measures, 
however, may be needed.
    Question 11. As noted in your written testimony, the response to 
the International Telecommunications Union's (ITU) questionnaire was, 
in your own words, ``poor.'' I understand that US companies were 
queried, but few responded. Would you comment on this? Also, as noted 
in your testimony, the ITU is re-doubling its efforts to mobilize 
governments to put pressure on operators to respond to this 
questionnaire. Will the FCC be doing this for US carriers?
    Answer. Responding to the ITU's questionnaire was not mandatory 
and, given the lack of authority of the ITU over the actions of its 
membership (which is consensual), the disappointly low response rate is 
not, in some respects, surprising. Also, we note that the ITU staff 
explained the low response rate in part by acknowledging that the 
letters were sent without adequate information on Year 2000 contacts--
in fact, this is the thrust of the first few questions on the ITU 
questionnaire. We have taken steps to encourage domestic international 
carriers to respond to the ITU questionnaire and will continue to do 
so. We are also encouraging them to take all other actions that may be 
necessary to avoid Year 2000-caused disruptions in service. It should 
be noted that U.S. international carriers are active participants in 
the ITU Year 2000 task force, its working groups, and its 
correspondence groups, where their contributions are substantial.
    In addition, as part of its advocacy and outreach effort, the FCC 
is working to: assume a more active role in the ITU's contingency 
planning task force; coordinate with our regulatory and governmental 
counterparts abroad to encourage them to press their telecommunications 
carriers to act more effectively and quickly; play a coordinating role 
in testing for U.S. international telecommunications carriers and be 
instrumental in urging other U.S. government agencies to reduce legal 
barriers to communications. (Companies state that they feel constrained 
by current laws and rules relating to sharing of information among 
companies.)
    Question 12. With respect to International telecommunications 
services, it appears as though some foreign carriers' networks may not 
be fully Year 2000 Compliant by January 2000. What risks, if any, does 
that pose to other networks that may be linked to that non-compliant 
infrastructure? What cascading effects, if any, might be expected? What 
other risks could arise because of the failure of foreign carriers to 
ensure that their networks and supporting business systems are Year 
2000 compliant?
    Answer. The Commission currently has no information to suggest that 
there will be significant problems with international 
telecommunications service. U.S. international telecommunications 
carriers and equipment manufacturers that participated in the June 29, 
1998 informational roundtable convened by the FCC's International 
Bureau and other various meetings seemed to affirm this current 
assessment.
    Of course, at this juncture, we cannot specifically report on 
whether the foreign telecommunications carriers' networks will be Year 
2000-ready by January 1, 2000. However, we are still investigating the 
ways in which the failure of one piece of the global telecommunications 
network could trigger failures elsewhere.
    The global telecommunications network is a very complicated and 
interdependent thing and consequently it is difficult to predict with 
any level of certainty potential Year 2000-related risks. For example, 
small, sporadic outages distributed across the globe could 
theoretically arise and affect voice and data service. These relatively 
isolated incidents could arise on January 1, 2000 or several days 
after. Furthermore, massive redial attempts and disabled central office 
switches (due to power outages and related reasons) could result in 
increased and unexpected traffic transiting through a foreign carrier's 
remaining operational central office switches and impair service. 
Moreover, there could be problems associated with billings, accounting 
and data records (e.g., maintenance, performance information), or 
service (i.e., activation or transfer of services) may be temporarily 
delayed or interrupted.
    Question 13. What is FCC's role in handling problems such as the 
recent AT&T frame-relay outage and the Galaxy satellite paging system 
problem? Did these problems provide FCC any lessons learned for 
handling of potential Y2K problems?
    Answer. Under Section 63.100 of the FCC's rules, 47 C.F.R. Sec.  
63.100, wireline telephone carriers are required to report to the 
Commission network outages of a certain size and duration--those 
outages affecting the ability of at least 30,000 customers to make a 
call for a minimum of 30 minutes. Although the outage reports are 
required by the Commission, the information is reviewed primarily by 
the Network Reliability Steering Committee, or NRSC. The NRSC was 
created by ATIS for that specific role upon the recommendation of the 
NRIC.
    The NRSC makes the outage information available to industry, in 
order to ensure continued network reliability, and so that future 
outages may be avoided. The creation of these industry mechanisms 
followed a number of highly publicized outages in the early 1990s, 
which had different root causes but were the result of a market 
failure: lack of information. Although the Commission has an outage 
reporting requirement, the information submitted by industry, in 
response to Section 63.100, is intended primarily for industry. Of the 
two recent outages mentioned above, only one was required to be 
reported under Section 63.100--the AT&T frame relay outage--whereas the 
Galaxy IV satellite paging failure was not (because there is an 
exemption in Section 63.100 for satellite systems). As a result, the 
Commission is looking into the need for a more comprehensive reporting 
requirement.
    Both the AT&T and PanAmSat outages highlight how various systems 
can be affected by the failure of a single piece of hardware. However, 
communications networks are also designed to be fault-tolerant, robust 
and redundant, and there is no reason to believe that Y2K-related 
failures could lead to a chain reaction that could disable large parts 
of the nation's telecommunications networks.
    Question 14. In the June 16 hearing of the House Subcommittee on 
Oversight, Committee on Ways and Means, the General Accounting Office 
(GAO) testified that telecommunications readiness was critical, yet the 
status of the industry is essentially unknown. What is your response to 
that observation? What's the current status?
    Answer. We do not agree with the assessment of the General 
Accounting Office (``GAO'') that the status of telecommunications Year 
2000-readiness is unknown. For the convenience of the Committee, I am 
appending to my post-hearing responses a summary of how each of these 
different industries may be affected by the Year 2000 Problem and what 
industry and the FCC are doing to address these problems. Again, as I 
responded in several questions above, our current assessment of the 
telecommunications industry (i.e., in terms of inventory, assessment, 
remediation, testing, and integration efforts) remains relatively 
positive.
    In addition, we have had several meetings with GAO in which we have 
provided brief summaries of the responses to our Year 2000 inquiry 
letters as well as summaries of the informational meetings and forums 
that the FCC's Bureaus have conducted.
    Question 15. Much of the discussion of the Y2K impact on the 
telecommunications sector has focused on the steps that service 
providers are taking to ensure that their respective systems and 
networks are compliant, and that they will not experience major service 
disruptions. However, there are considerable Customer Premise 
Equipment, i.e., PBX machines, office LANs, and voice mail, with known 
problems. In other words the long distance carriers may be ready, but 
if the office telecommunications networks and devices are not, the call 
won't go through. Has FCC done anything to alert businesses and 
corporations to this potential problem?
    Answer. As I stated in my response to Question 1, the Commission 
shares the concern about the Year 2000 effects on CPE that access the 
public switched telephone network. As part of its continuing outreach 
and awareness initiatives, the Commission intends to host a public 
forum on the effect of the Year 2000 Problem on CPE and other ancillary 
equipment and services. We expect to convene the public forum during 
October 1998. We should note, however, that we do not regulate these 
areas of the network.
    Question 16. While one's telecommunications equipment suppliers and 
manufacturers may have contacted their customers and advised them of 
any potential risks, I understand that there is a large re-sale market 
for this equipment. To your knowledge, are the suppliers taking any 
steps to ensure that these secondary market customers are notified of 
potential Y2K problems with their equipment?
    Answer. Yes, some are, but as one would expect, they are 
encountering difficulties stemming, frequently, from their inability to 
determine who the current owners of those systems are.
                               __________

                  Prepared Statement of A. Gerard Roth

    Chairman Bennett and members of the Committee, my name is Gerry 
Roth. I am responsible for GTE's Corporate Year 2000 Program Office, 
and I am here on behalf of the Telco Year 2000 Forum. The Forum 
commends the Committee for conducting this hearing, and I would like to 
submit the following written testimony on the purposes and activities 
of the Forum to address Year 2000 issues in the telecommunications 
industry
                               background
    The Year 2000 issue is a worldwide concern, which has been 
identified by many industry experts as the largest single project that 
companies will have to face. Many aspects of technology will be 
affected including a variety of computer systems, hardware, operating 
environments and networks.
    As the end of the 20th Century approaches, it is becoming more 
evident that the Year 2000 will cause problems for some systems due to 
the limitation of the date field on some ``legacy'' and other older 
systems. In a number of these older systems, the developers used a two-
digit year field with the assumption that the century is nineteen (19). 
With the turn of the 21st century the need to differentiate between the 
20th and 21st century (19 versus 20) will be required in some 
applications.
    The Chief Information Officer (CIO) Forum sponsored by Bellcore has 
been considering the Year 2000 issue at its meetings for some time. The 
Telco Year 2000 Forum was created as an outgrowth of these Bellcore CIO 
Forum discussions. The Telco Year 2000 Forum was created to focus and 
share information on a common, industry wide issue: the potential 
impact of the Year 2000 on the telecommunication industry.
                        telco forum participants
    The Telco Year 2000 Forum was formed with participation from some 
of the largest U.S. telecommunication companies. The current 
participants include the following companies:

Ameritech Corporation
Bell Atlantic
BellSouth Telecommunications, Inc
Cincinnati Bell Telephone Company
GTE
SBC
Southern New England Telecommunications Corporation
US West Communications Group, Inc.

    The Forum has also invited AT&T, MCI/WorldCom, SPRINT and USTA to 
be participants in the Forum activities. In addition, it has invited 
some of the major telecommunications equipment suppliers to attend the 
Forum meetings to discuss mutual concerns and issues.
    The Forum acts as an informal working committee to address Year 
2000 issues in the telecommunications industry. Its purpose is to share 
relevant Year 2000 information, and the discussions are focused 
exclusively on issues relating to the technical or operational aspects 
of the Year 2000 problem. The intent of this information sharing is to 
identify potentially common challenges and solutions to address Year 
2000 issues and thereby facilitate and accelerate necessary responsive 
actions by each of the member companies.
    A principal activity of the Forum is to pool and share testing 
resources for common network components and to perform network 
interoperability testing.
    Although the companies share relevant Year 2000 information, each 
company is responsible for its own Year 2000 plan and activities. Each 
member company has a very detailed and company specific plan to address 
its particular Year 2000 issues.
                         telco forum structure
    The Forum meets approximately six times a year. Sub-groups are 
established to focus on some of the major issues in a more timely and 
efficient manner. At the present time there are sub-groups in place to 
address:
  --Network issues
  --Information technology issues
  --Communications issues
    The entire Forum and/or its sub-groups also participate in 
conference calls to address specific issues or concerns between its 
regularly scheduled meetings.
              network interoperability testing initiative
    A major initiative being undertaken by the Telco Year 2000 Forum is 
the Network Interoperability Testing Project. This intra-network 
testing initiative is a voluntary project, which is entirely funded by 
the member companies to test the network and various services for Year 
2000 readiness. Its purpose is to verify the operation of a multi-
vendor, multi-company environment.
    The goals of the testing project are to:
  --Minimize risk of network failures
  --Minimize risk of service failures
  --Test the functionality of date/time sensitive operations
    The testing initiative is based on Bellcore's GR-2945 which has 
emerged as an industry standard for telecommunications products for the 
Year 2000 issue. The participating company laboratories are configured 
for Year 2000 Interoperability testing to include:
  --Emergency services
  --Basic, enhanced, and intelligent services
  --Network management systems
  --Data networks
    Within these test configurations, a number of individual services 
such as 7-digit calls, 1+ 10 digit calls, operator-handled calls, 800 
calls, etc. will be tested and documented. The test configurations will 
test the Year 2000 readiness of approximately 21 suppliers and 82 
network elements and/or management systems. Collectively this equipment 
represents the suite of equipment commonly deployed in the network for 
Northern America.
    The Forum has already contracted with a project manager and has 
concluded contract negotiations with an independent testing laboratory 
to validate and document the test results. Detailed schedules are being 
developed with the member company test laboratories and the equipment 
suppliers to test the Year 2000 ready releases. It is anticipated that 
the testing will be conducted in the 3rd and 4th quarter of 1998.
    Testing is being conducted in five separate ``labs'' established 
within our members' facilities. These test labs allow the Forum to test 
the interoperability and compatibility of the major North American 
suite of network and operational support equipment in a Year 2000 
environment prior to nationwide deployment. Currently, the Forum 
expects to test 16 separate configurations of network elements and data 
transactions and 40 unique network management configurations. These 
test configurations are made up of 82 commonly used telecommunications 
products from 21 suppliers.
    Actual network testing began on 6 July 1998 with the test of our 
first management configuration dealing with the interaction of 
operational support systems to discrete network elements. Data 
transport testing began on 13 July 1998. Testing of Network Element to 
Network Element configurations is expected to begin in August.
    All tests to date have been successful, and active testing so far 
is proceeding on schedule. We anticipate completion of all tests by 
December 1998 with a final report in early January 1999.
    In addition to this testing initiative, Forum participants' 
laboratories will be used to support some of the inter-network testing 
being performed by the Alliance for Telecommunications Industry 
Solutions (ATIS) through its National Test Committee (NTC). The co-
chair of the NTC is also a Telco Forum participant working on the 
Interoperability Testing Initiative. This will help ensure that there 
is a linkage between the two testing initiatives, which are intended to 
be complementary. Additionally, the Telco Forum will be formally 
represented as a member of the ATIS National Test Committee. All 
companies participating in the Y2K Forum are also members of the ATIS. 
ATIS will be testing the internetworking aspects of the Public Switched 
Telephone Network (PSTN)--focusing on time-critical network events on 
31 December-1 January to model and monitor potential network 
congestion, Year 2000 interactions with local number portability 
modifications, transmission of voice and data from local exchange to 
inter-exchange carriers, ``800'' number access, and network management 
and control.
    The benefit of the interoperability testing approach is that it 
helps speed the deployment of Year 2000 ready products. It reduces the 
need for each company to test every aspect of every new release and 
permits each company to focus work efforts on its unique requirements 
to deploy Year 2000 ready equipment. As noted previously, the 
interoperability testing initiative is a completely self-funded, 
voluntary undertaking. It will supplement individual supplier testing 
and individual company testing of critical network elements and 
systems.
    In addition to the major interoperability testing efforts of the 
Forum, some of the other on-going activities and accomplishments of the 
Forum are outlined below.
Sharing information regarding best/representative practices
    This is the purpose and major activity of the Forum. The sharing of 
information on best/representative practices facilitates and 
accelerates responsive actions by each of the member companies. The 
sharing of information regarding the approach being used to take 
responsive action and/or test some of the ``industry standard'' systems 
permits individual companies to focus their resources on company unique 
systems.
Working with major equipment suppliers
    The Forum has met with and/or contacted some major 
telecommunication equipment suppliers regarding their Year 2000 Ready 
Releases. It has worked with some of these suppliers to improve 
delivery dates and/or for an earlier testing date on some of their 
products. The Forum plans to continue to work with suppliers to address 
identified Year 2000 equipment issues.
Sharing information regarding network products
    The network representatives on the Forum have developed an internal 
data set of suppliers' Year 2000 ready releases and their availability 
dates. This data set contains approximately 93 vendors and 470 network 
elements. The database is a valuable resource to help ensure that all 
participants are receiving and using consistent information regarding 
Year 2000 product release and availability dates.
Meeting with various government and industry groups
    Forum participants have met with various government and industry 
groups to share the Forum's concept and benefits. It has been useful to 
demonstrate the cooperative efforts being undertaken by the industry to 
help minimize the risk of network or service failures. The Forum is 
currently a member of the President's Year 2000 Telecommunications Task 
Force, chaired by John Koskinen and Federal Communications Commission 
(FCC) Commissioner Michael Powell.
Starting discussions on contingency planning
    Although the individual members are responsible for their own Year 
2000 plan and activities, the Forum has recently started discussing the 
issue of contingency planning. Also, since GTE has a close affiliation 
with the Canadian telecommunications industry, it has been able to 
share some of the contingency planning concepts being used there. It is 
expected that the issue of contingency planning will be addressed in 
greater detail in the months ahead.
                  year 2000 information disclosure act
    The Telco Year 2000 Forum supports the goals of the 
Administration's Year 2000 Information Disclosure Act. We believe that 
it is important--to our customers and to the public--to provide 
relevant information regarding the Year 2000 readiness of 
telecommunications equipment and the network. The proposed Act would 
help allay some concerns about the legal liability associated with the 
disclosure of Year 2000 Information. As such, it should help promote 
disclosure of Year 2000 information readiness information in a more 
timely fashion.
    The Forum believes that the proposed Act will help foster 
cooperation and information sharing within the industry and across 
industry borders regarding the Year 2000 issue. In so far as the 
sharing of Year 2000 information is the primary purpose of the Telco 
Year 2000 Forum, it supports the objectives outlined in the Year 2000 
Information Disclosure Act.
                               conclusion
    The Year 2000 issue represents a significant challenge to business, 
its customers, and the government. As noted at the outset, it is a 
matter of worldwide concern, which has been declared by many industry 
experts as the largest single project that companies will have to face. 
It requires cooperation within the telecommunications industry and 
across industry boundaries. It also presents an opportunity to work 
with others on a common challenge. The Telco Year 2000 Forum is a 
cooperative effort governed as a limited liability corporation actively 
working to address the Year 2000 issue in the telecommunications 
industry.
    The members of the Telco Year 2000 Forum believe that this 
cooperative, voluntary effort will go a long way toward removing public 
anxiety over the Year 2000 status of the Public Switched Telephone 
Network (PSTN) in the United States. Despite the fact that this network 
cannot be 100 percent tested in advance of the Year 2000, we believe 
our individual and collective actions in Year 2000 remediation and 
subsequent test and validation provide a basis for continued confidence 
that the telephone and data networks will continue to operate and 
provide the outstanding services we have come to expect.
    Mr. Chairman, I thank you for this opportunity to present this 
testimony on behalf of the Telco Year 2000 Forum.
                                 ______
                                 

 Responses of A. Gerard Roth to Questions Submitted by Chairman Bennett

    Question 1. What percentage of the U.S. telecom industry is 
represented by the Telco Year 2000 Forum?
    Answer. Current participants in the Telco Year 2000 Forum include 
the following companies: Ameritech Corporation, Bell Atlantic, 
BellSouth Telecommunications, Inc., Cincinnati Bell Telephone Company, 
GTE, SBC, Southern New England Telecommunications Corporation, and US 
West Communications Group, Inc. While it is impossible to provide a 
precise percentage of the telecom industry represented by these 
companies, one measure of industry representation is access lines 
served. Collectively these companies provide service for approximately 
145 million access lines, a substantial majority of the switched access 
lines in the nation.
    Question 2. We understand that the Telco Forum will be examining 
the emergency ``911'' system. What have you discovered in your 
assessment and testing to date?
    Answer. The emergency ``911'' service interoperability testing has 
not yet begun. The testing of the various ``911'' configurations is 
planned to begin in late September. The Forum will be pleased provide 
the Committee information on this aspect of testing when it is 
completed.
    Question 3. A major initiative being undertaken by the Telco Forum 
is the network interoperability-testing project. This intra-network 
testing initiative is a voluntary project. Its purpose is to verify the 
operation of a multi-vendor, multi-company environment. Although 
several of the regional Bell companies are participating, the long 
distance carriers are not.
  --How do you account for such limited participation?
    Answer. We cannot agree that there is ``such limited 
participation'' in the Forum. Most of the equipment used in the North 
American Public Switched Telephone Network--including equipment 
deployed by smaller, regional telephone companies--is represented 
through the participating local service companies. As you know, we have 
extended invitations to major long distance carriers as well as USTA. 
To date, USTA citing primarily logistical difficulties resulting from a 
large and diverse membership, has been unable to agree to certain 
confidentiality and information sharing guidelines required of all 
Forum members. These agreements are intended principally: (1) to 
prevent inappropriate use or disclosure of company proprietary material 
which has been made available to assist in Year 2000 remediation and 
testing; (2) to protect sensitive information provided by industry 
suppliers and testing services vendors which would otherwise be unknown 
to Forum members except for their cooperation on Year 2000. With 
respect to long distance carriers, we have been told by some of these 
carriers that it is simply a resource allocation issue. Also, as 
discussed above, long distance carriers are participating in ATIS 
testing and they anticipate that there will be considerable interaction 
and information sharing between ATIS and the Telco Forum. In any event, 
our invitation to those groups remains open.
  --What are the pitfalls involved in such testing?
    Answer. The Telco Forum has attempted to include those date-
sensitive network elements and management systems that interact 
directly with the network and that are broadly deployed in North 
America. The testing does not--and cannot--include all deployed network 
elements and management systems or each combination thereof because of 
time and cost constraints. It should be noted, however, that the 
Forum's interoperability testing project is over and above the product-
specific testing being performed by individual suppliers and operating 
telephone companies.
    Also, the Telco Forum's testing efforts must be accompanied by 
other testing to insure inter-network performance. All of the Forum 
members, for example, are members of and active participants in the 
Alliance for Telecommunications Industry Solutions (ATIS). Importantly, 
some of the individual Forum member companies are providing their labs 
and lab personnel for the Year 2000 testing being performed by ATIS.
    The benefits of testing are many while the pitfalls are few. Any 
failures found and fixed now only enhance, rather than distract from, 
the industry's overall readiness for Year 2000.
  --Have industry-wide standards for testing been established?
    Answer. The Telco Forum is using the Bellcore GR 2945 ``Year 2000 
Generic Requirements: Systems and Interfaces'' as the basis for its 
interoperability testing project. As noted by Dr. Judith List in her 
testimony before the Senate Special Committee on the Year 2000 
Technology Problem these generic requirements have evolved as 
important, de facto standards for Year 2000 on the Public Switched 
Telephone Network.
  --How accurately will Telco's testing conditions predict actual 
        conditions in the public network?
    Answer. The Telco Year 2000 Forum is performing the tests in a 
number of separate labs provided by its members. The testing will 
involve the use of real equipment and systems in the test participants' 
laboratories rather than simulators. The test cases may also involve 
the use of select live data and live calls.
    Because Forum members are continually deploying switch generic 
upgrades and major new equipment in their network infrastructure, 
upgrading network and management systems for the Year 2000 issue, while 
broader in scope, is essentially conducting business as usual. The test 
facilities being used in the Telco Forum's interoperability testing 
project are the same as those used by the participants for testing 
purposes before deploying switch generic upgrades or major equipment in 
the live network.
  --How is your proposed testing different from that proposed by the 
        Alliance for Telecommunications Industry Solutions' (ATIS) 
        testing?
    Answer. The testing being performed by the Telco Year 2000 Forum 
and the Alliance for Telecommunications Industry Solutions (ATIS) 
through its National Test Committee (NTC) is intentionally 
complementary. Furthermore, both bodies share membership and test 
laboratories. The Co-Chair of the NTC is also a Forum participant 
working on its interoperability testing initiative. Otherwise, the 
Telco Forum is exclusively Year 2000-focused, while ATIS has a broader 
industry-wide scope, which has been expanded further to include Year 
2000 operational testing.
    The focus of the Telco Forum's intra-network testing is on the 
interoperability and compatibility of the major network and operational 
support components in a Year 2000 environment and as they are 
configured by the operators of the network. The participating company 
laboratories are configured for interoperability testing of:
  --Emergency services
  --Basic, enhanced, and intelligent services
  --Network management systems
  --Data networks
    Within these test configurations, a number of individual services 
such as 7 digit calls, 1+ 10 digit calls, operator-handled calls, 800 
calls, etc. will also be tested and documented. The test configurations 
will test the Year 2000 readiness of approximately 21 suppliers and 82 
network elements and/or management systems. Collectively, this 
equipment represents the suite of equipment most commonly deployed in 
the network for North America.
    Once that has been accomplished, the inter-network testing planned 
by ATIS will determine the extent to which the Public Switched 
Telephone Network operations, under operational load as the millennium 
date change occurs, continue as normal. ATIS testing will thus focus on 
time critical events on 31 December-1 January to model and monitor 
potential network congestion, Year 2000 interactions with local number 
portability modifications, transmission of voice and data from local 
exchange to inter exchange carriers, 800 number access, and network 
management issues.
    Lastly, individual company testing and operational performance 
verification after the January 2000 transition will monitor and analyze 
any potential "gradual degradation" due to subtle system dysfunction 
from latent Year 2000 impacts.
  --Wouldn't it be more efficient for the Telco Forum and ATIS to join 
        forces?
    Answer. In fact, we have ``joined forces'' in terms of the overall 
architecture of domestic telecommunications network testing. ATIS 
testing will use aspects of the Telco Forum's efforts. However, each 
sub-component of the overall testing effort is being handled by those 
with the greatest knowledge of the equipment and services under review. 
The testing being performed by the Telco Year 2000 Forum and ATIS 
through its National Test Committee (NTC) are both necessary and 
complementary. As noted above, the Co-Chair of the NTC is also a Forum 
participant working on its interoperability testing initiative. The 
Forum also has formed a sub-committee to formalize its linkages with 
the ATIS Year 2000 testing.
    Several of the individual Forum member companies are providing 
their labs and lab personnel for the Year 2000 testing being performed 
by the ATIS and, all of the Forum members are participants in ATIS.
    The Telco Year 2000 Forum started to work on its interoperability 
testing initiative in the early fall of 1997 with the issuance of a 
Request for Proposal for the project. The test plans and test cases for 
most of the testing have been prepared and actual testing has already 
begun. It is expected that the testing will be completed in December 
1998 with a final report in early January 1999. This would be the wrong 
time to start restructuring the testing or testing administration.
    Finally, much of testing being planned by ATIS was in the Telco 
Year 2000 Forum's original RFP for the interoperability testing work. 
It was removed because ATIS took the lead and was better positioned to 
handle this aspect of the testing work effort. Since the actual ATIS 
testing is planned to be initiated in January 1999, the Forum believes 
that from a practical standpoint the industry has joined forces in its 
efforts to address the Year 2000 issue.
    Question 4. GTE currently offers its customers a wide range of 
services: local and long-distance switched voice services; wireless 
voice and data services; Internet and other data communications 
services; as well as paging services.
  --What are the specific Year 2000 issues and potential impacts to 
        those services?
    Answer. GTE believes, as does the other major telecommunication 
carriers, the United States Public Switched Telephone Network ("PSTN") 
will continue to operate with no major service disruptions due to Year 
2000 issues. Specific concerns do arise with respect to supplier 
continuity and international response.
    Telecommunication companies depend heavily on their suppliers 
actually delivering on schedule the Y2K solutions to which they have 
committed. These companies also depend upon their suppliers' ability to 
sustain technical support and performance through the Year 2000 
transition. To address this concern, GTE has established a Supplier 
Management Program, headed by a vice president in GTE's corporate Year 
2000 Program Management Office. This unit tracks the thousands of 
products acquired by GTE and promotes the timely delivery of Year 2000 
compliant versions. This organization also has the responsibility, and 
authority, to negotiate appropriate, Year 2000 compliance terms and 
conditions in contracts with its suppliers, and is responsible for 
assessing the quality and completeness of Year 2000 testing of third-
party supplier products.
    Otherwise, while the U.S. and Canadian telecommunications 
industries are working closely to address and test Y2K readiness, the 
international response to date has been inconsistent across the 
industry and countries. Because of the global nature of the 
telecommunications business and its customers, we must strive to ensure 
Y2K awareness and enable full international network interoperability 
assurance. Thus, GTE has been working through the Telco Year 2000 Forum 
and otherwise (e.g. the Canadian Telco Y2K Forum and the ITU Y2K sub-
group) to promote Y2K information sharing and, possibly, 
interoperability testing on an international basis.
  --What are the Year 2000 issues and potential impacts that threaten 
        the proper functioning of the business systems that support 
        those services?
    Answer. Because the operation, administration and maintenance 
systems of telecommunications carriers do include date-sensitive 
information for functions such as order-entry, billing, network 
management, and administration, GTE prioritized and inventoried its 
major support systems for Y2K conversion. Based on our planned 
schedule, GTE currently expects its key legacy and support systems code 
to have been Y2K converted (if necessary) and returned to production by 
January 1, 1999. Full system enterprise testing is presently scheduled 
to be completed by June 30, 1999.
  --What steps should your users and customers be taking to ensure that 
        their services are not disrupted?
    Answer. Residential Customers: Because most residential telephones 
do not process date-sensitive information to enable basic telephone 
service, residential customers will generally not be required to take 
any steps to ensure uninterrupted service. However, residential 
customers having more advanced equipment such as answering machines, 
facsimile equipment, modems, etc., should contact their equipment 
manufacturers regarding the Y2K compliance status of their products. 
While the potential exists for these products to be impacted by the 
Year 2000 (such as date displays and time stamps), it is unlikely to 
prevent placing or receiving telephone calls.
    Private Network Customers: Customers that operate more complex 
premise equipment interfacing with the PSTN should, as part of their 
Year 2000 compliance programs, conduct an inventory of that equipment 
and work with their service providers and equipment suppliers to 
determine the Y2K compliance status of their products and systems.
    Question 5. Many federal, state, and local government agencies, 
private businesses, and other entities operate their own networks.
  --Do you have a sense of whether private versus public networks are 
        being addressed for Y2K problems?
    Answer. To the extent this question refers to testing efforts by 
the Forum, mainstream equipment is used in both public and private 
networks. Therefore, any Telco Year 2000 Forum testing and other Year 
2000 work with equipment vendors would, necessarily, benefit the owners 
of private networks.
  --If a private network is not Y2K ready, could the interface of a 
        non-compliant private network result in the degradation of 
        public telephone service?
    Answer. The Forum does not believe that the interface of a private 
network would pose any greater risk to the public telephone service 
network than it does in today's environment. Obviously, a company 
relying on private non-compliant network might need to secure an 
alternative means of access to the public telephone network.
  --Will extensive use of the Internet in any way degrade public 
        telephone service?
    Answer. The Forum does not believe that the use of the Internet 
would pose any greater risk to the public telephone network than it 
does in today's environment. The network has various management systems 
in place to deal with traffic congestion. Some of these systems will be 
tested as part of the Telco Year 2000 Forum's and ATIS complementary 
testing efforts.
    Question 6. I see that the Telco Forum supports the ``goals'' of 
the President's Year 2000 Information Disclosure Act and believes it 
will help foster cooperation and information sharing. Your words sound 
skeptical. Do you believe it will really result in better information 
disclosure?
    Answer. We believe that the enactment of legislation reducing 
liability concerns for disclosure will enhance the free flow of testing 
and product readiness information. The President's Year 2000 
Information Disclosure Act is clearly helpful in this regard and would 
result in better information disclosure.
  --Are there other deterrents to disclosure?
    Answer. Yes, ordinary commercial concerns, such as customer 
relations and competitive issues, also play a large role in disclosure 
decisions. In addition, disclosure activities are to some extent 
impacted by resource constraints in companies, with many companies 
focusing on their own internal remediation efforts.
  --What more can be done to encourage disclosure?
    Answer. In addition to the legislative efforts above, it would be 
helpful to have disclosure related activities made more efficient and 
effective. For example, a uniform approach to information gathering by 
Federal and State authorities would allow companies on remediation and 
would promote disclosure in a useful and consistent fashion.
                               __________

               Prepared Statement of Senator Gordon Smith

    Thank you Mr. Chairman.
    I would like to thank all the distinguished witnesses before us 
today for taking the time to help us address the challenges facing 
telecommunications as we enter the year 2000.
    Today's hearing is extremely important because our lives have 
become intertwined with technology that runs our phones, banks, 
electric power and way of life.
    Did you know that at this very instant many long distance carriers 
have not yet determined how to solve billings problems that affect the 
amount you are charged for your long distance calls? I caution you to 
stay off the phone at the stroke of midnight at the turn of the century 
unless you are certain the computer bug has been addressed by your 
carrier. You may be charged for talking on the phone for over a 
century.
    I make light of an enormous challenge the telecommunications 
industry is facing.
    I remember when a satellite stopped transmitting information 
earlier this year, affecting thousands of people who relied on 
telecommunications technology. Many Oregonians complained that their 
pagers, cell phones and the local ATM's were no longer working. Little 
did they know that the satellite that many of their daily activities 
had changed its usual orbit. Much like this incident, imagine how our 
daily lives would be altered if the chips in our satellites aren't 
ready for the year 2000.
    It is for this reason that we are here to discuss ways to prevent 
this computer problem from bringing our nation to a halt and I look 
forward to hearing about progress being made to avoid that end.
    In talking to experts in the telecommunications field, I have 
learned that the dial tone will most likely not be affected by the 
arrival of the new millennium. We have received several calls from 
large and small businesses who are trying to run tests on their 
networks and are unable to. So my question to the panel is, what kind 
of network components are susceptible to year 2000 errors? 
Subsequently, what are you doing to address these problems? How will 
these potential problems affect the speed of placing phone calls or 
making internet connections?
    Are equipment vendors supplying networks with the most recent 
software that will protect them from any Year 2000 problems?
    I'm also curious about how your efforts as an industry are being 
coordinated. I understand the Federal Communications Commission has 
been studying this issue, but can the network service providers rely on 
the FCC for help?
    As a member of the Senate Foreign Relations Committee, I am very 
concerned that we will not be able to maintain communication with other 
countries across the border and around the world. If we are cut off 
from communicating with other nations, issues such as national 
security, trade, information exchange and financial services will 
become the headliners of our society. I'm hopeful that someone is 
currently focusing on how to coordinate our systems with foreign 
countries.
    If there is no primary point of contact for the telecommunications 
industry, I hope this hearing will provide direction for the entire 
telecommunications industry so that all interested parties will know 
where to turn for help.
    I also understand that some legislation has been recently 
circulated by the President regarding the ``Year 2000 Information 
Disclosing Act'' that will offer legal protection to those who share 
information on Year 2000 fixes, service opportunities and products. I 
understand that the telecommunications industry was actively involved 
in the negotiations with John Koskinen and the Office of the President 
on this legislation, and I would be interested in our panel's comments 
on this subject.
    Again, thank you all for coming today. I look forward to learning 
more about the specific challenges you are facing and specific steps 
you are taking to meet them.
    Thank you Mr. Chairman.
                               __________

              ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD

                                ------                                


         Statement From Hewlett-Packard Medical Products Group

                rationale for hewlett-packard statement
    Hewlett-Packard Company is a leading global provider of computing, 
Internet and intranet solutions, services and communications products, 
and measurement solutions, all of which are recognized for excellence 
in quality and support. HP Medical Products Group (HP Medical) is one 
of the world's largest suppliers of medical devices. HP is pleased to 
have been invited to contribute to the Congressional deliberations on 
the healthcare industry's readiness for the Year 2000, specifically 
related to Y2K issues in medical devices. As the clock continues to 
advances towards midnight, December 31, 1999, the sense of urgency 
grows, particularly for medical devices for which date processing could 
represent a serious threat to the safety of patients.
    During the last year, HP Medical has worked closely with the FDA, 
the Veterans Health Administration of the Department of Veterans 
Affairs and the Department of Defense to better understand their needs, 
requirements and issues related to Y2K. It is our position that the 
more information we can make available to our customers about Y2K 
issues in our medical devices, the better we can help them prepare for 
the millenium.
    HP Medical's primary concern with the Y2K issue is patient safety. 
We were invited to submit this statement because of our proactive and 
cooperative approach to helping our healthcare customers make a smooth 
transition of their HP medical equipment to Y2K-compliant status. HP 
Medical has been actively addressing Y2K issues, allocating dedicated 
R&D resources to perform in-depth assessment and/or testing of our 
products. We are also actively communicating with our customers to 
inform them of Y2K issues related to HP medical products.
                  hp's commitment to medical customers
    HP is making the following commitments regarding Year 2000 
compliance for our medical products:
  --All HP medical products that are currently shipping, or will ship 
        in the future are already Year 2000 compliant, will be 
        certified as Year 2000 compliant as of their next revision, or 
        at the very latest, will be certified by the end of 1998. Any 
        upgrades or modifications required will be made available to 
        our customers at no cost.
  --All HP medical products that are no longer in production, but are 
        still eligible for HP support as of January 1, 2000 are being 
        evaluated for Year 2000 compliance. In some cases, a simple 
        ``workaround'' solution (such as a manual reset) may be 
        identified. In the cases of products for which an acceptable 
        workaround solution cannot be identified, HP will make 
        available an upgrade or upgrade path. In some cases, there may 
        be a cost associated with the upgrade or upgrade path.
  --HP medical products that are obsolete and are no longer eligible 
        for HP support as of January 1, 2000 will not be brought into 
        compliance by upgrades or modifications. In some cases, 
        products may not be affected because there are no date 
        processing requirements. HP will recommend replacement products 
        for those non-compliant products that are beyond their support 
        life, as well as providing risk assessment information for 
        those obsolete products that contain date processing functions.
                 testing must be thorough and complete
    Any Y2K program must be based on evaluation and testing of the date 
processing functions of equipment and systems. When patient safety is 
at stake, care must be given to ensure that the testing is adequate and 
robust. HP Medical believes that it is not enough to set the date in 
the device to December 31, 1999 and run through the normal operating 
performance. As a result, we have implemented a two-level testing and 
Y2K certification process for all current products.
    The testing protocol adopted by Hewlett-Packard Company on a 
company-wide basis involves testing of all current products for Year 
2000 compliance based on multiple dates and functional sequences (see 
Attachment A). This functional testing takes into account leap year 
calculations, as well as the transition between December 31, 2000 and 
January 1, 2001.
    In addition to the protocol above, HP Medical is also testing all 
current products by performing a thorough review of software code, 
carried out by a qualified HP medical device engineer. This additional 
level of testing helps ensure that performance will not be affected by 
dates embedded in the software that are not visibly apparent in the 
normal operation of the devices.
    This two-level testing and Y2K compliance certification is 
consistent with the FDA's new Quality System Regulation. To date, HP 
Medical has completed testing of 97 percent of all current products.
                    obsolete products are not immune
    In the healthcare environment, it is not unusual for medical 
devices to be in use for ten, fifteen, even twenty years--long after 
the manufacturer has declared the product obsolete and discontinued 
support on the product. For example, a patient monitor originally 
purchased for the Intensive Care Unit could still be in use in the 
Emergency Department twenty years after its purchase.
    HP is concerned about obsolete equipment that may still be in use 
throughout the healthcare system, and we are taking steps to ensure 
that our customers are aware of which HP medical devices are out of 
their support life and will not be brought into Y2K compliance by HP. 
In addition, we intend to help our customers understand potential 
patient safety risks that may be present if obsolete devices continue 
to be used after the rollover to the Year 2000.
    As a result of this concern, HP Medical is in the process of 
performing risk assessments on obsolete devices for which the Y2K issue 
could pose a threat to patient safety. As assessments are completed, HP 
will make the results available to our customers, via our Y2K website, 
along with attractive financial and support programs to help our 
customers upgrade or trade-in those products that are deemed non-
compliant. HP expects to complete all necessary risk assessments and 
make the results available to our customers no later than June 1999.
                          communication is key
    HP believes that communication and access to information is 
absolutely critical to helping our customers ensure that their HP 
medical devices function properly during the transition to the 
millenium. We have implemented a number of communications programs to 
notify customers of the compliance status of their products, and to 
make it easy for them to get information from HP.
    HP has initiated the following communications programs to help our 
customers understand Y2K compliance of their installed HP products:
  --A comprehensive worldwide website which includes compliance status, 
        required actions and recommendations on all HP medical 
        products, as well as hotlinks to other Y2K information sources, 
        such as the FDA Y2K site (see the worldwide web at <http://
        www.hp.com/go/healthcare2000>);
  --Response to all customer inquiries on Y2K status by providing 
        complete listings of testing status, compliance status, actions 
        and recommendations, as well as Y2K warranty information;
  --A process in the United States for responding to customer inquiries 
        about HP medical products within five working days;
  --Mailing scheduled for August 1998 to 7,000 U.S. healthcare 
        locations to make them aware of our Y2K website;
  --A second mailing scheduled for November 1998;
  --Attractive financial and support programs to help customers to 
        upgrade or trade-in non-compliant HP medical products.
    Similar programs are being undertaken by HP Medical's geographic 
operations outside the United States.
    We believe that full cooperation and open communication between 
device manufacturers and healthcare customers is in the best interest 
of our ultimate customer--the patient. It is our belief that as a 
responsible supplier, HP must engage in an open dialogue with our 
customers about Y2K issues, rather than approaching this issue 
defensively.
    HP commends President Clinton's proposal to seek legislation that 
will help protect businesses that proactively address Y2K issues with 
their customers from future costly litigation arising from Y2K issues. 
We view the President's proposal as a good first step toward dealing 
with the broader Y2K litigation issues that may be discouraging the 
business community from taking a more aggressive approach to the Y2K 
problem in a number of sectors of the U.S. economy.
    HP also commends customers such as the Veterans Health 
Administration, the Department of Defense, and Columbia/HCA for their 
approach to Y2K issues with their suppliers. These customers have 
engaged key suppliers like HP with a partnership approach to resolving 
Y2K issues in their healthcare organizations, rather than addressing 
suppliers in an adversarial manner. HP welcomes this open dialogue, and 
has engaged in face-to-face meetings with several customers to help 
them understand firsthand the vigor and breadth of our Y2K testing and 
compliance programs.
                               in closing
    HP Medical Products Group is concerned and proactive in addressing 
and communicating Y2K issues. HP believes that there are three 
essential elements to ensuring that the healthcare industry will be 
fully prepared to face the Year 2000. Those elements are:
  --Y2K compliance programs should include thorough and robust testing 
        of the functional performance of medical devices for which date 
        processing could represent a potential patient safety issue. 
        Ideally, this testing should include detailed review of 
        software code to identify embedded date processing.
  --Full testing protocol and compliance status information should be 
        readily available to healthcare customers.
  --Congress should take steps to encourage open dialogue between 
        manufacturers and customers in all sectors of the U.S. economy.
    It is our belief that if medical device manufacturers and 
healthcare providers collaborate and cooperate to identify and resolve 
Y2K issues, the public will be able to approach the millenium with 
confidence in their safety should they require medical attention.


           Attachment A.--HP Year 2000 Compliance Definition

                    year 2000 compliance definition
    If an HP product processes date data, then it is considered to be 
Certifiably Year 2000 Compliant if the following conditions are met:

    1. It processes date data accurately from, into and between the 
twentieth and twenty-first centuries. This includes, but is not limited 
to, calculating, comparing and sequencing dates, including leap year 
calculations, when used in accordance with its product documentation, 
and provided all other products used in combination with the product 
properly exchange data with it.
    2. It has successfully passed each test case listed in Table 1, and 
the product's test suite permanently incorporates Table 1's test cases 
and conditions.
    3. It has successfully passed a review based on the checklist given 
in Table 2.

               TABLE 1.--MANDATORY TEST CASES FOR A PRODUCT TO BE CERTIFIABLY YEAR 2000 COMPLIANT
----------------------------------------------------------------------------------------------------------------
                 Date data \1\                                           Testing criteria
----------------------------------------------------------------------------------------------------------------
Dec. 31, 1998 to Jan. 1, 1999..................  Test for border line (beginning and ending of a year) for year
                                                  prior to year 2000:
                                                     System rollover in both powered-up and powered-down states,
                                                  or
                                                     Program rollover in both executing and non-executing
                                                  states.
Sept. 9, 1999 to Sept. 10, 1999................  Tests related to 9-9-99:
                                                     System rollover in both powered-up and powered-down states.
                                                     System date can be set to before date.
                                                     System re-initializes from cold start on before date, or
                                                     Program rollover in both executing and non-executing
                                                  states.
                                                     Program retrieves/accepts before date in executing state.
                                                     Program re-initializes from non-executing state on before
                                                  date.
Dec. 31, 1999 to Jan. 1, 2000..................  Test for critical transition of 1999 to 2000:
                                                     System rollover in both powered-up and powered-down states.
                                                     System date can be set to both before and after dates.
                                                     System re-initializes from cold start on both before and
                                                  after dates, or
                                                     Program rollover in both executing and non-executing
                                                  states.
                                                     Program retrieves/accepts both before and after dates in
                                                  executing state.
                                                     Program re-initializes from non-executing state on both
                                                  before and after dates.
Feb. 28, 2000 to Feb. 29, 2000.................  Test to verify year 2000 is identified as a leap year:
                                                     System rollover in both powered-up and powered-down states.
                                                     System date can be set to after date.
                                                     System re-initializes from cold start on after date, or
                                                     Program rollover in both executing and non-executing
                                                  states.
                                                     Program retrieves/accepts after date in executing state.
                                                     Program re-initializes from non-executing state on after
                                                  dates.
Feb. 29, 2000 to Mar. 1, 2000..................  Another Year 2000 leap year test:
                                                     System rollover in both powered-up and powered-down states,
                                                  or
                                                     Program rollover in both executing and non-executing
                                                  states.
Dec. 31, 2000 to Jan. 1, 2001..................  Test for transition from 12-31-OO to 1-1-1:
                                                     System rollover in both powered-up and powered-down states,
                                                  or
                                                     Program rollover in both executing and non-executing
                                                  states.
----------------------------------------------------------------------------------------------------------------
\1\ Testing is conducted in this range of dates.


 TABLE 2: MANDATORY CHECKLIST FOR A PRODUCT TO BE CERTIFIABLY YEAR 2000
                                COMPLIANT
------------------------------------------------------------------------
           Components                            Specifics
------------------------------------------------------------------------
Basics..........................  1. Data Structures Within the Product:
                                      a. Database Structure.
                                      b. File System Structure.
                                      c. Holding or Working fields.
                                  2. Date Manipulation Routines.
                                  3. Called System Intrinsics.
                                  4. Date Comparison Routines.
                                  5. Date Fields on Reports.
Module Interfaces; Internal Date  6. Data Structures for Interfaces
 Data Exchanges.                   Inbound to each Module.
                                  7. Data Structures for Interfaces
                                   Outbound from each Module.
Product Interfaces; External      8. Data Structures for Interfaces
 Date Data Exchanges.              Inbound to the Product.
                                  9. Data Structures for Interfaces
                                   Outbound from the Product.
Product Environment.............  10. Third Party Utilities or tools
                                   used by/with the Product.
                                  11. Date Logic Embedded in the JCL or
                                   Run Logic of the Product.
------------------------------------------------------------------------

                               __________

               Statement of Sandia National Laboratories

    We are pleased to be given this opportunity to submit some thoughts 
to the committee about how the Year 2000 problem might impact 
telecommunications and to recommend some actions that might lessen the 
severity of that impact.
    Sandia is the DOE laboratory responsible for the ordnance 
engineering for all U.S. nuclear weapons. Our responsibilities comprise 
the design, certification, and assessment of the non-nuclear subsystems 
of nuclear weapons, including arming, fuzing, and firing; safety, 
security, reliability, and use-control; issues associated with the 
production and dismantlement of nuclear weapons; and surveillance and 
support of weapons in stockpile. We also perform substantial work in 
programs that are closely associated with nuclear weapon research and 
development, including nuclear intelligence, nonproliferation, and 
treaty verification technologies.
    We are, however, a multi-mission laboratory. Ten percent of our 
work supports DOE's responsibilities for environmental remediation and 
waste management, and another ten percent supports Department missions 
in energy science, research, and development. When appropriate, we also 
perform work for other government agencies, particularly the Department 
of Defense, in programs where our unique capabilities, built to support 
DOE's Defense Programs responsibilities, can be of value. Increasingly, 
we are being called on to support other federal agencies, such as the 
FBI, the National Institutes of Justice, NIST, and NASA, where we have 
areas of expertise that can be of assistance.
    The surety of the nation's telecommunications infrastructure is 
absolutely essential for our national security. All businesses and 
essential services require telecommunication for their operation. The 
banking and finance sector exchanges billions of dollars a day across 
telecommunications links. The ATM machine at the mall requires 
operating phone lines to validate its transactions, as do the credit 
card readers at the department store and the corner gas station. And of 
course the whole spectrum of emergency response organizations, from the 
National Guard to FEMA to police to hospitals, requires reliable 
telecommunications to do their job. The Y2K crisis may require the 
assistance of many of these organizations, and an additional Y2K-
induced failure of the telecommunications infrastructure during an 
emergency would be catastrophic.
    We've divided this document into seven parts: Public telephone 
networks, data networks, satellites, international telecommunications, 
dependencies of telecommunications on other infrastructures, other 
issues, and finally recommendations. In each section, we discuss 
potential Y2K vulnerabilities and mitigating actions that could either 
prevent a failure or gracefully handle failures when they occur.
                      1. public telephone networks
Local phone companies
    Over 1200 local telephone companies \1\ provide the primary 
customer interface to the national telecommunications infrastructure. 
These companies provide access not only to voice telephone service, but 
also to the Internet for dialup users. Most of the larger local 
companies, and certainly the Regional Bell Operating Companies 
(RBOC's), are actively working Y2K issues.
    These companies use switches and equipment made by a variety of 
manufacturers such as Lucent, Nortel, and Siemens. All of these 
manufacturers have made Y2K compliant upgrades to their major products 
available, and most of the larger local phone companies are upgrading 
or have already upgraded. While there is always the possibility for 
hidden failures, the sensitivities in telephone switch gear that have 
been located so far have had to do not with basic functionality but 
with administration, management, and maintenance issues, as Dr. Judy 
List of Bellcore has already testified.\2\ Such failures do not affect 
dial tone, but can interfere with proper billing of call time, for 
example. Thus, in older equipment that has not been upgraded, Y2K 
failures are not likely to cause the local telephone system to go down, 
but they may cause billing and revenue problems for companies that 
don't upgrade. This may be a bigger problem for smaller local phone 
companies because they are more cash-flow sensitive, and also because, 
being resource-limited, they are less likely to upgrade their equipment 
in the first place.
    Again, we cannot be certain that basic system functionality will 
not be compromised, because the variety of equipment that is critical 
to call processing is too great and it has not all been analyzed as of 
today (July 1998). The only way to be absolutely certain is with a 
full-up system test, and that is impossible with the telephone 
network.\2\ The telephone network cannot be taken offline for testing, 
and even if it could, it contains embedded processors for which it will 
not always be possible to manually roll the date forward. Partial 
testing may be an option for certain critical nodes, but anything less 
than a full system test is not guaranteed to catch the more insidious 
bugs that are the whole reason testing is necessary. Absent tests, the 
only alternative may be to do as much preventative repair as possible 
and have well-oiled backup systems and well-trained repair crews in 
place on January 1, 2000.
Major trunk carriers
    Major trunk carriers such as Sprint, Worldcom, and AT&T carry 
telephone traffic and data between the local phone companies. The 
failure of even one of these carriers would be catastrophic. Because of 
their interoperation agreements, a carrier experiencing difficulty can 
route its traffic through the others. However, if a carrier fails 
completely, the impact of all of its traffic suddenly being routed to 
the others might cause an overload which, if not controlled quickly, 
could conceivably bring down the others as well.
    All the major carriers are spending millions of dollars working the 
Y2K issue, and are deeply aware of the implications of failure. So far, 
most of their equipment has the same Y2K issues as we discussed above: 
it is less likely to affect basic service than administration, 
management, and maintenance. Because of this and because all of these 
companies are large and well-capitalized, total failure of the major 
trunk carriers due to direct Y2K effects does not seem very likely.
    However, we do find it plausible that Y2K could cause failure of 
the telephone system through another mechanism: loss of electric power. 
(More on this below.)
Wireless
    Cellular phones, PCS phones, pagers, and other wireless mechanisms 
that interface to the public telephone network must be examined for 
their own Y2K vulnerabilities at the level of the equipment itself, the 
transmitters/receivers (cells) and the interface points to the network. 
We presume that the cellular providers are working the issue, but we do 
not have any data at this point.
    Local emergency and public safety organizations, such as police, 
fire and EMS need to make sure that their wireless systems will 
operate. We don't know their current status, but suspect that many may 
be unaware of their Y2K vulnerabilities. These critical first responder 
organizations need to be educated quickly and get their equipment 
upgraded where appropriate.
    Amateur radio operators must also examine their Y2K status. Hams 
are frequently the only means of communication after a disaster, so it 
is extremely imporant that their equipment operate correctly. The 
American Radio Relay League and AMSAT, the Ham satellite organization, 
have reported to us that most Ham equipment, as well as their 
satellites, are not Y2K sensitive, and that they are updating software 
that is. ``One of amateur radio's strengths is our adaptability,'' one 
of the members of AMSAT told us. We find this encouraging, and believe 
that Hams will be ready if there is a telecommunications emergency.
Customer-owned equipment
    Much of the telephone system is customer-owned equipment installed 
at the customer's premises. PBX systems, ISDN phones, answering 
machines, voicemail systems, etc. are produced by myriad vendors and 
largely are not under the control of the phone companies. Most of this 
equipment is installed in businesses. While many vendors have produced 
Y2K upgrades to their equipment, it is probable that a large fraction 
of their customers have not upgraded, either because they are unaware 
of the Y2K vulnerabilities in the equipment or because they cannot 
afford to upgrade.
    If this equipment goes down because of Y2K problems, companies who 
own it and depend on it will certainly be at risk. But Y2K rarely 
impacts a business in isolation; if a business goes down because of Y2K 
and it's a critical customer or supplier of other businesses, it may 
take the other businesses down with it, even if they are Y2K compliant.
    Small-to-medium enterprises (SME's) are likely to be hardest hit by 
this, because large companies will upgrade and can absorb the loss of 
some trading partners. Loss of telecom and Internet equipment is one of 
the most serious threats facing SMEs because this equipment is at least 
as mission-critical as their computers and it is probably more 
sensitive to Y2K. Encouraging SMEs to upgrade and encouraging vendors 
to provide upgrades to SMEs at favorable terms should be strongly 
considered. Because of the deeply interconnected nature of systems 
vulnerable to Y2K failure, virtually all businesses must be compliant 
or none are compliant.
    911 call processing in public safety organizations must be 
evaluated and upgraded where necessary. Because 911 processing usually 
involves special equipment and is date-sensitive, it needs to be 
checked carefully.
Indirect effects
    Widespread outages in any of the infrastructures as a result of 
Y2K, or widespread receipt of incorrect bills, could result in 
thousands of complaint phone calls, which tie up the system. Procedures 
are available to ensure that these calls do not block emergency users, 
and the telecom system operators need to be prepared to invoke them if 
necessary.
                            2. data networks
The Internet
    Five years ago, the impact of losing the Internet would have been 
minimal. Most users of the Internet were academic and government 
organizations, and the loss of the Internet would have been a nuisance 
at worst. Today, however, the Internet has become a business tool 
almost as essential as the telephone. Many large companies today depend 
on email and the Internet's ability to quickly move large quantities of 
information between company sites. Some companies such as Yahoo! and 
amazon.com derive virtually all their revenues through their Internet 
services. The 1997 10-K filing of amazon.com states:

        Amazon.com has grown rapidly since first opening its Web site 
        in July 1995. Through December 31, 1997, the Company had sales 
        of more than $164 million to approximately 1.5 million customer 
        accounts in over 150 countries.

    The mail order company Land's End now takes orders over the 
Internet. Mike Smith, their president, states in their annual report:

        One area we will be spending more resources on is the Internet. 
        We feel the Internet could generate significant sales in the 
        future and will be investing accordingly. Obviously, the sooner 
        this medium takes off, the faster our payback on this 
        investment.

    Besides the Internet-based merchants and advertisers, there are 
also thousands of Internet Service Providers (ISPs) that exist solely 
to connect customers to the Internet. The Internet has become an 
extremely important engine of commerce. The loss of the Internet would 
certainly have major economic consequences if it happened today, and 
the consequences will be even greater on January 1, 2000, given the 
continued exponential growth of the Internet between now and then.
    But the Internet is also a social phenomenon. It began as a 
convenient mechanism to allow computers to communicate. Today, it is an 
essential mechanism to allow people to communicate. Continuing the 
quote from amazon.com's 10-K filing:

        Amazon.com strives to offer an online shopping experience that 
        involves discovery and fulfillment for its customers. The 
        Company believes that the sale of books and other products and 
        services over the Web can offer attractive benefits to 
        consumers, including, without limitation, enhanced selection, 
        convenience, ease-of-use, competitive pricing, depth of content 
        and information and personalization. Customers entering the 
        Amazon.com Web site can, in addition to ordering books and 
        other products, purchase gift certificates, conduct targeted 
        searches, browse highlighted selections, bestsellers and other 
        features, search for books by subject category, read and post 
        reviews, register for personalized services, participate in 
        promotions and check order status. The key components of 
        Amazon.com's offerings include browsing, searching, reviews and 
        content, online community, recommendations and personalization, 
        a gift center and an out-of-print book service.

    This description hints at what the Internet is becoming: an 
information mall; a centralized collection of information-related 
services upon which people are learning to depend. It combines the 
telephone, fax machine, television, and radio into a single two-way 
information appliance in which the whole is greater than the sum of its 
parts. This sounds like hyperbole, but the bottom line is that the 
Internet is becoming an essential component of people's lives. The 
Internet is a critical infrastructure, the surety of which must be 
maintained both domestically and internationally.
    The Internet is not centrally controlled or regulated. It is 
largely governed by loose cooperation among its major stakeholders, and 
by some informal policy-making and engineering committees. The self-
governing aspect of the Internet is one of its great strengths, but it 
makes it difficult to study its vulnerabilities in detail or to mandate 
remedial actions.
    The Internet is heavily dependent on the public telephone networks, 
especially the major trunk carriers. If they go down, the Internet as 
we know it goes down too. The Internet is also dependent on the other 
two pieces of the public telephone system: local phone companies and 
customer-owned equipment. Local phone companies provide dialup service 
to millions of individuals who access the Internet from home. They also 
frequently provide connectivity for the lowest-tier ISPs and for 
businesses that connect at higher bandwidths. (Even when they are not 
the connectivity provider in name, local phone companies frequently own 
the physical cable or fiber connection which has been leased by another 
provider and resold to the ISP or end customer.) Therefore, if local 
phone companies go out, they won't take down the whole Internet the way 
the major trunk carriers might, but they will create islands of 
Internet disconnection. In areas served by Y2K-affected local phone 
companies, virtually no one may be able to connect to the Internet.
    ISPs and Network Access Points (NAPs) must themselves have Y2K-
compliant equipment and like the small phone companies, the smaller 
ones may be less likely to upgrade. ISP facilities also need to have 
back-up diesel generators to cope with power failures. Today, ISPs do 
not routinely install back-up generators the way local telephone 
central offices do.
    Most of the Internet actually resides inside corporate Local Area 
Networks (LANs) that are dependent on privately owned equipment. If 
this equipment is not upgraded for Y2K it may fail and not only disable 
a business' connection to the ``main'' Internet, but take down the 
corporate LAN as well. Again, the result is serious. Hundreds of people 
lose access to the Internet, a business potentially grinds to a halt, 
and its trading partners lose a valuable customer or supplier.
    There are other pieces of the Internet that have no counterpart in 
the telephone system, and which are critical to the Internet's 
operation. The Domain Name Service (DNS) system comes to mind 
immediately. If DNS is taken out by Y2K, the Internet becomes unusable. 
In principle, it's a single point of failure. One master DNS machine 
controls the whole system, and DNS tampering has taken down the 
Internet in the past. In practice, DNS is probably more vulnerable to 
terrorists and hackers than to Y2K. The systems are largely Unix-based 
and so are unlikely to experience Y2K bugs, and new servers can be 
switched in quickly if one fails. As long as the DNS servers are 
adequately protected by backup electric power (not just battery-based 
UPS systems, but generators with many days' capacity), DNS is not 
likely to experience long-duration outages due to Y2K.
    Specialized routers, bridges, concentrators, etc. are also used for 
the Internet but not for the telephone system. All these pieces of 
equipment must be checked and upgraded where necessary, and again, the 
larger providers are more likely to have repaired their vulnerabilities 
than the small players are. Provided the phone system remains 
operational, the Internet will likely stay operational with localized 
outages. If there are localized outages of the phone system in addition 
to outages in the Internet infrastructure proper, the problem could be 
much worse. Getting the system back online might then take much longer 
because problems that are the fault of the Internet equipment could be 
blamed on the phone system, and only after the phone system is back 
online would it be possible to fix the Internet problems.
Other data networks
    Almost all other data networks such as the Virtual Private Networks 
used by private companies and governments rely on leased capacity from 
the public telephone network, and they die if the telephone network 
dies. Such networks may be even more critical to the nation's security 
and economic health than the Internet simply because they have been in 
use longer. Once again, upgrades to customer-owned equipment are very 
important for maintaining these networks.
                             3. satellites
    Satellites are vitally important to the world's telecommunications 
capabilities. Although there is a trend to move two-way 
telecommunications away from high-orbit satellites and onto terrestrial 
cable, fiber, and new low-orbit satellites (because of the time delay 
inherent in high-orbit satellites), they are all, nevertheless, still 
important. Even though many satellites like GPS, sensing, military and 
others are not involved with telecommunications per se, they all need 
to be evaluated for Y2K vulnerabilities.
    Three aspects of satellite systems are potentially vulnerable to 
Y2K: platforms, payloads, and ground stations. Potential Y2K 
vulnerabilities exist in all three places. A failure in the platform 
may result in decreased orbital control, for example. In extreme cases 
it could cause the satellite to drift so much it would have to use a 
substantial amount of fuel to return to station, thus dramatically 
decreasing its lifespan. A failure in the payload may result in loss of 
service. A failure in the ground station may result in either loss of 
control or loss of service.
    The satellite platforms frequently contain older embedded 
processors that may contain Y2K vulnerabilities. We have heard that the 
satellite manufacturers have certified the platforms as Y2K compliant, 
but as Senator Bennett has said, we should not accept the first 
``comfort letter'' from the manufacturers. More investigation should be 
done. The payloads vary tremendously and must be examined case-by-case. 
If hardware Y2K vulnerabilities are found in the satellite platforms or 
payloads, they will be virtually impossible to repair. We do know 
something about the ground control stations. Many ground control 
stations use 1970s vintage mainframe technology and almost certainly 
will have problems. There are a limited number of these stations; their 
use is shared among the satellite owners and prioritized according to 
the criticality of the satellite. If several satellites have station-
keeping problems simultaneously, the wait to use the control stations 
will be long. If the wait is too long, a satellite can drift away and 
become temporarily lost and may have to be located again by radar. 
Signal uplink/downlink ground stations, on the other hand, are very 
numerous, but they are operated by a multitude of organizations and 
almost certainly will have Y2K problems as well.
    The week register rollover problem with GPS satellites is by this 
time well known and should not be a problem for newer GPS receivers.
    Extremely new low-earth-orbit (LEO) communications satellites like 
Iridium and Teledesic are probably Y2K-compliant, but we haven't 
confirmed this yet. If they are compliant, they will be useful as 
backup communication mechanisms for critical users if land-based 
telecommunications fail.
                  4. international telecommunications
    If phone service is lost in other countries, we will be unable to 
communicate with them, and that fact alone will have serious financial 
repercussions. But the domino effect that is so prominent between 
businesses with Y2K applies here between nations: even if the U.S. 
telecommunications network is Y2K compliant, it could be jeopardized by 
interactions with noncompliant networks.
    The telephone companies in other countries buy switches from many 
of the same manufacturers as do U.S. companies (as well as from several 
others), and so theoretically they should be Y2K compliant as long as 
they upgrade. But realistically, the response of other countries to the 
Y2K situation varies dramatically, especially in the developing world. 
Some countries have been very proactive at attacking Y2K, but most have 
not. For those that have not, one way to measure a country's potential 
telecommunications problems with Y2K might be to track its economic 
prosperity over time.
    The building of national telecommunications infrastructure tends to 
be correlated with economic prosperity. Nations who became wealthy 
selling national resources, for example, are likely to have built 
state-of-the-art infrastructure at the time they became wealthy. During 
a period of low economic prosperity--after the resources ran dry, for 
example--a country would be unlikely to upgrade its infrastructures. So 
countries that were wealthy in the 70s and 80s but are not so today are 
likely to have Y2K problems, because they probably have not upgraded 
their equipment. Countries that are prosperous today are less likely to 
experience Y2K issues. Countries that never were very prosperous are 
unlikely to have Y2K-telecom problems, because they're probably still 
using mechanical switchgear. Economic prosperity trends (perhaps as 
collected by the CIA) might thus be a useful starting point in gauging 
the Y2K status of telecommunications in the developing world. Beyond 
that, coordination with the ITU seems the best approach.
    The Internet in other countries depends on telephone systems like 
it does in the United States, so keeping the phones working there is 
necessary for keeping the Internet working. The loss of the Internet in 
other countries would be acutely felt by U.S. organizations that depend 
on its ability to move data internationally. But we don't think it's 
likely that an outage in another country would create a ``bottleneck'' 
in the United States since the United States already handles a large 
percentage of the world's Internet traffic anyway. The ripple effect of 
noncompliant Internet networks in other countries interacting with ours 
and jeopardizing our functionality is certainly possible, but the 
likelihood is difficult to predict without further analysis.
     5. dependencies of telecommunications on other infrastructures
    All telecommunications mechanisms depend on electric power. Most 
have some power backup capacity, but if the electric grid in a city, 
state, or nation goes down and stays down, virtually all 
telecommunications there will go down soon after. The reliance of 
global telecommunications on electric power is probably a more 
immediate Y2K threat than that of direct Y2K-induced failure of 
telecommunications systems. This is not a big problem with ``normal'' 
outages, where electric power is restored quickly after an incident 
like a lightning strike and telephones continue to work as if nothing 
happened. But because Y2K will affect several infrastructures 
simultaneously, over a wide area, nonlinear effects may cause outages 
to be longer and more widespread than normal. Nonlinear effects simply 
mean that if it takes 1 day to recover a system after 1 incident, it 
may 4 days, not 2, to recover from 2 simultaneous incidents. The delays 
are not additive but multiplicative. The problem is greater than the 
sum of its parts, but we cannot be sure how much greater. 
Nonlinearities occur frequently in complex interconnected systems, of 
which the infrastructure is a prime example. Nonlinearities are one of 
the principal reasons why talk of Y2K contains such an atmosphere of 
speculation, with phrases like ``likely"or ``possible'' or ``effect X 
may happen.'' Exact prediction is not merely difficult; it is 
impossible.
    In the United States, most local switches are backed up by 
batteries which last for a few hours, and by diesel generators that 
last from a few days to a week or so. If electric power is off for a 
week or more, and if diesel fuel cannot be replenished because the 
transportation infrastructure is also affected by Y2K, the phones will 
go dead, as will the Internet and all the other networks that depend on 
the telephone system. Thus for telecommunications to survive Y2K, it's 
absolutely critical that the electric power grid survive Y2K, and if it 
does not, it is critical that fuel for generators be available where it 
is needed.
    Note that if the power grid goes offline, the electric company will 
need communications to bring itself back online. Typically, it will 
rely on its own private communications network (again, with power 
supplied by temporary generators), but some electric utilities it may 
be almost wholly dependent on the public telephone network. Thus, there 
is a subtle and vicious cycle at work here. If power stays off so long 
that the phone company runs out of diesel fuel, and the power company 
runs out of fuel for the generators that power its own communications 
network (or it is dependent on the telephone company), it may be 
impossible for either power or telephones to be reactivated. Power 
needs communication to restart, and communication needs power to work. 
Keeping fuel flowing for emergency generators should be a top national 
priority.
    Another way to break the cycle is to emplace photovoltaic renewable 
power systems at critical communications nodes. Because these systems 
convert sunlight to electricity, they can provide virtually permanent, 
free electricity with no external fuel requirement. From an engineering 
point of view, they are a good match for telephone equipment because 
the direct-current (DC) energy they supply is perfect for recharging 
the battery bank that is already in place at the equipment. From an 
economic point of view, PV power is usually too expensive where cheap, 
reliable grid power is available. But in developing nations where grid 
power is less stable than in the United States, and even in the United 
States at sites that are remote and difficult for repair crews to reach 
in an emergency, the promotion of PV power to telecommunications sites 
for Y2K reliability (and for reliability in general) makes sense.
                            6. other issues
    Common natural disasters such as earthquakes, ice storms, and the 
like could compound the Y2K crisis if they occur near January 1, 2000. 
The Leonid meteor storms which occur in November 1998 and 1999 will be 
the most intense meteor showers in 30 years, and there is a possibility 
that they will damage satellites.\4\ Man-made events like strikes, war, 
etc. would also cause our Y2K remediation efforts to be spread thin.
    Thinking that we will be so preoccupied with Y2K that we would not 
notice deliberate malicious intent, terrorists, hackers and other 
criminals might see Y2K as a prime opportunity to attack pieces of our 
infrastructure. Or they might use Y2K-induced infrastructure failures 
as cover for theft, arson, bombings, etc. We must be watchful of such 
groups in the months leading up to Y2K and we must be especially 
careful when monitoring the crisis as it occurs to discern deliberate 
intent. New, automated indications and warnings mechanisms could be 
useful for this purpose, and would continue to be useful after the Y2K 
crisis for monitoring deliberate sabotage.
                           7. recommendations
    Run system tests that exercise as many components of the system as 
possible. A little planned pain now, while we have the time and 
resources to fix problems, is better than a lot of pain on January 1, 
2000 when repair crews already have their hands full.
    Insist that all emergency response teams and public safety 
organizations evaluate their Y2K status and upgrade immediately. Drill 
emergency response teams with and without conventional telecom 
capability. Recent experiences suggest that well-trained and well-
drilled ER teams work much more efficiently than those that do not 
drill.\3\ At the same time, drill the ER teams whose job is to fix the 
public telecommunication systems themselves, and perform extensive 
scenario planning with them. (Utility companies that don't have ER 
teams must establish them.) Much like the Pentagon stays prepared to 
fight two wars simultaneously, we should be prepared to respond to 
widespread outages in at least two major infrastructures 
simultaneously.
    Encourage private businesses--especially small-to-medium 
enterprises--to upgrade their Y2K-sensitive equipment, including 
privately owned telecommunications and Internet equipment. This effort 
must of course include smaller phone companies and Internet Service 
Providers who are especially critical to overall telecommunications 
functionality.
    Encourage other countries to upgrade their telecommunications 
networks and indeed all their infrastructures to Y2K compliance. 
Provide assistance where possible.
    Ensure backup systems are in place and working, especially at the 
more critical sites. Batteries should be fresh, generators maintained 
(and themselves checked for Y2K compliance), and plenty of fuel should 
be on hand. Allowing the stockpiling of extra fuel for the Y2K 
emergency should be considered, even if it means suspending 
environmental regulations to the contrary.
    Keep oil wells, refineries, and fuel trucks running. They are 
critical not just to telecommunications, but to all the Y2K-impacted 
infrastructures.
    Encourage solar-powered backups for critical remote sites and 
foreign telecom systems where grid power is spotty anyway.
    Install indications and warnings (I&W) systems at critical sites to 
detect malicious sabotage and monitor Y2K cascade failures.
    Finally, there are legitimate national security concerns that make 
it necessary for the government to have access to detailed information 
about the nation's telecommunications infrastructure, for Y2K 
preparedness as well as other threats. We must encourage the 
telecommunications companies to supply data (under nondisclosure 
agreement of course, and without fear of having the information used 
against them in litigation), so that the government can continually 
evaluate the national security posture of its telecommunications 
networks.
                              conclusions
    Telecommunications is essential to our functioning as a nation, as 
are all the other major infrastructures. The good news is that major 
telecommunications outages resulting directly from Y2K are unlikely, at 
least in the United States. The bad news is that Y2K has a good chance 
of disrupting accounting and billing at telecommunications companies, 
and without a stable revenue stream, those companies cannot stay in 
business. Also, telecommunications is deeply dependent on other 
infrastructures, which are much more likely to experience Y2K-induced 
failures. Providing adequate slack and backup in all the critical 
infrastructures will lessen the duration of outages and minimize the 
ripple effect where one infrastructure takes down another.
    The most important thing to remember about the Y2K crisis is that 
people created it and people will solve it. It is fundamentally a 
social problem, not a technological one. Since it is too late to 
prevent all Y2K disruptions, the best way to prepare for them is to 
fully disclose to the public what to expect and to practice scenarios 
with the people who will be the first responders to the crisis.\3\ If 
those first responders are prepared, and their families and personal 
infrastructures are secure, they will be able to do their jobs and get 
our infrastructures back on line quickly, with a little help from all 
the rest of us.
                               references
    \1\ http://www.telecompolicy.com/whoweare/
    \2\ Testimony of Dr. Judith List, Bellcore, July 31, 1998 to the 
Senate Year 2000 Committee.
    \3\ Petersen, Wheatley, and Kellner-Rogers ``The Year 2000: Social 
Chaos or Social Transformation?'' Global Business Network, http://
members.gbn.org/index/epress/multipleAuthors/jul98/y2k.pdf
    \4\ http://cnn.com/TECH/space/9804/27/leonid.meteor/index.html

                                <all>
</pre></body></html>
